<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 117-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Astronomical Society
                nasa and the national science foundation
    On behalf of the over 7,000 members of the American Astronomical 
Society (AAS), thank you for the opportunity to submit outside witness 
testimony regarding our funding priorities for NASA and the National 
Science Foundation (NSF) in fiscal year 2020.
    Before I get to fiscal year 2020, I would like to express our 
sincere thanks for your subcommittee's incredibly strong support of the 
astronomical sciences in prevous years. Our community of students, 
scientists, engineers, and educators recognizes and appreciates your 
steadfast support for key programs at NASA and the NSF enabling 
worldclass research in astronomy, planetary science, and heliophysics. 
These wise investments opened a completely new way of seeing the 
universe, through gravitational waves. They made possible dramatic 
discoveries, ranging from the composition of the surface of Mars to the 
formation of distant planets circling other stars, to the siren call of 
two black holes spiraling together to become one.
    Regarding fiscal year 2020, we understand there are many competing 
priorities and budgetary pressures, so we are advocating elsewhere for 
both a new bipartisan agreement raising the non-defense discretionary 
budget caps and strong 302(b) allocations for your subcommittee. 
Assuming that another budget deal is reached, the AAS asks that your 
fiscal year 2020 subcommittee bill include at least $9.0 billion for 
NSF and at least $22.6 billion for NASA. I have included a more 
detailed summary table at the end of this testimony.
    As you may know, our community sets its ranked priorities for new 
investment via a consensus-based ``decadal survey'' process, 
commissioned by the agencies and carried out independently by the 
National Academy of Sciences. AAS advocates for a balanced Federal 
astronomical sciences portfolio that follows the guidance of the 
decadal surveys, associated midterm reports, and other scientific 
community inputs like senior, portfolio, and standing advisory 
committee reviews. These guiding inputs paired with strong support from 
Congress have allowed the U.S. to be the clear world leader in space 
science research since the U.S. astronomy community pioneered the 
decadal survey mechanism in the 1960s.
                   national science foundation (nsf)
    The AAS joins the other 100+ organizations of the Coalition for 
National Science Funding (CNSF) to urge you to prioritize the NSF for 
what we recognize is an ambitious increase by providing a $9.0 billion 
(+11 percent) investment in fiscal year 2020. The demand is real and 
far exceeds this requested $1 billion increase. The NSF must deny the 
equivalent of billions of dollars of support to excellent-rated, 
research and education grant proposals every year. The most recent NSF-
wide solicitation of interest in mid-sized instrumentation identified 
$3 billion in high impact projects in the $20-70 million range. Our 
national research and development enterprise depends on a strong NSF 
that is empowered to support bold, transformative science and prepare a 
highly-skilled and diverse technical workforce. The U.S. should rise to 
meet the challenge of an era of both immense scientific and technical 
potential and unprecedented global competition.
    In the space sciences, NSF plays a key complementary role to NASA. 
NSF's Division of Astronomical Sciences (AST), in the Mathematical and 
Physical Sciences Directorate (MPS), is the Federal steward of ground-
based astronomy in the U.S., and the Division of Atmospheric and 
Geospace Science (AGS) in the Geosciences Directorate (GEO), supports 
complementary studies of our Sun and its interaction with Earth. GEO 
pioneered the innovative Cubesat program that supports training of 
students and support for researchers at many smaller institutions 
across the Nation. Ever-increasing grant pressure and growing costs of 
building and operating the cutting-edge facilities befitting a global 
leader persist in both divisions. We risk missing potential paradigm-
shifting scientific investigations from the widest possible research 
community and settling for diminished returns on U.S. taxpayer 
investment in both existing and future facilities.
    The Astronomy and Geospace Portfolio Reviews acknowledged the 
important science made possible by existing facilities such as the 
Arecibo Observatory in Puerto Rico and the Green Bank Observatory in 
West Virginia, but the reviews still recommended divestment of these 
facilities because it was overly constrained by pessimistic budget 
forecasts. With exception of a welcome infusion of one-time funds in 
fiscal year 2018 (including Hurricane Maria emergency supplemental 
funds), the overall budget situation for NSF astronomy was, and 
remains, so dire as to risk future U.S. scientific leadership in 
ground-based astronomy. In tandem, the significant reductions in 
publicly-funded telescope time and data analysis deepens the divide 
within the astronomical community between the ``haves'' at elite 
institutions and the ``have-nots,'' reducing broad, diverse access to 
the study of the universe.
    The Daniel K. Inouye Solar Telescope and Large Synoptic Survey 
Telescope, soon to be completed, require operational support that, as 
currently planned, will be carved out of the competed research grant 
programs. Right now, the National Academies' Astronomy and Astrophysics 
Decadal Survey (Astro2020) is considering what the next generation of 
world-leading observatories should look like. These proposed world-
leading observatories cannot be built, let alone operated, with the 
current NSF budget and approach to building and operating large 
facilities. The dramatic--not incremental--leap in capability and 
scientific understanding represented by these new machines, together 
with a generation of scientists and engineers and their technological 
achievements, stand to be lost without an ambitious recommitment to 
NSF.
    NSF is strongest when its research programs and education 
programs--housed within both the Research and Related Activities (R&RA) 
and Education and Human Resources (EHR) accounts--are strong and able 
to engage a STEM workforce across diverse sectors and career stages. 
NSF education programs provide opportunities for both students and 
educators in a dedicated way that no other science agency does.
          national aeronautics and space administration (nasa)
    At NASA, as in previous years, the AAS requests support for a 
balanced , world-leading scientific program guided by the decadal 
surveys, consistent with past congressional appropriations and 
authorizations. While we do not specify a number for NASA's STEM 
Engagement office, we are totally opposed to the administration's 
proposal to eliminate these important programs.
    The divisions of NASA's Science Mission Directorate (SMD) engage in 
discovery research across size and distance scales, from using local 
laboratory measurements here on Earth to interpret information carried 
by photons and particles, to collecting those photons and particles 
with space-based telescopes and detectors on robotic vehicles. 
Scientific exploration of space can lay the intellectual and technical 
groundwork for the human exploration of space; the expansion of human 
knowledge of phenomena in space and the search for life's origin, 
evolution, distribution, and future in the universe are statutory 
objectives for NASA.
    Astrophysics Division: We ask that you reject the administration's 
proposed 30 percent budget reduction that would devastate our Nation's 
efforts to understand how the universe works, how we got here, and 
whether we are alone. We request that your subcommittee continue to 
support a strong astrophysics portfolio that grows by a steady 5 
percent per year. An additional appropriation of $134 million would 
also enable continued development of the next decade's Wide Field 
Infrared Survey Telescope, WFIRST ($446 million; +43 percent), which is 
building on the scientific legacy of the Hubble Space Telescope and 
learning from the hard development and budgeting challenges of the 
James Webb Space Telescope. New small and medium explorers will advance 
through their early development stages in fiscal year 2020, and the 
2019 Astrophysics Senior Review and two SOFIA reviews will ensure 
efficient use and maximum scientific return from the fleet of existing 
astrophysics assets in fiscal year 2020 and a strong appropriation. The 
total Astrophysics Division request--including the planned increase for 
WFIRST development on top of a 5 percent increase for the rest of the 
program to ensure balance--is $1.37 billion (+15 percent).
    Heliophysics Division: Consistent with past support from your 
subcommittees, we ask that you provide continued robust funding in 
support of the top-priority Heliophysics DRIVE initiative, to provide 
critical support for early career scientists and for the development of 
new technologies in anticipation of an increased cadence for Explorer 
missions. Also, consistent with the provisions of the Senate's space 
weather program, invest in space weather observations and forecasting 
that advance research-to-operations and operations-to-research efforts.
    Planetary Science Division: Thanks to Congress' strong commitment 
to exploring the worlds of our Solar System, fiscal year 2020 is poised 
to include the launch of the first stage of Mars Sample Return, the 
Mars2020 Rover, and also reveal the rich scientific return of recent 
planetary encounters--like New Horizons' flyby of MU69, OSIRIS-REx's 
study of the asteroid Bennu, and InSight's examination of the Martian 
interior. Now is not the time to undermine that progress, but rather 
embolden it with steady growth in concert with the other scientific 
divisions.
    We request that funding for Planetary Science programs and missions 
beyond the recommendations of the decadal survey continues--as Congress 
did in fiscal year 2019--to be added above and beyond full support of 
the rest of the work of the division (i.e., above and beyond our 
request here) only if and when they are prioritized as part of a 
balanced program in a future decadal survey. This list includes the 
Lunar Exploration, Planetary Defense, and Europa Lander (recommended by 
the Planetary midterm assessment to be reprioritized in the next 
decadal).
    JWST: The AAS community appreciates and welcomes rigorous 
Congressional oversight over the JWST project. We share Congress' 
``profound disappointment,'' as expressed in the fiscal year 2019 final 
appropriations committee report, and we too lament the opportunity cost 
to other NASA activities. We nevertheless hold not only that the 
science of JWST will be worth the wait and cost when it starts 
operating after its March 2021 launch, but also that NASA has our 
confidence for mission success, given the findings and responses to the 
recent Independent Review Board (IRB).
    Space Technology Mission Directorate (STMD): Finally, we are 
concerned about the policy and accounting implications of the 
administration's Moon-Mars initiative for the critical role that the 
STMD plays in projects across all the science divisions. Of immediate 
concern is the apparent disappearance of STMD's significant promised 
contribution to the coronograph development for the WFIRST mission.

                                                  SUMMARY TABLE
----------------------------------------------------------------------------------------------------------------
                                                     2019      2020 Pres     2020 AAS    Ask--2019    Ask--2019
              Agency/Program ($B)                  Enacted        Bud          Ask          ($)          (%)
----------------------------------------------------------------------------------------------------------------
NSF............................................         8.08         7.07         9.00        +0.92          +11
    EPSCoR.....................................         0.18         0.15         0.20        +0.02          +11
NASA...........................................        21.50        21.02        22.58        +1.08           +5
    Science....................................         6.91         6.30         7.50        +0.59           +8
        Astrophysics...........................         1.19         0.84         1.37        +0.18          +15
        JWST...................................         0.30         0.35         0.35        +0.05          +17
        Planetary..............................         2.76         2.62         2.90        +0.14           +5
        Heliophyiscs...........................         0.72         0.70         0.76        +0.04           +5
    Space Technology...........................         0.93         1.01         0.97        +0.04           +6
----------------------------------------------------------------------------------------------------------------


    [This statement was submitted by Dr. Megan Donahue, President.]
                                 ______
                                 
           Prepared Statement of the American Bar Association
                       legal services corporation
    Request: Chairman Moran, Ranking Member Shaheen, and Subcommittee 
Members, I am Bob Carlson, President of the American Bar Association 
(ABA) and a shareholder with the Butte, Montana, law firm of Corette 
Black Carlson & Mickelson, P.C. I submit this statement today on behalf 
of approximately 400,000 members of the ABA. The ABA has long been 
committed to ``Equal Justice Under Law'' in our country, establishing 
our Standing Committee on Legal Aid and Indigent Defendants in 1920. 
U.S. Supreme Court Justice Lewis F. Powell, while serving as ABA 
President in 1964, understood the need for equal justice and became a 
key, early supporter of Federal legal aid before President Nixon signed 
the Legal Services Corporation (LSC) Act into law in 1974. The LSC has 
requested $593 million for fiscal year 2020 funding and the ABA fully 
supports that request. LSC intends to allocate this increased funding 
amount entirely to basic field grants so that LSC's grantees can assist 
with 55 percent more civil legal problems than they currently serve.
    2017 Justice Gap Study: The basis for the $593 million request is 
the 2017 Justice Gap Report. If approved, this requested budget would 
put the LSC on a better trajectory to achieve the pledge of justice for 
all.
    In June 2017, the University of Chicago's NORC provided analysis 
regarding the unmet civil legal needs of indigent Americans. The survey 
of more than 2,000 adults living in low-income households (at or below 
125 percent of the Federal Poverty Level) updated two previous reports. 
The report states, ``Eighty-six percent of the civil legal problems 
faced by low-income Americans in a given year receive inadequate or no 
legal help.'' Specifically, LSC Board Chair John G. Levi pointed out: 
``Low-income seniors, for example, received inadequate or no 
professional help for 87 percent of their civil legal problems. For 
low-income rural residents, the number was 86 percent, while for low-
income veterans or other military personnel, the number was 88 
percent.''
    Disaster Funding Request: The ABA also supports LSC's supplemental 
disaster appropriations requests. The $15 million provided in H.R. 268 
is much appreciated. LSC has now requested additional funding of 
$500,000 above the $15 million appropriation due to subsequent 
disasters. We hope the committee will keep a close eye on 2019 
disasters and will provide needed supplemental funds for LSC disaster 
legal services again this year.
    Additionally, we appreciate the subcommittee's removal of funding 
restrictions for the disaster money. This removal will enable more 
direct, immediate aid to those suffering from disasters.
    LSC Disaster Task Force: On March 13, 2018, at a Capitol Hill 
briefing, LSC Board Chair John Levi announced a Disaster Task Force 
comprising LSC grantees, business leaders, emergency management experts 
and other stakeholders to take a more comprehensive approach to its 
disaster work to increase its impact nationwide. The task force aims to 
provide a report with recommendations, a grantee's guide for continuity 
of operations planning (COOP), and a toolkit for grantees that builds 
on the disaster preparedness and response work of LSC's Midwest Legal 
Disaster Coordination Project. The toolkit will include: (1) templates 
for education materials about civil legal aid assisting disaster 
survivors; (2) training materials specifically for volunteer attorneys 
that cover the most common legal issues faced by disaster survivors; 
(3) instructions for creating a disaster relief and response hotline 
and online application; (4) access to preparedness go-kit checklists 
for the user to fill out ahead of a disaster; and (5) a guide for 
developing mobile-optimized disaster websites.
    Stafford Act & FEMA's National Response Framework: The Federal 
Government is integrally involved in Presidentially-declared disasters 
and has a crucial role in Federal justice for all--which should not be 
passed on to the States, Tribes, and localities as an unfunded mandate.
    When the President declares a national disaster, the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act, 42 U.S.C. 
Sec. 5143(b), Public Law 93-288, as amended (Stafford Act), creates the 
mandate to ``assist local citizens and public officials in promptly 
obtaining assistance to which they are entitled.'' Furthermore, the 
Stafford Act, 42 U.S.C. Sec. 5143(b) states:

        Whenever the President determines that low-income individuals 
        are unable to secure legal services adequate to meet their 
        needs as a consequence of a major disaster, consistent with the 
        goals of the programs authorized by this Act, the President 
        shall ensure that such programs are conducted with the advice 
        and assistance of appropriate Federal agencies and State and 
        local bar associations.

    The Federal Emergency Management Agency (FEMA) organizes disaster 
response and recovery efforts through the National Response Framework 
(NRF). The NRF is a guide that describes specific authorities and best 
practices for managing incidents and outlines several coordinating 
structures-the most pertinent to legal aid providers are the Emergency 
Support Functions (ESFs). The Federal ESFs are the primary Federal 
coordinating structures for building, sustaining, and delivering the 
response core capabilities. There are 15 ESFs in total.
    Pages 2, 8, 11, and 18 of ESF #6: Mass Care, Emergency Assistance, 
Temporary Housing, and Human Services (https://www.fema.gov/media-
library-data/1470149820826-7bcf80b5dbabe158953058a6b5108e98/
ESF_6_MassCare_
20160705_508.pdf) direct the provision of civil legal services.
    ABA & LSC in the National Response Framework: ESF #6 indicates on 
page 18 that this Federal mandate to provide disaster legal services is 
carried out through the ABA's Young Lawyers Division (YLD):

        American Bar Association (ABA) Through the ABA's Young Lawyers 
        Program, provides free disaster legal services for low-income 
        individuals who, before or because of the disaster, are unable 
        to secure legal services adequate to meet their disaster-
        related needs.

    To this end, FEMA and the ABA originally executed a memorandum of 
agreement (MOA) in December 1972 and renewed it in 2007. The YLD's 
Disaster Legal Services (DLS) Program fulfills this MOA during 
disasters. The DLS Program coordinates the pro-bono legal efforts of 
multiple State and local bar associations when activated by FEMA 
following a natural disaster. LSC grantees working in the impacted 
disaster area typically manage these efforts.
    LSC maintains regular communication with the American Red Cross and 
FEMA to coordinate a response, convening regular national Legal Aid 
Disaster Network calls, and sponsoring the National Disaster Legal Aid 
website, www.disasterlegalaid.org. LSC grantees thus provide critical 
resources to manage disaster response efforts effectively and 
efficiently in accordance with the terms of the FEMA/ABA YLD agreement 
and the Stafford Act's Federal mandate. Funding for this Federal 
mandate cannot be passed onto States, Tribes, and localities.
    Disaster Legal Work: Disasters have a severe and disproportionate 
impact on the poor, resulting in a sharp increase in the need for legal 
help. The ABA statistic on disaster declarations in each state can be 
found on the infographics on the ABA website at https://
www.americanbar.org/content/dam/aba/uncategorized/GAO/
LSC%20Infographic_Senate-1.pdf. LSC describes the disaster work of 
their grantees in these districts as follows:

        In the immediate wake of a disaster or crisis, disaster-related 
        legal issues follow a common pattern. Survivors often need help 
        obtaining copies of important documents such as birth 
        certificates, driver's licenses, and Social Security cards to 
        apply for or restore benefits and supports. The need for 
        adequate housing is generally a major issue for survivors of 
        most disasters. In addition, low-income and other vulnerable 
        people who need housing after an emergency are more susceptible 
        to scams and price gouging. With families experiencing even 
        more stressors than before, there is also an increase in the 
        need for more legal information on core areas of practice for 
        legal aid, such as public benefits, domestic violence 
        prevention, consumer law, and fraud prevention.

    Opioids: In addition to LSC's new Disaster Task Force, on April 10, 
2018, at LSC's quarterly board of directors meeting, LSC Chair John 
Levi announced a new LSC Opioid Task Force, co-chaired by LSC Board 
Members Victor Maddox and former ABA President Robert Grey, and 
comprising LSC leaders, grantees, healthcare and social services 
experts, and stakeholders.
    The task force addresses and educates the public about the legal 
issues raised by the opioid crisis in areas such as healthcare, family 
law, domestic violence, child and elder abuse, and housing.
    In Harrison County, West Virginia, for example, an advocate reports 
that she primarily sees grandparents raising grandchildren, who are 
often informally placed in their care due to neglect by the addicted 
parents. ``Grandparents aren't really aware of the kinds of benefits 
that can come from establishing formal legal custody in court,'' 
Courtney Crowder told the Exponent Telegram. ``Medical treatment and 
school enrollment are two barriers that come with not having legal 
custody of a child. As well, grandparents can receive benefits through 
the Department of Health and Human Resources. That can be really 
helpful for grandparents, especially those who are living on a fixed 
income and probably didn't plan on raising three extra kids,'' Crowder 
said.
    The ABA developed a statistic on opioid deaths in each state that 
can be found on the infographics on the ABA website at https://
www.americanbar.org/content/dam/aba/uncategorized/GAO/
LSC%20Infographic_Senate-1.pdf. With the opioid crisis placing heavy 
new burdens on legal aid, a funding increase is critical.
    Additional Considerations: Beyond Federal responsibilities 
regarding the costs that natural disasters and the opioid crisis impose 
upon LSC grantees, four other points should be considered for LSC 
funding: (1) The cuts in LSC funding vis-a-vis historic levels; (2) The 
demonstrated cost-benefit value of legal aid; (3) The role of legal aid 
referrals from Federal constituent services representatives; and (4) 
The popularity of legal aid in America.

    1.  Funding for LSC is Down 43 Percent Since the 1980s: I want to 
thank this subcommittee for the partial restoration of funding for LSC 
in fiscal year 2019. That money will permit LSC to serve more needy 
clients. Nevertheless, the fiscal year 2019 LSC appropriation of $415 
million is still 18 percent lower than it was in fiscal year 2010. The 
fiscal year 2010 appropriation would be $489.5 million in 2019 dollars. 
The fiscal year 2019 funding is down 43 percent from LSC's average 
appropriation of $728,107,080 in 2019 dollars during the 1980s. At the 
same time, the number of people qualifying for assistance is over 10 
percent higher than it was in 2007. LSC funding needs restoration in 
these good economic times when unemployment is low, and the stock 
market is high. The ABA fully supports LSC's request to restore its 
funding to $593 million in fiscal year 2020, although that still will 
not meet the total need.

    2.  Cost-Benefit: The American Bar Association collects dozens of 
statewide studies of the cost-benefit impact of legal aid. All studies 
show a big positive impact: https://www.americanbar.org/groups/
legal_aid_indigent_defendants/
resource_center_for_access_to_justice/atj-commissions/
atj_commission_self-assessment_materials1/studies/.

          For example, Community Services Analysis LLC published a 2018 
report regarding the return on investment of civil legal aid services 
in the State of Louisiana. The report reveals that, ``For every $1 
invested in Louisiana Legal Aid during the year 2018, the citizens of 
Louisiana receive $9.13 of immediate and long-term financial 
benefits.''

    3.  Constituent Service: Civil legal aid is a constituent service 
performed in every State and congressional district in the country, 
complementary to and often by referral from your own constituent 
services staff. Key beneficiaries of legal aid services include: (1) 
Veterans; (2) Older Americans; (3) Rural Americans; (4) Domestic 
violence survivors; (5) Women, constituting 71.5 percent of clients; 
(6) Opioid victims, and (7) Natural-disaster victims.

    4.  Polling: 82 percent of those surveyed believe it is important 
to ensure everyone has access to civil legal help or representation, 
according to polling by Voices for Civil Justice: https://
voicesforciviljustice.org/wp-content/uploads/Lake-Tarrance-Expanding-
civil-legal-aid-2013.pptx3.pdf.

    Conclusion: As the economy recovers, LSC funding should also 
recover. Down 43 percent from the 1980s average appropriation, down 18 
percent from fiscal year 2010 (in 2019 dollars), and with over 10 
percent more people qualifying for legal aid, the ABA fully supports 
the LSC funding request for restoration to $593 million. Given LSC's 
excellent benefit/cost ratio and that 82 percent of LSC's funding 
supports access to civil legal help, we encourage you to heed 
constituents' views and support access to equal justice under law.

    [This statement was submitted by Bob Carlson, President.]
                                 ______
                                 
  Prepared Statement of the American Educational Research Association
    Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee; thank you for the opportunity to submit written testimony 
on behalf of the American Educational Research Association (AERA). I 
want to begin by recognizing your longstanding support for the National 
Science Foundation and thank you and your staff for your strong 
commitment to maintaining agency flexibility to fund cutting edge 
science. AERA recommends that the National Science Foundation (NSF) 
receive $9 billion in fiscal year 2020. This recommendation is 
consistent with that of the Coalition for National Science Funding 
(CNSF), in which AERA is a long-term active member. Furthermore, this 
request aligns with the dear colleague letter led by Senator Markey. 
AERA also recommends funding the Census Bureau at $8.45 billion, 
including at least $7.581 billion in direct funding for 2020 Decennial 
Census operations, consistent with the recommendation of The Census 
Project.
    AERA is the major national scientific association of 25,000 
faculty, researchers, graduate students, and other distinguished 
professionals dedicated to advancing knowledge about education, 
encouraging scholarly inquiry related to education, and promoting the 
use of research to serve public good. Many of our members are engaged 
in science, technology, engineering, and mathematics (STEM) education 
research. Our members work in a range of settings from universities and 
other academic institutions to research institutes, Federal and State 
agencies, school systems, testing companies, and nonprofit 
organizations engaged in conducting research in all areas of education 
and learning from early childhood through the workforce. Given the 
expertise of the AERA membership, my testimony will focus on the 
importance of the Education and Human Resources (EHR) and the Social, 
Behavioral and Economic (SBE) Sciences Directorates. Many of our 
members depend on an accurate Census count and data available from the 
American Community Survey to do their work.
    The EHR and SBE Directorates are central to the mission of the 
National Science Foundation (NSF) to advance fundamental knowledge and 
scientific breakthroughs and to ensure significant continuing advances 
across science, engineering, and education. Research and science 
supported by these directorates are intertwined with science and 
research of the other Directorates (for example, Computer and 
Information Science and Engineering). Furthermore, the EHR and SBE 
directorates are vital not just to producing essential knowledge and 
innovative methodologies but also to preparing our students and 
citizens to use new technologies and harness knowledge to enhance 
productivity, safety, security, and social economic well-being.
    As indicated in the agency's budget request for fiscal year 2020, 
95 percent of appropriated funds directly supported research and 
science, technology, engineering, and mathematics (STEM) education 
through grants and contracts in fiscal year 2018, with 77 percent of 
funding supporting research at colleges and universities. In addition, 
nearly 200,000 K-12 students benefitted from programs that directly 
engage them in STEM experiences within and outside the classroom.
               education and human resources directorate
    The EHR Directorate at NSF is responsible for providing the 
research foundation necessary to achieve excellence in U.S. STEM 
education. EHR accomplishes this goal by supporting the development of 
a scientifically-literate citizenry as well as a STEM-skilled 
workforce. As stated in the NSF Strategic Plan 2018-2022: ``NSF's 
investments in basic research on how peoples learn, in the traditional 
period stretching from pre-kindergarten to college as well as 
continually throughout life, will be crucial to the advances in U.S. 
education needed to ensure that the Nation thrives in a rapidly 
evolving 21st century world.''
    The EHR Directorate supports STEM education and education research 
from early childhood learning to doctoral work and beyond and promotes 
evidence-based innovations in teaching practices, instructional tools, 
and programs that advance STEM education and prepare the next 
generation of STEM professionals. EHR funded researchers are asking key 
questions, for example, about how to spark students' interest in math 
and science and keep them engaged, or about why so many students lose 
interest and confidence and about what can be done to keep them 
engaged. Understanding these and many other questions will help the 
United States build a well-educated and technology-literate workforce 
necessary for a prosperous economic future.
          social, behavioral and economic sciences directorate
    In addition to the significant investments in education sciences 
provided by EHR, AERA values the important role the SBE Directorate in 
funding important education research and in social, family, and peer 
contexts connected to learning. The SBE Directorate also houses the 
National Center for Science and Engineering Statistics (NCSES).
    The SBE Directorate supports research to better understand people 
and reveals basic aspects of human behavior in the context of education 
and learning. SBE funded research adds fundamental knowledge essential 
to promoting the Nation's economy, security, and global leadership. 
Understanding social organizations and how social, economic, and 
cultural forces influence the lives of students is key to improving 
teaching and learning and advancing STEM education.
    The budget for SBE is not even 4 percent of the NSF budget, yet it 
provided approximately 62 percent of the Federal funding for basic 
research in the social, behavioral, and economic sciences at academic 
institutions in fiscal year 2018.
     national center for science and engineering statistics (ncses)
    In addition, AERA has a strong interest in the National Center for 
Science and Engineering Statistics (NCSES) within SBE. As one of the 
Federal principal statistical agencies, NCSES provides invaluable 
statistical information about the science and engineering 
infrastructure and workforce in the U.S. and around the world. NCSES 
collects and analyzes data on the progress of STEM education and the 
research and development, providing valuable information on the 
trajectories of STEM graduates both in STEM and non-STEM careers. 
Adequate funding in fiscal year 2020 for NCSES would support critical 
activities to develop new data techniques building on administrative 
data and enhance data tools, techniques, and visualizations to 
facilitate access to statistical resources.
    As you know, the public strongly supports a Federal investment in 
science. According to a report issued by the American Academy of Arts & 
Sciences, 71 percent of U.S. adults said that government investments in 
basic scientific research pay off in the long run. When asked about 
priorities for scientific research, 56 percent of respondents consider 
improving education and how our children learn to be an urgent 
priority. (American Academy of Arts and Science, Perceptions of Science 
in America 2018.)
    On behalf of AERA, I thank both the Chairman and the Ranking Member 
for your ongoing recognition of the importance of providing NSF with 
the flexibility to determine directorate funding levels within the 
Research and Related Activities Account. AERA shares the opinion of 
Director Cordova, that this flexibility enables NSF to best ``build a 
portfolio of the most exciting research across all fields.''
    In addition to my attention in this testimony to the National 
Science Foundation, I also wish to emphasize the importance of adequate 
support for the Census Bureau, especially critical with the ramp up to 
the administration of the 2020 Decennial Census. AERA recommends 
funding the Census Bureau at $8.45 billion, including at least $7.581 
billion in direct funding for 2020 Decennial Census operations. Even 
with the much-needed resources provided in the final fiscal year 2019 
appropriations bill to plan for the 2020 Census, funding for the Bureau 
remains below the levels required to appropriately prepare for the 
decennial census. Adequate support for the Census Bureau will enable 
the necessary technology, methodologies, and staff for the rollout of 
the decennial census to ensure an accurate count of the U.S. 
population. The recommended funding support will also allow the Census 
Bureau to continue to conduct the American Community Survey and the 
Current Population Survey.
    Thank you for the opportunity to submit written testimony in 
support of $9 billion for the National Science Foundation and sharing 
our particular interest in the Education and Human Resources 
Directorate and the Directorate for Social, Behavioral, and Economic 
Sciences in fiscal year 2020. AERA would welcome the opportunity to 
work with you and your subcommittee to best further the crucial 
advances of the National Science Foundation. Please do not hesitate to 
contact me if AERA can provide additional information regarding this 
budget proposal or the significant science made possible through NSF 
support.

    [This statement was submitted by Felice J. Levine, Executive 
Director.]
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society whose mission is to promote discovery in the Earth 
and space sciences for the benefit of humanity., appreciates the 
opportunity to submit testimony regarding the fiscal year 2020 budget 
request for the National Aeronautics and Space Administration (NASA), 
the National Oceanic and Atmospheric Administration (NOAA), and the 
National Science Foundation (NSF). The AGU, on behalf of its 60,000 
Earth and space scientist members, respectfully requests that the 116th 
Congress appropriate:
  --$22.575 billion overall for NASA, including:
    --$7.5 billion for the Science Mission Directorate,
    --$2.097 billion for Earth Science,
    --$2.995 billion for Planetary Science,
    --$782 million for Heliophysics;
  --at least $6.2 billion overall for NOAA; and
  --$9 billion for NSF.
              national aeronautics & space administration
    AGU requests that Congress appropriate $22.575 billion for NASA in 
fiscal year 2020--a 5 percent increase above the amount provided in 
fiscal year 2019. This increase will ensure that NASA is able to 
continue its work and preserve U.S. leadership in Earth and space 
science and exploration. Additionally, AGU requests that Congress 
appropriate $7.5 billion for NASA's Science Mission Directorate, an 8.6 
percent increase over fiscal year 2019. A request of $7.5 billion will 
allow NASA's Science Mission Directorate to advance the 
Administration's plans and the agency's current program of record and 
make critical progress towards achieving the scientific goals outlined 
in the National Research Council Decadal Surveys.
    Our requests for NASA's Earth Science, Planetary Science, and 
Heliophysics missions mirror the requested 8.6 percent increase for the 
Science Mission Directorate.
Earth Science and Planetary Science Divisions
    AGU requests that Congress appropriate $2.1 billion for Earth 
Science in fiscal year 2020. More than a third of the U.S. economy is 
affected by climate, weather, and natural hazards. Missions within 
NASA's Earth Science Division give us greater insight into how our 
Earth is changing on daily and long-term scales in terms of weather, 
climate, air quality, water availability, soil nutrients, and other 
resources. NASA Earth Science produces critical information and data 
that public and private sector decision-makers, such as farmers, the 
military, retailers, and emergency managers, can use to mitigate the 
risks and understand the opportunities of the Earth's changes.
    A particularly crucial source of Earth science data is our current 
fleet of Earth observation satellites. Robust funding for Earth Science 
will allow for the continuation of the Plankton, Aerosol, Cloud, and 
Ecosystem (PACE) and the Climate Absolute Radiance and Refractivity 
Observatory Pathfinder (CLARREO Pathfinder) missions, and for the 
implementation of the 2017 Earth Science Decadal Survey recommendation 
to competitively select future missions that address Designated and 
Earth System Explorer target observables. Competitively selected 
missions will help to constrain costs and resources, while 
simultaneously helping to leverage the talents of a broad array of 
scientists and universities. The Earth System Explorer missions will 
provide needed insight into sea level rise, changes to ozone 
concentrations, and the sources and sinks of CO2 and methane, among 
other research areas.
    AGU requests that Congress appropriate $2.995 billion for Planetary 
Science in fiscal year 2020. NASA's Planetary Science Division is 
helping to expand our understanding of the universe, approximately 90 
percent of which is still not well understood--even our own solar 
system. The awe-inspiring missions and discoveries of the Planetary 
Science Division inspire future generations of scientists and STEM 
professionals to choose science as a career. With appropriate funding, 
NASA can stay on schedule to launch the next Mars rover and a Europa 
mission in the 2020s, furthering our understanding of the conditions 
needed to sustain life. Additionally, robust funding for Planetary 
Science will allow NASA to pursue the Administration's Moon to Mars 
program without sacrificing other decadal priorities, including a 
balanced portfolio of missions and exploration targets in our solar 
system.
    Earth and planetary sciences are complementary and integrally 
related to one another. From picking the perfect day to launch a 
satellite to ensuring that our understanding of other planets is 
accurate, our knowledge of Earth informs our understanding of other 
worlds in the solar system. In turn, our exploration of other worlds 
advances our knowledge of Earth's evolution and processes.
Heliophysics Science Division
    AGU requests that Congress appropriate $782 million for 
Heliophysics in fiscal year 2020. Increased funding for NASA's 
Heliophysics Division will further our understanding of the Sun, 
helping to mitigate the hazards that solar activity poses to the ground 
and space-based platforms that strengthen our national security, as 
well as our economic and scientific competitiveness. Increased funding 
will support the new early career investigator program (ECIP), which is 
critical to creating the next generation of heliophysics scientists. 
This program is part of the Diversify, Realize, Integrate, Venture, 
Educate (DRIVE) initiative, the top priority of the Decadal Survey. 
Increased investment in DRIVE will enable novel technologies for next 
generation missions, help to create DRIVE Science Centers, and provide 
researchers with the necessary tools and platforms to conduct cutting-
edge multidisciplinary research.
    Robust funding for NASA's Heliophysics division will also advance 
implementation of the agency's 2-year cadence of small and mid-size 
missions, which often accomplish scientific goals for a fraction of the 
cost of a flagship mission and allow heliophysics researchers to 
participate and respond rapidly. These missions accelerate scientific 
understanding while simultaneously developing the scientific workforce 
through increased research opportunities for students and faculty.
    NASA's Heliophysics Division advances our understanding of the 
threat of space weather, as directed by the 2016 National Space Weather 
Action Plan. The Division carries out activities related to basic 
research into solar radiation and forecasting and studies ways to 
mitigate the effects of big space weather events, which have can damage 
our space- and ground-based national security assets, aviation systems, 
power grid, and electric rail systems. Additional funding for space 
weather research will support innovation in observational capabilities 
and continue development of the Space Weather Science Applications 
Project that advances research-to-operations, operations-to-research, 
and computational aspects of space weather mitigation.
             national oceanic & atmospheric administration
    AGU requests that Congress appropriate at least $6.2 billion for 
NOAA in fiscal year 20, a 14.3 percent increase over the fiscal year 
2019 appropriated level for NOAA. Investing in NOAA not only keeps 
communities around the Nation resilient in the face of natural hazards, 
but also provides superior economic and national security services by 
enabling businesses and governments to better manage risk.
    The forecasts, infrastructure, and research provided by NOAA save 
lives in time-sensitive emergencies. Flooding occurs in every county in 
the U.S., and NOAA predicts that an estimated 200 million people are at 
risk for flooding in their communities this spring, in addition to the 
record flooding that has already occurred in Nebraska, Minnesota and 
Iowa. Strong support for NOAA will allow the agency to continue 
creating detailed flooding forecasts and developing monitoring systems 
for the millions of Americans who do not currently have them; maintain 
the NEXRAD radar system used for 85 percent of all tornado and severe 
storm warnings; and continue the satellite rescue program that has 
saved over 43,000 lives by locating aviators, mariners, and land-based 
users in distress. In addition, continued and predictable support for 
both geostationary and polar orbiting satellites such as the GOES 
series and JPSS will ensure that we are equipped to collect data that 
is high quality and reliable. Finally, the continuation of 
uninterrupted data through programs such as the Polar Follow On, which 
serves as the next phase for the JPSS satellites, plays a critical role 
in keeping American families safe by ensuring that forecasters and 
decision makers have the best available data to assess risk.
    NOAA is also essential to our Nation's economic stability. From 
coast to coast, one third of U.S. GDP is affected by weather and the 
environment. In 2018 alone, the U.S. saw 12 major weather and climate 
disaster events that resulted in $91 billion in damages. For example, 
losses from weather-related aviation delays alone are estimated at more 
than $1 billion per year, and NOAA drought forecasts are worth up to $8 
billion per year to the farming, transportation, tourism, and energy 
sectors. From large corporations to small businesses, the decision-
based forecasts provided by NOAA save vital time, money, and resources.
    NOAA also plays a unique and vital role in supporting homeland 
security and national defense. The Pentagon reports that flooding, 
drought, and wildfires driven by climate change pose a threat to two-
thirds of the U.S. military's installations and expects climate change 
worldwide to cause more extreme weather, food scarcity, and mass 
migration, which leads to instability. The Pentagon classifies climate 
change as threat multiplier, and in order to combat these issues, we 
need the best science available. Without robust funding, we risk losing 
the data needed to make informed and proactive decisions, and our 
national security will be left in a dangerously vulnerable position.
                      national science foundation
    AGU requests that Congress appropriate $9 billion for NSF in fiscal 
year 2020, an almost 11.5 percent increase over the fiscal year 2019 
appropriated level for NSF. Ambitious and robust funding for NSF is 
critical if the U.S. hopes to maintain its leadership in science and 
technology and reap the economic and national security benefits of that 
leadership. According to the most recent OCED report, China will 
surpass the United States in total R&D funding from all sources in 
2019. NSF accounts for only 4 percent of Federal R&D spending but 
supports nearly 60 percent of the nonmedical basic research at our 
colleges and universities. Research and education programs supported by 
NSF help increase and develop the knowledge base needed to push the 
frontiers of science, mathematics, and engineering disciplines, 
contribute to the development of the future science and technology 
workforce, underpin new fields of inquiry, and promote 
interdisciplinary research and education.
    Increased funding for NSF will allow the agency to pursue its Ten 
Big Ideas, including growing Convergence Research and the Inclusion 
Across the Nation of Communities of Learners of Underrepresented 
Discovers in Engineering and Science (NSF INCLUDES) program. These two 
programs will promote transformational science, the first by creating a 
platform for the integration of multiple science and engineering 
disciplines to address extremely challenging and complex scientific 
questions and pressing societal needs; and the second by creating a 
capable and innovative workforce that reflects the diversity of our 
Nation.

    [This statement was submitted by Lexi Shultz, Vice President, 
Public Affairs and Brittany Webster, Program Manager, Public Affairs.]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), we thank you for the opportunity to share our recommendations 
regarding the National Science Foundation's TCU Program (NSF-TCUP), 
Louis Stokes Alliance for Minority Participation (LSAMP), and the 
National Aeronautics and Space Administration's Minority University 
Research and Education Program (NASA-MUREP).
National Science Foundation (NSF)
Education and Human Resources Directorate (EHR):
  --Tribal Colleges and Universities Program (TCUP): TCUs urge the 
        subcommittee to fund competitively awarded NSF-TCUP grants at a 
        minimum of $16,000,000 for fiscal year 2020. This program also 
        awards grants to Alaska Native Serving and Native Hawaiian 
        Serving Institutions.
  --Louis Stokes Alliance for Minority Participation (LSAMP): TCUs urge 
        the subcommittee to support NSF- LSAMP program with an added 
        emphasis for American Indian, Alaska Native, and TCU students.
National Aeronautics and Space Administration (NASA)
  --NASA Headquarters, Office of Education--Minority University 
        Research and Education Programs (MUREP): TCUs urge the 
        subcommittee to continue the NASA MUREP program with robust 
        funding and support a TCU-specific program within MUREP at 
        $5,000,000 for fiscal year 2020.

    Tribal Colleges and Universities: Training the Nation's Native STEM 
Workforce.--TCUs are an essential component of American Indian/Alaska 
Native (AI/AN) STEM education and research. Currently, 37 TCUs operate 
more than 75 campuses and sites in 16 States. TCU geographic boundaries 
encompass 80 percent of American Indian reservations and Federal Indian 
trust lands. American Indian and Alaska Native TCU students represent 
at least 233 of the 573 federally recognized Tribes and hail from more 
than 30 States. Nearly 80 percent receive Federal financial aid. TCUs 
serve over 160,000 American Indians, Alaska Natives, and other rural 
residents each year through a wide variety of academic and community-
based programs. TCUs are public institutions accredited by independent, 
regional accreditation agencies and, like all U.S. institutions of 
higher education, must regularly undergo stringent performance reviews 
to retain their accreditation status. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving AI/ANs toward self-sufficiency. To do this, TCUs serve many 
roles in their reservation communities functioning as career and 
business centers, open access computer labs, STEM summer camps, 
Saturday academies, community farms, economic development centers, GED 
or HiSET training and testing centers, place-based applied research 
hubs, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under Federal law. Yet despite funding 
challenges, TCUs are responding to the STEM workforce needs across the 
country. For example, 16 TCUs have established nursing programs, 12 
TCUs have established pre-engineering programs, one of which also 
offers bachelor's degree programs in engineering, and seven TCUs have 
established STEM teacher education programs through NSF-TCUP. These 
efforts are preparing AI/AN nurses, engineers, and science and math 
teachers who are collectively strengthening the STEM pipeline in Indian 
Country. TCUs train other professionals in high-demand fields, 
including agriculture and natural resources management and information 
technology. By teaching the job skills most in demand on our 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities and the Nation as a 
whole. But that is not enough. TCU leadership understands that we must 
do more--we must move beyond simple workforce training. Today, TCUs are 
tackling the tougher--and much more significant--issue of job creation, 
because we know that to break the cycle of generational poverty and end 
the culture of dependency that grips so much of Indian Country, simply 
preparing students for a very limited labor market is not enough. We 
must create new industries, new businesses, and build a culture of 
self-sufficiency and innovation. Our job creation initiative focuses 
initially on advanced manufacturing, through a partnership with the 
U.S. Department of Energy, National Laboratories, TCUs, Tribes, and 
industry.
                      national science foundation
    Education and Human Resources Directorate (EHR)--Tribal Colleges 
and Universities Program (TCUP): TCUs urge the subcommittee to fund 
competitively awarded NSF-TCUP grants at a minimum of $16,000,000.--The 
NSF-TCUP, administered by the Education and Human Resources 
Directorate, is a competitive grant program that enables TCUs and 
Alaska Native Serving/Native Hawaiian Serving Institutions (ANNHs) to 
develop and expand critically needed STEM education and research 
programs relevant to their respective communities from Michigan to 
Alaska and Hawaii. Through this program, TCUs and ANNHs have been 
awarded grants to enhance their STEM instructional courses, workforce 
development, research, and outreach programs.
    AI/AN youth have the highest high school drop-out rate of any 
ethnic or racial group in the country. Those who do pursue 
postsecondary education often require developmental classes before 
taking on a full load of college-level courses. Placement tests 
administered at TCUs to first-time entering students in academic year 
2017-18 show that 61 percent required remedial math. Our data indicates 
that while 68 percent will successfully complete the course, many will 
not have done so in 1 year. Without question, a large proportion of the 
TCUs' already limited resources are dedicated to addressing the 
continual failings of K-12 education systems.
    Through NSF-TCUP grants, TCUs and ANNHs are actively working to 
prevent this problem by developing strong partnerships with their K-12 
feeder schools to engage students in culturally appropriate STEM 
education and outreach programs. These efforts include weekend 
academies and summer STEM camps that reinforce and supplement current 
K-12 STEM programs.
    NSF-TCUP provides crucial capacity-building assistance and 
resources to TCUs and ANNHs. Since the program began, NSF-TCUP has 
become the primary Federal program for building STEM programmatic and 
research capacity at TCUs. For example, NSF-TCUP funding supported 
Navajo Technical University (Crownpoint, NM) in the development of its 
electrical and industrial engineering program, which received 
accreditation from the Accreditation Board of Engineering and 
Technology (ABET) in 2018. This marks a significant milestone, with NTU 
leading the way as the first TCU to receive ABET accreditation. NTU 
students will now be prepared to fill high demand STEM jobs that 
require a degree from an ABET-accredited program.
    Through NSF-TCUP, 12 TCUs have established engineering or pre-
engineering programs and are developing partnerships with larger 
institutions that enable AI/AN students to seamlessly transfer to 
graduate-level programs. The first graduate of United Tribes Technical 
College's (Bismarck, ND) pre-engineering program, Jeremy McLeod (Turtle 
Mountain Band of Chippewa Indians) is an example of how students, 
tribal communities and States benefit from these partnerships. After 
graduating from UTTC, Jeremy completed his baccalaureate degree in 
civil engineering at South Dakota School of Mines and Technology. Upon 
graduation, he was employed with Knife River Corporation as a project 
manager and is now a water resource engineer at the North Dakota State 
Water Commission. He also serves as an advisory board member for the 
pre-engineering program at UTTC.
    Across Indian Country, TCUs provide students with the opportunity 
to serve their communities through place-based research that has 
national and international impacts. At Northwest Indian College (NWIC) 
(Bellingham, WA), students conduct complex research related to food 
security focused on salmon, shellfish, and Indigenous sea cucumbers. 
NWIC also has a partnership with Western Washington University through 
which students continue to master's degree programs. Aaniiih Nakoda 
College (Harlem, MT) monitors streams for contaminants and investigates 
West Nile virus vectors; and Sitting Bull College (SBC) (Fort Yates, 
ND) has established a water quality monitoring laboratory serving the 
Standing Rock Sioux and surrounding communities. Research at SBC shows 
that students participating in research opportunities have retention 
rates that are double the rate of students who are not engaged in 
research.
    Programs funded through the NSF-TCUP are highly leveraged and 
successful. For example, students from Southwestern Indian Polytechnic 
Institute (Albuquerque, NM) and NTU compete in NASA's national 
``Swarmathon'' competition. For the past 3 years, the SIPI student team 
received high awards, placing first in the Nation in 2017 and second in 
2018. SIPI has achieved other successes of national note: NSF Science 
and Engineering Indicators (2016) showed that of students graduating 
with a science or engineering degree, AI/ANs comprised 0.3 percent, of 
which 13 percent were female. In a time when engaging diverse 
populations in higher education is a priority and retaining female 
students in STEM fields is a challenge, the SIPI pre-engineering 
program is doing something right. In 2017, SIPI's retention rate for 
engineering students was 44 percent. Its retention rate for female 
engineering students was 67 percent. SIPI's female students attribute 
their success to several TCU-specific factors: caring faculty who set 
expectations, sense of community, team research experiences, culturally 
grounded place-based experiential learning, and unfailing student 
support.
    Despite its advances and successes, funding for the NSF-TCUP 
program has been stagnant for many years. Therefore, not all of the 
TCUs have had an opportunity to benefit from this very important 
program. We urge the subcommittee to fund competitively awarded NSF-
TCUP grants at a minimum of $16,000,000.
    Louis Stokes Alliance for Minority Participation (LSAMP): TCUs urge 
the subcommittee to support the NSF LSAMP program with an added 
emphasis for American Indian, Alaska Native, and TCU students.--In 
fiscal year 2019, $46 million was appropriated for the LSAMP program to 
support historically underrepresented students in STEM fields. However, 
only one TCU was awarded direct funding under this program. The All 
Nations LSAMP (ANLSAMP) program at Salish Kootenai College (Pablo, MT) 
has had tremendous success in increasing AI/AN degree attainment in 
STEM programs. Many small underfunded TCU STEM programs consider 
ANLSAMP as the center for expanding AI/AN student research 
opportunities, sharing best practices, and student support. Through the 
combined efforts of the 34 ANLSAMP colleges and universities, more than 
2,000 AI/ANs and under-resourced minority students have graduated with 
bachelor's degrees in STEM. Additionally, a recent survey revealed that 
more than 80 percent of ANLSAMP participants contacted had either 
graduated with a STEM major or bridged to an advanced degree program. 
Unfortunately, since the creation of the LSAMP program in 1991, NSF has 
neglected to prioritize AI/AN-serving programs, such as ANLSAMP, which 
are critically needed to support STEM degree attainment in Indian 
Country.
    In 2018, after several years of no funding for a TCU-led grant 
proposal, $1 million was awarded through an LSAMP grant and supplement 
to support TCU students over the next 5 years. However, it is alarming 
that less than 1 percent of the total $46 million was awarded to TCUs 
in fiscal year 2019. ($200,000 was provided in new funding, as a grant 
supplement, to TCUs in fiscal year 2019.) We ask that the subcommittee 
specifically urge NSF to strengthen support for AI/AN students through 
the LSAMP grant program.
          national aeronautics and space administration (nasa)
    Office of Education/Minority University Research and Education 
Programs (MUREP): TCUs urge the subcommittee to continue the NASA MUREP 
program with robust funding and support a TCU specific program within 
MUREP at $5,000,000 for fiscal year 2020.--Under the MUREP umbrella, 
NASA has funded TCUs in various programs for the past several years at 
a modest level. For example, in fiscal year 2014, NASA awarded $1.28 
million to TCUs under MUREP, with total TCU support at $1.55 million. 
In fiscal year 2015, NASA MUREP provided $2 million to TCUs, with total 
TCU support of $2.53 million. In fiscal year 2016, TCU support was $1.7 
million under MUREP and $2.7 million overall. With these modest funding 
levels, NASA MUREP is only able to fund three TCUs each year, each of 
which receives a 3-year award. In fiscal year 2017, the 3-year awards 
went to SIPI to continue its engineering/robotics work, NWIC, and Chief 
Dull Knife College (Lame Deer, MT).
    Under a previous grant from NASA, SIPI students and local AI/AN 
high school students engage in hands-on projects through which they 
learn computer programming, computer networking, microprocessors, 
sensor technology, 3D printing, and design engineering. The annual NASA 
Swarmathon, funded by MUREP and mentioned previously, is an advanced 
robotics competition in which students test their STEM skills by 
writing complex robotic codes and building robots equipped with 
sensors, webcams, and GPS systems. The STEM knowledge and analytical 
skills needed to compete in Swarmathon are the same high-demand skills 
needed to advance our space technology and future space exploration. We 
are proud that the SIPI teams ranked in the top three nationally over 
the past 4 years.
    AIHEC strongly disagrees with the administration recommendation to 
eliminate the MUREP program as proposed in the President's fiscal year 
2018 and fiscal year 2019 Budget Requests. The NASA MUREP program 
provides TCUs with resources to advance and build strong STEM programs 
across Indian Country. TCUs urge the subcommittee to continue the NASA 
MUREP program through robust funding and to support a Tribal College 
and University-specific program within MUREP at $5,000,000 for fiscal 
year 2020.
                               conclusion
    Tribal Colleges and Universities provide access to high-quality, 
culturally appropriate postsecondary education opportunities, including 
STEM-focused programs, for thousands of AI/AN students. The modest 
Federal investment in TCUs has paid great dividends in terms of 
employment, education, and economic development. We ask you to renew 
your commitment to help move our students and communities toward self-
sufficiency and request your full consideration of our fiscal year 2020 
appropriations requests. Thank you.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
                      national science foundation
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2020 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide NSF with at least $9 billion in fiscal year 2020.
    AIBS is a scientific association dedicated to promoting informed 
decisionmaking that advances biological research and education for the 
benefit of science and society. AIBS works to ensure that the public, 
legislators, funders, and the community of biologists have access to 
information that can guide informed decisionmaking.
    Biological research is in our national interest. Increasing our 
knowledge of how genes, cells, tissues, organisms, and ecosystems 
function is vitally important to efforts to improve the human 
condition. Food security, medicine and public health, national 
security, economic growth, and sound environmental management are 
informed by the biological sciences. The knowledge gained from NSF-
funded research contributes to the development of new research tools 
and industries.
    Biological research strengthens our economy. The translation of 
biological knowledge into formal and informal education programs 
fosters the development of a scientifically and technically informed 
workforce. NSF research programs are important engines powering our 
Nation's economy. Over the past 50 years, roughly half of the economic 
growth at private businesses in the United States has resulted from 
advances in knowledge resulting from research and development. Research 
funding from NSF has given rise to successful companies, such as 
Genentech, Allylix, and Chromatin, as well as new industries that 
provide more robust food crops or disease detection tools and 
techniques. Additionally, data show that employers continue to seek 
workers with scientific and technical skills. Since 1960, growth in 
U.S. employment in science and engineering has outpaced growth in total 
employment, increasing at an average rate of 3 percent per year.
    The cornerstone of NSF excellence is a competitive, merit-based 
review system that underpins the highest standards of excellence. 
Through its research programs, NSF invests in the development of new 
knowledge and tools that solve the most challenging problems facing 
society.
  --Combating emerging diseases: Long before Zika virus made headlines 
        in the United States, the NSF was supporting research to study 
        the environmental and social factors that put people at risk 
        from diseases carried by mosquitos, to understand the 
        physiology and life cycles of disease vectors, to model the 
        spread of mosquito-borne disease, and to understand the 
        evolution of insecticide resistance. Knowledge gained from this 
        work enabled public health officials to respond quickly when an 
        outbreak of Zika virus started in the U.S. in late 2015.
  --Mobilizing big data: Access to and analysis of vast amounts of data 
        are driving innovation. The NSF enables integration of big data 
        across scientific disciplines, including applications in the 
        biological sciences. Digitization of natural science 
        collections involves multi-disciplinary teams, which have put 
        more than 95 million specimens and their associated data online 
        for use by researchers, educators, and the public.
  --Enabling synthetic biology: DNA editing has become more advanced 
        and targeted with techniques such as CRISPR-CAS9 allowing 
        scientists to rewrite genetic code and redesign biological 
        systems. The NSF funds research on how these techniques can be 
        used to bio-manufacture new materials, treat diseases, and 
        accelerate the bioeconomy.
    Other examples of research that have benefited the public are 
chronicled in a recent AIBS report, ``Biological Innovation: Benefits 
of Federal Investments in Biology,'' which is available at https://
www.aibs.org/public-policy/biological_
innovation_report.html.
    The NSF supports recruitment and training of our next generation of 
scientists. Support for science education for undergraduate and 
graduate students is critically important to our research enterprise. 
Students learn science by doing science, and NSF programs engage 
students in the research process.
    NSF awards reached 1,800 colleges, universities, and other public 
and private institutions across the country in fiscal year 2018. 
Initiatives such as the Graduate Research Fellowship and the Faculty 
Early Career Development program are important parts of our national 
effort to attract and retain the next generation of researchers. Since 
1952, the number of students supported by NSF Graduate Research 
Fellowships has grown to 57,700. Support for Graduate Research 
Fellowships and CAREER grants would be cut by 10 percent compared to 
fiscal year 2018 under the President's proposal, while the budget for 
Faculty early career development programs would shrink by 13 percent. 
Other programs, such as the NSF Research Traineeship and Postdoctoral 
Research Fellowships in Biology, which provide opportunities to train 
biologists in high priority areas like data-enabled science and 
research using biological collections, are also facing budget cuts.
    The NSF is an important supporter of biological research 
infrastructure, such as field stations, natural history museums, and 
living stock collections. These place-based research centers enable 
studies that take place over long periods of time and diverse 
geographic scales.
    Federal R&D investments as a percentage of Gross Domestic Product 
are declining. The U.S. is still the largest performer of R&D globally, 
but its share of worldwide R&D has diminished over the past 15 years. 
Other countries, especially China, are rapidly increasing their 
investments in science. To fully realize the benefits of NSF-supported 
research and to remain at the global forefront of innovation, the 
government must make new and sustained investments in the NSF. 
Unpredictable swings in funding can disrupt research programs, create 
uncertainty in the research community, and stall the development of the 
next great idea.
    Funding rates have become ``dangerously low'' according to NSF. 
When pre-proposals are considered, the funding rate for some program 
areas within the Directorate for Biological Sciences are in the single 
digits. The NSF is the primary Federal funding source for biological 
research at our Nation's universities and colleges, providing 69 
percent of extramural Federal support for non-medical, fundamental 
biological and environmental research at academic institutions.
    The President's budget request for fiscal year 2020 proposes a 12.5 
percent cut to NSF, including a 13 percent reduction in its research 
activities. If enacted, this budget will hurt research and undermine 
our ability to address national challenges. Congress provided NSF with 
$8.075 billion in funding for fiscal year 2019, an increase of 4 
percent. This increase allows for critical Federal investments in 
scientific and educational research as well as support for the 
development of the scientific workforce. We encourage Congress to 
continue supporting increased investments in our Nation's scientific 
capacity.
    Funding NSF at $9 billion in fiscal year 2020 is a step toward 
responding to years of stagnant funding that have slowed discovery. The 
requested funding enables NSF to accelerate progress on its 10 Big 
Ideas. These are important new cutting-edge initiatives at the 
frontiers of science and engineering. These include research programs 
such as Understanding the Rules of Life (URoL), Navigating the New 
Arctic (NNA), Growing Convergence Research (GCR), and Harnessing the 
Data Revolution for 21st-Century Science and Engineering (HDR).
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.

    [This statement was submitted by Jyotsna Pandey, Public Policy 
Manager and Robert Gropp, Executive Director.]
                                 ______
                                 
         Prepared Statement of the American Library Association
    On behalf of the American Library Association (ALA), I write to 
respectfully request adequate funding for the U.S. Census Bureau to 
conduct the 2020 Census, including funding for Integrated Partnership 
and Communications activities and for Questionnaire Assistance Centers.
    Census experts have raised concerns that the President's budget 
proposal for fiscal year 2020 will be inadequate for the Census Bureau 
to carry out its Constitutional obligation to count every person 
residing in the United States.\1\
---------------------------------------------------------------------------
    \1\ See letter from The Census Project, et al., to the Senate and 
House Appropriations Subcommittees on Commerce, Justice, Science, and 
Related Agencies, April 16, 2019, available at http://www.ala.org/
advocacy/sites/ala.org.advocacy/files/content/Sign-ons/fy-2020-census-
project-sign-on-letter-pre-cjs-mark-up-4-16-19.pdf.
---------------------------------------------------------------------------
    If the Census Bureau does not have the resources necessary to do 
its job, then states and communities across the country will lose 
funding, representation, and information crucial to decisionmaking. 
That loss of funding and representation will last for a decade--and the 
loss of information will last forever.
          integrated partnership and communications activities
    We urge the subcommittee to provide adequate funding for Integrated 
Partnership and Communications activities, which are essential to 
achieving an efficient and accurate Census.
    As the Census Bureau notes, in the upcoming fiscal year, ``The 
formation of key national partnerships and the cultivation of hundreds 
of thousands of other local relationships necessary to ensure the 
Census Bureau can maximize self-response across all localities and 
population groups will occur at peak levels of intensity.'' \2\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, ``U.S. Census Bureau's Budget fiscal year 
2020,'' March 2019, at CEN-95, available at https://www.commerce.gov/
sites/default/files/2019-03/fy2020_census_
congressional_budget_justification_0.pdf.
---------------------------------------------------------------------------
    ALA and libraries across the country will be among those partners 
working to provide information to the public about responding to the 
2020 Census. As a demonstration of this commitment, on April 1, 2019, 
the president of the American Library Association spoke at the Census 
Bureau's press briefing marking 1 year to Census Day.\3\ Adequate 
funding for Integrated Partnership and Communications activities 
ensures that partners will have the messages and materials to support 
their communities in achieving a complete count.
---------------------------------------------------------------------------
    \3\ U.S. Census Bureau, ``Census Bureau Press Briefing Marks One 
Year Out From Census Day,'' April 1, 2019, available at https://
www.census.gov/newsroom/press-releases/2019/one-year-out.html.
---------------------------------------------------------------------------
                    questionnaire assistance centers
    Similarly, it will be critical to provide sufficient funding for 
Questionnaire Assistance Centers. In the fiscal year 2019 conference 
report, Congress directed the Census Bureau to ``devote funding to . . 
. open local questionnaire assistance centers in hard-to-count 
communities'' in the 2020 Census.\4\ However, the Census Bureau's 
fiscal year 2020 budget submission does not describe how the Bureau 
will implement that direction or what additional resources are needed 
in order to do so.
---------------------------------------------------------------------------
    \4\ H. Rept. 116-9 (2019), at 611.
---------------------------------------------------------------------------
    On March 19, 2019, ALA joined 90 stakeholder organizations in a 
letter to the Census Bureau, expressing our view that ``a robust 
program of Questionnaire Assistance Centers is crucial to provide an 
effective on-the-ground presence for the 2020 Census in local 
communities in order to raise public awareness, deliver trustworthy 
information, and provide options for self-respondents to receive 
questionnaire assistance.'' \5\
---------------------------------------------------------------------------
    \5\ Letter from 90 stakeholder organizations to Census Bureau 
Director Dillingham, ``Questionnaire Assistance Centers for the 2020 
Census--Stakeholder Recommendations,'' March 19, 2019, available at 
http://www.ala.org/advocacy/sites/ala.org.advocacy/files/content/
govinfo/Sign-ons/
Questionnaire%20Assistance%20Center%20recommendations%20031919%20%281%29
.pdf.
---------------------------------------------------------------------------
    With the reduced number of regional and area census offices in the 
2020 Census, we expect that many people will turn to their local public 
library for information about the Census. While libraries are preparing 
in order to address the public's questions about the Census, they 
cannot do so alone, and they should not have to. In fact, libraries 
hosted more than 6,000 Questionnaire Assistance Centers and Be Counted 
sites in the 2010 Census.\6\ We believe that libraries are ready to do 
so again, if Congress and the Census Bureau commit the funding to 
operate those sites.
---------------------------------------------------------------------------
    \6\ Geoff Jackson, Keith Wechter, and Susanna Winder, ``2010 Census 
Be Counted and Questionnaire Assistance Centers Assessment,'' U.S. 
Census Bureau (May 22, 2012), at 27, available at https://
www2.census.gov/programs-surveys/decennial/2010/program-management/5-
review/cpex/2010-memo-194.pdf.
---------------------------------------------------------------------------
    On April 25, 2019, the Census Bureau provided a report to the 
Appropriations Committees outlining its plan to implement the fiscal 
year 2019 conference report language through a ``Mobile Response 
Initiative''--essentially a new term for Questionnaire Assistance 
Centers. We ask the subcommittee to provide the necessary funding and 
direction to the Census Bureau to implement this plan at minimum. 
However, important questions remain as to whether the plan will be 
sufficient to provide needed assistance in hard-to-count communities. 
We encourage the subcommittee to seek clarification of the Census 
Bureau's plan and, if necessary, provide resources and direction to 
enlarge the operation.
                               conclusion
    Thank you for the opportunity to submit this testimony regarding 
appropriations for the U.S. Census Bureau in fiscal year 2020. We ask 
for the subcommittee's support in providing adequate funding, including 
for Integrated Partnership and Communications activities and for 
Questionnaire Assistance Centers.

    [This statement was submitted by Gavin Baker, Assistant Director, 
Government Relations.]

The American Library Association (``ALA'') is the foremost national 
organization providing resources to inspire library and information 
professionals to transform their communities through essential programs 
and services. For more than 140 years, the ALA has been the trusted 
voice for academic, public, school, government and special libraries, 
advocating for the profession and the library's role in enhancing 
learning and ensuring access to information for all.
                                 ______
                                 
        Prepared Statement of the American Mathematical Society
                      national science foundation
    The American Mathematical Society is a professional society, home 
to approximately 30,000 individuals and over 500 institutional members. 
The AMS has been serving the mathematical sciences community since 
1888. The Society's programs and services for its members and the 
global mathematical community include professional programs; 
publications of books and journals; meetings and conferences; support 
for young scholars programs; and tools for researchers such as 
MathSciNet. The organization is headquartered in Providence, Rhode 
Island, with a Government Relations Office in Washington, DC.
    The American Mathematical Society (AMS) appreciates the opportunity 
to submit written testimony in support of fiscal year 2020 
appropriations for the National Science Foundation (NSF).

    We encourage Congress to provide the NSF with $9 billion in fiscal 
year 2020.\1\
---------------------------------------------------------------------------
    \1\ This is the same amount supported by the Coalition for National 
Science Funding.

    The NSF is a key funding agency for the mathematical sciences. Most 
mathematics research is done by Ph.D. mathematicians at universities 
and colleges. The NSF accounts for approximately 64 percent of Federal 
support for academic research in the mathematical sciences.
    The NSF is the only Federal agency that supports research and 
education across all fields of science, engineering, and mathematics 
and at all educational levels. Research and education programs 
supported through the NSF are essential for increasing and developing 
the knowledge base needed for pushing the frontiers of science, 
mathematics, and engineering disciplines; developing new fields of 
inquiry; and supporting technological innovation. Support for the 
scientific training of undergraduate and graduate students is 
critically important to our research enterprise. Other NSF investments 
in education support broadened participation in STEM fields and 
development of the STEM workforce in demand by American employers.
    The entire country benefits from NSF funding and Chairman Moran's 
State can serve as an example.\2\
---------------------------------------------------------------------------
    \2\ https://cnsf.us/factsheets2017.cfm
---------------------------------------------------------------------------
    Kansas, an EPSCoR State,\3\ received $42 million in NSF funding in 
fiscal year 2017. There were 138 NSF grants awarded to researchers in 
Kansas. Funds go toward research--for example, researchers in the 
Kansas State University Medical Component Design Laboratory used NSF 
funding to develop supplemental sensors for ingestible-pill technology 
that monitor the health of livestock, protecting against disease 
outbreaks. Funds go toward STEM education--for example, The Noyce 
Teacher-Leaders for Western Kansas project at Fort Hays State 
University is developing STEM teachers for rural Kansas communities.
---------------------------------------------------------------------------
    \3\ EPSCoR enhances research competitiveness of targeted 
jurisdictions (States, territories, commonwealth) by strengthening STEM 
capacity and capability. For more information, see https://www.nsf.gov/
od/oia/programs/epscor/

---------------------------------------------------------------------------
    The NSF has funded mathematics research and education in Kansas:

  --At Wichita State University, Professor Victor Isakov is making 
        groundbreaking changes in the way we make measurements in 
        biomedicine, economics, geophysics, and material science. In 
        particular, the results of his work will dramatically enhance 
        the quality of a cheap, fast, and safe diagnostic imaging 
        method called electrical impedance tomography.\4\
---------------------------------------------------------------------------
    \4\ https://nsf.gov/awardsearch/
showAward?AWD_ID=1514886&HistoricalAwards=false
---------------------------------------------------------------------------
  --Kansas State University is the site of an NSF-funded Research 
        Experience for Undergraduates (REU) program in mathematics. 
        Each summer, students from across the country come to Manhattan 
        where they are trained to become independent researchers while 
        working on problems in the important fields of network security 
        and biomathematics.
  --Kansas State Professor Dave Auckly has funding to expand the Navajo 
        Nation Math Circles.\5\ This includes a mathematical visitor 
        program sending mathematicians to schools to work with students 
        and their teachers as well as inclusion of mathematics in 
        public festivals to increase community mathematical awareness.
---------------------------------------------------------------------------
    \5\ Navajo Nation Math Circles was featured in the documentary 
``Navajo Math Circles,'' which aired nationwide in September 2016 on 
the Public Broadcasting System.

    Society has benefitted from the many products, procedures, and 
methods that have resulted from NSF supported research in mathematics--
research performed over many years and typically not intended for 
specific applications. These benefits include innovations such as the 
Google Page Rank algorithm, enhancement of magnetic resonance imaging 
(MRI), and in cybersecurity. The plethora of applications that have 
resulted from basic research in the mathematical sciences is described 
in the National Academies report ``The Mathematical Sciences in 2025'' 
or in the executive summary ``Fueling Innovation and Discovery: The 
Mathematical Sciences in the 21st Century''. \6,7\
---------------------------------------------------------------------------
    \6\ https://www.nap.edu/catalog/15269/the-mathematical-sciences-in-
2025
    \7\ https://www.nap.edu/catalog/13373/fueling-innovation-and-
discovery-the-mathematical-sciences-in-the-21st
---------------------------------------------------------------------------
    Strong and sustained investment will allow the NSF to continue to 
support innovative and transformational scientific research that fuels 
the American economy, strengthens national security, maintains our 
global competitiveness, improves public health and the quality of life 
for Americans, and contributes to the development of the next 
generation of science, mathematics, and engineering researchers.
    Our global competitors are making tremendous investments in 
scientific research yet funding for research in the U.S. has only 
increased incrementally. Because our national investment in basic 
science research has been declining as a share of the Federal budget 
for decades, we are losing our global edge. To compare, China has grown 
its R&D spending rapidly since 2000, at an average of 18 percent 
annually. During the same period, U.S. R&D spending grew by 4 percent 
[per year].\8\
---------------------------------------------------------------------------
    \8\ https://www.nsf.gov/statistics/2018/nsb20181/report
---------------------------------------------------------------------------
    While our competitors (and allies) are increasing support for 
science research and education, the U.S. is failing to fund many 
important projects. According to the National Science Board, 
approximately $3.92 billion of cutting-edge research deemed ``very good 
or higher'' in NSF's merit criteria was unfunded in fiscal year 2017.
    A strong level of funding together with a predictable pattern of 
funding will facilitate a robust stream of high-level research and 
researchers that, in turn, will support the level of technological 
development needed to remain globally competitive.
    Thank you for your consideration of this request, and for your 
prior efforts on behalf of the NSF.

    [This statement was submitted by Jill Pipher, President and Karen 
Saxe, Director of Government Relations.]
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks you for your 
sustained support of science at the NSF and NASA. In this statement we 
offer our recommendations for fiscal year 2020 funding levels for these 
two agencies.

  --The APS urges you to fund the fiscal year 2020 NSF budget at a 
        level of at least $9 billion to prevent further erosion of 
        program capacity and allow researchers to take advantage of 
        scientific opportunities.
  --The APS urges you to restore cuts to NASA's life sciences research 
        budgets and to increase funding for the Human Research Program.

    NSF and NASA support scientific research and technology development 
programs essential to the future technological excellence and economic 
stability of the United States. Federal investment in this research is 
critically important because breakthroughs in basic and translational 
research provide the foundation for new technologies to fuel our 
economy and make it possible for the United States to remain a global 
leader in science, technology and engineering. According to the 2018 
Science and Engineering Indicators, other countries including China 
continue to increase basic research funding at a rate that outpaces the 
growth of U.S. investments.\1\
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/statistics/2018/nsb20181/report/sections/
overview/introduction
---------------------------------------------------------------------------
NSF funds outstanding research and education programs
    NSF provides support for 25 percent of all federally funded basic 
science and engineering as well as 69 percent of the support for non-
medical research in biology. NSF invests in basic biological research 
across a broad spectrum of sub-disciplines along with as the equipment 
and other infrastructure scientists need for their work. Time and time 
again we have seen that knowledge gained through basic biological 
research provides foundation for more applied studies that sustain the 
health of animals, humans and ecosystems. Moreover, NSF-funded research 
has led to countless new and unexpected discoveries that could not have 
been envisioned when the research began. These unforeseen applications 
have had enormous impacts on science, health and the world's economy.
    The majority of the NSF funding is awarded in the form of grants 
selected through competitive, merit-based peer review. Merit review 
ensures that the best possible science is supported. Both the 
scientific reviewers and NSF program staff consider not only the 
intellectual merit of each research proposal, they also consider its 
broader impacts. NSF's criteria for these broader impacts address the 
potential for the research to benefit society or to achieve specific 
outcomes. NSF has an exemplary record of funding research with far-
reaching potential. Since its inception in 1950, NSF has supported the 
work of 236 Nobel Laureates, including the 2018 winners of the 
Chemistry, Physics and Economics prizes.
    Biological research is just one part of the NSF portfolio. The APS 
believes that each of the NSF directorates support research that is 
critical to NSF's mission ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense. . .'' Collaboration among scientific disciplines is 
increasingly recognized as the best and most efficient way to advance 
science. This will only be possible with strong support for all 
disciplines of research.
    In addition to funding innovative research in labs around the 
country, the NSF education programs foster the next generation of 
scientists. The APS is proud to have partnered with NSF in programs to 
provide training opportunities and career development activities to 
enhance the participation of underrepresented minorities in science. We 
believe that NSF is uniquely suited to foster science education 
programs of the highest quality, and we recommend that Congress 
continue to provide Federal funds for science education through the 
NSF.
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) in recommending that the NSF be funded at a level of at 
least $9 billion in fiscal year 2020.--The NSF budget has been flat in 
real terms for approximately the last 15 years. When NSF Director Dr. 
France Cordova testified before the House Appropriations Subcommittee 
on Commerce, Justice and Science on March 26, 2019, she stated that 
each year the NSF receives approximately $4 billion worth of well-rated 
proposals that the agency is unable to fund within its current budget. 
Providing the agency with a significant budget increase would allow the 
NSF to support approximately 1,000 additional research grants. The NSF 
is poised to address major challenges facing our Nation and our world 
in the 21st Century, but it needs adequate resources to continue to 
carry out its mission.
Support for Life Sciences Research should be increased at NASA
    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
International Space Station, which provides an environment for the 
conduct of experiments in space. NASA's HRP conducts focused research 
and develops countermeasures with the goal of enabling safe and 
productive human space exploration. The program funds more than 300 
research grants that go to academic researchers in more than 30 States 
around the country.
    During prolonged space flight, the physiological changes that occur 
due to weightlessness, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
debilitating conditions and reduced ability to perform tasks. 
Scientists are actively engaged in research that explores the 
physiological basis of these problems with the goal of contributing to 
the identification of therapeutic targets and development of novel 
countermeasures. One of the most well-known studies of these 
physiological changes is the NASA Twin Study which compared identical 
twins and fellow astronauts Mark and Scott Kelly to see what changes 
occurred following Scott Kelly's 1 year mission aboard the 
International Space Station.\2\ The knowledge gained from this research 
is not only relevant to humans traveling in space, but is also directly 
applicable to human health on Earth. For example, some of the muscle 
and bone changes observed in astronauts after prolonged space flight 
are similar to those seen in patients confined to bed rest during 
periods of critical illness as well as during the process of aging.
---------------------------------------------------------------------------
    \2\ https://www.nasa.gov/feature/nasa-twins-study-confirms-
preliminary-findings
---------------------------------------------------------------------------
    NASA is the only agency whose mission addresses the biomedical 
challenges of human space exploration. Over the past several years, the 
amount of money available for conducting this kind of research at NASA 
has dwindled. In the past, appropriations legislation specified funding 
levels for biomedical research and gravitational biology, but ongoing 
internal reorganizations at NASA have made it difficult to understand 
how much money is being spent on these programs from year to year. The 
APS recommends that funding streams for these important fundamental 
research programs be clearly identified and tracked within the NASA 
budget. The APS also recommends restoration of cuts to peer-reviewed 
life sciences research to allow NASA-funded scientists to conduct 
research that will be critical in not only supporting the success of 
future long-range manned space exploration but also leading to 
innovative discoveries that can be applied to Earth-based medicine. As 
highlighted above, investment in the basic sciences is critical to our 
Nation's technological and economic future. This innovative engine of 
research fuels our world leadership and our economy. The APS urges you 
to make every effort to provide these agencies with increased funding 
for fiscal year 2020.

The APS is a nonprofit devoted to fostering education, scientific 
research and dissemination of information in the physiological 
sciences. The Society was founded in 1887 with 28 members and now has 
over 10,000 members, most of whom hold doctoral degrees in physiology, 
medicine and/or other health professions.
                                 ______
                                 
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 118,000 psychologists and 
affiliates. APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. APA works to advance the creation, 
communication, and application of psychological knowledge to benefit 
society and improve people's lives.
                   national science foundation (nsf)
    APA urges the Committee to fund the National Science Foundation 
(NSF) at $9 billion in fiscal year 2020.

    The Coalition for National Science Funding, an alliance of over 140 
universities, businesses, and scientific associations also endorses 
this level of support for NSF, the only Federal research agency 
``charged with the promotion of scientific progress across all 
scientific and engineering disciplines'' and one that is vital to U.S. 
economic health, educational achievement, global competitiveness, and 
national security.
Support Core Psychological Research at NSF
    NSF is the only Federal agency whose primary mission is to support 
basic research and education in math, engineering and science--
including the behavioral and social sciences. NSF's investment in basic 
research across these disciplines has allowed for extraordinary 
scientific and technological progress, ensuring continued economic 
growth, improvements in the design, implementation and evaluation of 
public education, strengthened national security, and the generation of 
cutting-edge new knowledge.
    Although psychologists receive funding from various programs within 
NSF, most core psychological research is supported by the Social, 
Behavioral and Economic Sciences Directorate (SBE), which focuses on 
the variables that determine human behavior across all ages, 
interactions among individuals and groups, and the development of 
social and economic systems. In addition to core behavioral research in 
cognitive neuroscience, human cognition and perception, learning and 
development, and social psychology, SBE will continue to invest funds 
to participate in special initiatives and cross-directorate programs 
that address vital national priorities.
    The Biological Sciences Directorate (BIO) at NSF also provides 
support for research psychologists who ask questions about the 
principles and mechanisms that govern life at the level of the genome 
and cell, or at the level of a whole individual, family or species. In 
previous testimony, APA has expressed concern about diminishing support 
for key behavioral research programs within this Directorate, most 
notably those focused on learning and cognition.
    The Computer and Information Science Engineering Directorate (CISE) 
is of particular importance given the emphasis from both Congress and 
the administration on emerging technology, artificial intelligence 
(AI), and autonomous vehicles. Psychology has an essential place within 
each of CISE's divisions. Regardless of the technology, human behavior 
plays an essential role in its design and implementation. NSF should 
receive support to allow full investment into the ambitious work 
proposed by NSF's 10 Big Ideas in addition to, and not in replacement 
of, the core research programs being done within the directorates.
Counter Specific Threats to Basic Science, NSF Merit Review, and the 
        Behavioral and Social Sciences
    Addressing questions about human behavior is as critical to our 
Nation's survival and well-being in a global context. Alongside APA, 
scientific and industry leaders, both private and public, continue to 
urge members of Congress to strongly support all individual scientific 
disciplines and NSF Directorates, and to avoid attacking individual, 
peer-reviewed grants funding behavioral and social science projects 
(including those of psychologists). Basic research, by nature, is aimed 
at increasing our body of knowledge to address both known and unknown 
challenges today and in the future. For example, basic psychological 
research today is essential for the continued development of AI, self-
driving vehicles, and other emerging technologies. Failing to support 
basic research, including behavioral and social science, today 
undermines our ability to confront the unforeseen challenges and 
opportunities of tomorrow.
                      department of justice (doj)
    APA is deeply committed to reforming the criminal justice system, 
supporting those with mental illness within the system, meeting the 
needs of victims of violence, and ensuring that the best scientific 
evidence is funded and used to improve programs and policies.
Support Evidence-Based Law Enforcement and Criminal Justice Activities
    APA specifically requests that the Committee provide:

  --$85 million for the Second Chance Act including $5 million to 
        support Children of Incarcerated Parents demonstration grants;
  --$25 million for Justice Reinvestment;
  --$94.5 million for Research, Evaluation, and Statistics within the 
        National Institute of Justice.
  --$80 million for Title II funding to states to promote delinquency 
        prevention;
  --$96 million for Title V delinquency prevention funding at the local 
        level; and
  --$30 million for supports for court-involved youth, including 
        behavioral health screening and assessment and alternatives to 
        detention.

    APA strongly supports continued efforts in Congress to reform the 
Federal criminal justice system. Most incarcerated individuals return 
from jail or prison to their communities; yet, an estimated 77 percent 
of former prisoners are rearrested within 5 years of release. This 
represents a systemic failure that Congress has taken initial steps to 
address by enacting the First Step Act. fiscal year 2020 appropriations 
for DOJ represent another avenue to reduce the burden of crime and 
incarceration on families and communities. APA urges the Committee to 
adopt a reform-minded approach in appropriations for the Bureau of 
Prisons and Office of Justice Programs.
    APA also urges the Committee to adequately fund OJP to support 
state and local justice reforms. Several states have provided 
leadership in reducing unnecessary incarceration, and OJP can help 
ensure other states gain the benefits of similar reforms. In addition, 
APA asks the Committee to provide strong funding for juvenile justice 
programming to support intervention in the lives of young people while 
the chances are highest for a healthy and productive developmental 
trajectory.
Address Mental Illness and Reduce Strain on Criminal Justice Systems
    APA urges the Committee to provide:

  --An additional $9.7 million for mental health staff at the Federal 
        Bureau of Prisons;
  --$20 million for changes to restrictive housing intended to provide 
        better alternatives, such as the model Secure Mental Health 
        Step-Down Program, for individuals with mental illness.
  --$31 million for the Justice and Mental Health Collaboration Program
  --$145 million to support the Comprehensive Opioid Abuse Program 
        (COAP).
  --$7.5 million for the national center to train law enforcement on 
        responses to individuals with mental illnesses or developmental 
        disabilities;
  --$2 million for the Missing Americans Alert Program as authorized 
        under Kevin and Avonte's Law, Division Q of Public Law 115-141; 
        and
  --$2 million to fund the Law Enforcement Mental Health and Wellness 
        Act.

    People with mental illness are overrepresented in the criminal 
justice system. APA strongly supports diversion from deeper levels of 
justice system involvement, when public safety allows, so that 
individuals with mental illness can obtain the care they need. 
Additionally, APA strongly encourages Congress to direct the Bureau of 
Justice Statistics to improve data collection on people with mental 
illness and substance use disorders in criminal justice systems, since 
currently available data is extremely outdated.
    To support important State and local government efforts across the 
Nation in addressing the high rate of mental and behavioral health 
needs among youth and adults in contact with criminal justice systems, 
APA also supports level funding for Drug Courts, Veterans Treatment 
Courts, and Residential Substance Abuse Treatment for State Prisoners.
    APA encourages the use of COAP funds to increase peer-to-peer 
support, create law enforcement partnerships with public health, 
behavioral health, and other social services, for the development of 
tools to support MAT and cognitive behavioral treatment in confinement, 
and to support the transition to community-based services upon release.
Support Victims of Violence
    To support the Office of Violence Against Women, APA requests:

  --$9 million for Protections and Services for Disabled Victims;
  --$9 million for the Elder Abuse Grant Program;
  --$5 million for Grants to Tribal Governments; $2 million for 
        Outreach to Underserved Populations;
  --$20 million for Grants to Combat Violent Crimes on College 
        Campuses; and $222 million for STOP Grants.

    The Violence Against Women Act (VAWA), which authorizes the OVW, is 
the Federal framework for the U.S. response to domestic and sexual 
violence. APA urges the Committee to consider the needs of underserved 
and marginalized populations. Racial and ethnic minorities, women with 
disabilities, individuals who identify as lesbian, gay, bisexual, or 
transgender, and other marginalized populations are at higher risk of 
victimization from domestic violence, dating violence, and sexual 
violence. APA asks the Committee to prioritize effective prevention and 
support around domestic and sexual violence for these populations. 
These programs are crucial in preventing further violence, helping 
victims find safety and support, and starting them on the path towards 
recovery.
Support Improved Police-Community Relations
    APA urges the Committee to continue funding the Office of Community 
Oriented Policing Services to support Federal, state, and local 
activities, by providing:

  --$10 million for the Community Policing Development Program;
  --$10 million for the Collaborative Reform Initiative; and
  --$5 million for the Innovations in Community Based Crime Reduction 
        Program.

    Psychological research has revealed effective strategies to enhance 
law enforcement and community relations, improve public safety, and 
reduce the risks of violence and aggression. These include the 
development of community-informed responses to violence, implementation 
of community-based policing implemented in a way that builds trust 
between police and the communities they serve, training on stereotypes 
and the effects of implicit bias, and programs that support the mental 
health and well-being of officers.

    [This statement was submitted by Amalia Corby, Senior Legislative 
and Federal Affairs Officer.]
                                 ______
                                 
  Prepared Statement of the American Society for Engineering Education
    national science foundation and national aeronautics and space 
                         administration funding
    Summary: This written testimony is submitted on behalf of the 
American Society for Engineering Education (ASEE) to the Senate 
Subcommittee on Commerce, Justice, Science, and Related Agencies for 
the official record. ASEE appreciates the Committee's support for the 
National Science Foundation (NSF) in fiscal year 2019 and asks you to 
robustly fund the agency in fiscal year 2020, including the Research 
and Related Activities and the Education and Human Resources accounts. 
ASEE joins the academic and scientific community in requesting support 
of at least $9 billion for NSF in fiscal year 2020 to help alleviate 
impacts of historical underinvestment at NSF and advance both core 
research and education activities and NSF's Big Ideas for Future 
Investment. Additionally, ASEE supports continuation of funding at the 
National Aeronautics and Space Administration (NASA) dedicated to the 
Space Technology Mission Directorate (STMD), which supports engineers 
and scientists in developing technology to advance science and space 
missions in the national interest, and the Office of STEM Engagement, 
which supports and coordinates NASA educational efforts in engineering 
and STEM.
    Written Testimony: The American Society for Engineering Education 
(ASEE) is dedicated to advancing engineering and engineering technology 
education and research, and is the only society representing the 
country's schools and colleges of engineering and engineering 
technology. Membership includes over 12,000 individuals hailing from 
all disciplines of engineering and engineering technology and includes 
educators, researchers, and students as well as industry and government 
representatives. The U.S. college-educated engineering workforce 
numbered 1.7 million people in 2015,\1\ the most jobs of any STEM 
discipline, and the demand for engineering professionals continues to 
grow. As the pre-eminent authority on the education of engineering 
professionals, ASEE works to develop the future engineering and 
technology workforce, expand technological literacy, and convene 
academic and corporate stakeholders to advance innovation and sound 
policy.
---------------------------------------------------------------------------
    \1\ National Science Board. 2018. Science and Engineering 
Indicators 2018. NSB-2018-1. Alexandria, VA: National Science 
Foundation.
---------------------------------------------------------------------------
                      national science foundation
    Engineering shapes our Nation and powers our innovation ecosystem. 
National Science Foundation (NSF) basic research, conducted in 
engineering schools and colleges around the country, catalyzes new 
industries and revolutionary advances. A workforce of well-trained 
engineers in industry and government takes those discoveries and 
develops innovative new technologies to improve our future. This system 
is essential to growth and innovation across our economy, and is 
helping to solve challenges in health, energy, and national security. 
NSF is an essential partner, funding basic engineering and engineering 
education research at universities and supporting students to enable 
access to engineering education.
    ASEE would like to commend you for your commitment to funding NSF 
and for providing critical increases in fiscal years 2018 and 2019. 
Prior to these funding boosts, NSF received flat funding for several 
years, challenging the agency's ability to spur innovative discoveries 
and research, particularly as the buying power decreased. Due to budget 
limitations, NSF rejected about $3.92 billion in cutting edge research 
proposals rated ``very good or higher'' according to the agency's merit 
criteria in fiscal year 2017. Tremendous amounts of additional research 
and development could be undertaken, leading to novel and 
transformative discoveries, if more funding were available. Increasing 
NSF funding would help the U.S. stay the global innovation leader, as 
other countries have been accelerating research funding. The National 
Science Board predicted that in 2018 China surpassed U.S. investments 
in research and development. ASEE is also concerned that the shutdown 
significantly set back NSF research and education efforts. Increased 
support is needed for the agency to catch up on crucial initiatives put 
on hold.
    ASEE joins the research and higher education community in 
requesting that the Committee fund NSF at $9 billion in fiscal year 
2020 to continue the momentum from increased funding in fiscal year 
2019 to drive advances in research and education and ensure the U.S. 
retains global competitiveness and scientific leadership.
    Investments in engineering education and research from NSF are 
essential for having a workforce trained and ready to contribute to 
industry, government, and academia. NSF is a major supporter of 
engineering research and workforce initiatives funding 36 percent of 
engineering and 85 percent of computer science academic fundamental 
research. NSF-funded advancements touch every corner of our lives and 
economy, from wireless systems to advanced manufacturing, and from new 
tools to combat brain diseases to technologies to ensure our 
cybersecurity. NSF supports engineering education at all levels, 
ensuring the next generation of the U.S. engineering workforce is 
appropriately prepared to contribute and innovate and that domestic 
students are attracted to careers in engineering and engineering 
technology.
    ASEE strongly supports NSF's Big Ideas for Future Investment that 
dramatically propel engineering research and education forward while 
revolutionizing the human-technology frontier, medicine, quantum 
communications, and other areas. We urge continued investment in 
INCLUDES \2\ to move the needle nationally on broadening participation. 
NSF needs additional investment to adequately pursue these exciting, 
new interdisciplinary and transformative ideas while investing in core 
research activities that power our research ecosystem. These core 
programs have stagnated for several years, threating research 
innovation.
---------------------------------------------------------------------------
    \2\ Inclusion across the Nation of Communities of Learners of 
Underrepresented Discoverers in Engineering and Science.
---------------------------------------------------------------------------
    NSF-funded research catalyzes fundamental advances that are 
utilized for national security applications while engineers trained 
with NSF funding become key components of the national security 
workforce and industrial base. Our national security ecosystem depends 
on healthy NSF research and workforce support.
    The NSF Directorate for Engineering (ENG) provides critical support 
for engineering education and research across the breadth of the 
discipline. These investments have dual outcomes of training future 
engineers that will discover tomorrow's innovations, all while 
furthering today's cutting-edge research. Engineering investments at 
NSF provide critical advancements in areas such as resilient 
infrastructure, advanced materials and manufacturing, and 
bioengineering, in addition to equipping students with the skills they 
need to be the next generation of technological leaders. Divisions such 
as Engineering Education and Centers (EEC) support university research 
and Engineering Research Centers. ENG grantees have robust partnerships 
with industry and provide experiential opportunities fundamental to 
engineering education.
    The NSF Directorate for Computer and Information Science and 
Engineering also plays a key role supporting engineering education and 
research, particularly within the Division of Information & Intelligent 
Systems, which supports efforts at the frontiers of information 
technology, data science, artificial intelligence, among other areas. 
These investments are critical as we move into a world even more 
reliant on human-technology interactions.
    ASEE strongly supports NSF Education and Human Resources (EHR) 
funding to foster inclusive and effective learning and learning 
environments, though growth to this crucial NSF directorate has been 
neglected for several years. The STEM workforce, particularly 
engineers, technologists, and computer scientists, drives our 
innovation and economic development. We need to fully develop all of 
our nation's human talent in order to tackle pressing problems. Access 
to STEM experiences and skills are a critical aspect of developing 
well-rounded citizens, technological literacy, and the future STEM 
workforce. ASEE supports EHR programs including Improving Undergraduate 
STEM Education (IUSE), which is critical for preparing professional 
engineers and enhancing engineering educational experiences to broaden 
participation and retention in engineering and engineering technology 
programs, and Innovations in Graduate Education (IGE) to revolutionize 
graduate studies to best prepare students for STEM careers.
    NSF plays a key role ensuring the development of new tools for 
teaching engineering design and analysis skills, which are under-taught 
in today's K-12 classrooms. As noted in the 2009 National Academies 
report Engineering in K-12 Education, engineering education has 
received little attention yet has the potential to improve student 
learning and achievement in other areas of STEM, increase awareness of 
engineering careers, and increase technological literacy. Engineering's 
focus on design and analysis enhances problem solving, teaches students 
new ways to approach challenges, and encourages students to connect 
science and math topics to real-world applications- all skills critical 
to the future technical workforce. ASEE supports programs to fill 
workforce needs including Advanced Technical Education (ATE) that 
prepares advanced technicians for America's high-skills workforce and 
graduate fellowships to create a pipeline of students knowledgeable and 
excited about engineering.
             national aeronautics and space administration
    ASEE is concerned with the Administration's proposal to consolidate 
the Space Technology Mission Directorate (STMD) of the National 
Aeronautics and Space Administration (NASA) and redirect its activities 
solely towards human exploration. Of importance to ASEE, STMD 
activities support the workforce development pipeline of future space 
engineers and technologists by engaging directly with the academic 
community through early career faculty programs, early stage research 
grants, and university-led multidisciplinary research institutes. 
STMD's broad portfolio of activities helps to meet NASA's science 
objectives, establishes new commercial and academic partnerships, and 
stimulates the growth of the Nation's technology sector. STMD programs 
fill significant capability gaps for NASA and better position the 
agency to meet its long-term strategic goals in areas across all its 
directorates ranging from propulsion and power generation to materials 
science and high-performance computing. ASEE urges the Committee to 
block the administration's proposal and protect STMD's ability to focus 
on a broad array of NASA technology challenges, continue its engagement 
with the academic and private sectors, and keep its long-term focus 
beyond specific near-term mission goals. ASEE joins the research 
community in requesting $973 million for STMD in fiscal year 2020.
    ASEE is also concerned with the administration's proposed 
elimination of NASA's Office of STEM Engagement, renamed from the NASA 
Office of Education, and asks that the Committee sustain funding for 
this office in fiscal year 2020 and beyond. NASA STEM Engagement 
programs inspire students to pursue engineering, science, and 
technology careers, and this office plays a vital role coordinating 
STEM education programs throughout the agency, including those at NASA 
centers. ASEE supports the continuation of the National Space Grant 
College and Fellowship Program (Space Grant), which supports university 
consortia in all 50 States, funding fellowships for engineering and 
other STEM students, while also offering important resources for 
faculty professional development and strengthening curricula. ASEE is 
also supportive of initiatives at the NASA Office of STEM Engagement to 
broaden participation in STEM and to bring engineering design and 
analysis experiences to K-12 students.
                               conclusion
    NSF education and research investments have truly transformed our 
world through engineering breakthroughs such as the Internet, fiber-
optics, and medical imaging technology. These investments keep our 
communities safe, lower healthcare costs, and spur our economy. Today, 
engineering research is opening possibilities through advances in areas 
such as artificial intelligence, biosensors, and advanced materials. We 
ask that you robustly fund NSF at $9 billion to support critical 
education and research programs. In addition, we urge you to continue 
both the STMD and the Office of STEM Engagement at NASA in fiscal year 
2020. Thank you for the opportunity to submit this testimony.

    [This statement was submitted by Stephanie Farrell, President, and 
Norman Fortenberry, Executive Director.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony on fiscal year 
2020 funding priorities for the U.S. Department of Commerce (DOC), and 
the U.S. Department of Justice (DOJ).
                         department of commerce
John H. Prescott Marine Mammal Rescue Assistance Grant Program: $4 
        million
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
(Prescott Grant Program), a program under the National Oceanic and 
Atmospheric Administration's (NOAA) National Marine Fisheries Service 
(NMFS), provides competitive grants to marine mammal stranding network 
organizations to do the following: (1) rescue and rehabilitate sick, 
injured, or distressed live marine mammals, and (2) investigate the 
events surrounding and determine the cause of death or injury to marine 
mammals. Over the past 18 years, the Prescott Grant Program has been 
vital to protecting and recovering marine mammals across the country 
while also generating critical information regarding marine mammals and 
their environment. As the sole source of Federal funding for the 
National Marine Mammal Stranding Network, which is comprised of over 90 
member organizations within 23 States, robust funding is required for 
the Prescott Grant Program to enable it to continue its vital work.
ESA and MMPA Permitting Capacity: $2.5 million
    The NOAA fiscal year 2020 budget proposes to reduce the funding 
allocated to these efforts by $2.599 million. As the agency 
acknowledges, this will decrease the resources available to NMFS' 
consultation and permitting capacity, which supports requirements under 
the Endangered Species Act (ESA) and the Marine Mammal Protection Act 
(MMPA). This comes at the same time that the agency is projecting an 
improved response for ESA Section 7 consultations, from 50 days in 
fiscal year 2019 to 47 days in fiscal year 2020. It is hard to see how 
that reduction in time can be accomplished with reduced resources.
North Atlantic Right Whale-Related Research and Development: $5 million
    With as few as 420 remaining right whales, NMFS' priority to 
``investigate and develop measures to mitigate threats to the recovery 
of North Atlantic right whales'' deserves our full support.\1\ However, 
the administration's fiscal year 2020 budget request eliminating the $1 
million appropriated in fiscal year 2019 for right whale research and 
development directly contradicts and undermines that priority.
---------------------------------------------------------------------------
    \1\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration, National Marine Fisheries Service (2019). NOAA 
Fisheries Priorities and Annual Guidance 2019. Retrieved from https://
www.fisheries.noaa.gov/resource/document/noaa-fisheries-priorities-and-
annual-guidance-2019.
---------------------------------------------------------------------------
    The greatest threats to the survival of right whales are fishing 
gear entanglements and vessel strikes. Right whales are extremely 
vulnerable to being caught in the vertical buoy lines used in lobster 
and crab trapping gear. Entanglement can lead to drowning, reduced 
mobility, and, in some cases, a long, painful death from starvation. 
Ships also collide with right whales, causing deaths or serious 
injuries, such as blunt force trauma, propeller cuts, and broken bones. 
With this in mind, we respectfully request that you appropriate $5 
million to NMFS for North Atlantic right whale-related research and 
development for fiscal year 20 in order to facilitate effective and 
immediate conservation action.
Unusual Mortality Event Fund: $4 million
    Marine mammals are important indicator species of ocean health. 
Monitoring the health of marine mammals, especially during an Unusual 
Mortality Event (UME), can reveal emerging threats, potential impacts 
of human activities, and the effectiveness of management actions. A UME 
is defined as ``a stranding that is unexpected; involves a significant 
die-off of any marine mammal population; and demands immediate 
response.'' NMFS currently ovesees nine active UMEs (Northeast 
pinnipeds, Southwest Florida bottlenose dolphins, Atlantic minke 
whales, North Atlantic right whales, Atlantic humpback whales, 
Guadelupe fur seals, Florida manatees, California sea lions, and Texas 
bottlenose dolphins). Although Congress created this fund in 1992, it 
allocated monies to the fund only in 2005; any funding for UMEs has 
been though voluntary contributions. In light of the growing number of 
UMEs, we request an appropriation in the amount of $4 million.
Alaska Marine Mammal Observer Program (AMMOP): $4 million
    Mandated by the MMPA, NMFS must measure and report the effects of 
commercial fisheries on marine mammal stocks. One way in which NMFS 
complies with this law is through the Observer program. These programs 
provide vital independent third-party data; the NMFS website states, 
``NOAA Fisheries has determined that observer programs are the best 
means of obtaining accurate and objective data for determining rates of 
marine mammal takes in fisheries.'' \2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration, National Marine Fisheries Service. Alaska Marine Mammal 
Observer Program. Retrieved from https://www.fisheries.noaa.gov/alaska/
fisheries-observers/alaska-marine-mammal-observer-program.
---------------------------------------------------------------------------
    Alaska produces more than half of the fish caught in waters off the 
coast of the United States; it is therefore troubling that NMFS is not 
operating the AMMOP ``due to a lack of available resources to fund 
additional observations of the southeast Alaska salmon drift gillnet 
fishery.'' \3\ To remedy this shortfall in funding, and to restore the 
essential operations of AMMOP, we ask for $4 million to the program, 
the same amount the Adminstration requests for the North Pacific 
Fishery Observer Fund for fiscal year 2020.
---------------------------------------------------------------------------
    \3\ U.S. Department of Commerce, National Oceanic and Atmospheric 
Administration, National Marine Fisheries Service. Alaska Marine Mammal 
Observer Program. Retrieved from https://www.fisheries.noaa.gov/alaska/
fisheries-observers/alaska-marine-mammal-observer-program.
---------------------------------------------------------------------------
Seafood Import Monitoring Program (SIMP): $3 million
    It is promising to note that for fiscal year 20, the Administration 
has added nine new positions to the SIMP program and requested $1.593 
million in funds, an increase from the $1.2 million in fiscal year 2019 
that was used for SIMP program implementation. Given the scope and 
difficulty of tracking fraud; preventing illegal, unreported, and 
unregulated (IUU) fishing; and keeping the resulting seafood products 
from entering U.S. commerce, additional funding is essential. The 
program initially oversaw imports of 11 species, including sharks and 
sea cucumbers, two marine species that are increasingly threatened by 
IUU fishing. In 2019, two additional species, shrimp and abalone, 
entered SIMP, thereby doubling the volume of imported products covered 
by SIMP. Though the administration's proposal is a welcome start, we 
request an increase to $3 million in order to ensure full enforcement 
of SIMP.
Marine Mammal Commission (MMC): $5.25 million
    The Marine Mammal Commission (MMC) is an independent Federal agency 
established by Congress in 1972 under the MMPA. Responsible for 
overseeing the proper implementation of the MMPA, the MMC provides 
comprehensive, independent, science-based oversight of all Federal and 
international policy and management actions affecting marine mammals. 
The MMC's work is crucial for maintaining healthy populations of marine 
mammals, including whales, manatees, dolphins, seals, sea otters, 
walruses, and polar bears, and ensuring their survival for generations 
to come. Additionally, the MMC seeks to ensure that Alaska Natives can 
meet their subsistence needs through hunting of marine mammals.
    Unwisely, the administration seeks to eliminate the Commission. Not 
only do we strongly oppose such a move, but we also recommend 
increasing MMC funding. Since fiscal year 2015, the MMC has been funded 
at a flat level of $3.43 million--this level of funding translates to 
about one penny per American per yer. However, since that time, the MMC 
has absorbed significant fixed costs, leading to reduced discretionary 
funding for its core functions by roughly 53 percent ($1.82 million). 
In order to restore the Commission to the discretionary funding level 
it had in fiscal year 2015, $5.25 million is needed. This level of 
funding will better enable the MMC to fulfill its signfiicant 
obligations as outlined in the MMPA.
Cooperative Enforcement Program: $18.279 million
    The NOAA Fisheries Cooperative Enforcement Program is aimed at 
increasing living marine resource conservation, endangered species 
protection, and critical habitat enforcement. The program is based on 
Cooperative Enforcement Agreements, which authorize State and U.S. 
territorial marine conservation law enforcement officers to enforce 
Federal laws and regulations, and on Joint Enforcement Agreements 
(JEAs), which include transfers of funds to State and U.S. territorial 
law enforcement agencies to perform law enforcement services in support 
of Federal regulations such as the ESA, MMPA, the Magnuson-Stevens 
Fisheries Conservation and Management Act, and the Lacey Act. The 
fiscal year 2020 budget proposes to eliminate $18.279 million in 
funding for this program. As a result, NOAA will be unable to implement 
JEAs for 27 States and U.S. territories, significantly hampering law 
enforcement efforts. Given the importance of this enforcement work, we 
request maintaining this funding.
Galveston Sea Turtle Facility
    In the summer of 2018, NOAA announced that the Galveston Sea Turtle 
Facility would close due to ``budget constraints.'' This facility does 
life-saving work by rescuing and rehabilitating threatened and 
endangered sea turtles, and it is also the only facility in the U.S. 
with a sea turtle captive rearing program that allows for testing of 
Turtle Excluder Devices (TEDs) for fishing nets, primarily shrimp 
trawlers. TEDs are metal grates inserted into shrimp nets that allow 
sea turtles and other ocean wildlife to escape. TEDs are a simple 
solution to ensure target fish and shrimp species are more effectively 
and sustainably caught by preventing larger marine species from 
accidently getting ensnared and dying. Using TEDs benefits sea turtles, 
fishermen, and the general public--these devices have the potential to 
save thousands of sea turtles and other ecologically and economically 
important marine species, reduce millions of pounds of wasted seafood, 
open new markets to U.S. shrimpers, boost nature-based tourism, and 
leave more fish in the sea for other fishermen. For example, in 2013, 
the Gulf of Mexico shrimp trawl fishery discarded over 242 million 
pounds of fish--including species popular with recreational anglers, 
like red snapper, red and black drum, and Spanish and King mackerel. 
This wasted seafood equated to over $357 million in value for 
commercial fisheries. The Galveston facility requires only $600-800K/
year to stay operational, a mere fraction of NOAA's over-$3 billion 
annual budget.
    Requested Report Language: The Committee directs the National 
Marine Fisheries Service to continue scientifically advisable 
operations of and full funding for ongoing work on endangered and 
threatened sea turtle conservation, including captive sea turtle 
rearing and Turtle Excluder Device research and certification to reduce 
sea turtle bycatch. The agency has committed to Congress that it would 
continue its sea turtle stranding and rehabilitation programs until it 
found suitable non-governmental partners to take over that program in 
full. NMFS is therefore directed to maintain adequate capacity of the 
sea turtle stranding and rehabilitation program until it can assure 
Congress that those critical activities have been fully transferred to 
partner organizations.
                         department of justice
Protecting Animals With Shelter (PAWS)
    Violence in the home can be directed at companion animals as well 
as at the human members of the household. Abusers threaten, harm, and 
even kill pets to frighten and control their victims. Few domestic 
violence survivors have access to shelters that can protect them and 
their pets; in fact, large numbers delay their escape out of fear for 
the safety of the pets left behind. Congress has wisely sought to 
address this shortage of resources. Section 12502 of Public Law 115-
334, the Agriculture Improvement Act of 2018, authorizes a grant 
program to provide emergency and transitional shelter and housing 
options for domestic violence survivors with companion animals. It is 
urgent that Congress now appropriate the authorized funding and direct 
the agencies involved to take all necessary steps to implement the 
program. For that reason, we ask the subcommittee to include the 
following directive to the Department of Justice:
    Requested Bill Language: The Committee urges the Attorney General 
to enter into consultations with the Secretary of Agriculture as soon 
as possible, and enter into any memoranda of understanding as directed, 
in order to establish during fiscal year 2020 the requirements for 
grant application and execution under Section 12502 of Public Law 115-
334, the Agriculture Improvement Act of 2018, to provide emergency and 
transitional shelter and housing options for domestic violence 
survivors with companion animals.

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
    Prepared Statement of the Antarctic and Southern Ocean Coalition
                            i. introduction
    Thank you for including this statement in the hearing record for 
the fiscal year 2020 budget for the Department of Commerce, National 
Oceanic and Atmospheric Administration (NOAA). This statement is in 
support of continued funding for the Antarctic Ecosystem Research 
Division (AERD), which implements the Antarctic Marine Living Resources 
(AMLR) Program of NOAA.
    I am providing this testimony on behalf of the Antarctic and 
Southern Ocean Coalition (ASOC), which represents non-governmental 
organizations interested in the protection of Antarctica and its 
surrounding ocean, including the World Wide Fund for Nature (WWF), 
Greenpeace, The Pew Charitable Trusts, and others.
    The fiscal year 2020 Presidential budget request zeroes out the 
funding for NOAA's Antarctic Ecosystem Research Program, which 
implements the Antarctic Marine Living Resources (AMLR) Program. This 
would cause the United States to lose influence and scientific 
credibility in the Antarctic governance system. Congress has supported 
this funding for decades to fulfill obligations under an international 
treaty as well as under domestic legislation. ASOC and its member 
organizations strongly encourage Congress to protect AMLR funding.
    The AMLR program has a strong track record of scientific excellence 
and has always enjoyed bipartisan congressional support. Since its 
inception in 1986, Congress has ensured funding for AMLR, supporting 
its staff and scientists producing vital Southern Ocean research. We 
urge the Senate Appropriations Subcommittee on Commerce, Justice, 
Science, and Related Agencies to protect this funding.
    ii. the antarctic marine living resources program (amlr program)
    The NOAA Antarctic Ecosystem Research Division AMLR program is a 
vital program fulfilling NOAA's requirement of providing scientific 
advice that supports the United States' interests in the Southern 
Ocean.
    Realizing the importance of Antarctica to the American public, 
Congress signed the U.S. Antarctic Marine Living Resources (AMLR) 
Convention Act of 1984. This Act directed NOAA to implement a research 
program to support and facilitate implementation of an international 
treaty, the Convention on the Conservation of Antarctic Marine Living 
Resources (CAMLR Convention), of which the United States is a 
signatory. The program that was subsequently created is known as the 
United States AMLR Program. The AMLR program has been implemented by 
NOAA's National Marine Fisheries Service (NMFS) since 1987. Today, the 
program is implemented by the Antarctic Ecosystem Research Division 
(AERD). Research results are submitted to the Commission on the 
Conservation of Antarctic Marine Living Resources (CCAMLR), the body 
charged with implementing the CAMLR Convention.
    With a small budget and staff, AMLR provides a significant 
contribution to the science-based discussions and decisionmaking of 
CCAMLR. A recent comprehensive analysis of the outputs of national 
Antarctic research programs found that the United States was by far the 
most productive in terms of research publication records.\1\ Within 
that, the AMLR Program has contributed to over 30 peer-reviewed 
publications since 2018. In addition, with only 12 staff, AMLR 
submitted 20 papers to the CCAMLR Scientific Committee and its working 
groups in 2018, compared to 27 papers submitted by the more than 25 
staff of the British Antarctic Survey.
---------------------------------------------------------------------------
    \1\ Andrew D. Gray & Kevin A. Hughes (2016) Demonstration of 
``substantial research activity'' to acquire consultative status under 
the Antarctic Treaty, Polar Research, 35:1, 34061, DOI: 10.3402/
polar.v35.34061.
---------------------------------------------------------------------------
    The AMLR Program was the first national research program to 
investigate the State of Southern Ocean fish stocks. The first AMLR 
research cruise confirmed that fishing operations were having adverse 
impacts on marine life, and that several fish stocks were being 
exploited at rates above those levels which allow replacement of the 
stock. Several species had been so heavily fished that their 
populations were less than 10 percent of their original size. This work 
enabled CCAMLR to take swift action to prevent further overfishing.
    Another vital contribution to CCAMLR from the AMLR Program is their 
long-term monitoring program examining changes to the Southern Ocean 
ecosystem over several decades. Long-term data sets such as these are 
critical for understanding how ecosystems respond to global 
environmental changes and human pressures over time, with implications 
for global climate systems, industrial fishing, tourism, and 
geopolitics. Eliminating funding for the AMLR program would end this 
data collection, disrupting over 20 years of work and ending research 
that international teams of scientists and managers rely on.
    The United States is seen as an international leader within CCAMLR. 
The United States' scientific delegation to CCAMLR is led by AMLR 
Program staff who submit their research results to the CCAMLR process. 
The United States is a strong voice for the adoption of Antarctic 
fisheries management measures that ensure the precautionary protection 
of Southern Ocean food webs.
    The AMLR Program was instrumental in the process of designating the 
Ross Sea Marine Protected Area (MPA), the largest MPA in the world and 
an important international conservation legacy for the United States. 
With counterparts from New Zealand, scientists within the AMLR Program 
developed the science underpinning the Ross Sea MPA, and they are 
leading the Ross Sea MPA research and monitoring program to ensure that 
the MPA continues to meet its conservation objectives.

    Key research topics for the AMLR Program are highlighted below:

    Antarctic krill form the basis of the Antarctic food web and 
provide a critical carbon sink in the Southern Ocean. The AMLR Program 
conducts annual studies to estimate krill population dynamics. The 
international research community relies on these surveys to monitor the 
effects of the krill fishery, link these effects to changes in predator 
populations, and understand climate change.

    Stock assessments estimate the status of Antarctic species subject 
to fishing. AMLR scientists participate with other CCAMLR Member nation 
scientists to review fisheries issues in the Southern Ocean and develop 
new assessment frameworks and models that are used to establish catch 
limits.

    Climate change research helps to establish an understanding of how 
species and ecosystems are responding to climate change in the 
Antarctic. Long-term research done by the AMLR Program is extremely 
valuable in analyzing trends over time. The research also contributes 
to a better understanding of global climate systems and warming 
impacts.

    Penguins are important indicators of ecosystem health. AMLR 
researchers have monitored aspects of the breeding biology and foraging 
ecology of Adelie, gentoo and chinstrap penguin populations since 1977, 
and use this data to monitor and predict changes to the krill resources 
and inform CCAMLR fisheries decisionmaking.
              iii. fiscal year 2020 appropriations request
    Antarctica's ecosystems have long remained healthy due in large 
part to the United States' commitment to conducting research in support 
of its obligations. The fiscal year 2020 Appropriations Request would 
eliminate the entire $2.9M budget for the AMLR Program. This would have 
several consequences for the position of the United States in CCAMLR, 
including a loss of scientific credibility and the ability to influence 
management decisions. Removing funding for AMLR's groundbreaking 
research would be catastrophic for the international community that 
relies on this research, and have an impact on CCAMLR's ability to 
implement science-based management decisions. Moreover, other countries 
such as China are increasing their investment in Antarctic research and 
their presence within CCAMLR; by ending the AMLR Program, United 
States' influence in the region would be diminished.
    The United States is a world leader in polar governance, and the 
Antarctic is often seen as a potential model for future Arctic 
governance solutions. As the global community comes together to debate 
international environmental governance, diminishing the influence and 
participation of the United States in these conversations would be 
shortsighted. The AMLR Program has been supported by Congress for 
decades as a cost-effective means of fulfilling international treaty 
obligations. Protecting this funding would demonstrate that the United 
States intends to continue playing an active role in the governance of 
the Antarctic region.
                   iv. ccamlr background and history
    The United States was one of the initial signatories to the 
landmark Antarctic Treaty in 1959. The Antarctic Treaty declared the 
Antarctic continent a place of peace and science, providing space for 
international scientific cooperation at the height of the Cold War. 
Subsequently, Antarctic Treaty Parties ratified the Convention on the 
Conservation of Antarctic Marine Living Resources (CAMLR Convention) in 
1980 to create a governance regime in the Southern Ocean. The 
Convention created an international organization, the Commission on the 
Conservation Antarctic Marine Living Resources (CCAMLR). CCAMLR meets 
annually to determine appropriate management rules to ensure the 
protection of Southern Ocean ecosystems.
    CCAMLR is widely recognized as a leader in high seas governance and 
is seen as a model for other international organizations. The CAMLR 
Convention requires that any fishing that occurs in its jurisdictional 
waters must meet several conservation principles which ensure the long-
term health of the fished population and its ecosystems. To do so 
requires a precautionary, ecosystem-based approach to fisheries 
management that is supported by robust science. In recent years, CCAMLR 
has committed to developing a system of marine protected areas (MPAs) 
in the Southern Ocean to give further protections to the region's 
biodiversity. The Ross Sea MPA, supported by the United States, was 
created by CCAMLR in 2016 and is the world's largest high-seas MPA.
    The United States has been a leader in Antarctic and Southern Ocean 
governance since its inception. It played a key role in the drafting of 
the CAMLR Convention, and has been an active Member of CCAMLR for 
almost four decades. From overseeing implementation of the Convention, 
to cracking down on illegal, unreported and unregulated (IUU) fishing, 
to conducting relevant scientific research, the United States is a key 
player in ensuring CCAMLR's success.

    [This statement was submitted by Claire Christian, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of the Association of Science-Technology Centers, 
 American Alliance of Museums, Association of Children's Museums, and 
                Association of Science Museum Directors
                               regarding

Federal Science Funding and the National Science Foundation (NSF), the 
    National Oceanic and Atmospheric Administration (NOAA), and the 
          National Aeronautics and Space Administration (NASA)

    Chairman Moran, Ranking Member Shaheen, and Members of the 
Subcommittee:

    Thank you for accepting this statement submitted by the Association 
of Science-Technology Centers (ASTC), the American Alliance of Museums 
(AAM), the Association of Children's Museums (ACM), and the Association 
of Science Museum Directors (ASMD). We are Cristin Dorgelo, President 
and CEO of ASTC; Laura L. Lott, President and CEO of AAM; Laura Huerta 
Migus, Executive Director of ACM; and Bonnie Styles, Executive Director 
of ASMD.
    We appreciate the opportunity to present the views of our 
associations to the subcommittee for its consideration as it prepares 
to write the fiscal year 2020 Commerce, Justice, Science, and Related 
Agencies Appropriations bill, particularly regarding the National 
Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), and the National Aeronautics and Space 
Administration (NASA).
    Our associations represent more than 5,000 member organizations in 
every State and district in America, including science centers and 
museums, nature centers, aquariums, zoos, planetariums, botanical 
gardens, and natural history and children's museums, as well as 
companies, consultants, and other organizations that share an interest 
in science education and public engagement in science.
    Taken together, our national reach is a vital resource for 
fostering rich public engagement in the importance of science and many 
other subjects and disciplines towards building a bright future and 
opportunity for all.
    Our place-based organizations are leading institutions in the 
efforts to promote education in science, technology, engineering, and 
mathematics (STEM), developing rich, innovative, and effective science-
learning experiences. We are helping to create the future STEM 
workforce and inspiring people of all ages about the wonders and the 
meaning of science in their lives. And our members are trusted and 
valued by their communities--a recent national public opinion poll, 
showed that 95 percent of voters would approve of lawmakers who acted 
to support museums and 96 percent of voters want Federal funding for 
museums to be maintained or increased (Museums and Public Opinion, 
Wilkening, S. and AAM, 2018).
    In the past, we have testified on behalf of the specific funding 
numbers for programs under this subcommittee's jurisdiction. But today 
we also want to commend this subcommittee through a look at the bigger 
picture--the overall science budget of the U.S. Federal Government.
    As you are well aware, for the past 2 years the administration 
proposed significant cuts to the budgets of a number of domestic 
agencies. Included in the list of impacted programs were a number of 
science agencies and science programs. Similar cuts have been proposed 
in the administration's fiscal year 2020 budget.
    We want to thank you for not allowing the cuts to move forward. We 
urge you to reject them in the fiscal year 2020 budget as well. Of 
course, the first hurdle to cross to fully fund all the programs is to 
raise or repeal the budget caps. To do otherwise will result in 
devastating impacts to America's scientific enterprise and force you to 
forego critical investments in our students at a time when we must 
equip all Americans with the skills they need to thrive in the future 
workforce.
    Taken together, the investments being made by the U.S. Federal 
Government in science and research is larger than ever. On behalf of 
the all the members of ASTC, AAM, ACM, and ASMD--and the communities 
they serve--we want to say thank you, with gratitude for a job well 
done.
    Our associations and the member organizations we represent in 
America's communities were active and vocal supporters of a robust 
budget for science and for STEM education budget last year. Many of our 
institutions hosted science days, participated in community 
celebrations of science, and reached out to their elected 
representatives to make the case for the importance of science and STEM 
education. This year and into the future, our associations will all 
continue to advocate for robust research, STEM education, and science 
engagement funding at every opportunity.
    In December 2018, a new 5-year Federal STEM Education Strategic 
Plan was published by the interagency National Science and Technology 
Council's Committee on STEM Education. The new plan reflects a vital 
roadmap for public-private cooperation to advance STEM education, and 
we encourage the subcommittee to fund programs that support our museum 
members in making further progress towards the plan's aspirational 
goals, which include:

  --Building strong foundations for STEM literacy by ensuring that 
        every American has the opportunity to master basic STEM 
        concepts, including computational thinking, and to become 
        digitally literate.
  --Increasing diversity, equity, and inclusion in STEM and providing 
        all Americans with lifelong access to high-quality STEM 
        education, especially those historically underserved and 
        underrepresented in STEM fields and employment.
  --Preparing the STEM workforce for the future by creating authentic 
        learning experiences that encourage and prepare learners to 
        pursue STEM careers.

    School-aged youth spend 80 percent of their time outside of the 
classroom. Research has consistently shown that learning experiences 
outside of the formal classroom are vitally important to youth's future 
interest and capacity in STEM (National Research Council, 2006, 2009, 
2015).
    Every day, our science centers, museums, zoos, and aquariums open 
their doors for students and the public. Every day, throughout the 
United States, they reach out to students of underserved populations in 
both urban and rural areas, so that quality STEM education can be 
accessed by every American student. Every day, they welcome girls and 
youth from backgrounds historically underrepresented in STEM fields, 
providing positive examples and experiential learning opportunities so 
that these youth know there is a place for them in the scientific 
community.
    Every day, our museums provide educational experiences with 
science, technology, and other subjects in interesting, innovative, and 
effective ways--including through transdisciplinary approaches that 
connect youth with how science, technology, engineering, and math 
relate to community issues and real-world problem solving. Every day, 
staff at our museums train teachers on effective science teaching 
practices and develop curriculum aligned with Next Generation Science 
Standards in partnership with local schools. Every day, they open their 
doors and reach out to every student in their communities, to ensure 
that our Nation has the trained STEM workforce we will need for the 
future.
    With continued congressional support for programs that support 
informal STEM education, afterschool, out-of-school, and summer 
learning, and public engagement in science programs, you will make our 
efforts more effective.
    Turning to specifics, we strongly urge the subcommittee to provide 
$9 billion for the National Science Foundation and these specific 
levels of support for programs within the agency:

  --$910 million for the Directorate for Education and Human Resources 
        (EHR)
  --$62.5 million for Advanced Informal STEM Learning (AISL)
  --$51.9 million for Science, Technology, Engineering, and Mathematics 
        + Computing Partnerships (STEM+C)

    In addition to the specific NSF programs mentioned above, we urge 
the subcommittee to provide funding for the NSF Directorates for 
Biological Sciences; Education and Human Resources; Geosciences; and 
Social, Behavioral and Economic Sciences to continue to support museum 
research, collections, and programs that are key to lifelong STEM 
education.
    We also recommend the subcommittee fully fund museums to 
participate in informal STEM education and science engagement programs 
across Federal science mission agencies, specifically at the National 
Aeronautics and Space Administration (NASA) and the National Oceanic 
and Atmospheric Administration (NOAA).

    For programs within NASA, we recommend the subcommittee provide:

  --$115 million for NASA's STEM Engagement programs
  --At least $15 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers (CP4SMPVC) 
        within the STEM Education and Accountability Projects

    Within the budget for NOAA, we recommend the subcommittee maintain 
the total budget for the Office of Education at $28 million.
    In short, we strongly urge you to again reject the administration's 
proposals to cut these programs and to maintain funding levels in 
fiscal year 2020 in a new, bipartisan budget deal that raises the 
spending caps and supports American innovation through critical 
investments in science, advancing science education, and public 
engagement in science.
    We continue to thank this subcommittee for all its support of a 
robust science budget. You have demonstrated your support for crucial 
programs that promote STEM education for our Nation's students. Like 
our organizations, you recognize these are vital investments in our 
future, and we thank you in advance for taking action accordingly.

    [This statement was submitted by Cristin Dorgelo, President and 
CEO, Association of Science-Technology Centers, Laura L. Lott, 
President and CEO, American Alliance of Museums, Laura Huerta Migus, 
Executive Director, Association of Children's Museums, and Bonnie 
Styles, Executive Director, Association of Science Museum Directors.]
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
                     noaa/marine mammal commission
    On behalf of the facilities accredited by the Association of Zoos & 
Aquariums (AZA), a non-profit organization dedicated to the advancement 
of accredited zoos, aquariums, science centers, and nature centers in 
the areas of conservation, education, science, and recreation, I am 
writing to express my strong support for several programs in fiscal 
year 2020. Specifically, I respectfully request that you include at 
least $8,000,000 for NOAA's Environmental Literacy Grants Program; 
$12,000,000 for the Bay, Watershed, Education and Training (BWET) 
Program; $4,000,000 for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program; $10,000,000 for the Marine Debris Program; 
$93,500,000 for the National Sea Grant College Program; and, $5,250,000 
for the Marine Mammal Commission in the fiscal year 2020 Commerce, 
Justice, Science, and Related Agencies appropriations bills.
    The NOAA Environmental Literacy Grants and BWET programs bring 
students closer to science by providing them with the opportunity to 
learn firsthand about our world's marine resources. Through these grant 
programs, aquariums and zoos work closely with Federal, State, and 
local partners on projects with long-lasting benefits not only for the 
students but their communities as well. Previous projects funded by 
these programs at AZA aquariums have focused on establishing a regional 
network of summer camp programs grounded in ocean science, enhancing 
teen conservation leadership programs, and conserving and managing 
coastal and marine resources to meet our Nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs will become even more important in 
assuring that schoolchildren receive the necessary foundation in 
science education that they will need to be competitive in the 21st 
century global economy.
    Education programs at AZA-accredited facilities provide essential 
learning opportunities, particularly about science, for schoolchildren 
in formal and informal settings. AZA-accredited zoos and aquariums 
educate more than 12 million students about wild animals, their 
habitats, and the ways in which the public can contribute to their 
conservation. Over the past 10 years, AZA-accredited facilities also 
have trained more than 400,000 teachers, ensuring that aquarium and zoo 
field trips or in-class education programs support science curricula at 
the state and local levels. Without programs like the NOAA 
Environmental Literacy Grants Program, the BWET Program, and others, 
opportunities for engaging schoolchildren to learn about science will 
be lost and the ability of accredited zoos and aquariums to partner 
with Federal agencies on education initiatives will be severely 
limited.
    Prescott grants provide critical resources to stranding network 
participants, many of which are AZA-accredited aquariums, for the 
recovery and treatment of stranded marine mammals and turtles. These 
are the only Federal funds that aquariums receive to help offset the 
cost of saving and rehabilitating thousands of stranded animals. 
Moreover, the data that aquariums collect from stranded animals is very 
important not only as indicators of ocean health, but also in 
identifying emerging zoonotic diseases and harmful algal blooms that 
can impact commercially valuable species and human health.
    AZA-accredited aquariums and other institutions work hard to 
leverage Federal resources to save and rehabilitate stranded animals in 
every part of the Nation's coastline. Programs utilize the services of 
thousands of volunteers who donate their time to help save stranded and 
entangled marine mammals and collect key data. However, aquariums need 
resources to fund the equipment, personnel and operating cost to run 
these extensive and expensive stranding programs, and Federal funds 
provide a small, but critical, piece of overall funding. Without those 
funds, many aquariums and other institutions are unable to operate 
their stranding programs.
    AZA-accredited facilities work with Federal, State, and local 
partners to address the marine debris accumulating in the ocean and in 
rivers, lakes, and streams across the country. Recent studies estimate 
that at least eight million metric tons of plastic are dumped into the 
world's oceans each year. This pollution affects the availability of 
clean water for humans, harms the species living in these vital bodies 
of water, and has an impact on the economy and local communities. The 
NOAA Marine Debris Program offers several nationwide, competitive 
funding opportunities for marine debris projects including removal 
grants, education and outreach grants, and research grants. With the 
amount of marine debris expected to significantly increase over the 
next decade, these grants are critical to cleaning up the existing 
trash as well as educating citizens about how to address this global 
problem.
    The National Sea Grant College Program funds initiatives that are 
supported by AZA-accredited facilities including conservation of 
coastal, ocean, and Great Lake areas and promotion of long-term 
stewardship and responsible use of those aquatic resources. The thirty-
three state Sea Grant programs, located in every coastal and Great 
Lakes state, collaborate with AZA-accredited zoos and aquariums on a 
variety of projects including aquaculture research, STEM education, and 
environmental hazards. This valuable program also funds essential 
government fellowships for qualified individuals who want to help 
legislators and Federal agencies shape polices affecting coastal, Great 
Lake, and ocean areas.
    As mandated by the Marine Mammal Protection Act (MMPA), the 
Commission's mission is to advance the conservation of marine mammals 
and their environment. Its activities include providing independent, 
science-based oversight of domestic and international policies and the 
actions of Federal agencies addressing the human impact on marine 
mammals and their ecosystems, producing reports for policymakers, 
coordinating essential research initiatives, and assisting Alaska 
Natives pursue their traditional rights under the MMPA. AZA-accredited 
facilities play a critical role in marine mammal conservation through 
broad-based public education and outreach activities, cutting-edge 
research projects, and advocacy for marine protected areas and other 
strong policies to protect our oceans. The work of the Marine Mammal 
Commission is critical to these efforts.
    As you determine priorities for the fiscal year 2020 Commerce, 
Justice, Science, and Related Agencies appropriations bills, I strongly 
encourage you to assure that the NOAA Environmental Literacy Grants 
Program, BWET Program, John H. Prescott Marine Mammal Rescue Assistance 
Grant Program, Marine Debris Program, National Sea Grant College 
Program, and Marine Mammal Commission receive the necessary funding so 
that AZA-accredited facilities can continue to work with their Federal, 
state, and local partners to preserve our marine resources and assure 
that current and future generations will be good stewards of the 
world's precious aquatic resources.
    Thank you.

                                ADDENDUM

AZA-accredited facilities:

Abilene Zoological Gardens
Adventure Aquarium
African Safari Wildlife Park
Akron Zoological Park
Alaska SeaLife Center
Albuquerque Biological Park
Alexandria Zoological Park
Aquarium of Niagara
Aquarium of the Bay
Aquarium of the Pacific
Arizona Sonora Desert Museum
Audubon Aquarium of the Americas
Audubon Zoo
Bergen County Zoological Park
Binder Park Zoo
Birch Aquarium at Scripps
Birmingham Zoo
Blank Park Zoo
Boonshoft Museum of Discovery
Bramble Park Zoo
Brandywine Zoo
Brevard Zoo
Bronx Zoo/WCS
Brookgreen Gardens
Buffalo Zoo
Busch Gardens (Tampa)
The Butterfly House
Butterfly Pavilion
Buttonwood Park Zoo
Cabrillo Marine Aquarium
Caldwell Zoo
California Science Center
Cameron Park Zoo
Cape May County Park Zoo
Capron Park Zoo
Central Florida Zoological Park
Central Park Zoo
Chahinkapa Zoo
Charles Paddock Zoo
Chattanooga Zoo at Warner Park
Cheyenne Mountain Zoological Park
Chicago Zoological Society--Brookfield Zoo
Cincinnati Zoo and Botanical Garden
Cleveland Metroparks Zoo
Clyde Peeling's Reptiland
Columbus Zoo and Aquarium
Como Park Zoo and Conservatory
Connecticut's Beardsley Zoo
Cosley Zoo
CuriOdyssey
Dakota Zoo
Dallas World Aquarium
Dallas Zoo
David Traylor Zoo of Emporia
Denver Zoological Gardens
Detroit Zoological Park
Dickerson Park Zoo
Discovery Cove
Disney's Animal Kingdom
El Paso Zoo
Ellen Trout Zoo
Elmwood Park Zoo
Erie Zoo
The Florida Aquarium
Fort Wayne Children's Zoo
Fort Worth Zoo
Fossil Rim Wildlife Center
Franklin Park Zoo
Fresno Chaffee Zoo
Georgia Aquarium
Gladys Porter Zoo
Great Plains Zoo and Delbridge Museum of Natural History
Greensboro Science Center
Greenville Zoo
Grizzly & Wolf Discovery Center
Happy Hollow Zoo
Henry Vilas Zoo
Houston Zoo, Inc.
Hutchinson Zoo
Idaho Falls Zoo at Tautphaus Park
Indianapolis Zoological Society, Inc.
International Crane Foundation
Jacksonville Zoo and Gardens
Jenkinson's Aquarium
John Ball Zoological Gardens
John G. Shedd Aquarium
Kansas City Zoo
Lake Superior Zoo
Landry's Downtown Aquarium--Denver
Landry's Houston Aquarium, Inc.
Lee G. Simmons Conservation Park & Wildlife Safari
Lee Richardson Zoo
Lehigh Valley Zoo
Lincoln Children's Zoo
Lincoln Park Zoological Gardens
Lion Country Safari
Little Rock Zoological Gardens
Living Desert Zoo & Gardens State Park
The Living Desert Zoo and Gardens
Los Angeles Zoo
Louisville Zoological Garden
Loveland Living Planet Aquarium
Maritime Aquarium at Norwalk, Inc.
Maryland Zoo in Baltimore
Memphis Zoological Garden and Aquarium
Mesker Park Zoo & Botanic Garden, Inc.
Miller Park Zoo
Milwaukee County Zoological Gardens
Minnesota Zoological Garden
Monterey Bay Aquarium
Moody Gardens Rainforest and Aquarium
Mote Marine Laboratory and Aquarium
Museum of Life and Science
Museum of Science
Mystic Aquarium
Naples Zoo
Nashville Zoo
National Aquarium
National Aviary
National Mississippi River Museum & Aquarium
New England Aquarium
New York Aquarium
Newport Aquarium
North Carolina Aquarium at Fort Fisher
North Carolina Aquarium at Pine Knoll Shores
North Carolina Aquarium on Roanoke Island
North Carolina Zoological Park
Northeastern Wisconsin (NEW) Zoo
Northwest Trek Wildlife Park
Oakland Zoo
OdySea Aquarium
Oglebay's Good Zoo
Oklahoma City Zoo and Botanical Garden
Omaha's Henry Doorly Zoo & Aquarium
Oregon Coast Aquarium
Oregon Zoo
Palm Beach Zoo at Dreher Park
Peoria Zoo
Philadelphia Zoo
The Phoenix Zoo
Point Defiance Zoo and Aquarium
Potawatomi Zoo
Potter Park Zoological Gardens
Prospect Park Zoo
Pueblo Zoo
Queens Zoo
Racine Zoological Gardens
Red River Zoo
Reid Park Zoo
Ripley's Aquarium at Myrtle Beach
Ripley's Aquarium of the Smokies
Riverbanks Zoo and Garden
Riverside Discovery Center
Roger Williams Park Zoo
Rolling Hills Zoo
Roosevelt Park Zoo
Rosamond Gifford Zoo at Burnet Park
Sacramento Zoo
Safari West
Saginaw Children's Zoo
Saint Louis Zoo
Salisbury Zoological Park
San Antonio Zoological Society
San Diego Zoo
San Diego Zoo Safari Park
San Francisco Zoological Gardens
Santa Barbara Zoological Gardens
Santa Fe College Teaching Zoo
Scovill Zoo
SEA LIFE Arizona Aquarium
SEA LIFE Carlsbad Aquarium
SEA LIFE Charlotte-Concord Aquarium
SEA LIFE Grapevine Aquarium
SEA LIFE Kansas City Aquarium
SEA LIFE Michigan Aquarium
SEA LIFE Orlando Aquarium
The Seas
Seattle Aquarium
SeaWorld Orlando
SeaWorld San Antonio
SeaWorld San Diego
Sedgwick County Zoo
Seneca Park Zoo
Sequoia Park Zoo
Shark Reef Aquarium at Mandalay Bay
Smithsonian National Zoological Park
South Carolina Aquarium
Squam Lakes Natural Science Center
St. Augustine Alligator Farm
Staten Island Zoo
Steinhart Aquarium
Stone Zoo
Sunset Zoological Park
Tennessee Aquarium
Texas State Aquarium
Toledo Zoological Gardens
Topeka Zoo and Conservation Center
Tracy Aviary
Trevor Zoo
Tulsa Zoo
Turtle Back Zoo
Utah's Hogle Zoo
Utica Zoo
Virginia Aquarium and Marine Science Center
Virginia Living Museum
Virginia Zoological Park
Western North Carolina Nature Center
Wildlife Safari
The Wilds
Woodland Park Zoo
Zoo Atlanta
Zoo Boise
Zoo Knoxville
Zoo Miami
ZOOAMERICA NA Wildlife Park
ZooTampa at Lowry Park

    [This statement was submitted by Dan Ashe, President and CEO.]
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
Dear Chairman Moran and Ranking Member Shaheen:

    The undersigned members of the Choose Clean Water Coalition request 
continued support for programs that are essential to maintaining a 
healthy and vibrant Chesapeake Bay and a strong regional economy that 
is dependent on the Bay's resources. The National Oceanic and 
Atmospheric Administration (NOAA) has a strong and long term presence 
in the Chesapeake Bay area, and its Chesapeake Bay Office coordinates 
their efforts with other Federal agencies, State and local partners and 
users of the resource.
    The programs that are run and/or coordinated by NOAA's Chesapeake 
Bay Office (NCBO) are critical for the Chesapeake Bay ecosystem and for 
its users and residents. These programs provide the science and 
management assistance necessary for those whose livelihood is to ply 
the Bay's waters for fish, crabs and oysters and to the hundreds of 
thousands of people who fish recreationally in the Bay every year and 
to the millions who boat, kayak, and/or view wildlife in the region.
    NCBO is also critical for others, from students learning about 
science with hands-on experiences to local governments and residents 
along the shore to have the latest information to prepare for coastal 
flooding and hurricane emergencies.
    Utilizing sound science in the management of Chesapeake Bay 
resources is critical for our regional economy. We request the 
following funding levels in fiscal year 2020:
                         department of commerce
National Oceanic and Atmospheric Administration--National Marine 
        Fisheries Service--Habitat Conservation and Restoration--
        Chesapeake Bay Office (NCBO)--$9.7 million
Chesapeake Bay Office (NCBO)--$9.7 million

    The NCBO was established by Congress in 1992 to provide resources, 
technical assistance and coordination through its two branches: the 
Ecosystem Science and Synthesis Program, which focuses on applied 
research and monitoring in fisheries and aquatic habitats; synthesis, 
and analysis to describe and predict Bay ecosystem processes; and 
technical assistance to Chesapeake Bay decision makers.
    The second branch is Environmental Literacy and Partnerships 
Program, which focuses on the development of K-12 and higher education 
environmental science education programs; strategic partnerships with 
the Chesapeake Bay Program and other government, university, and 
nonprofit partners; and delivering NOAA products, services, and 
programs to targeted audiences.
    The NCBO's programs play a key role in implementing the voluntary 
Chesapeake Bay Agreement among the States and is critical to ensuring 
that commitments are met to:

  --restore native oyster habitat and populations in 10 tributaries by 
        the year 2025;
  --ensure students graduate with the knowledge and skills to protect 
        and restore their local watershed;
  --sustain a healthy blue crab and striped bass (rockfish) population;
  --maintain a coordinated watershed-wide monitoring and research 
        program; and
  --adapt to climate change, including sea level rise and flooding.

The specific breakdown of our request for $9.7 million for the NCBO is 
as follows:
Oyster Restoration--$4 million
    The Chesapeake Bay oyster population is less than 1 percent of 
historic levels and the ecosystem functions associated with oyster 
reefs, including fish habitat and nitrogen removal, are similarly 
diminished. NCBO continues to restore entire tributaries with self-
sustaining oyster populations and to measure the resulting ecosystem 
benefits. NCBO works with Federal, State and private partners to plan 
and implement this tributary-scale restoration in both Maryland and 
Virginia.
    Recent studies by Morgan State University found that the economic 
multipliers associated with commercial and recreational fishing in 
three restored tributaries of the Choptank River are currently valued 
at $13 million annually for newly restored reefs and $26 million 
annually once the restored reefs are allowed to mature. In addition, 
research conducted in one of these tributaries, Harris Creek, by the 
University of Maryland Center for Environmental Science and the 
Virginia Institute of Marine Science found the reefs there are removing 
nitrogen and phosphorous from the water, providing a service valued at 
over $3 million annually. Preliminary research by NOAA has also found 
correlations between clearer water and increased submerged aquatic 
vegetation (SAV) growth in areas where large-scale restoration has 
occurred when compared to similar unrestored areas. Protecting the 
existing restoration sites will allow these benefits to accrue and new 
restoration will enhance these benefits in more tributaries.
    Funding for oyster restoration in the Chesapeake was also done 
through the U.S. Army Corps of Engineers, but they have not received 
funding in a number of years. Funding for this key program has eroded 
sharply since fiscal year 2010, and without Army Corps funds, NOAA is 
the only Federal agency left to continue this key restoration program.
Environmental Education and Literacy--$3.5 million
    NCBO encourages and supports efforts in K-12 and higher education 
to develop and implement comprehensive environmental literacy programs. 
NCBO runs the nationally recognized Bay Watershed Education and 
Training Program (B-WET)--a competitive grant program for hands-on 
watershed education for students and teacher training to foster 
stewardship of the Chesapeake Bay. B-WETs funding has steadily eroded 
since 2010 and should be restored to at least that level. This $3.5 
million would be a part of the larger national B-WET funding.
Fisheries Science--$1 million
    Chesapeake fisheries contribute significantly to the economy and 
culture of the region. In 2018 Maryland harvested just over 33 million 
pounds of blue crab with a dockside value of more than $53.7 million. 
Striped bass (rockfish) remain the most popular commercial and 
recreational finfish in the Bay, generating roughly $500 million in 
economic activity related to fishing expenditures, travel, lodging, and 
so on each year. NCBO works with top academic institutions to provide 
science used to sustainably manage commercially and recreationally 
valuable species. These efforts have been hampered by slowly eroding 
budgets, leaving NCBO without a single fishery biologist on staff, and 
this at a time when climate change is altering ecosystem conditions in 
ways that may impact commercial and recreational species and their prey 
in unknown ways.
Chesapeake Bay Interpretive Buoy System (CBIBS)--$1 million
    Weather and water conditions on the Chesapeake Bay are constantly 
changing. It is imperative that monitoring systems are in place to 
provide high quality data to understand, forecast, and develop decision 
support applications that aid maritime commerce, safety, and fishing 
activities. CBIBS is maintained by NCBO and relays near real time 
weather and water information to the National Weather Service, boaters, 
pilots, and researchers. This is the only system monitoring wind and 
waves together in the mainstem of the Bay. In addition, CBIBS plays a 
crucial role monitoring key aspects of the Bay's health. Data from the 
buoys are used to track sediment plumes spilling into the Bay following 
storms, measure oxygen levels important to fish throughout the year and 
to forecast the distribution and severity of dangerous bacteria--
information that is critical to successful aquaculture operations.
Climate and Resiliency--$200,000
    NOAA and the U.S. Geological Survey lead implementing the climate 
resiliency goal for the Chesapeake Bay Program partnership. The NOAA 
Chesapeake Bay Office maintains a full-time climate resiliency 
specialist to coordinate all climate activities across the Chesapeake 
Bay Program, including activities such as monitoring for the impacts of 
sea level rise, coastal flooding, increased storm intensity and their 
effects on living resources and coastal communities.
    Thank you for your consideration of these very important requests 
to maintain funding for programs that are critical to the health of the 
Chesapeake Bay and its natural resources. Please contact Peter J. Marx 
at 410-905-2515 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80d0e5f4e5f2c0c3e8efeff3e5c3ece5e1eed7e1f4e5f2aeeff2e7">[email&#160;protected]</a> with any questions or 
concerns.
              members of the choose clean water coalition
Action Together Northeastern Pennsylvania
Alliance for the Chesapeake Bay
Alliance for the Shenandoah Valley
American Chestnut Land Trust
American Rivers
Anacostia Riverkeeper
Anacostia Watershed Society
Annapolis Green
Arundel Rivers Federation
Audubon Maryland/DC
Audubon Naturalist Society
Audubon Society of Northern Virginia
Back Creek Conservancy
Baltimore Tree Trust
Blue Heron Environmental Network
Blue Ridge Watershed Coalition
Blue Water Baltimore
Butternut Valley Alliance
Cacapon Institute
Capital Region Land Conservancy
Catskill Mountainkeeper
Center for Progressive Reform
Chapman Forest Foundation
Chemung River Friends
Chesapeake Bay Foundation
Chesapeake Climate Action Network
Chesapeake Conservancy
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Clean Fairfax
Clean Water Action
Clean Water Linganore
Coalition for Smarter Growth
Conservation Voters of Pennsylvania
DC Environmental Network
Delaware Nature Society
Ducks Unlimited
Earth Conservation Corps
Earthworks
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Eastern Shore Land Conservancy
Elizabeth River Project
Environmental Integrity Project
Environmental Justice Center of Chestnut Hill United Church
Environmental Working Group
Experience Learning
Float Fishermen of Virginia
Friends of Accotink Creek
Friends of Frederick County
Friends of Herring Run Park
Friends of Little Hunting Creek
Friends of Lower Beaverdam Creek
Friends of Quincy Run
Friends of Sligo Creek
Friends of the Bohemia
Friends of the Cacapon River
Friends of Dyke Marsh
Friends of the Middle River
Friends of the Nanticoke River
Friends of the North Fork of the Shenandoah River
Friends of the Rappahannock
Friends of St. Clements Bay
Goose Creek Association
Interfaith Partners for the Chesapeake
James River Association
Lackawanna River Conservation Association
Lancaster Farmland Trust
Little Falls Watershed Alliance
Lower Shore Land Trust
Lower Susquehanna Riverkeeper
Lynnhaven River NOW
Maryland Conservation Council
Maryland Environmental Health Network
Maryland League of Conservation Voters
Maryland Native Plant Society
Maryland Nonprofits
Maryland Science Center
Mattawoman Watershed Society
Mid-Atlantic Council Trout Unlimited
Middle Susquehanna Riverkeeper
Muddy Branch Alliance
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
NeighborSpace of Baltimore County
New York League of Conservation Voters
New York State Council of Trout Unlimited
Neighbors of the Northwest Branch
Otsego County Conservation Association
Otsego Land Trust
Partnership for Smarter Growth
Patapsco Heritage Greenway
Patuxent Tidewater Land Trust
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Pennsylvania Council of Trout Unlimited
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Potomac Valley Audubon Society
Queen Anne's Conservation Association
Preservation Maryland
Rachel Carson Council
Restore America's Estuaries
Rappahannock League for Environmental Protection
Richmond Audubon Society
Rivanna Conservation Alliance
Rock Creek Conservancy
St. Mary's River Watershed Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper Shenandoah Valley Network
ShoreRivers
Sidney Center Improvement Group
Sierra Club--Maryland Chapter
Sleepy Creek Watershed Association
Southeast Rural Community Assistance Project
Southern Maryland Audubon Society
SouthWings
Susquehanna Heritage
Talbot Preservation Alliance
The Downstream Project
Transition Howard County
Trash Free Maryland
Trout Unlimited
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Association of Biological Farming
Virginia Conservation Network
Virginia League of Conservation Voters
Warm Springs Watershed Association
Waterfront Partnership of Baltimore, Inc.
Waterkeepers Chesapeake
West Virginia Citizen Action Group
West Virginia Environmental Council
West Virginia Highlands Conservancy
West Virginia Rivers Coalition
Wetlands Watch
Wicomico Environmental Trust

    [This statement was submitted by Peter J. Marx, contractor for the 
Choose Clean Water Coalition.]
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce's fiscal year 2020 
budget and has identified the following funding needs:

$122.5 million for Salmon Management Activities of which:

  --$26.6 million supports Mitchell Act Programs to implement reforms 
        called for in the ``Conservation of Columbia Basin Fish'' and 
        the Federal Columbia River Power System Biological Opinion, of 
        which $6.7 million (or 25 percent of the enacted amount) is 
        directed to the Tribes to enhance natural stock recovery 
        programs;
  --$95.9 million for the Pacific Salmon Treaty, of which $42.3 million 
        is annual operations for the implementation of the 2019-2028 
        Agreement, and $53.6 million is one-time funding for specific 
        projects to support the implementation of the 2019-2028 
        Agreement.

$70 million for the Pacific Coastal Salmon Recovery Fund to support on-
the-ground salmon restoration activities.

    BACKGROUND: The Columbia River Inter-Tribal Fish Commission 
(CRITFC) was founded in 1977 by the four Columbia River treaty Tribes: 
Confederated Tribes of the Umatilla Indian Reservation, Confederated 
Tribes of the Warm Springs Reservation of Oregon, Confederated Tribes 
and Bands of the Yakama Nation, and Nez Perce Tribe. CRITFC provides 
coordination and technical assistance to the Tribes in regional, 
national and international efforts to protect and restore the fisheries 
and fish habitat.
    In 1855, the United States entered into treaties with the four 
Tribes.\1\ The Tribes' ceded millions of acres of our homelands to the 
U.S. and the U.S. pledged to honor our ancestral rights, including the 
right to fish at all usual and accustomed places. Unfortunately, a long 
history of hydroelectric development, habitat destruction and over-
fishing by non-Indians brought the salmon resource to the edge of 
extinction with 12 salmon and steelhead trout populations in the 
Columbia River basin listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 6, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 9
---------------------------------------------------------------------------
    Today, the treaties form the bedrock of fisheries management. The 
CRITFC Tribes are among the most successful fishery managers in the 
country leading restoration efforts and working with State, Federal and 
private entities. CRITFC's comprehensive plan, Wy-Kan-Ush-Mi Wa-Kish-
Wit, outlines principles and objectives designed to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild the fisheries to 
levels that support Tribal ceremonial, subsistence and commercial 
harvests. To achieve these objectives, the plan emphasizes strategies 
that rely on natural production, healthy rivers and collaborative 
efforts.
    CRITFC and our member Tribes are principal implementers of actions 
laid out in three landmark agreements: (1) the recently extended 
Columbia Basin Fish Accords with Federal action agencies overseeing the 
Federal hydro system in the Columbia Basin,\2\ (2) a new 10-Year 
Fisheries Management Plan with Federal, Tribal and State parties under 
U.S. v. Oregon, and (3) a new Chinook Chapter of the Pacific Salmon 
Treaty.\3\ These agreements establish regional and international 
commitments on harvest and fish production efforts, commitments to 
critical investments in habitat restoration, and resolving contentious 
issues by seeking balance of the many demands within the Columbia River 
basin. We have successfully secured other funds to support our efforts 
to implement these agreements, including funds from the Bonneville 
Power Administration (BPA), the Department of Interior, and the 
Southern Fund of the Pacific Salmon Treaty, to name just few. Continued 
Federal funding support is needed to accomplish the management 
objectives embodied in the agreements.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory
    \3\ See Salmon Win A Triple Crown'' at http://www.critfc.org/text/
wana_109.pdf
---------------------------------------------------------------------------
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the Tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991, this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally-spawning salmon runs.'' Since 1991, we have made progress in 
increasing the upstream releases of salmon including Mitchell Act fish 
that have assisted the rebuilding and restoration of naturally-spawning 
upriver runs of chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Final Environmental Impact Statement (FEIS) for 
operation of Columbia River basin hatcheries released by NOAA in 2016 
illustrates the conundrum we face. While the FEIS, which assumes level 
funding for Mitchell Act hatcheries, it also points out the need for 
hatchery reform. The implementation scenario for the preferred 
alternative calls for substantial reductions in hatchery releases of 
fall chinook. Under the preferred alternative the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast. The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress towards ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery while meeting 
mitigation obligations. The CRITFC Tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Years of inadequate funding have 
taken a toll resulting in deteriorating facilities that do not serve 
our objectives.
    Evidence to Support Tribal Salmon Restoration Programs under the 
Mitchell Act.--The Tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of Tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers to the Umatilla, Yakima and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
was once declared extinct. Fish are returning to the Columbia River 
Basin and it is built on more than 30 years of Tribal projects.
    Once considered for listing under the ESA, only 20,000 fall chinook 
returned to the Hanford Reach on the Columbia River in the early 
1980's. This salmon run has been rebuilt through the implementation of 
the Vernita Bar agreement of the mid-1980s combined with a hatchery 
program that incorporated biologically appropriate salmon that spawn 
naturally upon their return to the spawning beds. Today, the Hanford 
Reach fall chinook run is one of the healthiest runs in the basin 
supporting fisheries in Alaska, Canada, and the mainstem Columbia 
River. In 2013, close to 700,000 Fall Chinook destined for the Hanford 
Reach entered the Columbia River, which was a record since the 
construction of Bonneville Dam.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the ESA, the 
estimated return of naturally-spawning Snake River fall chinook 
averaged 328 adults from 1986-1992. In 1994, fewer than 2,000 Snake 
River fall chinook returned to the Columbia River Basin. Thanks to the 
Nez Perce Tribe's modern supplementation program fall chinook are 
rebounding and the Snake River fall chinook is well on their way to 
recovery and ESA delisting. In 2013, about 56,000 fall chinook made it 
past Lower Granite Dam. Of those, approximately 21,000 were wild, twice 
the previous record for wild returns since the dam was constructed in 
1975.
    A Request for Review of Salmon Mass-Marking Programs.--CRITFC 
endeavors to secure a unified hatchery strategy among Tribal, Federal 
and State co-managers. To that end, we seek to build hatchery programs 
using the best available science and supported by adequate, efficient 
budgets. A Congressional requirement, delivered through prior 
appropriations language, to visibly mark all salmon produced in 
federally funded hatcheries should be reconsidered. We have requested 
that Federal mass-marking requirements, and correlated funding, be 
reviewed for compatibility with our overall objective of ESA delisting 
and with prevailing laws and agreements: U.S. v Oregon, Pacific Salmon 
Treaty and the Columbia Basin Fish Accords.\4\
---------------------------------------------------------------------------
    \4\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011
---------------------------------------------------------------------------
    Salmon managers should be provided the latitude to make case-by-
case decisions whether to mark fish and, if so, in the appropriate 
percentages.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. Section 
recommendation of $95.5 million for implementation of the revised 
Pacific Salmon Treaty (Treaty). Of this amount, $26.4 million is for 
the Pacific Salmon Treaty's obligations for base program with Alaska, 
Oregon, Idaho, Washington, and NOAA. In addition, we support $1.8 
million as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance-based management 
approach of the Chinook Chapter to the Treaty. The recommended amount 
represents an increase of $19.4 million from base level for the States 
to implement the provisions, management and technical changes adopted 
by the U.S. and Canada in the recently completed revised Annex 
Chapters. The U.S. Section recommends the following funding levels to 
improve the coded wire tag program ($2,500,000) to improve Puget Sound 
critical stocks ($4,800,000 annually and $27,800,000 one-time funding) 
and continue to enhance in transboundary rivers ($367,000). These funds 
are subjected annually to a strict technical review process. Funding 
bas level program for the States has remained the same since the treaty 
was signed in 1985, despite additional management responsibilities.
    Pacific Coastal Salmon Recovery Program (PCSRF).--The PCSRF program 
was developed in 2000 by the State of Alaska, the Pacific Northwest 
States, and the treaty Tribes since the renewal of the Pacific Salmon 
Treaty in 1995 to fulfill the unmet needs for the conservation and 
restoration of salmon stocks shared in the Tribal, State, and 
international fisheries. Since that time, the number of entities 
eligible for receiving funding has grown.
    The PCSRF has funded 368 Yakama, Umatilla, Warm Springs, Nez Perce, 
and CRITFC Tribal salmon recovery projects. These projects have 
contributed greatly to the sustainability of Columbia Basin salmon 
species and their habitat. Accomplishments include 1,660 stream miles 
being protected; 411 miles of stream made accessible to salmon; 4,950 
acres of riparian area treated; 11,341 acres conserved by acquisition 
or lease; and 1.2 million salmon fry/smolts released annually. The 
PCSRF is vital to fulfill the region's goal of full salmon recovery and 
sustainability of the fishery.
    The co-managers have developed an extensive matrix of performance 
standards to address accountability and performance standards, which 
includes the use of monitoring protocols to systematically track 
current and future projects basin-wide. The PCSRF projects implemented 
are based on the best science, adequately monitored and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the Tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by Congress.
    We recommend a funding level at $70 million for the PCSRF fiscal 
year 2020 allocation. Long-term economic benefits can be achieved by 
making PCSRF investments on-the- ground to rebuild sustainable, 
harvestable salmon populations into the future.
    In Summary.--The CRITFC and our four member Tribes have developed 
the capacity and infrastructure to become the regional leaders in 
restoring and rebuilding salmon populations of the Columbia Basin. Our 
collective efforts protect our treaty reserved fishing rights and 
provides healthy, harvestable salmon populations for all citizens to 
enjoy. This is a time when increased effort and participation are 
demanded of all of us and we ask for your continued support of a 
coordinated, comprehensive effort to restore the shared salmon resource 
of the Columbia and Snake River Basins. We will be pleased to provide 
any additional information that this subcommittee may require.

    [This statement was submitted by Jaime A. Pinkham, Executive 
Director.]
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
                          nsf, noaa, and nasa
    On behalf of the Consortium for Ocean Leadership (COL), which 
represents the leading ocean science, research, and technology 
organizations from academia, industry, and philanthropy (to include 
aquariums), I appreciate the opportunity to submit for the record our 
fiscal year 2020 funding priorities for the National Oceanic and 
Atmospheric Administration (NOAA), the National Science Foundation 
(NSF), and the National Aeronautics and Space Administration (NASA). As 
a maritime Nation, our national, homeland, energy, food, water, and 
economic securities, as well as our public health and safety, depend on 
a healthy ocean--which in turn depends on ocean science and 
technology--a concept I refer to as ``ocean security.'' This 
understanding enables us to have advance notice of oncoming hurricanes, 
to sustainably manage fish populations, to let boat operators know when 
there's rough weather ahead, to allow for the safety of maritime 
commerce, to forecast harmful algal blooms, and so much more that helps 
protect our Nation, its infrastructure, and its prosperity. I hope that 
as the subcommittee makes funding decisions for fiscal year 2020, you 
will provide the needed support for programs, many of which are 
outlined below, that advance our Nation's ocean security, ensuring we 
remain an economically competitive, scientifically literate nation 
secure in our access to food, water, and energy.
    Many of the issues addressed in this testimony are cross-cutting. 
The importance of observing our ocean doesn't exist in a vacuum but 
instead includes NOAA's Integrated Ocean Observing System (IOOS), NSF's 
Ocean Observatories Initiative, and NASA's Plankton, Aerosol, Cloud, 
ocean Ecosystem mission (to name just a few). Advancing science, 
technology, engineering, and math (STEM) education falls to, among 
others, NOAA's Office of Education, NASA's Office of STEM Engagement, 
and NSF's Education and Human Resources. But it's not just the Federal 
ocean science community investing in these and other similar 
enterprises; there are more than 600 businesses engaged in ocean 
observation and forecasting; over 400 postsecondary institutions that 
provide ocean-related certificates or degrees; and in excess of 45,000 
nonprofits focused on ocean and coastal activities. To share 
information, observations, technology, and best practices, cross-sector 
and interagency collaboration are necessary. To this end, the National 
Oceanographic Partnership Program (NOPP), a congressionally mandated 
program established in 1997, is an ideal vehicle to advance 
collaborative efforts and already has been involved with funding 
projects such as IOOS, the Argo Project, and the JASON project. To 
fully utilize NOPP and facilitate the success of projects promoting 
national goals (national security, economic prosperity, quality of 
life) related to ocean knowledge, I respectfully request the 
subcommittee provide $16 million in NOPP funding--$8 million to NOAA 
and $8 million to NASA. I thank the subcommittee for their support of 
the program throughout the fiscal year 2019 appropriations process.
            national oceanic and atmospheric administration
    For NOAA to fully execute its mission of service and science, I 
respectfully request $6.5 billion for the agency, in addition to 
support to other programs highlighted below.

    Ocean observations are a requisite first step when it comes to 
understanding the ocean. Without temperature data, we can't know who 
needs to evacuate from a hurricane's path; without depth data, we can't 
tell if the shipping channel is deep enough for a vessel to pass 
through safely; without chemical analysis, we can't get notice that 
changing pH will wipe out a shellfish farm; without knowing the 
biodiversity of an area, we can't tell if it should be a marine 
sanctuary or a potential site for offshore wind development. The U.S 
Integrated Ocean Observing System (IOOS) is a coordinated network of 
technologies (such as gliders, satellites, buoys, underwater vehicles, 
and tide gauges) that generate continuous data on our coasts, ocean, 
and Great Lakes. Building and leveraging local and regional 
partnerships ensures IOOS' efficiency and provides the infrastructure 
needed to support jobs, the economy, maritime safety, and environmental 
health. To ensure we continue to collect data and increase our ocean 
observations, I respectfully request $50.5 million for U.S. IOOS in 
fiscal year 2020. This includes $3.2 million to install high-frequency 
radar systems to close gaps in surface current mapping; $3.5 million 
for underwater gliders to detect harmful algal blooms, ensure safe 
navigation, and improve hurricane warnings; $4.3 million for research 
and development; and funding to integrate Federal and non-Federal data 
and coordinate across NOAA and the 17 Federal IOOS agencies.
    Hand-in-hand with ocean observations is ocean exploration. NOAA's 
Office of Ocean Exploration and Research (OER), the only Federal 
organization dedicated to ocean exploration, has not only made 
significant discoveries but has captured public imagination about our 
blue planet. Exploring the more than 1.3 billion cubic kilometers of 
water that makes up our global ocean involves more than just OER but 
other Federal and State agencies, nonprofits, private industry, and 
academic institutions. I respectfully request the subcommittee fund OER 
at $50 million and that report language address the importance of 
collaboration and coordination among Federal and State agencies, 
academic institutions, industry, and other oceanographic partners to 
maximize return on investment and advance shared data, science and 
public engagement, and innovative technology.
    I thank the subcommittee for continuing to recognize the importance 
of STEM education and extension programs, despite repeated attempts by 
the administration to eliminate many of them. I respectfully request 
$12 million for NOAA's Bay-Watershed Education and Training and $8 
million for NOAA's Environmental Literacy Program. The two goals of 
NOAA's agency-wide education strategic plan required by the America 
COMPETES Act are workforce development and environmental literacy, 
where formal and informal education and outreach create an 
environmentally literate society. Sustained and adequate funding for 
these programs not only advances NOAA's mission but grows the STEM 
workforce, strengthens our economy, and ensures our national security. 
As the longest-standing and most comprehensive national grants program 
with a focus on environmental literacy, ELP grants have and will 
continue to keep our coastal communities--and our Nation as a whole--
safe, secure, and prosperous. Adequately funding ELP will allow 
programs such as the National Ocean Sciences Bowl (NOSB), a quiz-bowl 
style ocean science competition for high schoolers that has received 
ELP funding during its 22-year history, to flourish. The NOSB alone has 
graduated tens of thousands of students from high school with a solid 
ocean science foundation who go on to careers that advance our Nation 
and keep it secure.
    For more than 50 years, the National Sea Grant College Program (Sea 
Grant) has supported coastal and Great Lakes communities, improving 
community and economic resiliency, ensuring the health of coastal 
ecosystems, and advancing environmental literacy and workforce 
education. Between February 2016 and January 2017, Sea Grant's 
research, extension, and education resulted in 1.4 million acres of 
restored or protected habitat, 494 communities with improved 
resilience, and 2,002 seafood HAACP safety certifications. The $74 
million in Federal investments in 2016 resulted in a $611 million 
economic benefit. I respectfully request $93.5 million for the National 
Sea Grant College Program in fiscal year 2020.
    The importance of programs that address emerging issues cannot be 
understated. One of these, NOAA's Marine Debris Program, has grown in 
importance and visibility as scientists and the public better 
understand the widespread impact of the ocean plastic problem. I 
respectfully request $10 million for this program to evaluate, track, 
and clean up debris that threatens ocean health.
                      national science foundation
    As the only Federal agency tasked with supporting all fields of 
fundamental science and engineering (except medical sciences), NSF is 
vital to our nation's scientific enterprise, today and tomorrow. I 
respectfully request $9 billion for NSF ``to promote the progress of 
science; to advance the national health, prosperity, and welfare; to 
secure the national defense'' in fiscal year 2020.
    I want to thank the subcommittee for providing $127 million in 
fiscal year 2019 to finish out the final year of a three-year funding 
profile to complete construction of all three Regional Class Research 
Vessels (RCRVs). With more modern technology and abilities than 
previous generations, these long-awaited RCRVs will provide even more 
access to the marine realm, and I respectfully request the subcommittee 
maintain full support for these critical research vessels.
    As with NOAA, STEM education at NSF plays a vital role in securing 
our national, homeland, economic, energy, food, and water securities. 
Broadening the backgrounds of scientists to represent all people across 
our Nation, better reflecting our diversity of gender, race, class, and 
perspective, is a critical for all STEM fields--not just ocean science. 
A diverse, STEM-literate workforce strengthens our Nation's economy and 
is vital to maintaining the nation's leadership in science and 
technology innovation. It's imperative to reinforce the importance of 
funding Federal programs that empower underrepresented groups to become 
the next generation of ocean-STEM leaders at every educational and 
technical level. The NSF INCLUDES (Inclusion across the Nation of 
Communities and Learners of Underrepresented Discoverers in Engineering 
and Science) program aims to increase access to and participation in 
STEM learning by demographic groups with historically low participation 
in these fields. Programs such as this--that support a more diversified 
academic core in the science and technology workforce--are key to 
growing our blue economy.
             national aeronautics and space administration
    While images of faraway galaxies lead to a desire for space 
exploration, equally memorable are photos of our planet as seen from 
space. While the administration's desire for space exploration is 
exciting, it should not come at the expense of understanding our own 
home. I respectfully request $7.25 billion for the Science Mission 
Directorate and $2.5 billion for NASA Earth Science. This should 
include support for the agency's Earth-facing missions, including those 
proposed for elimination in the president's budget request, 
specifically the Plankton, Aerosol, Cloud, ocean Ecosystem (PACE) 
mission and the Climate Absolute Radiance and Refractivity Observatory 
(CLARREO) Pathfinder instrument. Both of these were recommendations 
from the 2007 Earth Science decadal survey. As support is thrown behind 
the space-based efforts at NASA, let's not forget how space-based ocean 
science can inform research related to ocean work on other moons and 
planets.
    In closing, it is clear that ocean science and technology 
strengthen our national and homeland security; underpin our economy; 
ensure food, water, and energy security; and provide for safety and 
efficiency in marine transportation. To ensure this ocean security upon 
which we all depend, our Federal ocean science agencies and programs 
must be adequately and consistently funded. While the Cold War may 
remain a distant memory today, the late Admiral James D. Watkins, chief 
of naval operations from 1982-1986, used to state, ``Oceanography won 
the Cold War.'' Our knowledge of the undersea domain gave the United 
States a competitive advantage over our enemies. That advantage is in 
jeopardy today--not just in comparison to Federal ocean science 
investments by our competitors but in comparison to oceanographic 
threats. In 30 years, will we say oceanography helped us win the ``cold 
war'' against harmful algal blooms, ocean plastic, changing climate and 
ocean conditions, and illegal fishing? Only if we have a prosperous, 
sustainable, well-understood ocean, and we will only achieve that with 
Federal investments.
    As you work to provide funding for these critical programs, COL and 
our member institutions are doing all we can to give you the 
subcommittee allocations necessary to fully fund these programs as we 
continue to encourage the creation of a bipartisan budget agreement 
that raises the discretionary spending caps. I know you face difficult 
decisions that involve offsets and divestments to achieve a balanced 
budget. COL and our members stand ready to engage in discussion to help 
establish priorities around the ocean security framework to support 
these difficult decisions. Thank you for your exemplary leadership and 
dedicated work and for the opportunity to provide input into fiscal 
year 2020 appropriations.
                              col members
Bermuda Institute of Ocean Sciences
Bigelow Laboratory for Ocean Sciences
College of William & Mary
Columbia University(LDEO)
Dauphin Island Sea Lab
Duke University
FAU Harbor Branch Oceanographic Institute
Harte Research Institute
Louisiana State University
Massachusetts Institute of Technology
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratories
Mote Marine Laboratory
Old Dominion University
Oregon State University
Pennsylvania State University
Rutgers University
Skidaway Institute of Oceanography(UGA)
Stanford University
Stony Brook University
Texas A&M University
US Naval Postgraduate School
University of Alaska Fairbanks
University of California(UC) Davis
UC San Diego(Scripps)
UC Santa Barbara
UC Santa Cruz
University of Delaware
University of Florida
University of Hawaii
Center for Environmental Science(UMD)
University of Massachusetts Dartmouth
University of Miami
University of New Hampshire
University of North Carolina(UNC) Chapel Hil
UNC Wilmington
University of Rhode Island
University of South Carolina
University of South Florida
University of Southern California
University of Southern Mississippi
University of Texas Austin
University of Washington
Woods Hole Oceanographic Institution
AOOS
Alaska SeaLife Center
Aquarium of the Pacific
Arctic Research Consortium of the US
Consumer Energy Alliance
Cooperative Institute for Research in Environmental Sciences
Dalhousie University
Earth2Ocean
East Carolina University
Estuary & Ocean Science Center, SFSU
Florida Institute of Oceanography
Moore Foundation
Hubbs SeaWorld Research Institute
IEEE Oceanic Engineering Society
Institute for Global Environmental Strategies
Institute for Marine and Antarctic Studies
IOOS Association
Johns Hopkins University APL
Marine Technology Society
MARACOOS
Monmouth University Urban Coast Institute
Mystic Aquarium
National Aquarium
NOIA
NERACOOS
North Carolina State University
North Pacific Research Board
Nova Southeastern University
Savannah State University
South Carolina Sea Grant Consortium
Southeastern Universities Research Association
US Arctic Research Commission
University of Maine
Ocean Networks Canada
University of Wisconsin Milwaukee School of Freshwater Sciences
ASV Global LLC
Chevron USA
Eastman Chemical Company
Esri
Exocetus Autonomous Systems
L-3 MariPro Inc
Liquid Robotics Inc
Sea-Bird Scientific
Severn Marine Technologies LLC
Shell Exploration and Production Company
Sonardyne, Inc
Teledyne CARIS
Teledyne RD Instruments
Vulcan Inc

    [This statement was submitted by RADM Jonathan White, USN (Ret.), 
President and CEO.]
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations
 funding for the national science foundation, census bureau, national 
         institute of justice, and bureau of justice statistics
    On behalf of the Consortium of Social Science Associations (COSSA), 
I offer this written testimony for inclusion in the official committee 
record. For fiscal year 2020, COSSA urges the Committee to appropriate 
$9 billion for the National Science Foundation (NSF), $8.45 billion for 
the Census Bureau, $46.5 million for the National Institute of Justice 
(NIJ), and $48 million for the Bureau of Justice Statistics (BJS).
    First, I wish to thank the subcommittee for its longstanding 
support for Federal science agencies. Despite tough, ongoing fiscal 
challenges, the subcommittee has continued to maintain funding for 
basic research as a top priority. This would not be possible without 
science champions such as yourselves. Thank you.
    COSSA serves as a united voice for a broad, diverse network of 
organizations, institutions, communities, and stakeholders who care 
about a successful and vibrant social science research enterprise. We 
represent the collective interests of all STEM disciplines engaged in 
the rigorous study of why and how humans behave as they do as 
individuals, groups and within institutions, organizations, and 
society.
    Social and behavioral science research is supported across the 
Federal Government, including at the National Science Foundation and 
the Department of Justice. Further, Federal statistics produced by the 
Census Bureau and other Federal statistical agencies provide important 
data needed to conduct social science research that informs policy 
decisions. Taken together, Federal social and behavioral science and 
statistical data help provide answers to complex, human-centered 
questions.

    To cite just a few examples: \1\
---------------------------------------------------------------------------
    \1\ More examples at https://www.whysocialscience.com

  --Major leaps in emulating human mental capabilities in the fields of 
        information technology and computer science, such as in machine 
        translation and artificial intelligence, have been possible 
        thanks to basic linguistic research.
  --Anthropologists applied expertise in cultural practices to guide 
        policy and shape interventions and strategy in combatting the 
        Ebola epidemic in West Africa.
  --Research in psychology and economics has shown that individuals are 
        not saving enough for retirement and led to enactment of the 
        Pension Protection Act of 2006, encouraging the use of 
        practices such as automatic enrollment, employer contribution, 
        contribution escalation, and qualified default investment 
        alternative practices.

    In short, knowledge derived from social and behavioral science 
research has made our population healthier, our democracy fairer, our 
Nation safer, and our economy stronger. Without these sciences, policy-
making on major national and global issues would not be based on 
evidence, and billions of dollars would be wasted.
                      national science foundation
    COSSA joins the broader scientific community and the 37 Senators 
who signed the April 8, 2019 bipartisan letter in support of at least 
$9 billion for the National Science Foundation (NSF) in fiscal year 
2020. NSF and the broader U.S. scientific enterprise require stability, 
predictability, and sustainable funding growth, as well as Federal 
policies that are patient and can tolerate a reasonable amount of risk 
in order to achieve the greatest payoff.
    NSF is the only U.S. Federal agency tasked with supporting basic 
scientific research across all fields of science. NSF supports about a 
quarter of all federally-funded basic scientific research conducted at 
colleges and universities nationwide and serves as the largest single 
funder of university-based basic social and behavioral science 
research. Though the Social, Behavioral, and Economic Sciences 
Directorate (SBE)-one of seven research directorates at NSF-represents 
less than 5 percent of the entire NSF research budget, it supports 
around two-thirds of total Federal funding for academic basic research 
in the social and behavioral sciences (excluding psychology). As the 
primary funding source for the majority of our disciplines, stagnant or 
reduced funding for SBE has an outsized impact on the social and 
behavioral science community-and resulting discoveries-simply because 
of the centrality of the directorate to the research community.
    Further, while by far the smallest of the research directorates, 
SBE's impact is huge. The National Academies of Sciences, Engineering, 
and Medicine stated in its 2017 consensus report, The Value of Social, 
Behavioral, and Economic Sciences to National Priorities, that ``nearly 
every major challenge the United States faces-from alleviating 
unemployment to protecting itself from terrorism-requires understanding 
the causes and consequences of people's behavior. Even societal 
challenges that at first glance appear to be issues only of medicine or 
engineering or computer science have social and behavioral 
components.'' \2\
---------------------------------------------------------------------------
    \2\ https://www.nap.edu/catalog/24790/the-value-of-social-
behavioral-and-economic-sciences-to-national-priorities
---------------------------------------------------------------------------
    While continuing to serve as the home for basic scientific 
discovery, NSF has also been planning and funding research activities 
as part of its 10 Big Ideas for Future Investment over the last several 
years. The concepts, goals, and directions of the Big Ideas are 
exciting and promise to push the frontiers of science. However, we 
remain concerned about NSF losing its defining characteristic, which is 
to be the incubator for basic scientific discovery across all areas of 
science. While we encourage support for the Big Ideas in fiscal year 
2020, we hope that such investments do not come at the expense of NSF's 
core research activities. NSF's investigator-initiated, discovery-
driven identity is what makes it special and has kept the American 
science enterprise at the leading edge of innovation. COSSA urges the 
Committee to ensure a balanced approach is taken within NSF to support 
the 10 Big Ideas and NSF's core research activities.
                             census bureau
                      u.s. department of commerce
    COSSA urges the Committee to appropriate $8.45 billion for the U.S. 
Census Bureau, including at least $7.581 billion for the 2020 Census, 
in fiscal year 2020. fiscal year 2020 will be the culmination of nearly 
a decade of research, planning, testing, and preparation for the next 
decennial census. As in previous decennial cycles, the Census year 
requires a substantial appropriation from Congress to support the 
massive scale of the Census operation, the Nation's largest non-
military mobilization. Further complicating 2020 preparations is the 
potential addition of a citizenship question, which, while currently in 
legal limbo, could be re-added to the questionnaire before Census Day. 
Given the potential-and currently unquantified-impact this question 
could have on self-response, it is crucial that the Bureau have 
sufficient fiscal year 2020 funding to enable it to nimbly respond to 
contingencies like this to protect the quality of the Census.
    Fiscal year 2020 funding will be used for a final push of 
preparation ahead of Census Day, including opening field offices 
nationwide, forming partnerships with local organizations, finalizing 
the advertising campaign, and printing and packaging the mailings. Once 
the decennial census has begun, efforts will continue to encourage 
self-response by Internet, telephone, and paper; hundreds of thousands 
of field staff will be trained and deployed to collect responses; and 
the Bureau will work to coordinate the operations, data collection, and 
data processing systems. As the count wraps up, the Census Bureau will 
begin to process, analyze, and prepare the results for publication and 
close out the massive operation. Underfunding the Census in its final 
push towards Census Day on April 1, 2020 could undo years of work and 
preparation, resulting in disastrous consequences for the accuracy of 
the census count.
    In addition, COSSA calls on Congress to fully fund the American 
Community Survey (ACS) and maintain its status as a mandatory Federal 
survey. The ACS is the only source of comparable, consistent, timely, 
and high-quality demographic and socio-economic data for all 
communities in the U.S. As a component of the Constitutionally-mandated 
Decennial Census, the ACS is a ``mandatory'' national survey. The 
accuracy of the data collected by the ACS relies on this mandatory 
status. Targeted cuts and changes to make the survey voluntary would 
significantly undermine the ability to collect usable data on all U.S. 
counties, particularly in less populous, rural areas of the country.
     national institute of justice and bureau of justice statistics
                       u.s. department of justice
    COSSA urges the Committee to appropriate $46.5 million for the 
National Institute of Justice (NIJ) and $48 million for the Bureau of 
Justice Statistics (BJS) within the U.S. Department of Justice (DOJ) in 
fiscal year 2020. NIJ serves as the research and evaluation arm of the 
Department of Justice, filling an important role in helping the agency 
to understand and implement science-based strategies for crime 
prevention and control. It supports rigorous social science research 
that can be disseminated to criminal justice professionals to keep 
communities safe. Both agencies received devastating cuts in fiscal 
year 2019, making increases in fiscal year 2020 even more crucial as 
NIJ and BJS must now address new congressional mandates, including 
implementation of the FIRST STEP Act.
    The Bureau of Justice Statistics (BJS) is one of 13 principal 
Federal statistical agencies. BJS produces data that provides 
statistical evidence needed by researchers and criminal justice policy 
decision makers. Taken together with NIJ, these modest annual 
investments represent the only dedicated sources of Federal research 
support committed to enhancing our understanding of crime and the 
criminal justice system, including around topics like victimization, 
law enforcement, recidivism and reentry, drugs and crime, and Tribal 
justice.
    Numerous pressing criminal justice and law enforcement issues are 
at the fore of public consciousness today, including understanding the 
mental health needs of people involved in the justice system, the 
drivers of domestic radicalization, effective solutions to opioid 
addiction, and ways to improve police officer safety and community 
relations. By working with jurisdictions at all levels to compile data 
and support research, DOJ--through NIJ and BJS investments--provides 
key insights that improve public safety. Making the results of this 
research available to State and local officials and the public allows 
justice and law enforcement professionals to learn what works, adopt 
best practices, and improve public safety by leveraging the best 
research and data to protect the public, reduce recidivism, and support 
law enforcement and communities. Congress must prioritize Federal data 
collection and research if we are to provide local, State, and Federal 
officials with the information they need to develop strategies to 
improve public safety in our communities.
    Thank you for the opportunity to offer this statement. Please do 
not hesitate to contact me should you require additional information.

                         Governing Associations

American Anthropological Association
American Association For Public Opinion Research
American Economic Association
American Educational Research Association
American Political Science Association
American Psychological Association
American Society of Criminology
American Sociological Association
American Statistical Association
Law And Society Association
Linguistic Society of America
Midwest Political Science Association
National Communication Association
Population Association of America
Society for Personality and Social Psychology
Society for Research in Child Development

    [This statement was submitted by Wendy A. Naus, Executive 
Director.]
                                 ______
                                 
                 Prepared Statement of Demand Progress
Dear Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee:

    Thank you for the opportunity to submit testimony regarding the 
fiscal year 2020 Commerce, Justice, Science, and Related Agencies 
Appropriations Bill. I am testifying on behalf of Demand Progress, a 
national grassroots organization with more than two million affiliated 
activists who fight for the basic rights and freedoms needed for a 
modern democracy. Our policy agenda encompasses civil liberties, civil 
rights, money in politics, and government reform. Today we testify 
regarding increasing transparency and accountability at the Department 
of Justice, specifically with regard to the growing body of secret law 
embedded within Office of Legal Counsel opinions.
                      the office of legal counsel
    Opinions by the Justice Department's Office of Legal Counsel 
(``OLC'') can have the effect of law within the executive branch, but 
they are regularly withheld from Congress and the public. The executive 
branch withholds not only the substance of these opinions but also 
basic information about them, such as when and to whom they are issued, 
the subject of their analyses, and even how many are currently in 
effect. Worse, the OLC may and has issued final opinions that are at 
variance with interpretations of law made by Congress and the courts. 
The Subcommittee on Commerce, Justice, Science, and Related Agencies 
can take the first step toward addressing this problem by requiring the 
Department of Justice to report on the volume of OLC opinions that have 
been produced with taxpayers' money.
    Office of Legal Counsel opinions pose a serious threat to the rule 
of law, and secrecy around them has caused significant harm. For 
example, the now-infamous ``torture memos,'' which declared legal under 
domestic and international law life-threatening ``enhanced 
interrogation techniques'' in secret CIA prisons, are, in fact, OLC 
opinions.\1\ One of these opinions acknowledged three times that OLC 
``cannot predict with confidence whether a court would agree with this 
conclusion,'' but nevertheless concluded that the ``question is 
unlikely to be subject to judicial inquiry.'' \2\ The Department of 
Justice's Office of Professional Responsibility concluded that one 
author, John Yoo, ``committed intentional professional misconduct when 
he violated his duty to exercise independent legal judgment and render 
thorough, objective, and candid legal advice.'' \3\
---------------------------------------------------------------------------
    \1\ https://www.nytimes.com/2004/06/27/world/reach-war-
interrogations-aides-say-memo-backed-coercion-already-use.html
    \2\ https://www.justice.gov/sites/default/files/olc/legacy/2013/10/
21/memo-bradbury2005.pdf
    \3\ https://www.aclu.org/files/pdfs/natsec/opr20100219/
20090729_OPR_Final_Report_with_20100719--declassifications.pdf
---------------------------------------------------------------------------
    After the matter did encounter public scrutiny, then-Attorney 
General Eric Holder articulated another power of OLC opinions: ``the 
Department would not prosecute anyone who acted in good faith and 
within the scope of the legal guidance given by the Office of Legal 
Counsel regarding the interrogation of detainees.'' \4\ Office of Legal 
Counsel opinions are similarly at the heart of a number of other 
controversies, like whether a sitting president may be indicted,\5\ 
whether the president may use an autopen to sign a bill,\6\ under what 
circumstances an American citizen can be targeted by a drone strike,\7\ 
the ban on immigrants from Muslim countries,\8\ and individuals' 
eligibility for certain senior government positions.\9\
---------------------------------------------------------------------------
    \4\ https://www.justice.gov/opa/pr/statement-attorney-general-
regarding-investigation-interrogation-certain-detainees
    \5\ https://www.justice.gov/olc/opinion/sitting-
president%E2%80%99s-amenability-indictment-and-criminal-prosecution
    \6\ https://www.justice.gov/olc/opinion/whether-president-may-sign-
bill-directing-his-signature-be-affixed-it
    \7\ https://www.washingtonpost.com/world/national-security/legal-
memo-backing-drone-strike-is-released/2014/06/23/1f48dd16-faec-11e3-
8176-f2c941cf35f1_story.html
    \8\ https://assets.documentcloud.org/documents/3442905/EO-Foreign-
Terrorist-Entry.pdf
    \9\ https://www.justice.gov/olc/file/1078061/download
---------------------------------------------------------------------------
    Withholding OLC opinions is not only against the interests of the 
rule of law and transparency writ large, it is also at odds with 
express Congressional intent and agency policy. Congress incorporated a 
``presumption of openness'' in the 2016 FOIA Improvement Act, which 
codified an Obama-era executive order that prohibited an agency from 
withholding documents except in situations where disclosure would 
result in foreseeable harm.\10\ In the context of OLC opinions 
specifically, 20 prominent former OLC attorneys wrote a memorandum on 
best practices in 2006 calling on the OLC to ``publicly disclose its 
written legal opinions in a timely manner, absent strong reasons for 
delay or nondisclosure.'' \11\ And the Office of Legal Counsel itself, 
in a 2010 ``best practices'' memo, asserted that ``the Office operates 
under the presumption that it should make its significant opinions 
fully and promptly available to the public,'' including considering 
``disclosing documents even if they technically fall within the scope 
of a FOIA exemption.'' \12\
---------------------------------------------------------------------------
    \10\ Public Law No: 114-185, available at https://www.congress.gov/
bill/114th-congress/senate-bill/337/
    \11\ https://web.archive.org/web/20090624234142/http://
www.acslaw.org/files/Microsoft%20Word%20-%2011--Johnsen_OLC.pdf
    \12\ http://www.justice.gov/olc/pdf/olc-legal-advice-opinions.pdf
---------------------------------------------------------------------------
    Considering the guidance, policies, actions by Congress, and the 
significance of OLC opinions detailed above, the policy of the Justice 
Department should be to disclose all opinions to congress and the 
public by default, except in certain limited circumstances. The 
government instead argues, however, that OLC opinions are not final, 
but rather ``predecisional'' and ``deliberative,'' putting them at 
times outside the reach even of the Freedom of Information Act, an 
argument with which some courts have agreed.\13\ This stands in 
contrast to the OLC's ``best practices'' memorandum, which describes 
its ``core function'' as providing ``controlling advice to Executive 
Branch officials on questions of law that are centrally important to 
the functioning of the Federal Government.'' \14\ That memorandum 
further acknowledged that OLC is ``frequently asked to opine on issues 
of first impression that are unlikely to be resolved by the courts'' 
and that in such circumstances ``OLC's advice may effectively be the 
final word on the controlling law.'' \15\
---------------------------------------------------------------------------
    \13\ See https://www.cadc.uscourts.gov/Internet/opinions.nsf/
BA847AE67CFA826785257C550053C612/$file/12-5363-1473387.pdf
    \14\ https://www.justice.gov/sites/default/files/olc/legacy/2010/
08/26/olc-legal-advice-opinions.pdf
    \15\ Id
---------------------------------------------------------------------------
    This subcommittee need not resolve all of the issues concerning OLC 
opinions today. Rather, before this subcommittee is an opportunity to 
assess the scope of secret law emanating from the Justice Department by 
requiring a basic accounting of OLC opinions that are currently in 
effect. The Department of Justice obscures the scope of the problems 
discussed here, and makes OLC opinions even harder to reach through the 
Freedom of Information Act, by failing to disclose even the existence 
of an unknown number of OLC opinions. A 2012 review by the Sunlight 
Foundation, for instance, found that the Department of Justice redacted 
the titles of 36 percent of at least 509 opinions issued from 1998 to 
2012.\16\
---------------------------------------------------------------------------
    \16\ https://sunlightfoundation.com/blog/2012/08/15/39-of-office-
of-legal-counsel-opinions-kept-from-the-public/
---------------------------------------------------------------------------
    We recognize that due to classification, national security, and 
privacy concerns, not all OLC reports can be fully released to the 
public. Nevertheless, there is an analogous situation with Federal 
Inspectors General and the Government Accountability Office. Several 
executive branch IGs and other oversight institutions have found ways 
to restrict access to sensitive reports without keeping the public in 
the dark about the reports' existence. For example, the Department of 
Defense Inspector General and the Government Accountability Office 
currently provide basic information, such as a report title or report 
number, in cases when some or all of a report's contents must remain 
nonpublic. If the Department of Defense--which produces a large number 
of classified and sensitive reports--can provide this level of 
transparency, a similar remedy should suit the Office of Legal Counsel. 
By providing this information, the Department of Justice would provide 
the information it determines can be shared publicly, and would empower 
the public to request the report through the Freedom of Information Act 
when a dispute around publication persists.
    In sum, an unknown subset of OLC opinions has been actively kept 
secret by the executive branch from Congress and the public. Their 
concealment undermines the system of checks and balances created by the 
framers, and at times the withholding of these opinions has served to 
conceal wrongdoing and faulty legal interpretations.\17\ This 
subcommittee has the opportunity to take a step toward addressing this 
body of secret law by requiring the Department of Justice take the 
simple step of reporting to the House and Senate Committees on 
Appropriations and the public a complete list of all final opinions.
---------------------------------------------------------------------------
    \17\ http://www.nytimes.com/2008/04/03/washington/03intel.html
---------------------------------------------------------------------------
    We therefore request this subcommittee and the Appropriations 
Committee include the following legislative language in the fiscal year 
2020 Commerce, Justice, Science, and Related Agencies Appropriations 
Bill and accompanying committee report:
        Report to Committee on Office of Legal Counsel Opinions: Not 
        later than 90 days after enactment of this legislation, and 
        every 90 days thereafter, the Department of Justice shall 
        submit to the House Committee on Appropriations and the Senate 
        Committee on Appropriations and publish on its website a report 
        that includes the following:

          (a) A complete list of final OLC opinions currently in 
        effect, where 'final' is defined as:
             (1) designated by the Attorney General or his designee as 
        final; or
             (2) government officials or government contractors are 
        following its guidance; or
             (3) it has been relied upon to formulate current legal 
        guidance; or
             (4) it is directly or indirectly cited in another final 
        Office of Legal Counsel opinion.
          (b) For each opinion included in (a), the Department of 
        Justice shall include--
             (1) The signer of the opinion;
             (2) The recipient identified in the opinion;
             (3) The date of issuance; and
             (4) The title of the opinion, subject only to redactions 
        provided for by 5 USC Sec. 552 (b)(1), (b)(3)(A)(i), (b)(6), 
        and (b)(7) and only to the extent the specific interest 
        protected in withholding the information is greater than the 
        public interest in disclosure.\18\
---------------------------------------------------------------------------
    \18\ 5 USC Sec. 552 (b)(1), (b)(3)(A)(i), (b)(6), and (b)(7) are 
the Freedom of Information Act exemptions for classified information, 
information prohibited from disclosure by law, personnel and medical 
files, and records compiled for law enforcement purposes.

    We thank the subcommittee for the opportunity to submit this 
testimony, and urge it to order this report to stave off a growing body 
---------------------------------------------------------------------------
of secret law.

    [This statement was submitted by Sean Vitka, Policy Counsel.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    The Ecological Society of America (ESA) is the Nation's largest 
society of professional ecologists representing over 10,000 members 
across the country. We write to urge you to support at least $5.7 
billion in funding for the National Oceanic and Atmospheric 
Administration (NOAA) for fiscal year 2020.
    NOAA continues to serve as the nation's premier environmental 
intelligence community, supporting U.S. economic growth and job 
creation, enhancing public safety, and protecting and managing natural 
resources. We urge you to preserve funding for NOAA and to make strong 
investments in the agency and its research.
Strong Investments in NOAA Translate to Economic, Ecological, National 
        Security, and Public Health Benefits
    Over half of the American population lives along our coasts. NOAA 
provides critical data and services that are essential to protecting 
these coastal communities, maintaining coastal economies, and managing 
our coastal resources. NOAA contributes a range of atmospheric and 
oceanic data, products, and services that benefit America's economy, 
quality of life, and scientific competitiveness:

  --Timely and accurate National Weather Service forecasts and warnings 
        that reduce vulnerability to extreme weather events.
  --Environmental monitoring, analysis, and data that reduce risks to 
        people and property.
  --Maintenance and stewardship of valuable coastal and marine 
        resources, including sustainable management of fisheries.
  --Innovative geostationary and polar satellite systems that provide 
        essential data and observations.
  --Cutting-edge scientific research and development that has led to 
        new technologies and scientific advances.
Fiscal year 2020 Funding for Research and Critical Offices
    Programs of importance to the ecological community are NOAA's 
Office of Oceanic and Atmospheric Research (OAR), the National Ocean 
Service (NOS), and the National Marine Fisheries Service (NMFS). These 
offices support intramural and extramural research critical to NOAA's 
mission of managing marine and coastal resources to meet the Nation's 
environmental, economic, and social needs.
    OAR provides the essential research foundation for NOAA's work. 
This office supports laboratories and programs across the U.S. and 
collaborates with external partners, including 16 NOAA-funded 
Cooperative Institutes and 33 Sea Grant Institutions. OAR research 
contributes to accurate weather forecasts, enables communities to plan 
for and respond to climate events such as drought, and enhances the 
protection and management of the nation's coastal and ocean resources.
    NOS and NMFS both play critical roles in the stewardship and 
management of our nation's natural resources. NOS works to preserve and 
enhance coastal resources, ecosystems, and economies. NMFS is 
responsible for the stewardship of our ocean resources, providing the 
science necessary to sustain and revitalize our fisheries and marine 
habitats and ecosystems. ESA urges you to provide strong support for 
these NOAA offices.
Robust Support for NOAA Is Critical to Our Nation's Resilience and 
        Scientific Leadership
    NOAA is an essential agency that plays a key role not only in 
understanding and predicting changes in climate, weather, and oceans, 
but also in protecting communities and ecosystems. We appreciate your 
past support for this critical agency, and we urge you, in the interest 
of ensuring our nation's continued and future resilience and scientific 
leadership, to continue this support and provide $5.7 billion for NOAA 
in fiscal year 2020. Thank you for your consideration of this request.

    [This statement was submitted by Catherine O'Riordan, Executive.]
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for the 
National Science Foundation (NSF). ESA requests a robust fiscal year 
2020 appropriation of $9 billion for NSF, including strong support for 
the Directorate for Biological Sciences (BIO).
    Research in entomology and other basic biological sciences provides 
the fundamental discoveries that advance knowledge and facilitate the 
development of new technologies and strategies for addressing societal 
challenges related to economic growth, national security, and human 
health. Basic research on the biology of insects has provided 
foundational insights across all areas of biology, including cell and 
molecular biology, genomics, physiology, ecology, behavior, and 
evolution. In turn, these insights have been applied toward meeting 
challenges in a wide range of fields, including conservation biology, 
habitat management, livestock production, and pest management.
    Insects have long played an essential role as model organisms for 
understanding basic biological processes across all organisms, 
including humans. Insects are often ideal laboratory experimental 
subjects because they are generally small and inexpensive to obtain, 
they complete development rapidly, and they can be maintained without 
the special facilities required for vertebrate animals.
    The common fruit fly, Drosophila melanogaster, for example, has 
been the subject of NSF-funded research that has profoundly transformed 
the understanding of human health in countless ways. Equally important, 
the ability to dramatically reduce the cost of sequencing genomes has 
played a critical role in advancing science in the last two decades. In 
2018, entomologists were able to complete one of the first genome 
sequences by a single lab for under $1,000 using the fruit fly.\1\ This 
breakthrough not only expanded the accessibility of genome sequencing, 
but also changed the way scientists understand the fruit fly itself as 
a model organism. Previously it was thought each fruit fly was 
essentially genetically identical. This study revealed there are 
significant differences in the sequences of many important genes, 
indicating that genome variation is much greater than previously 
believed. This will likely have tremendous medical value to patients, 
healthcare workers, and scientists.
---------------------------------------------------------------------------
    \1\ Solares, Edwin A et al. ``Rapid Low-Cost Assembly of the 
Drosophila melanogaster Reference Genome Using Low-Coverage, Long-Read 
Sequencing.'' G3 (Bethesda, Md.) vol. 8,\10\ 3143-3154. 19 Jul. 2018, 
doi:10.1534/g3.118.200162.
---------------------------------------------------------------------------
    NSF is the only Federal agency that supports basic research across 
all scientific and engineering disciplines, outside of the medical 
sciences. Each year, the foundation supports an estimated 300,000 
researchers, scientific trainees, teachers, and students, primarily 
through competitive grants to approximately 2,000 colleges, 
universities, and other institutions in all 50 States. NSF also plays a 
critical role in training the next generation of scientists and 
engineers, including through programs like the NSF Research 
Traineeship, ensuring that the United States will remain globally 
competitive in the future.
    One program, the NSF Graduate Research Fellowship, selects and 
supports science and engineering graduate students demonstrating 
exceptional potential to succeed in science, technology, engineering, 
and mathematics (STEM) careers. The NSF's Graduate Research Fellowship 
and Postdoctoral Fellows Programs have also been instrumental in 
supporting researchers at the forefront of soft robotics and space 
exploration. Recently, NSF funded several projects focused on soft 
robots, which are considered the best candidate for strong, mobile 
robots for exploration of harsh and dangerous environments. NSF funded 
successful projects to learn from insects to develop innovations in 
robotics. The results include a ``robofly'' with biologically inspired 
sensors for rapid flight stabilization \2,3\ the ``RoboBee'' project 
which pioneered an amphibious, micro-scale autonomous robot,\4\ and 
vision-guided perching robots.\5\ However, much is still unknown about 
the exact physical and biological mechanisms insects use to sense, 
move, and navigate through the world. For the United States to continue 
to be a world leader in robotics innovation, it is critical to fund 
research on the biology, physiology, and morphology of insects.
---------------------------------------------------------------------------
    \2\ Paul Yu Oh. Robotic Insect Flight Stabilization Using 
Biomimetic Sensors. Award Number: 0412541.
    \3\ https://www.nsf.gov/news/
news_videos.jsp?cntn_id=138802&media_id=80678&org=NSF.
    \4\ https://www.ien.com/product-development/news/20781982/robobees-
may-lead-to-autonomous-robotic-insects.
    \5\ https://news.psu.edu/story/532491/2018/08/21/research/
mechanical-engineering-faculty-studies-flying-insects-create-better.
---------------------------------------------------------------------------
    Through activities within the BIO Directorate, NSF advances the 
frontiers of knowledge about complex biological systems at multiple 
scales, from molecules and cells to organisms and ecosystems. In 
addition, the directorate contributes to the support of essential 
research resources, including biological collections and field 
stations. NSF BIO is also the Nation's primary funder of fundamental 
research on biodiversity, ecology, and environmental biology.
    One NSF BIO-supported project that illustrates the broad reach of 
basic entomological research is focused on fundamental insect 
physiology. The investigators are testing a hypothesis about the 
mechanism insects use to transport blood, nutrients, and gases 
throughout their bodies.\6\ Their research on these transport processes 
will inform our understanding of insects' success as agricultural pests 
and disease carriers as well as our ability to mitigate those traits. A 
deeper knowledge of these transport systems will also provide insights 
into those possessed by other animals and impact the design of new 
mechanical systems. This investment has already led to the breakthrough 
discovery of proteins found in carabid beetles with valuable 
applications in bioengineering and biomedical technology. Carabid 
beetles are special in their ability to produce caustic chemicals that 
they spray as a defense mechanism against predators. Due to the toxic 
nature of these chemicals, carabid beetles must have a way of producing 
and, more importantly, storing these chemicals without harming their 
own body. Using novel microscopy techniques, NSF-funded researchers 
discovered that the gland system that produces, stores, and propels 
these chemicals is comprised of an elastomeric protein called 
resilin.\7\ In addition to furthering our understanding of the natural 
world, the discovery of resilin in carabid beetle caustic chemical 
secretory glands has biomedical and bioengineering applications due to 
its impermeability, resistance to chemicals, and flexibility.
---------------------------------------------------------------------------
    \6\ Socha, John; Harrison, Jon; Miller, Laura; and Pendar, Hodjat. 
A New Hypothesis for Cardio-respiratory Mechanics in Insects. Award 
Number: 1558052.
    \7\ https://www.sciencedirect.com/science/article/pii/
S146780391830183X.
---------------------------------------------------------------------------
    NSF BIO also supports the development of technologies that directly 
impact economic sectors that are highly dependent on entomology. NSF 
recently awarded funding for a Small Business Innovation Research 
(SBIR) Phase I project aimed at ensuring healthier honey bee 
populations through data analysis and modeling.\8\ The project seeks to 
build newer and more robust algorithms capable of autonomously 
analyzing data generated by networked sensors placed in beehives. The 
information derived from the resultant data sets could then be used to 
develop models capable of predicting the infiltration of pests and 
disease in hives before it actually occurs. Ultimately, the successful 
commercialization of this technology could revolutionize an entire 
agricultural sector that has suffered significantly because of honey 
bee colony collapse.
---------------------------------------------------------------------------
    \8\ Symes, Ellie. SBIR Phase I: Data Analytics on Honebee Hives 
Using IoT Sensor Data. Award Number: 1746862.
---------------------------------------------------------------------------
    In addition to funding research, NSF BIO plays a critical role in 
the curation, maintenance, and enhancement of physical-biological 
collections. These collections and their associated data sets serve a 
variety of purposes, and while they are particularly important to the 
field of entomology, their value to the broader scientific enterprise 
cannot be overstated. Physical collections enable the rapid 
identification and mitigation of costly invasive pests that affect 
agriculture, forestry, and human and animal health. This is only 
achievable because such collections are continuously being updated to 
reflect environmental changes, evolutionary developments, and shifting 
migratory patterns of invasive species around the world. NSF also 
supports workshops designed to provide hands-on training in collections 
curation and management, with a particular emphasis on students and 
early-career researchers.\9\ Workshops like this, across numerous 
disciplines, help ensure the long-term availability of a STEM-trained 
workforce.
---------------------------------------------------------------------------
    \9\ Song, Hojun and Shockley, Floyd. Towards a Sustainable 
Management of Insect Collections in the U.S. through the Entomological 
Collections Management Workshop. Award Number: 1640919.
---------------------------------------------------------------------------
    While collections-focused awards like that mentioned above are 
encouraging, ESA is concerned by the continued downward trend of 
Federal funding for biological collections. Recent advancements in 
imaging, digitization, and data collection and storage technologies 
have caused some to question the necessity of continued support for 
existing biological collections. This uncertainty has previously 
prompted the suspension of the NSF Collections in Support of Biological 
Research (CSBR), which supports scientifically valuable collections 
that contribute to domestic homeland security, public health, 
agriculture and food security, and environmental sustainability. ESA 
recognizes that technological development is spurring substantive 
discussion about the future of biological collections, but given their 
continuing relevance and broad application, ESA firmly supports 
continued Federal investment in these collections.
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, ESA supports an 
overall fiscal year 2020 NSF budget of $9 billion. ESA requests robust 
support for the NSF BIO Directorate, which funds important research 
studies and biological collections, enabling discoveries in the 
entomological sciences to contribute to understanding environmental and 
evolutionary biology, physiological and developmental systems, and 
molecular and cellular mechanisms.

ESA, headquartered in Annapolis, Maryland, is the largest organization 
in the world serving the professional and scientific needs of 
entomologists and individuals in related disciplines. As the largest 
and one of the oldest insect science organizations in the world, ESA 
has over 7,000 members affiliated with educational institutions, health 
agencies, private industry, and government. Members are researchers, 
teachers, extension service personnel, administrators, marketing 
representatives, research technicians, consultants, students, pest 
management professionals, and hobbyists.

    Thank you for the opportunity to offer the Entomological Society of 
America's support for NSF research programs. For more information about 
the Entomological Society of America, please see http://
www.entsoc.org/.

    [This statement was submitted by Robert K.D. Peterson, President.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
                      national science foundation
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a minimum of $9.0 billion in fiscal year 
2020 for the National Science Foundation.
    With its broad mandate to support fundamental research across all 
fields of science, engineering, and mathematics, the National Science 
Foundation (NSF) is the cornerstone of our Nation's scientific 
enterprise.\1\ NSF investments in discovery-based research at 
institutions nationwide generate new knowledge, which in turn leads to 
transformative innovations that enhance quality of life.
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/about
---------------------------------------------------------------------------
    Web browsers, modern weather forecasting, and magnetic resonance 
imaging (MRI) are just a few of the tangible benefits enabled by NSF-
funded research.\2,3\
    Many of these advances result from NSF's relationship to other 
scientific agencies such as the National Institutes of Health (NIH). 
For example, in the biological sciences, NSF supports research that 
expands our understanding of life at multiple scales of time and space, 
from molecules to ecosystems.\3\ This fundamental knowledge is then 
applied to advance medicine, enhance agriculture, stimulate new 
technologies, and protect our health and environment. For example, NSF 
supported 2018 Nobel-prize winning research that led to the development 
of directed enzyme evolution, a revolutionary technology now used to 
produce pharmaceuticals, biofuels, and pesticide alternatives.\4\
---------------------------------------------------------------------------
    \2\ Transforming the World Through Science. National Science 
Foundation, Alexandria, VA
    \3\ NSF Sensational 60. National Science Foundation, Alexandria, VA
    \4\ Celebrating 2018 Nobel Laureate Frances Arnold, National 
Science Foundation, Alexandria, VA
---------------------------------------------------------------------------
    NSF is uniquely positioned to support interdisciplinary 
collaboration, research facilities, and scientific resources to meet 
national challenges. By harnessing expertise and technology from across 
the sciences, NSF-supported research is crucial in safeguarding our 
national security and addressing the effects of global warming.
    NSF also has a critical educational mission. The Foundation's 
graduate and postdoctoral fellowships and other educational programs 
underwrite the training of thousands of young scientists and engineers. 
This investment ensures a technical and scientific workforce capable of 
pursuing research and leading the innovative, dynamic industries of the 
future.
    Even as the demand for scientific research has dramatically grown, 
the NSF budget has remained flat in real terms for 15 years (Figure 1). 
The Federal Government must renew its commitment to fundamental, 
discovery-based science.\5\ Providing NSF with a budget of $9.0 billion 
($925 million above fiscal year 2019 \6\) would support about 1,000 
additional research grants, enabling researchers to rapidly seize new 
scientific opportunities.
---------------------------------------------------------------------------
    \5\ Innovation: An American Imperative
    \6\ H.J.Res.31--Consolidated Appropriations Act, 2019
---------------------------------------------------------------------------
  faseb fiscal year 2020 recommendation: at least $9.0 billion for nsf

          Figure 1: NSF Appropriations, Fiscal Year 1997-2020
          
          
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [This statement was submitted by Benjamin H. Krinsky, Associate 
Director for Legislative Affairs.]
                                 ______
                                 
 Prepared Statement of the Federation of Associations in Behavioral & 
                             Brain Sciences
      national science foundation fiscal year 2020 appropriations
Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee:

    The Federation of Associations in Behavioral and Brain Sciences 
(FABBS) appreciates the opportunity to submit testimony for the record 
in support of the National Science Foundation budget for fiscal year 
2020. FABBS represents 23 scientific societies and nearly 60 university 
departments whose members and faculty share a commitment to advancing 
knowledge of the mind, brain, and behavior. Understanding the human 
element of our most pressing challenges through research in these 
sciences will improve the welfare of our Nation, our society, and our 
people. Fundamental research funded by the NSF helps to create a body 
of knowledge and build future generations of scientists whose work will 
be essential to keep this country at the forefront of discovery. As a 
member of the Coalition for National Science Funding, FABBS joins the 
broader scientific community in urging Congress to fund the NSF at $9 
billion in fiscal year 2020.
    Our members sincerely thank the CJS Appropriations Subcommittee for 
the final budget level for the NSF in fiscal year 2019, a significant 
and deeply needed increase over fiscal year 2018. While we recognize 
that the subcommittee worked diligently to pass a timely budget for the 
NSF, we feel obligated to mention the wastefulness of the extended shut 
down. We thank you in advance for your efforts to complete the fiscal 
year 2020 budget before the end on the fiscal year. Together with our 
sister scientific societies, we have and will continue to bring 
attention to the devastating effects of shutting down the NSF.
    In addition to continually strengthening core research to generate 
discovery and train and inspire those individuals doing the 
discovering, the NSF funds critical infrastructure to sustain and grow 
the Nation's scientific enterprise. We applaud the NSF for encouraging 
interdisciplinary collaboration and innovation and continued progress 
of its Big Ideas and Convergence Accelerators and agree strongly with 
their position that funding for these new initiatives cannot come at 
the expense of continued increased funding for core discipline research 
in any of the research directorates. Indeed, the National Science Board 
has estimated that in fiscal year 2017, nearly $1.6 billion in grants 
evaluated by the NSF merit review process to be ``outstanding'' were 
left unpursued due to lack of funding. We are, potentially, in a period 
of tremendous growth and discovery. We need to be thinking about 
attracting the next generation to build upon the knowledge that this 
country needs to address its priorities in national security, defense, 
health, education, economics, and more.
    This committee has expressed a commitment to maintaining U.S. 
leadership status in science and technology in an increasingly 
competitive global economy. However, the NSF has not received the same 
budget increases as other major research agencies during the same time 
period. Furthermore, funding for the NSF has remained stagnant at a 
time period when we are seeing rapid growth in Federal investment in 
research and development from our global competitors. Increasing 
Federal support for the NSF is vital in order to ensure our future 
competitiveness.
    While we write in support of the top line number for NSF, FABBS 
members have a particular interest in the Directorate for Social, 
Behavioral, and Economic (SBE) Sciences. FABBS members also appreciate 
critical funding from the Computer and Information Science and 
Engineering (CISE) and Biological Sciences (BIO) Directorates as well 
as the Education and Human Resources (EHR) Directorate.
    The SBE directorate provides an estimated 62 percent of the Federal 
funding for fundamental research in SBE sciences at academic 
institutions across the country. This means that our finest 
universities and colleges are heavily dependent on the NSF to inform 
discoveries from identifying vulnerabilities in the Nation's cyber-
networks to improving early detection and treatment of brain disorders 
such as autism and Alzheimer's. The discoveries fueled by fundamental 
SBE research provide a foundational understanding of human thought, 
feeling, and behavior that is critical for making advances in several 
of the NSF's Big Ideas--including Harnessing the Data Revolution, the 
Future of Work at the Human-technology Frontier, and building an 
inclusive community of STEM learners (NSF INCLUDES). An increase in the 
NSF's 2020 budget would allow the agency to continue funding core 
disciplinary research, as well as invest in the Big Ideas.
    We recognize the pressing need to raise the budget caps. 
Accordingly, we have been working in collaboration with the broad 
scientific society, as well as with Federal, State and local 
colleagues, in health, education, and hundreds of other groups affected 
by non-defense discretionary funding to encourage members of Congress 
to raise the caps so that we can complete the budget process keep our 
government working.
    Increasing Federal investment in fundamental scientific research 
across all sciences is critical to ensuring the prosperity, security 
and health of our Nation and its people. Thus, we urge you to provide 
the National Science Foundation with $9 billion for fiscal year 2020. 
Increased funding for fundamental scientific research would help set 
the NSF on a solid path with potentially transformative benefits to the 
country.
    Thank you for considering this request.
                         fabbs member societies
    American Educational Research Association, American Psychological 
Association, Association for Applied Psychophysiology and Biofeedback, 
Association for Behavior Analysis, Behavior Genetics Association, 
Cognitive Science Society, International Society for Developmental 
Psychobiology, Massachusetts Neuropsychological Society, National 
Academy of Neuropsychology, The Psychonomic Society, Society for 
Behavioral Neuroendocrinology, Society for Computers in Psychology, 
Society for Judgement and Decision Making, Society for Mathematical 
Psychology, Society for Psychophysiological Research, Society for the 
Psychological Study of Social Issues, Society for Research in Child 
Development, Society for Research in Psychopathology, Society for the 
Scientific Study of Reading, Society for Text & Discourse, Society of 
Experimental Social Psychology, Society of Multivariate Experimental 
Psychology, Vision Sciences Society
                            fabbs affiliates
    APA Division 1: The Society for General Psychology; APA Division 3: 
Experimental Psychology; APA Division 7: Development Psychology; APA 
Division 28: Psychopharmacology and Substance Abuse; Arizona State 
University; Binghamton University--Psychology; Boston College--
Psychology; Boston University--Psychology; California State University 
at Fullerton--Psychological and Brain Sciences; Carnegie Mellon 
University--Psychology; Columbia University--Psychology; Cornell 
University--Psychology; Duke University--Psychology and Neuroscience; 
Florida State University--Psychology; Georgetown University--
Psychology; George Washington University--Psychology; Georgia Institute 
of Technology--Psychology; Harvard University--Psychology; Indiana 
University Bloomington--Psychology; Indiana University Purdue 
University Indianapolis--Psychology; Johns Hopkins University--
Psychological and Brain Sciences; Kent State University--Psychological 
Sciences; Lehigh University--Psychology; New York University--
Psychology; Northeastern University--Psychology; Northwestern 
University--Psychology; Ohio State University--Center for Cognitive and 
Brain Sciences; Pennsylvania State University--Psychology; Princeton 
University--Psychology; Purdue University--Psychological Sciences; Rice 
University--Psychology; Southern Methodist University--Psychology; 
Stanford University--Psychology; Syracuse University--Psychology; 
Temple University--Psychology; University of Arizona--Psychology; 
University of California at Berkeley--Psychology; University of 
California at Davis--Psychology; University of California at Irvine--
Psychology; University of California at Los Angeles--Psychology; 
University of California at Riverside--Psychology; University of 
California at San Diego--Psychology; University of Chicago--Psychology; 
University of Cincinnati--Psychology; University of Delaware--
Psychological & Brain Sciences; University of Houston--Psychology; 
University of Illinois at Urbana--Champaign--Psychology; University of 
Iowa--Psychological and Brain Sciences; University of Maryland at 
College Park--Psychology; University of Massachusetts at Amherst--
Psychological and Brain Sciences; University of Michigan--Psychology; 
University of Minnesota--Psychology; University of Minnesota--Institute 
of Child Development; University of North Carolina at Greensboro--
Psychology; University of Pennsylvania--Psychology; University of 
Pittsburgh--Psychology; University of Texas at Austin--Psychology; 
University of Texas at Dallas--School of Behavioral and Brain Sciences; 
University of Virginia--Psychology; University of Washington--
Psychology; Vanderbilt University--Psychological Sciences; Virginia 
Tech--Psychology; Wake Forest University--Psychology; Washington 
University in St. Louis--Psychology

    [This statement was submitted by Juliane Baron, Executive 
Director.]
                                 ______
                                 
           Prepared Statement of the Friends of the Children
                  support of the youth mentoring grant
    On behalf of the Friends of the Children national network, 
comprised of 17 locations in 10 States, I thank Chairman Jerry Moran 
and Ranking Member Jeanne Shaheen for the opportunity to provide 
testimony in support of a critical Federal investment in America's 
young people. My testimony will focus on the Youth Mentoring Program 
housed in the Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) at the Department of Justice (DOJ). Friends of the Children 
respectfully requests that your committee invest at least $120 million 
in the Youth Mentoring Program in fiscal year 2020. This investment 
will make it possible for quality, evidence-based mentoring 
organizations, like Friends of the Children, to increase our impact by 
serving more of our Nation's most at-risk children and youth, breaking 
cycles of poverty and violence and empowering them to change their life 
trajectories.
Friends of the Children Overview
    Friends of the Children is a $26 million network serving over 2,100 
youth and caregivers in 10 States across the country. Headquartered in 
Portland, Oregon, our sites are all independent non-profit 
organizations, and are located in Boston, Chicago, Charlotte, New York 
(Harlem and the Bronx), Tampa, Austin, San Francisco, Los Angeles, 
Fargo, Vancouver and Seattle Washington, and Portland, Gresham, Klamath 
Falls, and Bend Oregon.
    The mission of Friends of the Children is to break the cycle of 
generational poverty by giving the most vulnerable children the ability 
to create a new story. We select children ages 4-6 who are at risk of 
entering, or who are already in, the foster care system and pair them 
with a salaried, professional mentor (a Friend) who stays with them 
from kindergarten through graduation--12\1/2\ years, no matter what.
    Children who qualify for the Friends of the Children program are 
selected using a research-based, behavioral risk and protective factor 
assessment that aligns with the child welfare/foster care intake 
processes. Youth who qualify have disproportionately experienced 
Adverse Childhood Experience (ACE) factors before they join our program 
in kindergarten: 85 percent experience three or more ACE factors in 
their lifetime, and over half experience six or more.
    Our 26-year history has proven that trained, professional mentors 
who make long-term, 12+ year commitments can change the life 
trajectories of children who have been exposed to compounded risk 
factors.

  --83 percent of our youth graduate high school, although 60 percent 
        have parents who did not have the supports they needed to 
        graduate;
  --93 percent avoid the juvenile justice system, although 50 percent 
        have parents who were incarcerated;
  --98 percent avoid early parenting, although 85 percent were born to 
        a teen parent; and
  --92 percent go on to enroll in college, serve our country, or join 
        the workforce.

    These outcomes translate into economic savings for the community. 
The Harvard Business School Association of Oregon study on Friends of 
the Children found that every $1 invested in Friends of the Children 
yields more than $7 in return to the community in savings.
Closing the Mentoring Gap for Youth Impacted by the Opioid Crisis
    While mentoring is proven to be an effective, evidence-based 
intervention and prevention strategy for young people experiencing the 
greatest challenges, more youth need our help than we are able to 
serve.
    Since 2015, OJJDP has invested $4.5M into expansion of the Friends 
of the Children model. By leveraging that $4.5M into over $26 million 
of public and private funding, our network expanded the geographic 
scope of our services by 60 percent in the last 3 years and is poised 
to expand the number of youth served by over 20 percent in the next 2 
years.
    However, even with that increased growth in service and impact, we 
still aren't able to meet the demand for our services. Right now, for 
example, there are 26,000 5-year-old children in foster care who could 
thrive with the support of a Friend. In 2016, parental substance abuse 
contributed to 34 percent of all child removals nationwide. In 2017, 
the rate of children entering foster care due to parental substance 
abuse rose for the 6th consecutive year--a 53 percent increase since 
2007. There is a correlation between such removals and the rise in 
opioid addiction. One study found a 30 percent increase in opioid 
overdoses between 2016 and 2017 across 45 States. Adults living in 
poverty, ages 18-25 (the age of most Friends of the Children parents), 
are the most likely demographic group to become addicted and die from 
opioid pain relievers.
    Both incarceration of a parent and parental substance abuse are 
common Adverse Childhood Experiences for children served by Friends of 
the Children, especially our youth experiencing foster care. Each have 
also been linked to generational cycles of addiction, where children of 
incarcerated parents or those who have substance abuse challenges are 
in turn more likely to be impacted by the justice system or suffer from 
addiction in adolescence and adulthood.
    Currently, OJJDP Youth Mentoring Program funds are supporting 
Friends of the Children to break these cycles for over 2000 youth 
nationwide, but thousands more need our help.
    Unfortunately, the Youth Mentoring Program is now the only 
remaining Federal grant exclusively dedicated to providing funds for 
evidence-based mentoring. Without adequate resources and funding, 
mentoring programs--and ultimately America's young people--do not have 
access to the caring adults they need to develop healthy, safe and 
productive lives. This request in support of at least $120 million for 
the Youth Mentoring Program will allow more young people to have access 
to the important social, professional, and academic opportunities that 
all of America's youth deserve. The Youth Mentoring Program 
demonstrates a sound and effective investment in evidence-based 
programs that work, and will have definitive and measureable impact on 
closing the mentoring gap in America.
    Thank you again for this opportunity to provide testimony in 
support of this critical Federal resource that creates a better future 
all of us by investing in the potential and promise of America's young 
people.

    [This statement was submitted by Terri Sorensen, Chief Executive 
Officer.]
                                 ______
                                 
        Prepared Statement of the Geological Society of America
    national science foundation and national aeronautics and space 
                             administration
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in geoscience research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). We thank Congress for the investments made in 
fiscal year 2019 and encourage a path of sustainable growth forward. We 
encourage Congress to appropriate $9 billion for NSF in fiscal year 
2020 and fully support geoscience research at the agency without 
restriction. We request $7.5 billion in fiscal year 2020 to fund NASA's 
Science Mission Directorate with increased funding for the Earth 
Science and Planetary Science Divisions. Investment in NSF and NASA is 
necessary to secure America's future economic leadership, both through 
the discoveries made and the talent developed through their programs. 
Earth and space science at these two agencies play a vital role in 
American prosperity and security through understanding and documenting 
mineral and energy resources that underpin economic growth; researching 
and monitoring potential natural hazards that threaten U.S. and 
international security; and determining and assessing water quality and 
availability.

The Geological Society of America (GSA) is a global professional 
society with a growing membership of 23,000 individuals. GSA provides 
access to elements essential to the professional growth of earth 
scientists at all levels of expertise and from all sectors: academic, 
government, business, and industry.

                      national science foundation
    The Geological Society of America (GSA) appreciates the increase to 
the National Science Foundation (NSF) budget in fiscal year 2019 and 
thanks the Committee for recognizing the important role that the agency 
plays in our country's global competitiveness. We urge Congress to 
provide NSF at least $9 billion in fiscal year 2020 and reject the cuts 
proposed in the administration's request.
    Sustained increases beyond inflation are necessary to regain 
America's science and technology leadership and to enable the 
discoveries that lead to future innovations and industries. According 
to the 2018 Science and Engineering Indicators Report, the U.S. now 
ranks 11th in the world in research and development intensity. 
Increases in funding will allow NSF to continue to fund its core basic 
research in addition to growing investments in its ``Ten Big Ideas''. 
These ideas are designed to position the U.S. on the cutting edge of 
global science and engineering leadership and will build upon and 
complement the basic research occurring in the directorates.
    Geoscience research is a critical component of the overall science 
and technology enterprise and should be funded without restriction. 
NSF's Directorate for Geosciences is the largest Federal supporter of 
basic geoscience research at universities. NSF's programs in geoscience 
research and graduate and undergraduate student support contribute 
significantly to the education and training of the workforce. A recent 
report by the American Geosciences Institute, Status of Recent 
Geoscience Graduates 2017, illustrates the diversity of careers 
supported by geoscience research. For example, the report found that 
the majority of master's degree graduates found jobs in the oil and gas 
industry and government, while environmental services, such as 
environmental consulting and remediation of water and soil, hired the 
highest percentage of geoscience bachelor's degree graduates. Other 
industries hiring geoscientists include manufacturing, trade, 
construction, information technology services, mining, and agriculture.
    Increased investments in NSF's geoscience portfolio are necessary 
to address such issues as natural hazards, energy and minerals, water 
resources, and education; geoscience is a key contributor to 
groundbreaking research across disciplines at NSF. Specific needs 
include:

  --On December 20, 2017, President Trump signed an executive order 
        entitled A Federal Strategy to Ensure Secure and Reliable 
        Supplies of Critical Minerals, that finds,

          ``The United States is heavily reliant on imports of certain 
mineral commodities that are vital to the Nation's security and 
economic prosperity. This dependency of the United States on foreign 
sources creates a strategic vulnerability for both its economy and 
military to adverse foreign government action, natural disaster, and 
other events that can disrupt supply of these key minerals.''

        NSF's Division of Earth Sciences supports research on the 
structure, composition, and evolution of the Earth and the processes 
that govern the formation and behavior of the Earth's materials. This 
research contributes to a better understanding of the natural 
distribution of mineral and energy resources.

  --The quality and quantity of surface water and groundwater have a 
        direct impact on the wellbeing of societies and ecosystems, as 
        evidenced by flooding and drought impacts experienced across 
        the U.S. during the past year. NSF's research addresses major 
        gaps in our understanding of water availability, quality, and 
        dynamics, including the impact of both a changing climate and 
        human activity on the water system.
  --The Division of Atmospheric and Geospace Sciences provides critical 
        infrastructure and research funding for understanding our 
        planet, including weather and precipitation variability and 
        atmospheric and space weather hazards. Earth and space 
        observations provide data necessary to predict severe space 
        weather events, which affect the electric power grid, satellite 
        communications and information, and space-based position, 
        navigation, and timing systems.
  --The National Research Council report Sea Change: 2015-2025 Decadal 
        Survey of Ocean Sciences highlights areas of research that are 
        need to make informed decisions, including: How can risk be 
        better characterized and the ability to forecast geohazards 
        like megaearthquakes, tsunamis, undersea landslides, and 
        volcanic eruptions be improved? What are the rates, mechanisms, 
        impacts, and geographic variability of sea level change? How 
        different will marine food webs be at mid-century? In the next 
        100 years?
  --Natural hazards--including floods, earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters 
        provide unmistakable evidence that our nation remains 
        vulnerable to staggering losses. An improved scientific 
        understanding of geologic hazards will reduce future losses by 
        informing effective planning and mitigation. We urge Congress 
        to support NSF investments in fundamental Earth science 
        research and facilities that underpin innovations in natural 
        hazards monitoring and warning systems.
             national aeronautics and space administration
    GSA requests $7.5 billion to fund NASA's Science Mission 
Directorate (SMD) and increased funding for the Earth Science and 
Planetary Science Divisions. Increased funding will be critical to 
implement the recommendations of the recent National Academy of 
Sciences' Earth Science and Applications from Space (ESAS) Decadal 
Survey report. The report notes,

        ``Earth science and applications are a key part of the nation's 
        information infrastructure, warranting a U.S. program of Earth 
        observations from space that is robust, resilient, and 
        appropriately balanced.''

    The data and observations from Earth observing missions and 
research are a tremendously important resource for natural resource 
exploration and land use planning, as well as assessing water 
resources, natural disaster impacts, and global agriculture production. 
GSA supports interagency efforts to ensure the future viability of 
Landsat satellites as well as funding to increase the capabilities and 
uses of multi-spacecraft constellations of small scientific satellites.
    We appreciate congressional support in fiscal year 2019 for Earth 
Science Missions, and request that Congress continue their funding in 
fiscal year 2020. These missions will advance science frontiers and 
provide critical data for society. For example, NASA's Plankton, 
Aerosol, Cloud, ocean Ecosystem (PACE) mission will help us monitor the 
duration and impact of harmful algae blooms and The Climate Absolute 
Radiance and Refractivity Observatory (CLARREO) Pathfinder will enable 
industry and military decision-makers to more accurately assess natural 
hazards, such as flooding.
    Planetary research is directly linked to Earth science research and 
cuts in either program will hinder the other. To support missions to 
better understand the workings of the entire solar system, planetary 
scientists engage in both terrestrial field studies and Earth 
observation to examine geologic features and processes that are common 
on other planets, such as impact structures, volcanic constructs, 
tectonic structures, and glacial and fluvial deposits and landforms. In 
addition, geochemical planetary research studies include investigations 
of extraterrestrial materials now on Earth, including lunar samples, 
meteorites, cosmic dust particles, and, most recently, particles 
returned from comets and asteroids. We appreciate past congressional 
support for this area and urge you to continue to increase this 
important area to support priority areas identified in the ``Planetary 
Science Decadal Survey''.
              support needed to educate future innovators
    Earth scientists will be essential to meeting the environmental and 
resource challenges of the twenty-first century, but a shortage is 
expected in the future workforce. The Status of the Geoscience 
Workforce Report 2018 found an expected deficit of approximately 
118,000 geoscientists by 2026. Increased NSF and NASA investments in 
Earth science education are necessary to meet these workforce needs and 
develop an informed, science-literate population.
    NSF's Education and Human Resources Directorate researches and 
improves the way we teach science and provides research and fellowship 
opportunities for students to encourage them to continue in the 
sciences. Similarly, NASA's educational programs have inspired and led 
many into science careers. GSA fully supports these efforts, as well as 
programs to make the geoscience workforce more diverse.
    Please contact GSA Director for Geoscience Policy Kasey White to 
learn more about the Geological Society of America--including GSA 
Position Statements on water resources, planetary research, energy and 
mineral resources, natural hazards, climate change, and public 
investment in Earth science research.

    [This statement was submitted by Kasey White, Director for 
Geoscience Policy.]
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
                         department of justice
Program Involved
    COPS Tribal Resources Grant Program (TRGP) Hiring and Equipment/
Training Program under the Coordinated Tribal Assistance Solicitation 
(CTAS)
Summary of GLIFWC'S Fiscal Year 2020 Testimony
    GLIFWC supports sustained funding for the TRGP at no less than the 
fiscal year 2019 enacted funding level. This program has enabled GLIFWC 
to solidify its communications, training, and equipment requirements, 
essential to ensuring the safety of GLIFWC officers and their role in 
the proper functioning of interjurisdictional emergency mutual 
assistance networks providing public safety in the treaty ceded 
territories.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Ceded Territory Treaty Rights and GLIFWC'S Role
    GLIFWC was established in 1984 as a ``Tribal organization'' within 
the meaning of the Indian Self-Determination Act (Public Law 93-638). 
It exercises authority delegated by its member Tribes to implement 
Federal court orders and various interjurisdictional agreements related 
to their treaty rights. GLIFWC assists its member Tribes in:

  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing, restoring and protecting ceded territory 
        natural resources and their habitats.

    For 35 years, Congress and various administrations have funded 
GLIFWC through the BIA, the Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination and Education Assistance Act, the Clean Water Act, and 
other legislation; and (d) various court decisions, including a 1999 
U.S. Supreme Court case, that affirmed the treaty rights of GLIFWC's 
member Tribes. Under the direction of its member Tribes, GLIFWC 
operates a ceded territory hunting, fishing, and gathering rights 
protection/implementation program through its staff of biologists, 
scientists, technicians, conservation enforcement officers, and public 
information specialists.
Community-based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise of that program is that 
effective detection and deterrence of illegal activities, as well as 
education of the regulated constituents, are best accomplished if the 
officers work within the Tribal communities they primarily serve. The 
officers are based in reservation communities of the following member 
Tribes: in Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, 
Red Cliff, Sokaogon Chippewa (Mole Lake), and St. Croix; in Minnesota--
Mille Lacs; and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux 
Desert. To help develop mutual trust between GLIFWC officers and Tribal 
communities, officers provide outdoor skills workshops and safety 
classes (hunter, boater, snowmobile, ATV) to over 1,100 Tribal youth in 
grades 4-8 annually. GLIFWC's officers also actively participate in 
summer and winter youth outdoor activity camps, kids fishing events, 
workshops on canoe safety and rice stick carving, and seminars on 
trapping and archery/bow safety.
    GLIFWC's member Tribes realize it is critical to build 
relationships between Tribal youth and law enforcement officers as a 
means of combatting gang recruitment and drug/alcohol abuse in 
reservation communities. GLIFWC is continuing to take a pro-active 
approach to support these efforts by obtaining fiscal year 2013 DOJ 
funding to hire a Youth Outreach Officer. This Officer is working, with 
a team of officers, to improve and expand youth outdoor recreation 
activities in partnership with other GLIFWC officers. In addition, 
GLIFWC has appointed a second officer responsibilities in regard to 
development and implementation of youth programs to meet growing 
demands for community policing interaction with Tribal youth. The 
program's goal is to build and expand these relationships to help 
prevent violations of Tribal off-reservation codes, improve public 
safety and promote an outdoor lifestyle as an alternative to a 
lifestyle characterized by youth gangs \1\ and substance abuse.\2\ The 
availability of the Youth Outreach Officer has enabled GLIFWC, in 
partnership with the U.S. Forest Service, to grow participation in Camp 
Onji-Akiing (From the Earth). The camp began with just 9 Tribal 
students in grades 5-8 and by 2018 expanded to 52 Tribal students in 
grades 5-8, 8 Tribal Junior Counselors (i.e. high school students) and 
1 Tribal Junior Director (i.e. high school graduate enrolled in 
college).
---------------------------------------------------------------------------
    \1\ The American Indian and Alaska Native (AI/AN) youth population 
is more affected by gang involvement than any other racial population. 
15 percent of AI/AN youth are involved with gangs compared to 8 percent 
of Latino youth and 6 percent of African American youth nationally. 
(National Council on Crime and Delinquency: Glesmann, C., Krisberg, 
B.A., & Marchionna, S., 2009).
    \2\ 22.9 percent of American Indian and Alaska Native (AI/AN) youth 
aged 12 and older report alcohol use, 18.4 percent report binge 
drinking and 16.0 percent report substance dependence or abuse. In the 
same group, 35.8 percent report tobacco use and 12.5 percent report 
illicit drug use. (2010 National Survey on Drug Use and Health: Summary 
of National Findings).
---------------------------------------------------------------------------
Interaction with Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the Tribes' conservation codes, but are fully certified 
officers who work cooperatively with authorities from other 
jurisdictions when they detect violations of State or Federal criminal 
and conservation laws. These partnerships evolved from the inter-
governmental cooperation required to combat the violence experienced 
during the early implementation of treaty rights in Wisconsin. As time 
passed, GLIFWC's professional officers continued to provide a bridge 
between local law enforcement and many rural Indian communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training that is attended by GLIFWC officers, 
Tribal police and conservation officers, Tribal judges, Tribal and 
county prosecutors, and State and Federal agency law enforcement staff. 
DOJ funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders, and to train them in search and rescue, 
particularly in cold water rescue techniques. When a crime is in 
progress or emergencies occur, local, State, and Federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks. In fact, the role of GLIFWC's officers in these 
networks was further legitimized in 2007 by the passage of Wisconsin 
Act 27, which affords GLIFWC wardens the same statutory safeguards and 
protections that are afforded to their DNR counterparts. GLIFWC wardens 
now have access to the criminal history database and other information 
to identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    GLIFWC's participation in mutual assistance networks located 
throughout a 60,000 square mile region increases public safety in an 
effective and cost efficient manner. In 2018, GLIFWC officers utilized 
prior DOJ funded training and equipment to respond to:

  --Seven incidents where officers responded to emergency backup 
        requests from other law enforcement agencies including: (1) 
        assistance in serving a high-risk felony warrant from Oneida 
        County, Wisconsin; (2) assisting Michigan State Police with a 
        well-being check; (3) assisting in traffic control on U.S. 
        Highway 2 during flooding; and (4) assisting Barron County 
        Sheriff's Department with a large search for potential evidence 
        from a double homicide and kidnapping;
  --Seven accidents including one with a school bus, car/deer 
        collisions and flood related accidents that occurred in 
        Bayfield County;
  --Six search and rescue operations including a missing Tribal member 
        where GLIFWC officers utilized a GLIFWC owned Remotely Operated 
        Vehicle (Drone) to conduct an aerial search and to photograph 
        the area, and a missing 15-year-old from Lac Vieux Desert in 
        which GLIFWC officers worked with Gogebic County Sheriff's 
        Deputies, Michigan State Patrol Troopers, and multiple K9 teams 
        to successfully rescue the youth;
  --Two medical calls including responding to a finger amputation and 
        an elderly person in Washburn, Wisconsin; and
  --One interagency body recovery operation on Pokegama Lake in Lac Du 
        Flambeau.

    Increased Versatility and Improving Public Safety.--In addition to 
supporting GLIFWC participation in mutual assistance networks, DOJ 
training and equipment proved critical in building partnerships to 
improve public safety on Lake Superior. Ghost nets are commercial 
fishing nets that have been damaged due to Lake Superior's strong 
storms or vandalism and have sunk to the bottom of a lake. These lost 
gill nets can pose navigation hazards and damage equipment. In 2015, 
GLFWC utilized DOJ Tribal COPS funding to purchase equipment to address 
this public safety concern and in 2016 removed around 8,000 feet of 
ghost nets from Lake Superior, in 2017 GLIFWC removed around 8,700 feet 
of ghost nets and in 2018 GLIFWC removed around 7,035 feet of ghost 
nets. GLIFWC also formed a partnership with Wisconsin Sea Grant and the 
Apostle Islands Sport Fishermen's Association, and obtained funding 
from the Marine Debris Program to sponsor a series of public workshops 
to educate commercial and Tribal anglers on best net-management 
practices, build community relationships and further expand GLIFWC's 
Community Policing outreach efforts.
Looking to the Future
    In 2017, a GLIFWC officer, performing a routine investigation 
during a deer shining incident, discovered a case that the suspect had 
dropped out of their vehicle. The case contained a medical rubber band, 
syringes, and a substance in a plastic bag. The officer turned the 
paraphernalia over to county deputies who were on scene and the suspect 
was placed under arrest.
    GLIFWC member tribes have not escaped the opioid and 
methamphetamine crisis gripping much of the United States. Wisconsin 
has experienced a 335 percent growth in neonatal abstinence syndrome 
(NAS) from 2006 to 2014 from 2.0 to 8.7 per 1,000 live births \3\ and 
counties with reservation communities have the highest per capita NAS 
rates in the State. GLIFWC is a member of the Wisconsin Native American 
Drug and Gang Initiative (NADGI) Task Force and has participated in 
training under a Memorandum of Agreement.
---------------------------------------------------------------------------
    \3\ When opioids or other substances are used during pregnancy, the 
infant may be born with withdrawal from substances taken by the mother. 
This condition, termed neonatal abstinence syndrome (NAS), is 
associated with physiologic and behavioral consequences, such as low 
birth weight, feeding difficulties and respiratory problems. Select 
Opioid--Related Morbidity and Mortality, Data for Wisconsin, November 
2016, WI Dep. of Health Services.
---------------------------------------------------------------------------
    Methamphetamine remains a significant problem throughout the 
Chippewa ceded territories in Minnesota, Wisconsin and Michigan 
including in tribal communities. GLIFWC is also engaged in ongoing 
discussions with the U.S. Forest Service on developing strategies on 
how best to approach and counter with this pervasive regional problem.

    [This statement was submitted by Michael J. Isham, Executive 
Administrator.]
                                 ______
                                 
     Prepared Statement of the Human Factors and Ergonomics Society
  science and research funding at the national aeronautics and space 
             administration and national science foundation
    On behalf of the Human Factors and Ergonomics Society (HFES), we 
are pleased to provide this written testimony to Senate Appropriations 
Subcommittee on Commerce, Justice, and Science, and Related Agencies 
for the official record. HFES urges the subcommittee to provide $9 
billion for the National Science Foundation (NSF) and $22.575 billion 
for the National Aeronautics and Space Administration (NASA) in the 
fiscal year 2020 appropriations process.
    HFES and its members believe strongly that investment in scientific 
research serves as an important driver for innovation and the economy, 
national security, and for maintaining American global competitiveness. 
We thank the subcommittee for its longtime recognition of the value of 
scientific and engineering research and its contribution to innovation 
in the U.S.
           the value of human factors and ergonomics science
    HFES is a multidisciplinary professional association with over 
4,500 individual members worldwide, comprised of scientists and 
practitioners, all with a common interest in enhancing the performance, 
effectiveness and safety of systems with which humans interact through 
the design of those systems' user interfaces to optimally fit humans' 
physical and cognitive capabilities.
    For over 50 years, the U.S. Federal Government has funded 
scientists and engineers to explore and better understand the 
relationship between humans, technology, and the environment. 
Originally stemming from urgent needs to improve the performance of 
humans using complex systems such as aircraft during World War II, the 
field of human factors and ergonomics (HF/E) works to develop safe, 
effective, and practical human use of technology. HF/E does this by 
developing scientific approaches for understanding this complex 
interface, also known as ``human-systems integration.'' Today, HF/E is 
applied to fields as diverse as transportation, architecture, 
environmental design, consumer products, electronics and computers, 
energy systems, medical devices, manufacturing, office automation, 
organizational design and management, aging, farming, health, sports 
and recreation, oil field operations, mining, forensics, and education.
    With increasing reliance by Federal agencies and the private sector 
on technology-aided decisionmaking, HF/E is vital to effectively 
achieving our national objectives. While a large proportion of HF/E 
research exists at the intersection of science and practice--that is, 
HF/E is often viewed more at the ``applied'' end of the science 
continuum--the field also contributes to advancing ``fundamental'' 
scientific understanding of the interface between human decisionmaking, 
engineering, design, technology, and the world around us through 
research funded by NSF. The reach of HF/E is profound, touching nearly 
all aspects of human life from the healthcare sector, to the ways we 
travel, to the hand-held devices we use every day.
    human factors and ergonomics at the national science foundation
    HFES and its members believe strongly that Federal investment in 
NSF will have a direct and positive impact on the U.S. economy, 
national security, and the health and well-being of Americans. It is 
for these reasons that HFES supports robust funding for the Foundation 
to encourage further advancements in the fields of technology, 
education, defense, and healthcare, among others. HFES also supports 
the Foundation's dedication to its ``10 Big Ideas,'' \1\ including the 
Future of Work at the Human-Technology Frontier (FW-HTF), which seeks 
to address and improve human-technology interactions as workplaces 
integrate and adapt to artificial intelligence, automation, machine 
learning, and beyond. In the past, NSF funding for HF/E basic research 
has strengthened interdisciplinary partnerships allowing for a 
multilateral approach to technology research and development, including 
the human and user perspectives. The benefits of this research are not 
confined to one field but rather span across a range of disciplines to 
increase understanding of the way humans interact with technology, as 
well as with each other.
---------------------------------------------------------------------------
    \1\ National Science Foundation-proposed ``10 Big Ideas'' (https://
www.nsf.gov/about/congress/reports/nsf_big_ideas.pdf)

---------------------------------------------------------------------------
    In particular, NSF funds HF/E research to:

  --Better understand and improve the effectiveness of how individuals, 
        groups, organizations, and society make decisions.\2\
---------------------------------------------------------------------------
    \2\ Decision, Risk & Management Sciences (DRMS) Program (http://
www.nsf.gov/funding/pgm_summ.jsp?pims_id=5423)
---------------------------------------------------------------------------
  --Improve understanding of the relationship between science and 
        engineering, technology, and society, in order to advance the 
        adoption and use of technology.\3\
---------------------------------------------------------------------------
    \3\ Science, Technology, and Society (STS) Program (http://
www.nsf.gov/funding/pgm_summ.jsp?pims_id=5324)
---------------------------------------------------------------------------
  --Inform decisionmaking in engineering design, control, and 
        optimization to improve individual engineering components and 
        entire systems.\4\
---------------------------------------------------------------------------
    \4\ Systems Engineering and Design Cluster (http://www.nsf.gov/
funding/pgm_summ.jsp?pims_id=13473)

  human factors and ergonomics at the national aeronautics and space 
                             administration
    HF/E is a critical enabler of NASA science, aeronautics, and human 
spaceflight missions. Through the Human Research Program,\5\ NASA and 
external HF/E practitioners conduct research on the design and 
procedures that influence most, if not all, aspects of astronaut and 
mission control performance. This crucial role is necessary for the 
Agency to ensure safety and efficiency in complex systems with narrow 
risk parameters.
---------------------------------------------------------------------------
    \5\ NASA Human Research Program (https://www.nasa.gov/hrp)
---------------------------------------------------------------------------
    The practical applications of HF/E will only become more pronounced 
as NASA looks to expand the horizon of human exploration. With the 
United States planning to send humans beyond Earth orbit, unique 
challenges will arise that necessitate an increased reliance on HF/E 
research. Long duration missions with the potential for delayed Earth 
communications will require systems and procedures designed to 
guarantee safe operation of autonomous systems. This and other issues 
were highlighted in the National Aeronautics and Space Administration 
Transition Authorization Act of 2017,\6\ wherein Congress required NASA 
to take into consideration HF/E research outcomes in the mandated Human 
Exploration Roadmap.
---------------------------------------------------------------------------
    \6\ National Aeronautics and Space Administration Transition 
Authorization Act of 2017, Sec. 432(b)(3)(J) (https://www.congress.gov/
115/bills/s442/BILLS-115s442enr.pdf)
---------------------------------------------------------------------------
                               conclusion
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, HFES supports an 
overall fiscal year 2020 NSF budget of $9 billion and a NASA budget of 
$22.575 billion. This investment funds important research studies, 
enabling an evidence-base, methodology, and measurements for improving 
organizational function, performance, and design across sectors and 
disciplines.
    On behalf of HFES, we would like to thank you for the opportunity 
to provide this testimony. Please do not hesitate to contact us should 
you have any questions about HFES or HF/E research. HFES truly 
appreciates the subcommittee's long history of support for scientific 
research and innovation.

    [This statement was submitted by Kermit Davis, President, and 
Steven C. Kemp, Executive Director.]
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States
 national oceanic and atmospheric administration and the marine mammal 
                           commission budget
    Thank you for the opportunity to submit testimony on fiscal year 
2020 funding priorities for the National Oceanic and Atmospheric 
Administration and the Marine Mammal Commission. On behalf of the 
Humane Society of the United States and the Humane Society Legislative 
Fund, I urge the subcommittee to include the following requests in the 
fiscal year 2020 appropriations bill.
            national oceanic and atmospheric administration
Office of Protected Resources
    The National Oceanic and Atmospheric Administration, National 
Marine Fisheries Service, Office of Protected Resources (OPR) is 
charged with protecting marine mammals under the Marine Mammal 
Protection Act as well as endangered and threatened marine species 
under the Endangered Species Act. As summarized in the fiscal year 2017 
NOAA Congressional Justification, OPR's mission is to ``assess, 
understand, and protect the health of protected species, the ecosystems 
that sustain them, and the communities that value and depend on them.'' 
The program, in partnership with internal and external stakeholders, 
uses best available science to develop and implement best practices and 
conservation actions to reduce threats to protected species and their 
marine and coastal ecosystems.'' \1\ OPR's work is vital to ensuring 
the conservation of marine mammals and listed marine species.
---------------------------------------------------------------------------
    \1\ https://www.commerce.gov/sites/default/files/2019-04/
FY2020_NOAA_Congressional-
Budget-Justification.pdf at NMFS-6.
---------------------------------------------------------------------------
    Regarding marine species and the ESA, the OPR is tasked with, in 
part, responding to listing petitions to determine if species warrant 
listing under the ESA, meeting statutory deadlines regarding listings, 
designating critical habitat, developing recovery plans and interagency 
consultations. Without the necessary resources to undertake these 
tasks, the existing backlog of species awaiting consideration will 
continue to increase, imperiled species will continue to decline and we 
are at potential risk of driving species to extinction.
    Additionally, under both the MMPA and ESA, the OPR works to assess 
and monitor marine species populations and stocks and conduct research 
on marine species to help inform management decisions. As OPR is the 
premiere Federal agency tasked with undertaking this type of work on 
marine species, it would be detrimental to making management decisions 
if estimates on populations and stocks were no longer updated and key 
population research could not be conducted. For instance, if updated 
population information is not available, management decisions to aid 
recovery and assess the potential for delisting from the ESA would not 
be possible.
    OPR issues permits and authorizations that may result in take of 
protected species. These permits and authorizations help ensure that 
impacts of activities is minimal to marine species. The ability to 
process these permits and authorizations in a timely matter is 
contingent on having the resources to do so.
    The President's fiscal year 20 budget request ask for a net 
decrease of $13,496,000, eliminating in part $2,599,000 in funding to 
the ESA and MMPA permitting division and $4,000,000 by abolishing the 
John H. Prescott Marine Mammal Rescue Assistance Grant Program. See 
below for further discussion. We urge the OPR to be fully funded at 
$200,012,000 in order to ensure proper resources and adequate personnel 
are available for the conservation and management of marine mammals and 
listed marine species.
John H. Prescott Marine Mammal Rescue Assistance Grant Program
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
(Prescott Grant Program) provides competitive grants to marine mammal 
stranding network organizations to rescue, rehabilitate, or investigate 
sick, injured, or distressed live marine mammals, and investigate the 
events surrounding and determine the cause of death or injury to marine 
mammals. Over the past 18 years, the Prescott Grant Program has been 
vital to protecting and recovering marine mammals across the country 
while also generating critical information regarding marine mammals and 
their environment.
    As the sole source of Federal funding for the National Marine 
Mammal Stranding Network, which is comprised of over 90 member 
organizations within 23 States, robust funding is required for the 
Prescott Grant Program to enable it to continue its vital work. 
Citizens have come to expect that there will be a response to calls for 
experts to come and rescue animals in obvious trouble. However, without 
funding to the Prescott grant program, these local networks cannot 
afford to assist the National Marine Fisheries Service to fulfill its 
congressional mandate to ``compile and analyze, by region, to monitor 
species, numbers, conditions, and cause of illnesses and deaths of 
stranded marine mammals.'' 16 U.S.C. Sec. 1421a(b)(3).
    The President's fiscal year 2020 budget request zeroed out funding 
to this program in hopes that private entities will fund such efforts. 
It is improper and against clear congressional intent to have this 
program zeroed out. We urge the Prescott Grant Program to be fully 
funded at $4 million.
North Atlantic Right Whale-Related Research and Development
    One of NMFS' 2019 priorities is to ``investigate and develop 
measures to mitigate threats to the recovery of North Atlantic right 
whales.'' However, the President's fiscal year 2020 budget request 
eliminates $1 million in funding provided by Congress last year to 
further this priority. There are less than 420 North Atlantic right 
whales left in the world. deserves our full. The greatest threats to 
the survival of right whales are fishing gear entanglements and vessel 
strikes. Right whales are extremely vulnerable to being caught in the 
vertical buoy lines used in lobster and crab trapping gear. 
Entanglement can lead to drowning, reduced mobility, and, in some 
cases, a long, painful death from starvation. Ships also collide with 
right whales, causing deaths or serious injuries, such as blunt force 
trauma, propeller cuts, and broken bones. Given the dire situation of 
this species and NMFS stated 2019 priority, we request $5 million in 
funding for North Atlantic right whale-related research and development 
for fiscal year 2020.
                        marine mammal commission
    The Marine Mammal Commission plays a key role in the conservation 
of marine mammals. An independent Federal agency established by 
Congress in the Marine Mammal Protection Act, the three Commissioners--
experts on marine mammals--are appointed by the President and confirmed 
by the Senate. The Commissioners are supported by the Committee of 
Scientific Advisors on Marine Mammals, a special advisor on Alaskan 
Native Affairs, and 14 staff. The Commission provides independent, 
science-based oversight of U.S. policies, international policies, and 
the actions of Federal agencies regarding human impacts on marine 
mammals and their ocean environment.
    The Commission undertakes a range of activities to ensure that 
protections for marine mammals--whales, dolphins, seals, sea lions, 
walruses, sea otters, polar bears, and manatees--are as effective as 
possible, and as efficient as possible. It works with the regulatory 
agencies and stakeholders to identify and fill research needs, 
providing grant funding when possible for research that addresses 
information gaps and identifies regulatory approaches that are more 
tailored. For example, studies have shown that a modest increase in 
resources to support marine mammal data collection can result in more 
targeted regulatory measures and reduced financial impact on commercial 
fishermen. The Commission also seeks to ensure that the ability of 
Alaska Natives are able to meet their subsistence needs through hunting 
of marine mammals.
    The administration seeks to eliminate the Commission for the second 
year in a row. For fiscal year 2019, Congress recognized the 
Commission's important oversight function and funded the Commission at 
$3.43 million- the same amount it has received since fiscal year 2015. 
However, since the Commission has absorbed significant fixed costs 
since fiscal year 15, the discretionary funding has decreased, 
drastically impacting the work the Commission is able to accomplish. We 
urge the Commission to be funded at $5.25 million in fiscal year 2020 
to help restore the Commission's key oversight role in conserving 
marine mammals.

    [This statement was submitted by Keisha Sedlacek, Director of 
Regulatory Affairs, Humane Society Legislative Fund.]
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, and as a member of the 
Innocence Network, a coalition of approximately 60 local innocence 
organizations working to exonerate the innocent and prevent wrongful 
convictions nationwide, thank you for the subcommittee's critical 
funding increases and strong support for innocence and forensic science 
programs in fiscal year 2019. Thank you also for allowing me to submit 
written testimony for the record as you consider budget requests for 
fiscal year 2020. I urge you to robustly fund the following programs at 
the Department of Justice and the National Institute of Standards and 
Technology at the Department of Commerce, including:

  --$10 million for the Wrongful Conviction Review Program at the 
        Department of Justice (DoJ), Bureau of Justice Assistance (the 
        Wrongful Conviction Review Program is a part of the Capital 
        Litigation Improvement Program);
  --$10 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program at the DoJ, National Institute of Justice (NIJ);
  --$30 million for the Coverdell Forensic Sciences Improvement Grant 
        Program at NIJ;
  --$4.2 million to support forensic science standards setting 
        activities at the National Institute of Standards and 
        Technology (NIST);
  --$15 million for NIST to support forensic science research and 
        measurement science.

    These innocence and forensic science programs increase the accuracy 
and fairness of the criminal justice system, provide the strongest 
possible forensic science tools to justice system stakeholders, and 
generate greater public safety for our Nation.
    National Registry of Exonerations data show that the number of 
exonerations has significantly increased since Federal innocence 
programs--the Bloodsworth Post-Conviction DNA Testing and Wrongful 
Convictions Review programs--began to receive funding in 2008 and 2009, 
respectively. This dramatic increase in the number of exonerations is 
in part a result of the Federal decision to invest in these programs to 
help ensure the accuracy and integrity of the criminal justice system. 
In the 20 years prior to the initiation of innocence program funding 
(from 1989 to 2008), the rate of exonerations was much lower. In 2016, 
the number of exonerations was at its peak at 171 exonerations, and in 
recent years exoneration totals have been approximately 150 per year--
or on average, more than 12 exonerations per month. These effective 
program outcomes show the power and need to invest in Federal innocence 
and forensic science programs.
    The Midwest Innocence Project has had incredible success in Kansas 
where our work has resulted in the exoneration of three clients in the 
past 4 years. One of those clients, Floyd Bledsoe, served 16 years in a 
Kansas prison before a Jefferson County judge vacated his convictions 
in December 2015 based in part on new DNA testing evidence. Floyd was 
convicted of first-degree murder, aggravated kidnapping, and aggravated 
indecent liberties for the shooting death of his 14-year-old sister-in-
law. The DNA test results led to the identification of the actual 
perpetrator, Floyd's brother, and a co-conspirator in disposing the 
body, Floyd's father. In 2017, Richard Jones and Lamonte McIntyre were 
both exonerated by non-DNA evidence after the Midwest Innocence Project 
and our partners proved that investigators used improper practices when 
investigating the cases, resulting in their wrongful convictions. 
Richard served over 18 years for aggravated assault during a purse 
snatching he did not commit because of improper eyewitness 
identification practices. Lamonte served over 23 years for double-
homicide that occurred when he was just 17 due to the misconduct of 
both the investigating detective and the prosecutor. These examples 
demonstrate the long, complex, and resource intensive process often 
required to overturn a wrongful conviction, and inspire us to identify, 
remediate and prevent other wrongful convictions.
    Freeing innocent individuals and preventing wrongful convictions 
through reform greatly benefits public safety. Every time DNA 
identifies a wrongful conviction, it enables the possible 
identification of the person who actually committed the crime. Such 
true perpetrators have been identified in almost half of the first 350 
DNA exoneration cases. Unfortunately, many of these individuals went on 
to commit additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date over 360 individuals in the United States have been 
exonerated through DNA testing, including 20 who served time on death 
row. These innocents served an average of 14 years in prison before 
exoneration and release. However, the value of Federal innocence and 
forensic science programs is not to just these exonerated individuals. 
It is important to fund these critical programs because reforms and 
procedures that help to prevent wrongful convictions enhance the 
accuracy of criminal investigations, strengthen criminal prosecutions, 
and result in a stronger, fairer system of justice that provides true 
justice to victims of crime.
                   wrongful conviction review program
    We know that wrongful convictions occur in cases where DNA evidence 
may be insufficient or unavailable to prove innocence. The National 
Registry of Exonerations currently lists over 2,400 exonerations since 
1989--over 360 of which were based primarily on DNA. The Wrongful 
Conviction Review Program provides critical support to ensure that 
experts are available to navigate the complex landscape of post-
conviction litigation, as well as oversee the thousands of volunteer 
hours local innocence organizations leverage to help investigate these 
complex cases and support the significant legal work they require. The 
Wrongful Conviction Review Program has contributed to 34 exonerations 
over the past 3 years.
    The Wrongful Conviction Review Program provides funding to local 
innocence organizations so that they may provide this type of expert, 
high quality, and efficient representation for innocent individuals. 
The program's goals are both to alleviate burdens placed on the 
criminal justice system through costly and prolonged post-conviction 
litigation and to identify, whenever possible, the person who actually 
committed the crime.
    In recent years, only 5-10 percent of local innocence organizations 
received Wrongful Conviction Review funding during each grant cycle. To 
continue and expand this important work, we urge you to provide $10 
million for the Wrongful Conviction Review Program in fiscal year 2020. 
(Please note the Wrongful Conviction Review Program is a part of the 
Capital Litigation Improvement Program.)
          the bloodsworth post-conviction dna testing program
    The Bloodsworth Program supports States and localities that want to 
pursue post-conviction DNA testing in appropriate cases, and grantees 
range from State and local prosecutor offices to law enforcement 
agencies and crime labs. These grantees can collaborate with local 
innocence organizations when appropriate. For example, a Bloodsworth 
grant to Arizona allowed the State's Attorney General's Office to 
partner with the Arizona Justice Project to create the Post-Conviction 
DNA Testing Project. This effort canvassed the Arizona inmate 
population, reviewed cases, located evidence, and filed joint requests 
with the court to have evidence released for DNA testing. In addition 
to identifying the innocent, Arizona Attorney General Terry Goddard 
noted that the ``grant enable[d] [his] office to support local 
prosecutors and ensure that those who have committed violent crimes are 
identified and behind bars.'' \1\
---------------------------------------------------------------------------
    \1\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-Federal-DNA-grant.htm 
(last visited Mar. 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth program is a powerful investment for States seeking 
to free innocent individuals and identify the individuals who actually 
committed the crimes. The program has resulted in the exonerations of 
51 wrongfully convicted persons in 14 States. The person who actually 
committed the crime was identified in 13 of those cases. For example, 
Virginian Thomas Haynesworth, who was wrongfully incarcerated for 27 
years, was freed thanks to Bloodsworth-funded DNA testing that also 
revealed the person who actually committed the crime. The culpable 
person in that case went on to terrorize the community by attacking 12 
women, with most of the attacks and rapes occurring while Mr. 
Haynesworth was wrongfully incarcerated. Given the importance of this 
program to both innocent individuals and public safety, we urge you to 
provide $10 million to continue and expand the work of the Bloodsworth 
Post-Conviction DNA Testing Program in fiscal year 2020.
                         the coverdell program
    The Coverdell Program provides State and local crime laboratories 
and medical examiner offices with much needed Federal funding to carry 
out forensic testing and analysis both efficiently and effectively. As 
forensic science budgets find themselves severely stretched in many 
States and localities as a result of the opioid epidemic, and as 
Federal bodies recommend the implementation of new policies, standards, 
and guidelines, the Coverdell program funds are critical to ensure that 
crime labs can function well and produce accurate and reliable results.
    Additionally, in recognizing the need for independent government 
investigations in the wake of allegations of forensic negligence or 
misconduct, Congress created the forensic oversight provisions of the 
Coverdell Program to help ensure the integrity of and public confidence 
in forensic evidence. Specifically, Congress requires that a State or 
unit of local government shall submit to the Attorney General 
certification that a government entity exists and an appropriate 
process is in place to conduct independent external investigations into 
allegations of serious negligence or misconduct substantially affecting 
the integrity of the forensic results committed by employees or 
contractors of any forensic laboratory system, medical examiner's 
office, coroner's office, law enforcement storage facility, or medical 
facility in the State that will receive a portion of the grant amount.
    As the program supports both the capacity of crime labs to process 
forensic evidence and the essential function of ensuring the integrity 
of forensic investigations in the wake of serious allegations of 
negligence or misconduct, we urge you to provide $30 million for the 
Coverdell Program in fiscal year 2020.
                      forensic science improvement
    To continue the critical work to improve forensic science, and help 
prevent wrongful convictions, we urge you to provide the following 
amounts in fiscal year 2020 for forensic science improvements, 
including:

  --$4.2 million directed to the National Institute of Standards and 
        Technology (NIST) at the Department of Commerce to support 
        forensic science technical standards development, including $3 
        million to support the Organization of Scientific Area 
        Committees (OSAC) and $1.2 million to support technical merit 
        evaluations.
  --$15 million for NIST to support forensic science research and 
        measurement science.

    As the Federal entity that is both perfectly positioned and 
institutionally constituted to conduct measurement science and 
foundational research in support of forensic science, NIST's work will 
improve the validity and reliability of forensic evidence, a need cited 
by the National Academy of Sciences 2009 report, Strengthening Forensic 
Science in the United States: A Path Forward.\2\ NIST's reputation for 
innovation will result in technological solutions to advance forensic 
science applications and achieve a tremendous cost savings by reducing 
court costs posed by litigating scientific evidence.
---------------------------------------------------------------------------
    \2\ National Research Council. Strengthening Forensic Science in 
the United States: A Path Forward. Washington, DC: The National 
Academies Press, 2009. doi:10.17226/12589, p. 22-23.
---------------------------------------------------------------------------
    The OSAC is seen by many as the most significant Federal forensic 
science initiative in recent years. State and local forensic 
scientists, who conduct the vast majority of forensic science casework, 
are in strong support and are significantly involved in this effort. In 
order for a standard to qualify for the registry that the OSAC 
maintains, it must demonstrate that it is technically sound. Some 
forensic science methods have not yet received an evaluation of their 
technical merit and NIST needs further support to conduct these vital 
reviews. At a time when public safety and national security are some of 
our Nation's top priorities, it is imperative that Congress invest in 
scientific tools that support these endeavors. The forensic science 
activities and research at NIST will help greatly to improve forensic 
disciplines and propel forensic science toward greater accuracy and 
reliability.
                               conclusion
    Thank you so much for your leadership in helping to ensure the 
accuracy, integrity, and reliability of our Nation's criminal justice 
system. We urge you to support all of the aforementioned programs, 
including the Wrongful Conviction Review; Bloodsworth; Coverdell; and 
NIST forensic science programs. If you have any questions, or need 
additional information, please contact Jenny Collier, Federal Policy 
Advisor to the Innocence Project at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcd6dfd3d0d0d5d9cefcdfd3d0d0d5d9cedfd3d0d0d9dfc8d5cad992d3cedb92">[email&#160;protected]</a>

    [This statement was submitted by Tricia Bushnell on behalf of the 
Innocence Project, and as a member of the Innocence Network.]
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2020 Department of Justice and Department of Commerce 
Budgets. Our Budget Request endorses the requests and recommendations 
of the Northwest Indian Fisheries Commission, the Pacific Salmon 
Commission and the National Congress of American Indians. Failure to 
fully fund public safety and justice in Indian country has undermined 
Tribal sovereignty and the ability of Tribal governments to protect 
their citizens and communities. American Indians/Alaska Natives suffer 
from the Nation's highest rates of crime and victimization as 
documented by the Department of Justice (DOJ) and U.S. Commission on 
Civil Rights. Based on recent appropriations, the Bureau of Indian 
Affairs (BIA) is funding law enforcement at 20 percent of need, 
detention at 40 percent of need and courts at 3 percent of need. 
Insufficient base funding has many Tribes relying on short-term 
competitive grants to try and address a portion of the funding 
shortfall. Honoring the Federal trust obligation requires substantial 
investment in public safety and justice in Indian country.
     tribal specific--department of justice/department of commerce
1.  Provide Recurring Base Funding for Tribal Justice Programs
2.  Hold Indian Country Harmless from Budgetary Reductions, 
Rescissions, and Sequestration
3.  Data Collection to Support Funding Requests
     regional requests and recommendations--department of commerce
Support the fiscal year 2019 request of the Pacific Salmon Commission
1.  Provide $110 million for the Pacific Coastal Salmon Recovery Fund 
(NOAA/NMFS)
2.  Provide $18.3 million for the Pacific Salmon treaty, including the 
additional $5.5 million for the 2008 Chinook Salmon Agreement (NOAA/
NMFS)
3.  Provide $20.3 million for the Mitchell Act Hatchery Program (NOAA/
NMFS)
      national requests and recommendations--department of justice
1.  Fully Fund the Tribal Law and Order Act (TLOA)
2.  Fully Fund Violence Against Women Act (VAWA)
3.  Office of Justice Programs (OJP)--Create a Ten Percent (10 percent) 
Tribal Set-Aside for Tribes
4.  Victims of Crime Act Funding--Provide a 5 percent (5 percent) set 
aside
5.  Fund COPS Program--$52 million
                        tribal specific requests
1.  Provide Recurring Base Funding for Tribal Justice Programs

    Stable funding at sufficient levels is essential for viable and 
effective Tribal justice institutions. Grant funding is, at best, a 
short term investment that is used to support the ongoing and critical 
Tribal justice needs. Although we appreciate the intent of the 
Department in developing the CTAS to streamline the grant process and 
provide Tribes a tool for quick access and reference to funding that is 
specifically available to Tribes, competitive grants do not work well 
as the main funding source. The time limitation leads to instability, 
the administrative burden on Tribes remains excessive, the lack of 
flexibility creates challenges to addressing justice needs, funding is 
insufficient, and the CTAS application process is highly competitive, 
tedious, and complex and there are many restrictions imposed on how 
Tribes may use the funds. Base funding coupled with more flexibility 
would allow for more effective and efficient use of the Federal dollar 
and stronger Tribal justice systems.

2.  Hold Indian Country Programs Harmless from Budgetary Reductions, 
Rescissions and Sequestration

    Decades of unfulfilled Federal obligations has devastated Tribal 
communities who continue to face persistent shortfalls and overwhelming 
unfulfilled Federal obligations as documented by the U.S. Civil Rights 
Commission 2018 Report: Broken Promises Continuing Federal Funding 
Shortfall for Native Americans. Sequestration, reductions and 
rescissions further exasperate an already precarious budget situation 
undermining the Tribes ability to maximize program operations and their 
ability to provide basic services to our citizens. In addition, many of 
these reductions are permanent rescissions and the cumulative effect 
over the years has critically impacted Tribal communities. Until Tribes 
attain exclusive taxing jurisdiction within their Tribal lands, Federal 
support remains critical to ensure the delivery of essential 
governmental services to our Tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for Tribes 
must be sustained and held harmless in any budgetary deal enacted to 
reduce the national deficit.

3.  Improve Data Collection to Support Tribal Funding Requests

    Data is critical to support Tribal policy goals, implementation of 
programs and services, managing impacts of the Federal investment and 
community planning for program success. Accurate data can capture the 
community needs and guide Tribal investments resulting in efficient and 
effective use of resources and strong Tribal justice systems. However, 
there is a lack of available data and data gathering throughout the 
Federal agencies. OMB and the Agencies should work together with Tribes 
to develop uniform measures that track Federal spending for Native 
American programs and services and that capture the unfulfilled Federal 
obligations.
                 regional requests and recommendations
1.  $110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
NMFS)

    The fiscal year 2018 appropriations provided a total of $65.0 
million. These funds have decreased from the peak of $110.0 million in 
fiscal year 2002. The Tribes' overall goal in the PCSRF program is to 
restore wild salmon populations while the key objective is to protect 
and restore important habitat in Puget Sound and along the Washington 
coast. These funds support policy and technical capacities within 
Tribal resources management to plan, implement, and monitor recovery 
activities.

2.  $18.3 million for the Pacific Salmon Treaty--The U.S. Section 
estimates that this funding is needed to implement national commitments 
created by the Treaty (NOAA/NMFS)

    The Pacific Salmon Commission (PSC) establishes fishery regimes, 
develops management recommendations, assesses each country's 
performance and compliance with the treaty, and is the forum for all 
entities to work towards reaching an agreement on mutual fisheries 
issues

3.  $20.3 million for the Mitchell Act Hatchery Program (NOAA/NMFS)

    Funding is provided for the operation and maintenance of hatcheries 
that release between 50 and 60 million juvenile salmon and steelhead in 
Oregon and Washington. This program has historically provided fish 
production for Tribal treaty and non-Tribal commercial and recreational 
fisheries in the Columbia River, and also contributes to ocean 
fisheries from Northern California to Southeast Alaska.
      national requests and recommendations department of justice
1.  Fully Fund the Tribal Law and Order Act (TLOA)

    The Tribal Law and Order Act was an important step in empowering 
Tribes to better address the unique public safety challenges and reduce 
the prevalence of violent crime in Indian country. However, effective 
implementation of TLOA is contingent upon adequate Federal funding. 
Funding is needed to implement the comprehensive and improved measures 
that were enacted to address the public safety crisis in Tribal 
communities. The entire Tribal justice system is dependent on this 
funding to carry out law enforcement, court, and detention functions, 
and to provide rehabilitation and preventive services. Tribal justice 
systems are the cornerstone that paves the way for economic development 
and Tribal self-sufficiency.

2.  Fully Fund Violence Against Women Act (VAWA) Including $5 million 
for VAWA Special Domestic Violence Criminal Jurisdiction

    The Office on Violence Against Women provides funding for Tribes to 
assist victims of domestic violence. Funding for Tribal governments is 
derived from other OVW Programs and combined into a single source 
called the ``Grants to Tribal Governments Program''. Therefore, it is 
imperative to Tribes that these other programs receive full funding so 
the Tribal grant program will, in turn, receive full funding. The root 
cause of these high rates of violence was a justice system that forced 
Tribal governments to rely on distant Federal, and in some cases, State 
officials to investigate and prosecute incidences of domestic violence 
committed by non-Natives against Native women. The statistics on 
violence against Native women show that outside law enforcement has 
proven ineffective in addressing these crimes of violence. Between 2005 
and 2007, U.S. Attorneys declined to prosecute nearly 52 percent of 
violent crimes that occurred in Indian country; and 67 percent of cases 
declined were sexual abuse related cases. It is unconscionable to force 
Tribes to submit to a system of justice that declines to prosecute over 
half the criminal cases brought before it and leaves our Native women 
without judicial recourse.

3.  Office of Justice Programs (OJP)--Provide a 10 percent Tribal Set-
Aside for all (OJP) Programs and Allow for Greater Flexibility

    The Office of Justice Program (OJP) provides funding to Tribes to 
address public safety and criminal justice needs in Indian communities. 
We are advocating for a 10 percent Tribal set-aside to allow for a more 
flexible grant structure for Tribes to complement the Coordinated 
Tribal Assistance Solicitation (CTAS) grant. Although Congress and the 
administration have taken steps in recent years to try and address some 
of these concerns through the passage of the Tribal Law and Order Act 
(TLOA) of 2010 and the Reauthorization of the Violence Against Women 
Act (VAWA) of 2013, significant funding is needed in order to implement 
these new authorities to address the crisis level need in Indian 
country and elevate the safety and wellness of our Tribal citizens and 
communities. Tribal court systems are evolving to meet the increasing 
demands of Tribal communities and ensure that Tribal citizens are 
provided with adequate legal representation and protection. Under TLOA 
and VAWA Tribal courts are required to expand judicial services and 
meet certain costly thresholds, including, providing public defenders, 
recording criminal proceedings, and retaining legally trained and 
licensed Tribal judges. Without adequate funding for Tribal court 
systems, decisions to arrest, prosecute and detain will be based on 
financial restraints rather than in the best interest of public safety. 
Stable funding for Tribal courts is a prerequisite to ensure a safe, 
healthy and thriving Tribal community.

4.  Increase the Funding Caps and Create a Permanent Five Percent (5 
percent) Tribal Set-Aside for Victims of Crime Act Funding

    We commend Congress for providing a 3 percent set aside for Tribes 
in the Victim of Crimes Fund in the fiscal year 2018 and fiscal year 
2019 Budget. We request that a similar Tribal set aside is included in 
the fiscal year 2020 appropriations. Congress created the Crime Victims 
Fund in 1984 with the idea that money collected from those who commit 
crimes should be used to assist those that have been victimized. Each 
year, the fund is financed by the collection of funds, penalties and 
bond forfeitures from defendants convicted of Federal crimes. It is 
important to note that the fund receives no tax payer dollars. DOJ 
disburses funds to States and other entities. Crime victimization rates 
on Tribal lands have been estimated as much as 250 percent higher than 
the national rate and the rate of murder of American Indian/Alaska 
Native women on some reservations are 1000 percent higher than the 
national average. Tribal governments, like State governments, are 
responsible for addressing the needs of victims in their communities. 
Despite the devastating rates of victimization in Tribal communities, 
Indian Tribes have largely been left out of the fund. Indian Tribes are 
only able to access these dollars through State pass through grants or 
very limited short term competitive DOJ grants. However, many States do 
not provide funds to Tribes for victim services and the vast majority 
of Tribes are unable to access these funds at all. Tribes are again 
requesting a Tribal set-aside of 5 percent of the VOCA funds. .

5.  Fund the COPS Program--$52 million

    The COPS Office provides funding to Tribes for law enforcement 
officers. The funding can also be used for training, equipment, 
vehicle, and technology. There is a great need for additional law 
enforcement officers throughout Indian country but limited resources 
has led to inadequate funding for justice systems, specifically, in the 
area of hiring, retention and training of law enforcement officers. It 
is imperative for the safety of Tribal citizens and surrounding 
communities that a significant increase in funding is allocated for 
Tribal law enforcement officers and programs.
    I would like to extend my thanks to the subcommittee for an 
opportunity to submit testimony on the fiscal year 2020 Appropriations 
for DOJ and DOC.

    [This statement was submitted by W. Ron Allen, Tribal Chairman/
CEO.]
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairman Moran, Ranking Member Shaheen, and other distinguished 
Members of the subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2020 Commerce, Justice, Science, and Related 
Agencies appropriations bill. We are deeply appreciative of the 
comprehensive funding that you provided to ocean priorities in the 
fiscal year 2019 Omnibus. We recognize the difficulty of allocating 
resources in these challenging fiscal times and we laud your decision 
to support key ocean accounts despite the administration's short-
sighted proposed cuts to core ocean and coastal programs.
    For fiscal year 2020, we are again facing a long list of accounts 
that would be eliminated or severely hamstrung by the President's 
Budget, including bedrock staples such as Sea Grant, Coastal Zone 
Management Grants, ocean observations, ocean acidification, and 
fisheries management. If enacted, these cuts would undermine our 
investments and compromise our ability to address the ongoing impacts 
of a changing climate, protect and promote economic development, 
safeguard our citizens, and responsibly balance the use of our oceans 
and coasts.
    The Joint Ocean Commission Initiative (Joint Initiative) is a 
collaborative, bipartisan effort to catalyze action and monitor 
progress toward meaningful ocean policy reform. We believe that a 
continued commitment to protecting base funding and core programs at 
NOAA, NSF, and NASA is an investment that will save lives, protect 
national security, grow our economy, and preserve the health of our 
oceans and coasts. Ocean observations play a critical role in 
maintaining our undersea superiority and ocean and coastal resources 
provide fundamental goods and services, including food, minerals, 
transportation, medicines, tourism, and recreational opportunities. In 
2015, the ocean economy contributed more than $320 billion to the GDP 
and directly supported over 3.2 million jobs, many of which were 
located in coastal counties. Moreover, ocean and coastal environments 
are often the first line of defense when it comes to promoting 
resilience and protecting American communities from severe weather 
events.
    Based on the need for significant and sustained investment to 
invigorate public-private partnerships and energize national, regional, 
State, and local initiatives, we strongly support increasing NOAA's 
overall budget to a minimum of $6.5 billion, NSF's overall budget to a 
minimum of $9 billion, and NASA Earth Science's budget to a minimum of 
$2.1 billion. We believe the recommendations articulated in this 
testimony represent a modest investment relative to the threats and 
opportunities facing oceans and coastal communities, as the benefits 
they confer significantly outweigh the costs. The Joint Initiative is 
highly appreciative of progress the subcommittee has made in providing 
resources to essential ocean and coastal accounts, and we urge you to 
continue supporting these priorities.
                 research, exploration, and observation
    A critical component of America's economic, military, and 
diplomatic power lies in its ocean science, research, education, 
exploration, monitoring, and observation enterprises. Especially given 
the pace of observed changes in climate and ocean chemistry, we 
strongly urge the subcommittee to protect vital ocean science and 
research capabilities.
    Observation and monitoring programs, as well as other scientific 
and data programs, are integral to NOAA's ability to accurately 
forecast weather. They are central for NOAA's protection and management 
of America's coastal and ocean resources and for the U.S. military's 
navigation and extreme weather preparedness. We ask that your committee 
continue to support enhanced capabilities for observation and 
monitoring by allocating $550 million to NOAA's Office of Oceanic and 
Atmospheric Research (OAR) and $53 million to NOAA's Sustained Ocean 
Observations and Monitoring Program. We also suggest the committee 
allocate $50 million for the Ocean Exploration program to maintain the 
pace, scope, and efficiency of exploration. NOAA's Ocean Exploration 
program has a long history of bipartisan support and has greatly 
contributed to our knowledge of the ocean, largely by utilizing 
supporting infrastructure such as ships, moorings, buoys, and 
autonomous underwater vehicles, and computational and data management 
hardware. It is also critical to fund climate research at OAR at no 
less than $160 million to promote high-priority climate science that 
advances our understanding of Earth's climate system and foster the 
application of this research in risk management and adaptation efforts
    In addition, we recommend allocating $9 billion for the NSF. NSF's 
investment in the geosciences--which includes ocean sciences--has 
spurred innovations, addressed salient national and global challenges, 
galvanized new economic sectors, generated countless jobs, and led to 
the development and implementation of advanced technologies. Finally, 
we recommend you allocate $2.1 billion in funding for NASA's Earth 
Science Division to improve national capabilities to predict climate, 
weather, and natural hazards, and better manage national resources.
    It is essential that Congress provide the operational and 
maintenance support necessary to keep research, monitoring, and 
exploration infrastructure functioning, and to facilitate its 
modernization. In combination with remote sensing, ocean observation 
infrastructure has helped to establish and maintain the long-term in-
situ data sets that are essential to safeguarding U.S. assets and 
understanding changes in physical, chemical, and biological processes. 
These data sets have generated vital tools that support the American 
economy and environment. Maintaining U.S. research and development 
infrastructure is critical to our long-term economic competitiveness.
                        education and extension
    The National Sea Grant College Program works to better understand, 
conserve, and utilize America's coastal resources, making it critical 
to coastal states, communities, and economies. Sea Grant works to 
extend the findings of marine and coastal research to impact American 
livelihoods. For example, Sea Grant programs support fisheries and 
aquaculture business development and help Americans plan for and 
respond to extreme weather events. We are alarmed by the President's 
proposal to eliminate funding for Sea Grant, and we urge this committee 
to secure the benefits that Sea Grant provides by allocating $93.5 
million to Sea Grant in fiscal year 2020.
    Likewise, we are equally alarmed by the elimination of funding for 
environmental education and ocean stewardship at NOAA. We urge the 
committee to provide $12 million for the Bay-Watershed Education and 
Training (B-WET) program and $8 million for Environmental Literacy 
Programs (ELP), which are essential for STEM education and encouraging 
environmental stewardship.
                        resilience and security
    Variability in oceanographic and atmospheric conditions, coupled 
with demographic changes that increasingly crowd our coasts, make the 
impact of storms and flooding events more severe. Changing weather and 
charged geopolitical relationships heighten the already serious need 
for ocean and coastal security. Ocean and coastal communities must be 
safeguarded and made more resilient. Congress took a pioneering first 
step with the fiscal year 2018 Omnibus by authorizing $30 million for 
the National Ocean and Coastal Security Fund (NOCSF), and built upon 
this work by authorizing another $30 million for the NOCSF in fiscal 
year 2019. We ask this subcommittee to continue leading on ocean and 
coastal security by allocating $50 million for the NOCSF in fiscal year 
2020. We further recommend that a portion of this funding continue to 
support critical ocean partnerships that encourage collaboration and 
data sharing on the regional scale. In addition, we recommend a total 
allocation of $80 million to Coastal Management Grants and a minimum 
allocation of $28 million for the National Estuarine Research Reserve 
System in fiscal year 2020. These programs, eliminated in the 
administration's budget, support vital Federal/state partnerships to 
help protect our coasts and preserve millions of acres of coastal 
habitat, buffering against rising seas and storm events.
    NOAA's National Ocean Service (NOS) is also critical for sustained 
resilience and security. We strongly recommend that NOS receive an 
allocation of $600 million. NOS funding supports economy boosting 
programs that ensure safe and efficient transportation and commerce; 
preparedness and risk reduction; and stewardship, recreation, and 
tourism. For example, NOAA's Office for Coastal Management delivers 
technical assistance communities need to address storm preparedness, 
erosion, development, habitat loss, sea level rise, and threats to 
water quality. Moreover, the National Centers for Coastal Ocean Science 
provides coastal managers with the scientific information they need to 
protect public health, preserve valued habitats, and foster sustainable 
community interaction with coastal ecosystems. In addition, NOS 
supports the Integrated Ocean Observing System (IOOS), which plays an 
instrumental role in collecting and distributing data that is used at 
the national, regional, State, and local levels.
    The NOS is also responsible for administering the Office of 
National Marine Sanctuaries and a range of restoration projects that 
dramatically enhance the resilience of coastal communities and ocean 
environments. It is worth noting that these investments pay serious 
economic dividends: National Marine Sanctuaries generate approximately 
$8 billion annually for local economies and NOAA's restoration projects 
create an average of 17 jobs for every $1 million invested. Moreover, 
every dollar invested in strengthening coastal communities against 
storm surge mitigates four dollars in losses. We ask the subcommittee 
to support the NOCSF and the NOS to bolster the Nation's economic and 
environmental resilience and security.
                          ocean acidification
    Ocean acidification is evident along every shoreline and is having 
major impacts on economies worldwide. By changing the chemistry of 
seawater, ocean acidification endangers shellfish, corals, and other 
marine life that form calcium shells or skeletons and disrupts marine 
food webs. In the United States, ocean acidification poses a 
fundamental risk to our fisheries and aquaculture industries. Left 
unresolved, ocean acidification will exact a substantial toll on the 
world's economies and diminish our capacity to nourish growing 
populations. We strongly urge you to allocate a minimum of $50 million 
for NOAA's Integrated Ocean Acidification program. Funding the 
Integrated Ocean Acidification program at elevated levels will support 
critical research, monitoring, education, and outreach. It will help 
develop a better understanding of the causes, impacts, and scale of 
ocean acidification and identify interventions to help protect 
fisheries and aquaculture.
                         sustainable fisheries
    Fishing is a cornerstone of the ocean economy and an important 
aspect of American history and culture. Since 1976, we have seen 
tremendous progress toward creating and maintaining sustainable 
fisheries domestically and internationally. Much of this progress can 
be credited to your Subcommittee's commitment to scientifically-sound 
fishery management and the tireless efforts of U.S. fishermen, regional 
fishery management councils, state commissions, scientists, and 
managers.
    However, America's fisheries are currently facing unprecedented 
challenges including changing ocean conditions, impacts from land-based 
activities, shifts in historic stock distributions, increasingly 
complex data requirements, and a rapidly growing recreational fishing 
sector. Globally, illegal, unreported, and unregulated (IUU) fishing 
remains a threat to fisheries sustainability worldwide. NOAA Fisheries 
requires elevated funding to address these numerous challenges. For 
example, better science and real-time data can improve the quality of 
management decisions and provide regional management councils with more 
tools to assess the current status of fish stocks. To protect America's 
fisheries and the jobs that rely on them, we recommend allocating $1.1 
billion to the National Marine Fisheries Service to fully implement the 
Magnuson-Stevens Fishery Conservation and Management Act. This should 
include the ability to improve the coastal infrastructure on which 
fisheries depend and address threats that changing conditions pose. We 
also urge you to support full implementation of the U.S. Seafood Import 
Monitoring Program to address IUU fishing and other initiatives to 
spread sustainable fisheries management globally.
                           concluding remarks
    The Joint Initiative greatly appreciates your commitment to 
stretching scarce resources to address the challenges of our maritime 
Nation. We thank you for the substantial funding allotted to ocean 
priorities in fiscal year 2019, and we appreciate your consideration of 
our fiscal year 2020 request. We will continue to track progress on key 
ocean and coastal programs and accounts in fiscal year 2020 and beyond, 
and we stand ready to assist you in advancing positive and lasting 
changes in the way we manage our Nation's oceans and coasts.
       joint initiative co-chairs and leadership council members
The Honorable Christine Todd Whitman
The Honorable Norman Mineta
Frances Beinecke
Don Boesch
Lillian Borrone
The Honorable Norm Dicks
Quenton Dokken
Robert Gagosian
Sherri Goodman
Scott Gudes
The Honorable Conrad Lautenbacher
Margaret Leinen
The Honorable Jane Lubchenco
Julie Packard
The Honorable Leon Panetta
John Pappalardo
The Honorable Pietro Parravano
Diane Regas
Randy Repass
Andrew Rosenberg
The Honorable William Ruckelshaus
Paul Sandifer
      
                                 ______
                                 
 Prepared Statement of Karl Anderson, Director of Government Relations 
on behalf of the American Society of Agronomy, Crop Science Society of 
              America, and Soil Science Society of America
                      national science foundation
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 scientists in academia, industry, and government, over 
13,500 Certified Crop Advisers (CCA), and more than 700 Certified 
Professional Soil Scientist (CPSS). We are the largest coalition of 
professionals dedicated to the agronomic, crop and soil science 
disciplines in the United States.
    In the coming decades, our agricultural system must sustainably 
produce food and fuel for a rapidly growing global population. The 
Nation's economic prosperity and security depend on our dedication to 
developing innovative, science-based solutions to address the 
challenges facing our food system. The ASA, CSSA, and SSSA appreciate 
the appropriations that that National Science Foundation (NSF) received 
in fiscal year 2018 and 2019. Yet, as our Nation's farmers face 
increasing extreme weather and market uncertainty, NSF's programs 
become even more important providers of the science they need to stay 
in business. NSF's Big Ideas initiatives, its core programs that 
sustain research infrastructure, and its unparalleled support for STEM 
students and the future STEM workforce require increased investment.

    We support $9 billion for the National Science Foundation in fiscal 
year 2020 appropriations.

    This funding level will put the premier government-funding agency 
for scientific research on track to address farmers' challenges by 
increasing the broad knowledge base supported by a wide range of 
scientific disciplines, such as biology, plant science, chemistry and 
soil science.
    Within NSF we are very supportive of Innovations at the Nexus of 
Food, Energy, and Water Systems. There is a pressing need to understand 
the interconnectedness of food, energy and water. Of particular 
interest is the production, resilience, safety, and security of food, 
energy, and water resources. Continuing droughts and hurricanes in the 
U.S. and the corresponding impacts on water, food production and the 
energy sector is an example of these challenges.
    We urge you to include report language highlighting the importance 
of this effort and the need to better understand the fundamental 
science behind the interconnected food-energy-water system.
    Science is essential. A strong commitment to federally funded 
scientific research will boost the Nation's capacity for innovation, 
agricultural productivity and economic prosperity.
    We appreciate the opportunity to provide written testimony and look 
forward to working with the subcommittee as it considers funding for 
the National Science Foundation. Thank you.
                                 ______
                                 
            Prepared Statement of the Monterey Bay Aquarium
    The Monterey Bay Aquarium is pleased to submit this statement in 
support of increased funding for the National Oceanic and Atmospheric 
Administration (NOAA) within the fiscal year 2020 Commerce-Justice-
Science Appropriations Act. The Aquarium recognizes NOAA's critical 
role in serving as the Nation's lead science agency and information 
provider on oceanic and atmospheric matters. NOAA's work supports 
millions of American businesses and citizens through its science, 
stewardship and safety mission every day of the year. NOAA's research, 
environmental observations and predictions, marine conservation and 
management, as well as its education programs and services shape the 
way we live today and provide the environmental intelligence to guide 
decisionmaking about the health of the coupled ocean and climate 
systems.
    The Aquarium is grateful for the subcommittee's support of NOAA in 
the fiscal year 2019 Consolidated Appropriations Act, including 
programs to address illegal, unreported and unregulated (IUU) fishing, 
marine debris, and continue NOAA research and education programming. 
For fiscal year 2020, we urge the subcommittee to continue its balanced 
and strategic investment strategy for NOAA, including restoration of 
the extramural ocean and coastal research, conservation, and education 
programs proposed for either elimination or drastic reduction by the 
administration. In addition, and importantly, we urge the subcommittee 
to enhance funding within NOAA Fisheries for both Illegal, Unreported, 
and Unregulated (IUU) Fishing and highly migratory species research, 
specifically Management Strategy Evaluation for Pacific bluefin tuna.
    The mission of the Monterey Bay Aquarium is to inspire conservation 
of the ocean. We carry out this mission by providing an educational 
experience that connects over 2 million visitors per year to some of 
the most striking species and ecosystems on our planet. The Aquarium 
uses exhibits and educational programs to demonstrate the connection 
between the ocean and our human existence--from the air we breathe to 
the weather patterns and resources that drive our multi-billion-dollar 
blue economy. The Aquarium's strategic conservation priorities are 
aimed at addressing some of the most pressing challenges to ocean 
health, including those posed by plastic pollution, unsustainable 
fisheries and aquaculture, threats to ocean wildlife and special 
places, and the ocean impacts of climate change and acidification. Like 
NOAA, science underpins our approach to ocean conservation challenges, 
and we seek a collaborative approach that encourages partnerships with 
the private sector, governments, academia and other stakeholders. The 
Aquarium's Conservation and Science programs are working on significant 
policy issues that impact ocean health both here and around the world. 
We bring decades of expertise and relationships in ocean science, 
policy, and markets to the task, and we use our voice as a trusted 
source of ocean information to make a difference globally--among 
policymakers, the business community, and with individuals. Our 
priorities are well aligned with NOAA's mission and programs, and 
future progress on these critical topics will rely on NOAA's continued 
ability to provide robust data, management expertise, and services to 
the public and partners. In particular, NOAA ensures the U.S. remains a 
global leader in sustainable fisheries under the Magnuson-Stevens Act 
and provides the science needed to engineer lasting solutions to ocean 
threats. The enhanced funding requests below are intended to support US 
leadership on ocean policy around the world.

    Illegal, Unreported, and Unregulated (IUU) Fishing/Seafood 
Traceability.--Global losses attributable to IUU fishing are estimated 
to be between $10 and $23 billion annually, and has links to other 
forms of criminal activity, as well as slavery and human rights abuses. 
IUU fishing also undermines economic opportunities for legitimate 
fishermen in the U.S. and has global implications for national security 
and food security. In recent years, Congress has provided new 
authorities and funding to fight IUU fishing. These bills passed with 
broad bipartisan support, highlighting the importance of these 
activities to American businesses, consumers and the public.
    A key portion of IUU activities is NOAA's implementation of the 
Seafood Import Monitoring Program (SIMP). In April 2018, NOAA lifted 
its stay on shrimp and abalone in SIMP, and at the end of the year it 
became mandatory for foreign shrimp (the top U.S. seafood import) and 
abalone imports to be accompanied by harvest, landing and chain of 
custody records as part of compliance with SIMP. However, shrimp and 
abalone have been in a period of ``informed compliance'' from December 
31, 2018 through April 1, 2019 to allow importers to phase in the new 
requirements. NOAA continues to work toward full implementation and 
optimization of SIMP. Additional funding is needed to ensure full and 
effective implementation of SIMP, including adding shrimp and abalone 
to the program, as well as increased port inspections, enforcement and 
supply chain audits that are critical to ensure compliance.
    The Aquarium urges the subcommittee to provide at least an 
additional $5 million beyond the administration's request for 
activities to address IUU fishing in fiscal year 2020. The funding will 
ensure strong implementation of the Seafood Import Monitoring Program 
in 2020, as well as improved international enforcement and port 
security responsibilities under the SAFE Ports Act. These funds will 
improve the ability of the Federal Government to identify, inspect and 
enforce against imported IUU products coming into U.S. commerce and 
will enhance efforts to incentivize foreign compliance with 
international laws.

    Pacific Bluefin Tuna.--Pacific bluefin tuna, a highly migratory 
species, are critical to California's economy and key top predator in 
the ocean. The population has been depleted to 3.3 percent of historic 
size--the lowest of all commercially harvested tunas globally. Pacific 
bluefin tuna are managed through international agreements, and the U.S. 
has been a leader in advocating to recover the species to sustainable 
levels, consistent with the Magnuson-Stevens Act (MSA). In 2017 the 
U.S., working with Aquarium experts and the U.S. recreational sector, 
secured an international agreement to recover the population to 
sustainable levels by 2034--a major achievement. However, in the coming 
year, achieving this hard-won recovery plan is at risk if countries do 
not follow a precautionary approach and decide to increase quotas, 
exacerbating the existing overfishing problem.
    The U.S. has been a leader in advocating for strong science to 
guide management and recovery of Pacific bluefin tuna to sustainable 
levels. A key part of the solution is to bring scientists, managers and 
stakeholders together through a process called Management Strategy 
Evaluation (MSE). MSE has been identified globally as an optimal 
``next-generation'' fishery management process to build consensus and 
support for science-based management in international highly migratory 
species, particularly tunas. Importantly, the MSE process will improve 
the ability to meet the needs of U.S. stakeholders and ensure 
population recovery. Funding to increase NOAA's MSE scientific capacity 
would enhance the U.S. negotiating position, increase transparency and 
position the U.S. to lead MSE for other valuable tunas and highly 
migratory species.
    In the last 2 years, the Commerce, Justice, Science Appropriations 
Act Report emphasized Atlantic and Gulf of Mexico highly migratory 
species issues, but unfortunately did not similarly recognize the key 
threats in the Pacific. Pacific tuna fisheries are in dire need of 
attention in the face of increasing pressure from non-U.S. fishing 
vessels and interests, especially the iconic Pacific bluefin tuna. We 
need to maintain a strong management presence and scientific authority 
on this issue to prevent weakening of the recovery plan and ensure this 
pattern does not spread to other U.S. key tuna species and fisheries in 
the Pacific.
    We request the subcommittee to increase funding within NOAA 
Fisheries by $1 million over fiscal year 2019 to prioritize and add MSE 
capacity, including for Pacific bluefin tuna, and to allocate resources 
for highly migratory species research equitably among the regions. In 
addition, we urge the subcommittee to call on NOAA Fisheries to provide 
resources to support continued engagement by the Pacific Fishery 
Management Council to position the U.S. in the international 
negotiations and ensure progress on the Pacific bluefin tuna recovery 
plan.

    Marine Debris.--Our ocean is at increasing risk from growing levels 
of plastic pollution. Studies estimate that an average of eight million 
metric tons of plastic enter the global ocean each year. Unless we curb 
the flow, this number is expected to double by 2025, which poses a 
growing risk to water quality, wildlife and human health. NOAA's Marine 
Debris program offers competitive grants for aquariums and others to 
work with Federal, State, and local partners on marine debris education 
and reduction projects. The Monterey Bay Aquarium has previously 
received $52,306 from this program for our Ocean Plastic Pollution 
Summit for Teachers. Over 100 pre-K to 12th grade teachers from 
throughout California have participated in the Summit and follow-up 
activities, learning how to use the issue of ocean plastic pollution to 
engage their students in marine conservation and science. We request 
support for the NOAA Marine Debris Program of at least $10 million in 
fiscal year 2020.

    Ocean Science and Technology.--The Aquarium collaborates with the 
Monterey Bay Aquarium Research Institute (MBARI) on science and 
conservation issues of mutual interest. The success of our efforts to 
engage cutting edge research to address challenging ocean-related 
issues is dependent on a vibrant ocean science and technology 
enterprise. Through NOAA and the other relevant agencies, including NSF 
and NASA, the Aquarium recommends the subcommittee provide support that 
will address the research challenges contained in the National 
Academies' Sea Change and in Science and Technology for America's 
Oceans: A Decadal Vision published last year by the interagency 
subcommittee on Ocean Science and Technology.
    There are a number of other important NOAA programs that make 
important contributions to the vitality of our U.S. economy, our 
communities and way of life. We urge the subcommittee to support the 
following programs:

    Ocean Education.--We urge the subcommittee to reject the 
administration's plan to terminate NOAA education programs and request 
$20 million for the NOAA Education Program, including funding to 
maintain the Environmental Literacy Grants Program (including ocean 
education grants), and $12 million for the Bay, Watershed, Education 
and Training Program.

    Bycatch Reduction.--We recommend the subcommittee include at least 
$2.5 million for bycatch reduction competitive grants to non-Federal 
researchers for the development and implementation of practical bycatch 
solutions that support sustainable U.S. fisheries.

    Marine Aquaculture.--We request that the subcommittee fund NOAA's 
marine aquaculture programs within NOAA Fisheries and in the Office of 
Oceanic and Atmospheric Research (OAR) through the Sea Grant Program at 
least at $12 million and $15 million, respectively.

    National Marine Sanctuaries and National Monuments.--We request the 
subcommittee fund Sanctuaries and Marine Protected Areas at $57 million 
within NOAA's ORF account in NOS, and $8.5 million for Marine 
Sanctuaries Construction within NOAA's PAC account. In addition, we 
request sufficient funding to support Papahanaumokuakea, Rose Atoll and 
New England Coral Canyons marine national monuments.

    John H. Prescott Marine Mammal Rescue Assistance Grant Program.--We 
call on the subcommittee to reject the administration's proposal to 
terminate the program, and fund the program at $4 million.

    NOAA Coastal Resilience Grants (Title IX).--We request that the 
subcommittee support NOAA Coastal Resilience Grants at $35 million to 
prepare for and recover from extreme weather events, climate hazards 
and changing ocean conditions.

    NOAA National Sea Grant College Program.--We urge the subcommittee 
to reject the administration's proposal to terminate the Sea Grant 
Program, and provide $93.5 million.

    Thank you for your consideration of these requests and look forward 
to working with you to ensure strong support for these important ocean 
research and conservation programs.

    [This statement was submitted by Ms. Margaret Spring, Chief 
Conservation Officer.]
                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association
    On behalf of the National American Indian Court Judges Association 
(NAICJA), this testimony addresses important programs in the Department 
of Justice and Department of Commerce. Specifically, NAICJA joins the 
National Congress of American Indians (NCAI) in requesting:

------------------------------------------------------------------------
                                                NCAI Fiscal Year 2020
            Agency and Program                         Request
------------------------------------------------------------------------
DOJ: Tribal Grants--Eliminate competitive   Use DOJ appropriations as
 grant funding process and utilize DOJ       base funding with Tribes
 appropriations as base funding where        setting own priorities
 Tribes determine priorities.
DOJ: Tribal Set-Aside from Office of        Create a 10 percent Tribal
 Justice Programs.                           set-aside for all
                                             discretionary Office of
                                             Justice Programs (OJP)
                                             programs
DOJ: Tribal Youth Program under the         $25,000,000
 Juvenile Accountability Block Grants
 Program.
DOJ: Crime Victims Fund...................  Create a 5 percent set-aside
                                             for Tribal governments
DOJ: Community Oriented Policing Services   $52,000,000
 (COPS) Tribal Law Enforcement.
DOJ: Tribal programs under the Violence     Provide full authorized
 Against Women Act.                          amount
Commerce: 2020 Census.....................  Provide the Census Bureau
                                             with at least $8.45 billion
                                             in fiscal year 2020
------------------------------------------------------------------------

    NAICJA is a national, non-profit association comprised of Tribal 
justice personnel, including Tribal leaders, judges, justices, court 
administrators, court clerks, Indian law practitioners and scholars, 
and others devoted to supporting and strengthening Tribal justice 
systems. NAICJA's mission, as a national representative membership 
organization, is to strengthen and enhance Tribal justice systems 
through education, information sharing, and advocacy. Established in 
1969, NAICJA has a long history of dedication to providing educational 
support for Tribal court judges and court-related personnel.
                         department of justice
    The public safety problems that continue to plague Tribal 
communities are the result of decades of gross underfunding for Tribal 
criminal justice systems; a uniquely complex jurisdictional scheme; and 
the historic, abject failure by the Federal Government to fulfill its 
public safety obligations on American Indian and Alaska Native lands. 
Crime rates in Tribal communities are among the highest in the Nation 
and American Indians and Alaska Natives experience rates of violent 
crime that are 2.5 times the national average. Residents and visitors 
on Tribal lands deserve the safety and security that is taken for 
granted outside of Indian Country. Increased and streamlined funding in 
the following program areas will have a huge impact on safety in Tribal 
communities for Tribal citizens, residents, and visitors to Tribal 
lands.
    Include Tribal governments in disbursements from the Crime Victims 
Fund (a mandatory account).--The Crime Victims Fund (CVF) is the 
Federal Government's primary funding source for providing services to 
victims of crime. NAICJA expresses our sincere gratitude to 
appropriators for providing a direct funding stream for Tribal 
governments from the CVF for the first time in fiscal year 2018 and 
again in fiscal year 2019. For this funding to achieve its purpose, 
however, it needs to be recurring funds that Tribal governments can 
plan on in order to ensure program stability for victims for the long 
term. We urge appropriators to keep disbursements from the CVF at the 
increased level and to direct an amount equal to 5 percent of overall 
CVF disbursements to Tribal governments.
    Create a streamlined Tribal allocation across Office of Justice 
Programs (OJP) programs.--For several years the administration has 
proposed bill language that would streamline and consolidate OJP Tribal 
programs by allocating 7 percent from all discretionary OJP programs to 
address Indian country public safety and Tribal justice needs. In past 
years, both the House and Senate CJS Subcommittees have supported this 
request, but it has never been enacted. One of the biggest shortcomings 
of DOJ Tribal funding is that it is administered as competitive 
funding. In order to obtain this funding, Tribal nations--on behalf of 
their Tribal justice systems--must compete against each other under 
priorities and guidelines established by DOJ. As a result, Tribal 
nations must develop projects that align with changing DOJ priorities 
and cannot count on funding continuing beyond the current grant period. 
A streamlined OJP Tribal allocation would significantly improve the 
Federal funding process by which Tribal nations receive resources to 
establish Tribal courts; assist in developing detention facilities; 
provide legal assistance; develop and maintain juvenile delinquency 
prevention programs; and provide substance abuse prevention programs. 
Further, the Tribal allocation would give Tribal nations the 
flexibility to develop a detailed strategic plan on how best to spend 
those resources.
    If Congress declines to adopt the flexible allocation across OJP 
programs, restore fiscal year 2010 levels of $25 million in funding for 
the Tribal Youth Program under the Juvenile Accountability Block Grants 
program.--Although Native children compromise only 2.2 percent of the 
overall youth population, they are arrested at a rate of more than two-
to-three times that of other ethnic groups. According to a recent DOJ 
report, ``[s]ubstance abuse, depression, and gang involvement fuel a 
vast majority of the offenses for which American Indian juveniles are 
disproportionately confined.'' Funding for the Tribal Youth Program has 
decreased significantly in recent years and should be restored to its 
fiscal year 2010 level of $25 million.
    Increase funding of Tribal law enforcement programs under DOJ's 
Community Oriented Policing Services (COPS) Grants to $52 million.--
Since the creation of the COPS Office, more than 2,000 grants totaling 
more than $400 million have been awarded to Tribal nations to hire more 
than 1,700 new or redeployed law enforcement officers. It has also 
helped Tribal nations to obtain necessary law enforcement training, 
equipment, vehicles, and technology. Yet, there is still a tremendous 
unmet need within Tribal justice systems for more COPS funding. The 
COPS Office has acknowledged that due to limited resources, it has not 
been able to adequately fund Tribal justice systems, particularly in 
the area of hiring/retaining Tribal law enforcement officers. In a 
report released in December 2010, the COPS Office described its 
practice of intermittent funding as ``problematic,'' especially ``when 
referring to hiring of officers.'' Indian Country urges Congress to 
significantly increase funding for Tribal law enforcement programs 
under the COPS program.
    Fully fund the programs authorized in the Violence Against Women 
Act (VAWA), including the funds authorized for Tribal implementation of 
VAWA special domestic violence criminal jurisdiction.--It is estimated 
that over 85 percent of American Indian and Alaska Native women will 
experience violent victimization in their lifetimes. OVW provides 
funding to Tribal governments to address violence against women in 
their communities. OVW's largest source of funding for Tribal 
governments is the Grants to Tribal Governments Program, which is 
funded via statutory allocations from other OVW programs. Fully-funding 
these OVW programs results in full funding for the Grants to Tribal 
Governments Program.
    The Violence Against Women Reauthorization Act of 2013 (VAWA 2013) 
recognized and affirmed the inherent sovereign authority of Indian 
Tribes to exercise Special Domestic Violence Criminal Jurisdiction 
(SDVCJ) over all persons--Indian and non-Indian--who commit crimes of 
dating violence, domestic violence, and violations of protection orders 
within Indian country. The bill authorized $5 million per year for 5 
years for Indian Tribes to implement the VAWA 2013 provisions and 
otherwise strengthen Tribal justice systems. In fiscal year 2019, $4 
million was appropriated for this program. We urge Congress to 
appropriate the full amount authorized for VAWA implementation purposes 
so that more communities are able to take advantage of this lifesaving 
law.
                         department of commerce
    Provide the Census Bureau with at least $8.45 billion in fiscal 
year 2020.--The census is a critical and powerful information source 
that will significantly influence American policy for the coming 
decade. An accurate count is necessary to ensure the fair distribution 
of billions of dollars to Tribal nations and American Indian/Alaska 
Native people across the United States. Certain population groups are 
at higher risk of being missed in the decennial census--groups 
considered hard-to-count. Native people especially on reservations and 
in Alaska Native villages have been historically underrepresented in 
the census. In the 2010 Census, the Census Bureau estimates that 
American Indians and Alaska Natives living on reservations or in Native 
villages were undercounted by approximately 4.9 percent, more than 
double the undercount rate of the next closest population group. The 
President's budget request was significantly lower than Secretary 
Ross's estimates of overall costs, and we urge Congress to ensure 
sufficient funding for a successful 2020 Census, including funding for 
Questionnaire Assistance Centers, which currently are not included in 
the Census Bureau's operational plan. With only half the number of 
Regional Census Centers and local census offices across the country, it 
will be important to expand the field footprint, to provide 'safe 
space' for people who do not have reliable Internet access, are wary of 
using the telephone to respond, or need assistance filling out a paper 
form, to meet with sworn Census Bureau employees near where they live.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact: A. Nikki Borchardt Campbell at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe1e6e4e4e6cfe1eee6ece5eea1e0fde8">[email&#160;protected]</a> or Ansley Sherman at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee8f809d828b97ae808f878d848fc0819c89c0">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the National Association of Latino Elected and 
              Appointed Officials (NALEO) Educational Fund

 
 
 
Congressman Jose Serrano                 Congressman Robert Aderholt
Chair, Commerce, Justice, Science        Ranking Member, Commerce,
House Appropriations Committee            Justice,
H-305, Capitol Building                    Science
Washington, DC 20515                     House Appropriations Committee
                                         1016 Longworth Office Building
                                         Washington, DC 20515
 
Senator Jerry Moran                      Senator Jeanne Shaheen
Chair, Commerce, Justice, Science        Ranking Member, Commerce,
Senate Appropriations Committee           Justice,
142 Dirksen Office Building                Science
Washington, DC 20510                     Senate Appropriations Committee
                                         125 Hart Office Building
                                         Washington, DC 20510
 


Dear Chairman Serrano, Ranking Member Aderholt, Chairman Moran, and 
Ranking Member Shaheen:

    On behalf of the National Association of Latino Elected and 
Appointed Officials (NALEO) Educational Fund, I write to urge your 
support for appropriations of at least $8.448 billion for the Census 
Bureau in fiscal year 2020. We also request that you adopt a 
prohibition on expenditures on a decennial survey including any 
questions not within the scope of the topics submitted to Congress in 
March 2017.
    NALEO Educational Fund is the Nation's leading nonprofit 
organization that facilitates the full participation of Latinos in the 
American political process, from citizenship to public service. Our 
Board members and constituency encompass the Nation's more than 6,700 
Latino elected and appointed officials, and include Republicans, 
Democrats and Independents. NALEO Educational Fund is a national leader 
in Census outreach, community education and policy development. Since 
the 1990 Census, our organization has conducted outreach campaigns to 
promote the full and accurate count of the Latino community. NALEO 
Educational Fund has been a member of the U.S. Census Bureau's national 
advisory committees since 2000, and currently sits on the Bureau's 
National Advisory Committee on Racial, Ethnic and Other Populations. 
NALEO Educational Fund is also the co-chair of the Leadership 
Conference on Civil and Human Rights' Census Task Force, and of the 
National Hispanic Leadership Agenda's Census Task Force.
Congress Must Fully and Timely Fund the Census Bureau in Fiscal Year 
        2020
    In fiscal year 2020, the Census Bureau will conduct the 2020 
decennial Census, a massive undertaking for which the agency has been 
preparing for more than a decade. Securing an accurate count of United 
States residents requires bringing a website online to handle millions 
of simultaneous interactions while fending off sophisticated hacking 
attempts; hiring and training tens of thousands of temporary employees; 
and managing bulk mailings to tens of millions of addresses. The 
quality of the population count will have long-reaching and 
consequential effects on the allocation of political representation and 
public funding, and on our success at spurring economic development and 
redressing social challenges.
    If the Census Bureau is to succeed, its funding for fiscal year 
2020 must be in place by the start of the fiscal year. The Bureau 
follows a strict timeline from now until December 31, 2020, its 
statutory deadline for delivering decennial Census results to the 
President according to 13 U.S.C. Sec. 141(a)-(b). It absolutely cannot 
delay the hiring, training, printing and other acquisitions, coding, 
and advertising it will undertake in the first two quarters of fiscal 
year 2020, nor can it do this extraordinary work competently if, as in 
the years preceding fiscal year 2020, it once again begins the fiscal 
year with continuing appropriations at the previous year's level.
    Because of the enormous scope of operations that must be 
implemented in the lead up year to the decennial census, it is 
essential that Congress fully fund the Census Bureau by providing at 
least $8.448 billion no later than October 1, 2019. Our request would 
fund the Bureau at the level of the Commerce Department's October 2017 
cost estimate of $6.694 billion, and would add $66 million for 
Questionnaire Assistance Centers and $100 million for additional 
targeted advertising and communications efforts in the hardest-to-count 
communities. It would also include $31.5 million to enable hiring of a 
number of Partnership Specialists commensurate with the workforce 
brought onboard in 2010, as well as $689.2 million for the 10 percent 
contingency fund Secretary Ross has recommended.
    While it takes a decennial Census, the Bureau must also continue 
its collection of other crucial surveys including the American 
Community Survey. We request that you provide the Bureau with $226.3 
million for the American Community Survey and $336.6 million for all 
other programs funded from the Periodic Censuses account. Our request 
also includes $274.2 million for the Current Surveys and Programs 
account.
    Our funding request is modest and appropriate when one takes into 
account the unique challenges of and risks associated with the 2020 
Census. For 2020, the Census Bureau has committed to modernizing its 
procedures by collecting responses over the Internet for the first time 
in a decennial, and making more extensive use of administrative records 
to supplement responses. These operational innovations must be 
accompanied by intensive efforts to safeguard data and systems, and to 
earn respondents' trust. Even though the Bureau will employ 
extraordinary and creative measures, it projects that a progressively 
smaller percentage of households will voluntarily self-respond to the 
Census in 2020. Growing mistrust of the government and wider awareness 
of our government's vulnerability to cyberattacks will complicate 
efforts to collect sensitive personal information from every household 
in the country.
    Congress cannot insulate the Census Bureau from the difficult 
sociopolitical context surrounding the 2020 Census, but it can and must 
provide the Bureau with funding that recognizes that context and equips 
the agency to overcome hurdles in its way to the best of its ability. 
It can fulfill this imperative and work toward its goal of making 
enumeration more efficient and cost-effective by appropriating $8.448 
billion for the Bureau in fiscal year 2020.
Congress Must Help the Census Bureau Improve Efficiency By Preventing 
        Last-Minute Changes to the Census
    In addition to appropriating the necessary resources for the Census 
Bureau to take a complete and accurate Census, Congress can and must 
set the 2020 Census on the path to success by ensuring against last-
minute changes to Census materials and procedures. The scale and 
complexity of the decennial Census demand that key decisions about 
matters such as creation of an online Census response portal be made no 
less than several years in advance of Census Day. For this reason, the 
Bureau solicits input about its forms and questions in the middle of 
each decade, and settles on topics to be covered in a decennial Census 
by each year ending in -7. Any subsequent deviation from plans cannot 
be appropriately tested in advance of enumeration, and will thus 
threaten to increase the cost and decrease the quality of the count.
    We are concerned data from the 2020 Census data will lack the same 
level of reliability as that resulting from previous decennial 
enumerations in light of the Commerce Department's decision to add a 
last-minute untested question about citizenship to the 2020 Census 
questionnaire. Given that important operational plans and materials 
have been developed without taking the citizenship question into 
account, and without the benefit of empirical knowledge of the ways in 
which the citizenship question will change Census respondents' 
attitudes and behaviors, the associated risk of a failed Census is 
great.
    Available evidence strongly indicates that inclusion of a 
citizenship question on the 2020 Census will reduce participation and 
the quality of responses and resulting data. For example, in 2017 and 
2018, Census Bureau enumerators and experts began sounding new alarms 
about public perception of Census surveys and their most sensitive 
inquiries. A September 2017 memorandum from the Bureau's Center for 
Survey Measurement stated, ``researchers have noticed a recent increase 
in respondents spontaneously expressing concerns about confidentiality 
in...studies conducted in 2017.'' As of August 2018, the Bureau's 
Center for Economic Studies had increased its best estimate of the 
number of additional households likely not to respond to a citizenship-
question Census to just over two million, from an earlier estimate of 
630,000. It also raised the projected additional number of people 
needing enumeration via expensive non-response follow up operations to 
about 6.5 million.
    NALEO Educational Fund's and other community stakeholders' research 
and polling have produced consistent results that indicate that Census 
response rates and data quality would suffer because of inclusion of a 
citizenship question in the decennial survey. Participants in focus 
groups we convened around the country expressed heightened hesitation, 
fear, and cynicism upon seeing a version of the Census questionnaire 
that included the proposed question. In addition, an overwhelming 
majority of more than 75 percent of the people we surveyed in 
Providence County, Rhode Island, the site of the 2018 Census End-to-End 
Test, agreed with the proposition, ``Many people in Providence County 
will be afraid to participate in the 2020 Census because it will ask 
whether each person in the household is a citizen.''
    By depressing voluntary response to the decennial Census, the 
addition of a citizenship question will diminish the quality and 
accuracy of resulting data, and increase the cost of obtaining it. The 
Census Bureau cannot and does not leave households that do not complete 
the Census alone; instead, it takes extraordinary and costly measures 
to attempt to obtain firsthand information from each residence. In 
January 2018, the Bureau estimated that it would cost an additional $55 
million to enumerate each additional 1 percent of households that did 
not voluntarily answer the Census. This figure has been increasing 
since mid-decade as the Bureau has updated its operational plans, 
however, and also depends upon optimistic assumptions about the 
agency's ability to reduce the number of in-person visits required to 
contact members of non-responding households, and to obtain data about 
non-responding households from government records instead of from in-
person contacts.
    The Census Bureau's Center for Economic Studies has astutely 
pointed out that households that decline to complete a Census form are 
also very likely not to cooperate with in-person enumerators, making 
their enumeration by proxy the most likely result. If, as the Center 
estimates, more than two million additional households are most likely 
to be counted by proxy because of the citizenship question, the likely 
result would be 1,750,000 fewer correct enumerations and additional 
cost of at least $91.2 million.
    The harm to data quality and the extra expense likely to result 
from late alteration of the decennial Census questionnaire are typical 
of the bad result that Congress sought to avert by mandating, at 13 
U.S.C. Sec. 141(f)(3), that officials only implement any such proposed 
change after identifying the new circumstances that necessitate it. No 
new circumstances have arisen that justify adding any new question to 
the 2020 Census, and therefore Congress must exercise its authority to 
halt the counterproductive and costly last minute addition. We urge you 
to include the following language in funding provisions for the Census 
Bureau:

None of the funds made available under this Act may be used by the 
Secretary of Commerce to incorporate into the 2020 decennial census any 
question that was not within the scope of planned subjects published by 
the Census Bureau on March 28, 2017.
                               conclusion
    Stewardship of an effective Census is one of the first duties 
assigned in the Constitution to the Federal government, and one of the 
most fundamental to our democratic character. We are grateful for your 
attention to these matters, and for the present opportunity to submit 
testimony in support of the Census Bureau.

    [This statement was submitted by Arturo Vargas, Chief Executive 
Officer.]
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit this testimony to the subcommittee for consideration in the 
fiscal year 2020 Commerce-Justice-Science Appropriations Act. In this 
statement, we provide our recommendations for the National Science 
Foundation (NSF), the National Oceanic and Atmospheric Administration 
(NOAA), and the National Aeronautics and Space Administration (NASA) 
that we believe would strengthen the Nation's ocean, coastal, and Great 
Lakes research and education enterprise. The network of the Nation's 
marine laboratories is cost effective, highly relevant, and the vehicle 
that brings science to those who depend on research results to protect 
lives and support livelihoods.
                             naml's message
    This subcommittee is uniquely responsible for the health of the 
ocean, coastal, and Great Lakes enterprise through your oversight and 
resource decisionmaking responsibilities related to NOAA, NSF, NASA, 
and other agencies. That enterprise is a critical part of the security 
of the Nation as it relates to economic, environmental, national, 
homeland, energy, conservation resources, and food security issues.
    NAML is deeply appreciative this subcommittee has rejected the 
administration's past proposals to reduce or eliminate these time 
tested programs and instead, actively strengthened them despite its 
constraint in available resources and competing national needs.
    In fiscal year 2020 the administration has again proposed steep 
reductions and/or the elimination of funding for this subcommittee's 
extramural research and education activities that support ocean, 
coastal, and Great Lakes research, conservation, observing, and 
education programs. We urge the subcommittee to reject these proposals 
and fully reinstate these programs based on the contributions they make 
that help maintain the health of our ocean and coastal enterprise.
      the value of the ocean, coastal, and great lakes enterprise
    The future well-being of the Nation is in large part dependent on 
our ocean, coastal, and Great Lakes resources:

  --The U.S. ocean economy, which includes six economic sectors that 
        depend on the ocean, is estimated to have contributed more than 
        $320 billion to the U.S. Gross Domestic Product (GDP) and 
        supported 3.2 million jobs directly dependent on these 
        resources in 2015;
  --42 percent of the U.S. labor force is employed in coastal 
        watersheds;
  --In 2014, counties adjacent to the shore contributed 43 percent 
        percent of the U.S. GDP;
  --The offshore mineral industry contributed over 170,000 jobs in 2013 
        and $122 billion, the majority of which was predominantly from 
        the oil and gas sector;
  --Approximately 88,000 square miles of the Nation's coastal wetlands 
        provide nursery areas for commercially harvested fish and 
        places of refuge for migrating birds;
  --In 2015, the commercial and recreational fishing industry supported 
        1.6 million jobs and contributed $208 billion in sales to the 
        U.S. economy; and
  --Ocean measurements, observations, and forecasting generate about $7 
        billion in revenues annually.

    The oceans are a primary source of food for over one billion 
people; a globally significant regulator of the earth's weather and 
climate; the basic source of water for the hydrologic cycle; a 
recycling agent that absorbs carbon dioxide and produces oxygen; and 
home to many thousands of flora and fauna, many with pharmaceutical 
value.
    America is a major consumer of aquaculture products. The United 
States currently imports more than 90 percent of its seafood, leading 
to a $14 billion seafood trade deficit. Given that the World Bank 
projects a nearly 50 percent increase in worldwide fish consumption 
between 2006 and 2030, the United States has an opportunity to meet 
this demand, ensure food security, create new industries, and provide 
jobs by maximizing sustainable wild and aquaculture harvest. NAML 
laboratories are leaders in developing and supporting innovative 
methods that will improve and encourage U.S. aquaculture products that 
complement and help sustain existing wild-capture commercial fisheries.
    America's coastlines and offshore areas contain untapped renewable 
and non-renewable energy sources to help power the Nation and much of 
the world. In addition to generating electricity, power generated at 
sea (from waves, currents, or wind) could be used to serve the needs of 
other existing or emerging ocean industries (aquaculture, ocean mineral 
mining, oceanographic research, or military missions).
        naml priorities and recommendations for fiscal year 2020
    NAML is a nonprofit organization representing the ocean, coastal 
and Great Lakes interests of member laboratories that employ thousands 
of scientists, engineers and professionals nationwide. NAML labs 
conduct high quality research and education in the natural and social 
sciences and translate that science to improve the decisionmaking by 
policy officials on important issues facing our country and fostering 
economic development. NAML's priorities are drawn from: Sea Change: 
2015-2025 Decadal Survey of Ocean Sciences (DSOS); Enhancing the Value 
and Sustainability of Field Stations and Marine Laboratories in the 
21st Century; and Science and Technology for America's Oceans: A 
Decadal Vision. These reports emphasize the need to understand oceans 
in the earth system, promote the blue economy, and advance monitoring 
and predictive modeling capabilities. According to Sea Change, NAML 
laboratories bring a high degree of relevance to these national 
priorities at lower cost, higher return on investment and with the 
important benefit of training succeeding generations of marine and 
related science professionals. Expanded support in the form of 
research, infrastructure and education should be focused on:

  --U.S.-based aquaculture to reduce the ever-increasing demand for 
        foreign imports, to advance seafood security and to expand 
        opportunities for economic growth;
  --Defining the impacts and causative factors for shifting 
        environmental regimes to improve coastal resiliency and inform 
        risk management of critical defense, transportation, civic and 
        business infrastructure along U.S. coastlines;
  --Oceanographic and geochemical exploration and associated technology 
        development to advance national security, commerce and domestic 
        energy independence;
  --Data collection and adaptive management strategies to increase 
        productivity and sustainability of marine fisheries and social-
        economic productivity of U.S. exclusive economic zones;
  --Comprehensive understanding of ecosystems which support fisheries 
        and other social-economic drivers; and
  --Discovery and education and training in biological, chemical, 
        geological and physical marine sciences to support advancement 
        of human and environment health and social-economic objectives.

    Accordingly, NAML offers the following recommendations for the 
subcommittee's consideration:

  --The Nation should build on its investment in research, 
        infrastructure, and observing capabilities to develop the 
        knowledge, people, and technologies that power the ocean and 
        coastal economies, create jobs, improve health, strengthen our 
        national security, and support the U.S. as the global 
        innovation leader. The key programs that support this goal 
        include:

    --NSF funding for research, training, infrastructure, and education 
            much of which is supported by the Directorates for 
            Geosciences and Biological Sciences with particular 
            emphasis on the Improvements to Biological Field Stations 
            and Marine Laboratories (FSML) program ($6 million) and the 
            developing Coastlines and People (CoPe) initiative:
    --Extramural funding provided by NOAA including funding the 
            National Sea Grant College Program ($93.5M for research, 
            education, and marine aquaculture), the Integrated Ocean 
            Observing System ($50.5M), Ocean Acidification research; 
            Aquaculture research; the National Estuarine Research 
            Reserve System ($28.7M); the National Marine Sanctuary 
            System ($65.5M), Coastal Zone Management Grants ($80.5M);
    --Enhance the role of science within the Coastal Resilience Grants 
            program (Title IX) ($35 million), and the Habitat 
            Conservation Restoration Grants program ($58 million); and
    --Strengthen funding for NASA Earth Sciences ($2.5B).

  --Renew the commitment to improve the quality of STEM education and 
        re-energize efforts to attract, recruit, support, and retain 
        women, minorities and others not currently well represented in 
        the science and technology workforce through such efforts as:

    --NSF's overarching Improving Undergraduate STEM Education (IUSE) 
            including, Research Experiences for Undergraduates (REU), 
            its Alliances for Minority Participation, the graduate; and 
            the Fellowship programs at NSF, NOAA, and NASA; and
    --Restore funding for NOAA and NASA education programs.

    NAML is concerned by the administration's recommendations for 
reductions to NSF, NASA and NOAA as part of the fiscal year 2020 budget 
request. NAML is also concerned and opposes NOAA's proposal for 
authority that could result in the Federal Government competing with 
non-Federal and private entities for limited private sector 
philanthropic support (See proposed Section 108 of the General 
Provisions in the NOAA Section of the Appendix to the fiscal year 2020 
Budget, page 207). The time-tested programs, that support the 
extramural research and education community via competitive, merit-
based research, provide cost-effective and impressive returns on 
investment, leverage additional resources to meet science and 
management priorities, distribute economic and societal benefits over a 
broad array of communities, and provide the agency with valuable 
flexibility.
    NAML requests the subcommittee to reject the administration's 
proposed reductions for research, infrastructure, and education and 
training. Instead, NAML urges the subcommittee to invest in the future 
of the Nation by supporting the ocean, coastal, and Great Lakes 
research and education enterprise represented in part by the NAML 
priorities articulated in this statement. NAML also requests the 
subcommittee to continue its vigilance regarding proposals that would 
result in unfair competition with the private sector.
                               conclusion
    This subcommittee is uniquely responsible for the health of our 
Nation's research and education enterprise. Over 50 percent of the 
extramural nondefense, non-biomedical Federal support for research and 
education is provided by this subcommittee. Thus, the subcommittee is 
in a unique position to impact the Nation's long term economic growth, 
national security, and public safety through its investments in the 
agencies under its jurisdiction. The economic value of research 
investments is borne out by history. While we appreciate, the difficult 
constraints facing the Nation and this subcommittee we hope the 
subcommittee will continue to be a leading and influential voice in the 
health of the Nation's research enterprise via the decisions it makes 
in developing the fiscal year 2020 Commerce-Justice-Science 
Appropriations Act.
    NAML is grateful for the opportunity to provide the subcommittee 
with our members' priorities and recommendations.

    [This statement was submitted by Dr. Robert Cowen, President.]
                                 ______
                                 
Prepared Statement of the National Association of Marine Laboratories, 
 Sea Grant Association, IOOS Association, National Estuarine Research 
  Reserve Association, National Marine Sanctuary Foundation, Coastal 
 States Organization, Restore America's Estuaries, and Association of 
                       State Floodplain Managers
     nation's ocean, coastal, and great lakes research, education, 
            conservation, and resource management enterprise
    Mr. Chairman and Members of the subcommittee, this joint statement 
is submitted on behalf of the non-profit organizations listed above who 
share a deep and overriding concern for the health of the Nation's 
oceans, coasts, and Great Lakes. This subcommittee is responsible for 
the health of the ocean, coastal, and Great Lakes enterprise via 
oversight and resource decisionmaking related to NOAA, NSF, NASA, and 
other agencies. That enterprise is a critical part of the security of 
the Nation as it relates to economic, environmental, national, 
homeland, energy, conservation, and food security issues. The 
administration budget for fiscal year 2020 proposes the elimination of 
extramural funding for this subcommittee's ocean, coastal, and Great 
Lakes research, conservation, observing, and education programs. We 
urge the subcommittee to reinstate these programs based on the 
significant contributions they make for the health of our ocean and 
coastal enterprises.
    The future well-being of the U.S. is in large part dependent on our 
ocean, coastal, and Great Lakes resources. The U.S. ocean economy is 
estimated to have contributed more than $320 billion to the U.S. Gross 
Domestic Product (GDP) and supported 3.2 million jobs in 2015. Over 40 
percent of the U.S. labor force is employed in coastal watersheds. The 
offshore mineral industry contributed over 170,000 jobs in 2013 and 
$122 billion to GDP. Approximately 88,000 square miles of the Nation's 
coastal wetlands provide nursery areas for commercially harvested fish 
and places of refuge for migrating birds. Estuaries provide habitat for 
nearly 70 percent of the U.S. commercial fisheries catch and 80 percent 
of recreational catch. In 2015, the commercial and recreational fishing 
industry supported 1.6 million jobs and contributed $208 billion in 
sales to the U.S. economy. Ocean measurements, observations, and 
forecasting generate about $7 billion in revenues annually. For every 
$1 invested in environmental restoration, $4 in economic value is 
generated by enhancing the tourism and fishing industries.
    The ocean and our coasts are equally important for humanitarian, 
environmental, and health reasons. The oceans are a primary source of 
food for over one billion people, a globally significant regulator of 
the earth's climate, the basic source of water for the hydrologic 
cycle, a cleaning agent that absorbs carbon dioxide and generates 
oxygen, and home to many thousands of flora and fauna. The oceans are a 
source of discovery to understand and treat cancers and other human 
diseases. A wide gulf often separates science from the people who need 
research results to protect and support them. However, the new ocean 
economy puts science and predictive capabilities to work in a way that 
can fill critical, fast-rising needs across sectors.
    All of the organizations that contribute their names to this 
statement stand in strong support for the ocean, coastal and Great 
Lakes research, conservation, observing, and education programs managed 
by NOAA. Specifically, we are referring to:

  --The National Sea Grant College Program and Marine Aquaculture;
  --The Integrated Ocean Observing System;
  --The National Estuarine Research Reserve System;
  --The National Marine Sanctuary System;
  --Coastal Zone Management Grants;
  --Coastal Resilience Grants (Title IX);
  --NMFS Habitat Conservation and Restoration; and
  --The Digital Coast Program

    Sea Grant is a unique program within NOAA that sends 95 percent of 
its appropriated funds to coastal States through a competitive process 
to address critical issues identified by public and private sector 
constituents and coastal communities throughout the United States. Sea 
Grant fosters cost-effective partnerships among State universities, 
State and local governments, NOAA, and coastal communities and 
businesses. In 2017, the Sea Grant program helped generate an estimated 
$579 million in economic impacts, created or supported over 12,500 
jobs, provided 33 State-level programs with funding that assisted 462 
communities to improve their resilience, helped nearly 17,700 fishers 
adopt safe and sustainable fishing practices, helped restore an 
estimated 700,000 acres of coastal ecosystems, worked with about 1,300 
industry, private sector, local, State and regional partners, and 
supported the education and training of over 1,800 undergraduate and 
graduate students.
    America's estuaries sustain coastal businesses, protect communities 
from flooding, keep water clean, sustain commercial fisheries, support 
wildlife, and provide opportunities for recreation. The National 
Estuarine Research Reserve System (NERRS) maintains 280 stations that 
track local water quality, pollution, and weather around the country. 
These platforms collect data--42 million data points each year--that 
track hazardous spills, shellfish industry operations, storm damage and 
more. Reserves engage more than 36,000 volunteers and community 
members. Over 3,000 educators and 81,000 K-12 students receive outdoor 
STEM education. Over 100 universities & research institutions are 
Reserve partners. In excess of 350 graduate research fellows have 
studied at a Reserve. Similar to Sea Grant, approximately 98 percent of 
Federal NERRS funding goes to the communities in which the Reserves are 
located. NERRS funding also leverages State matching funds raising $6 
million annually to supplement the Federal funding; and over the last 3 
years, matching funds invested in the NERRS leveraged an average of 
approximately $22 million annually.
    Coastal observing systems are used to gather real time information 
and turn it into useful products that support coastal residents, 
coastal economies, and a healthy, sustainable environment. They provide 
timely, actionable information developed from reliable and user-driven 
science to provide insight into present and future conditions. The need 
for data and information to help protect lives, economies and the 
environment has never been greater. Flood protection, safe and 
efficient marine operations, fisheries, aquaculture, water quality and 
safe recreation require an expanded network of observing systems and 
enhanced analysis that will improve predictive and forecasting 
capabilities for all users. The Integrated Ocean Observing System 
(IOOS) is a Federal partnership that generates and delivers quality 
information about the Nation's oceans, coasts and Great Lakes. IOOS 
increases economic efficiency and minimizes redundancy by leveraging 
non-Federal investments. Over 50 percent of the marine data now 
assembled and disseminated by NOAA's National Data Buoy Center is from 
non-Federal sources. IOOS provides a cost-effective approach to 
providing the Nation with reliable information to enhance maritime 
commerce; improve weather and flooding forecasting; supporting 
fisheries, ecosystems and water quality; and enhances our ability to 
plan for and respond to unforeseen hazards.
    The National Coastal Zone Management Program (CZM Program) is a 
state-Federal partnership supporting the effective management, 
beneficial use, protection, and development of the coastal zone. 
Healthy coastal resources support business and conservation, and long-
term planning is essential for coastal areas to remain the economic 
drivers they are today. In fiscal year 2017, States and territories 
matched over $56.9 million in investment in the CZM Program. The CZM 
program helps enable our Nation's coastal communities to plan for 
uncertainties and protect lives and investments on the coast. This 
State-Federal partnership ensures the responsible use of coastal 
resources by balancing the needs of economic development and 
conservation of natural resources while also planning for potential 
impacts to a State's coastal zone.
    The National Marine Sanctuary System is our essential network of 
protected waters held in trust for all Americans. Encompassing more 
than 600,000 square miles, national marine sanctuaries conserve some of 
the Nation's most critical natural, historic, and cultural resources. 
They are home to many thousands of species, preserve our Nation's 
maritime heritage, and promote access for exploration and world-class 
outdoor recreation. Sanctuaries are vital to maintaining the healthy 
ocean and Great Lakes ecosystems that underpin our productive coastal 
economies. They generate $8 billion annually in local economies and 
support jobs and businesses in fishing, tourism, recreation, and 
scientific research. Nationwide, communities are coming together to 
conserve our oceans, coasts, and Great Lakes by expanding existing 
national marine sanctuaries and proposing new designations for the 
first time in 19 years. Engaging communities as stewards of these 
protected waters makes sanctuaries unique and provides a comprehensive, 
highly participatory approach to managing and conserving marine 
ecosystems and the Great Lakes for current and future generations.
    The Digital Coast effort meets the unique information needs of the 
coastal management community. It provides access not just to a growing 
body of coastal data, but also the tools, training, and information 
needed to make over 5 trillion points of LIDAR, 37 terabytes of 
imagery, and 800,000 square miles of land cover, collected from both 
Federal and non-Federal sources, useful for coastal managers, planners, 
and decision makers charged with managing the Nation's coastal 
resources. The products and services provided by the Digital Coast 
include data, information, and training for more than 4,000 coastal 
communities.

    In conclusion, we urge the subcommittee to continue support for its 
portfolio of ocean and coastal programs and we offer the following 
specific programmatic recommendations:

  --National Sea Grant College Program, $93.5 million for research, 
        education, extension, and outreach activities, including 
        aquaculture, STEM education, and Sea Grant Knauss fellowship 
        programs within the NOAA Operations, Research, and Facilities 
        account within the Office of Oceanic and Atmospheric Research;
  --Integrated Ocean Observing System (IOOS), $50.5 million to support 
        both the regional and national system within NOAA's Operations, 
        Research, and Facilities account, National Ocean Service;
  --National Estuarine Research Reserve System, $30 million in NOAA's 
        Operations, Research and Facilities account within the National 
        Ocean Service; and $4 million for the Procurement, Acquisition 
        and Construction account within the National Ocean Service;
  --Sanctuaries and Marine Protected Areas, $57 million within the 
        NOAA's Operations, Research, and Facilities account in the 
        National Ocean Service; and $8.5 million within NOAA's 
        Procurement, Acquisition, and Construction account in the 
        National Ocean Service;
  --Coastal Zone Management Grants, $80.5 million within NOAA's 
        Operations, Research, and Facilities account, National Ocean 
        Service;
  --Coastal Resilience Grants (Title IX), $35 million within NOAAs 
        Operations, Research, and Facilities account, National Ocean 
        Service;
  --Habitat Conservation and Restoration (includes Community-Based 
        Restoration Program), $58 million within NOAA's Operations, 
        Research, and Facilities account, National Marine Fisheries 
        Service; and
  --Digital Coast Program, $5 million within NOAA's Operations, 
        Research, and Facilities account, National Ocean Service.

    Ocean, coastal, and Great Lakes research, education, conservation, 
and resource management programs funded by this subcommittee are 
investments in the future health, resiliency, and well-being of our 
coastal communities which will result in returns of improved quality of 
life, as well as environmental and economic outcomes many times over 
the Federal investment.
    Thank you for the opportunity to provide this unified message.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), this 
testimony addresses important programs in the Department of Justice and 
Department of Commerce. As the most representative organization of 
American Indian and Alaska Native Tribal nations, NCAI serves the broad 
interests of Tribal governments across the United States. As Congress 
considers the fiscal year 2020 budget and beyond, leaders of Tribal 
nations call on decision-makers to ensure that the promises made to 
Indian Country are honored in the Federal budget. Specifically, NCAI 
requests the following:

------------------------------------------------------------------------
                                                  NCAI Fiscal Year 2020
       Agency                  Program                   Request
------------------------------------------------------------------------
Commerce............  Minority Business         $39,000,000 and a set-
                       Development Agency.       aside to re-establish
                                                 NABECs within MBDA.
Commerce............  Office of Native          $2,000,000
                       American Business
                       Development.
Commerce............  Office of Native          $2,000,000
                       American Affairs.
Commerce............  Pacific Coastal Salmon    $110,000,000
                       Recovery Fund.
Commerce............  Salmon Management.......  Provide $25.9 million
                                                 for NOAA Mitchell Act
                                                 Hatchery Programs
Commerce............  2020 Census.............  Provide the Census
                                                 Bureau with at least
                                                 $8.45 billion in fiscal
                                                 year 2020, with at
                                                 least $7.58 billion in
                                                 direct funding for 2020
                                                 census operations
NSF.................  Education and Human       $15,000,000
                       Resources Funding for
                       Tribal Colleges and
                       Universities.
DOJ.................  Tribal Grants: Eliminate  Use DOJ appropriations
                       competitive grant         as base funding with
                       funding process and       Tribes setting own
                       utilize DOJ               priorities
                       appropriations as base
                       funding where Tribes
                       determine priorities.
DOJ.................  Tribal Set-Aside from     Create a 10 percent
                       Office of Justice         Tribal set-aside for
                       Programs.                 all discretionary
                                                 Office of Justice
                                                 Programs (OJP) programs
DOJ.................  Tribal Youth Program      $25,000,000
                       under the Juvenile
                       Accountability Block
                       Grants Program.
DOJ.................  Crime Victims Fund......  Create a 5 percent set-
                                                 aside for Tribal
                                                 governments
DOJ.................  Community Oriented        $52,000,000
                       Policing Services
                       (COPS) Tribal Law
                       Enforcement.
DOJ.................  Tribal programs under     Provide full authorized
                       the Violence Against      amount
                       Women Act (VAWA).
------------------------------------------------------------------------

                         department of justice
    The public safety problems that continue to plague Tribal 
communities are the result of decades of gross underfunding for Tribal 
criminal justice systems; a uniquely complex jurisdictional scheme; and 
the historic, abject failure by the Federal Government to fulfill its 
public safety obligations on American Indian and Alaska Native lands. 
Crime rates in Tribal communities are among the highest in the Nation 
and American Indians and Alaska Natives experience rates of violent 
crime that are 2.5 times the national average. Residents and visitors 
on Tribal lands deserve the safety and security that is taken for 
granted outside of Indian Country. Increased and streamlined funding in 
the following program areas will have a huge impact on safety in Tribal 
communities for Tribal citizens, residents, and visitors to Tribal 
lands.
    Include Tribal governments in disbursements from the Crime Victims 
Fund (a mandatory account).--The Crime Victims Fund (CVF) is the 
Federal Government's primary funding source for providing services to 
victims of crime. NCAI expresses our sincere gratitude to appropriators 
for providing a direct funding stream for Tribal governments from the 
CVF for the first time in fiscal year 2018 and again in fiscal year 
2019. For this funding to achieve its purpose, however, it needs to be 
recurring funds that Tribal governments can plan on in order to ensure 
program stability for victims for the long term. We urge appropriators 
to keep disbursements from the CVF at the increased level and to direct 
an amount equal to 5 percent of overall CVF disbursements to Tribal 
governments.
    Create a streamlined Tribal allocation across Office of Justice 
Programs (OJP) programs.--For several years the administration has 
proposed bill language that would streamline and consolidate OJP Tribal 
programs by allocating 7 percent from all discretionary OJP programs to 
address Indian country public safety and Tribal justice needs. In past 
years, both the House and Senate CJS Subcommittees have supported this 
request, but it has never been enacted. One of the biggest shortcomings 
of DOJ Tribal funding is that it is administered as competitive 
funding. In order to obtain this funding, Tribal nations--on behalf of 
their Tribal justice systems--must compete against each other under 
priorities and guidelines established by DOJ. As a result, Tribal 
nations must develop projects that align with changing DOJ priorities 
and cannot count on funding continuing beyond the current grant period. 
A streamlined OJP Tribal allocation would significantly improve the 
Federal funding process by which Tribal nations receive resources to 
establish Tribal courts; assist in developing detention facilities; 
provide legal assistance; develop and maintain juvenile delinquency 
prevention programs; and provide substance abuse prevention programs. 
Further, the Tribal allocation would give Tribal nations the 
flexibility to develop a detailed strategic plan on how best to spend 
those resources.
    If Congress declines to adopt the flexible allocation across OJP 
programs, restore fiscal year 2010 levels of $25 million in funding for 
the Tribal Youth Program under the Juvenile Accountability Block Grants 
program.--Although Native children compromise only 2.2 percent of the 
overall youth population, they are arrested at a rate of more than two-
to-three times that of other ethnic groups. According to a recent DOJ 
report, ``[s]ubstance abuse, depression, and gang involvement fuel a 
vast majority of the offenses for which American Indian juveniles are 
disproportionately confined.'' Funding for the Tribal Youth Program has 
decreased significantly in recent years and should be restored to its 
fiscal year 2010 level of $25 million.
    Increase funding of Tribal law enforcement programs under DOJ's 
Community Oriented Policing Services (COPS) Grants to $52 million.--
Since the creation of the COPS Office, more than 2,000 grants totaling 
more than $400 million have been awarded to Tribal nations to hire more 
than 1,700 new or redeployed law enforcement officers. It has also 
helped Tribal nations to obtain necessary law enforcement training, 
equipment, vehicles, and technology. Yet, there is still a tremendous 
unmet need within Tribal justice systems for more COPS funding. The 
COPS Office has acknowledged that due to limited resources, it has not 
been able to adequately fund Tribal justice systems, particularly in 
the area of hiring/retaining Tribal law enforcement officers. In a 
report released in December 2010, the COPS Office described its 
practice of intermittent funding as ``problematic,'' especially ``when 
referring to hiring of officers.'' Indian Country urges Congress to 
significantly increase funding for Tribal law enforcement programs 
under the COPS program.
    Fully fund the programs authorized in the Violence Against Women 
Act (VAWA), including the funds authorized for Tribal implementation of 
VAWA special domestic violence criminal jurisdiction.--It is estimated 
that over 85 percent of American Indian and Alaska Native women will 
experience violent victimization in their lifetimes. OVW provides 
funding to Tribal governments to address violence against women in 
their communities. OVW's largest source of funding for Tribal 
governments is the Grants to Tribal Governments Program, which is 
funded via statutory allocations from other OVW programs. Fully-funding 
these OVW programs results in full funding for the Grants to Tribal 
Governments Program.
    The Violence Against Women Reauthorization Act of 2013 (VAWA 2013) 
recognized and affirmed the inherent sovereign authority of Indian 
Tribes to exercise Special Domestic Violence Criminal Jurisdiction 
(SDVCJ) over all persons--Indian and non-Indian--who commit crimes of 
dating violence, domestic violence, and violations of protection orders 
within Indian country. The bill authorized $5 million per year for 5 
years for Indian Tribes to implement the VAWA 2013 provisions and 
otherwise strengthen Tribal justice systems. In fiscal year 2019, $4 
million was appropriated for this program. We urge Congress to 
appropriate the full amount authorized for VAWA implementation purposes 
so that more communities are able to take advantage of this lifesaving 
law.
                         department of commerce
    Provide $39 million for the Minority Business Development Agency 
(MBDA).--The Minority Business Development Agency (MBDA) was created to 
support minority business development centers to provide business 
consulting and financing services. Initial funding for the MBDA was set 
at $63 million, but this budget has since decreased. Funding the MBDA 
at $39 million will assist Tribal nations in obtaining vital business 
consulting, financing services, and procurement of technical 
assistance.
    Fund the Office of Native American Business Development at a 
minimum of $2 million as part of the Commerce Department Management 
Budget.--The establishment of the Office of Native American Business 
Development (ONABD) was codified by the enactment of the Native 
American Business Development, Trade Promotion and Tourism Act of 2000, 
Public Law 106-464 (the 2000 Act). However since its establishment, 
ONABD has relied on base resources from the Minority Business 
Development Agency (MBDA) to coordinate Federal programs for financial 
and technical assistance to increase business, expand trade, and 
support economic development on Tribal lands. In its fiscal year 2016 
budget request submitted to Congress, MBDA noted the absence of 
appropriations to support ONABD since it was created by the 2000 Act, 
and also the lack of appropriations to implement other aspects of 
Public Law 106-464 and the Indian Tribal Regulatory Reform and Business 
Development Act of 2000. In order to carry out its mission, ONABD must 
receive adequate and sustained support to implement Indian policy 
initiatives and expand Native American business development initiatives 
both domestically and internationally.
    Provide the Census Bureau with at least $8.45 billion in fiscal 
year 2020, with at least $7.58 billion in direct funding for 2020 
census operations.--The census is a critical and powerful information 
source that will significantly influence American policy for the coming 
decade. An accurate count is necessary to ensure the fair distribution 
of billions of dollars to Tribal nations and American Indian/Alaska 
Native people across the United States. Certain population groups are 
at higher risk of being missed in the decennial census--groups 
considered hard-to-count. Native people especially on reservations and 
in Alaska Native villages have been historically underrepresented in 
the census. In the 2010 Census, the Census Bureau estimates that 
American Indians and Alaska Natives living on reservations or in Native 
villages were undercounted by approximately 4.9 percent, more than 
double the undercount rate of the next closest population group. The 
President's Budget request was significantly lower than Secretary 
Ross's estimates of overall costs, and we urge Congress to ensure 
sufficient funding for a successful 2020 Census, including funding for 
Questionnaire Assistance Centers, which currently are not included in 
the Census Bureau's operational plan. With only half the number of 
Regional Census Centers and local census offices across the country, it 
will be important to expand the field footprint, to provide 'safe 
space' for people who do not have reliable Internet access, are wary of 
using the telephone to respond, or need assistance filling out a paper 
form, to meet with sworn Census Bureau employees near where they live.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Virginia Davis, Senior Advisor, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d2b393c2b342e1d333e3c3473322f3a73">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the National Court Appointed Special Advocate 
                              Association
                     department of justice funding
    Chairmen Shelby and Moran, Vice Chairman Leahy, Ranking Member 
Shaheen, and Members of the Commerce, Justice, Science, and Related 
Agencies Subcommittee, thank you for the opportunity to submit remarks 
on the Department of Justice (DOJ) fiscal year 2020 budget including 
full funding of the Court Appointed Special Advocates (CASA) Program 
through the Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) at the congressionally-authorized level of $12 million.
    CASA/Guardian ad Litem (GAL) advocacy is a well-established model 
strongly associated with improved long-term outcomes for child victims, 
for which the need continues to be critical. With congressional support 
at the fully authorized level, the CASA/GAL network in 49 States and 
the District of Columbia will enhance and advance specialized training, 
tools, and resources to continue delivering vital one-on-one best-
interest advocacy that addresses the complex and ever-evolving needs of 
traumatized children who have been victimized by one or more primary 
caregivers.
    Emerging issues such as the commercial sexual exploitation of 
children and our Nation's growing opioid epidemic--for which children 
account for an increasing number of victims--both necessitate a greater 
specialization within one-on-one advocacy, with a keen and deliberate 
focus on progressing toward the call within the Victims of Child Abuse 
Act to serve every child victim. As we enrich CASA/GAL advocacy to 
encompass evolving direct service needs, our national network will 
further strengthen its capacity to serve over 260,000 child victims of 
abuse and neglect.
    Child victimization and maltreatment by primary caregivers is 
distressingly on the rise, and with it, so too rises the impact on the 
child and society. Traumatized victims of child abuse and neglect face 
significant and multiple risk factors, most notably, juvenile 
delinquency, adult criminality, and poor educational performance that 
affects future employment and stability. These issues result in a hefty 
impact on Federal, State and local spending-at least one-quarter of the 
DOJ budget is dedicated to our Nation's prison system, and at the same 
time, the Centers for Disease Control and Prevention (CDC) estimates 
the economic and social costs of child abuse and neglect to total $124 
billion nationwide per annum. Local CASA/GAL programs offer an 
effective service to child victims of abuse and neglect that improves 
outcomes, increases the efficient functioning of our court systems, and 
saves hundreds of millions in Federal and State taxpayer dollars 
annually in the process.
    CASA/GAL programs are, at the heart of their operation, a highly 
effective leveraging of community-based resources to provide dedicated 
and sustained one-on-one advocacy for child victims and advise the 
courts of the child's best interests and needs throughout abuse and 
neglect proceedings. Research has shown that the presence of a caring, 
consistent adult in the life of a child victim is associated with 
improved long-term outcomes. These efforts, which focus on helping the 
child find a safe, permanent home where they can both heal and thrive, 
require thorough background screening, specialized training, and 
resources to promote a nationwide system of programs that adhere to and 
assure the highest quality of services and care for the child victim.
    CASA Program funds through DOJ achieve and uphold national standard 
setting, assessment, accountability, and evaluation across nearly 950 
local, State, and Tribal programs to promote improved child outcomes 
and effective stewardship of public investments in victim advocacy. 
Evidence-based practices, intensive technical assistance, direct 
program guidance and partnerships, and national program standards and 
quality assurance processes all lie at the foundation of effective 
CASA/GAL program service delivery in communities across the Nation.
    Given the nature of the CASA/GAL advocates' intensive work with 
child victims of abuse and neglect, standards of rigorous screening, 
training, supervision, and service are implemented nationwide, with 
congressional support, to ensure consistent quality for victims who 
directly benefit from having their needs and rights championed in the 
courtroom and in the community. Comprehensive pre-service, in-service, 
and issue-focused training curricula--including training in 
disproportionality, cultural competency, and working with older youth--
ensures a cutting edge approach to victim services centered on the 
child thriving well into the future as a member of the community. 
Federal support is foundational to the solid and high-quality 
functioning of a national child advocacy network for victims of abuse 
and neglect.
    As the needs of child victims of abuse and neglect grow and change, 
so must the specialization of one-on-one advocacy and services by CASA/
GAL programs. Since the Victims of Child Abuse Act was passed, the 
landscape of victims' services for children has evolved significantly. 
Researchers and practitioners know more now than ever about trauma, and 
its associated impacts on child development, as well as the significant 
and multiple risk factors and issues faced by abused and neglected 
children such as mental health/post-traumatic stress disorder (PTSD), 
commercial sex trafficking, overmedication, and the growing effects of 
substance abuse and the opioid epidemic in particular. Further, we know 
that youth of color in particular face very significant challenges--in 
addition to victimization--on their path to a thriving adulthood. CASA/
GAL advocates bring one-on-one attention and a dedicated focus to each 
of the issues that the child victim faces, but additional resources are 
needed to enhance and build their knowledge base as part of a 
continuous advocacy development process.
    These complex issues warrant adaptive and responsive training, 
technical assistance, and resources, while continuing on a trajectory 
of maintaining quality care and services within current CASA/GAL 
caseloads and also simultaneously building the capacity to take on 
additional cases when appointed by the court. National CASA Association 
is committed to continuous improvement of training, technical 
assistance, and resource delivery to strengthen and support local CASA/
GAL programs and State organizations to help advocates remain at the 
forefront of emerging child welfare issues.
    Federal support at the fully authorized level is instrumental to 
bridging advocacy training and best practice tools into multiple and 
new emerging issue areas including child sex trafficking, substance 
abuse and opioid-overuse, and the overmedication of child victims, for 
example. Advocates need to be well versed in warning signs for these 
issues, as well as the available services, resources, and coordination 
of community and court efforts in order to best address the child 
victim's case.
    Fiscal year 2020 funding of $12 million will be targeted to 
fortifying resources and training for CASA/GAL programs in the area of 
commercial sexual exploitation based upon existing best practices and 
models. In addition, this Federal funding will be used to target 
resources to serve over 260,000 child victims of abuse and neglect, and 
continue efforts toward the development of State CASA/GAL organizations 
in the States currently without this resource that enhances support of 
program service delivery in local communities. Additional projects 
include sustaining development of training on best practices in 
addressing the needs of children impacted by the opioid epidemic and 
other forms of substance abuse, child sex trafficking, unaccompanied 
children and addressing racial disproportionality in child welfare and 
the need for racially and culturally sensitive recruitment and matching 
of CASA/GAL advocates.
    According to the most recent government data available, the number 
of child maltreatment cases has increased to over 700,000 per annum. 
This remains a significant population with equally significant and 
complex issues and risk factors. Without the benefit of a specially 
trained CASA/GAL advocate that is able to devote dedicated time and 
attention to the details of the case, the child victim faces a complex 
and cumbersome court process and foster care system that is 
overwhelmed, overburdened, and under-resourced. Our ability as a 
national network to serve every child victim of abuse and neglect is 
directly tied to strengthening and expanding a foundational and 
interwoven program of advocate training, technical assistance, 
standards, tools, and resources that are funded with DOJ support.
    While children who are the victims of maltreatment have suffered 
deep layers of trauma, these experiences do not have to be their only 
life story. Juvenile detention and adult incarceration do not have to 
be the path to their future. Substance abuse, PTSD, homelessness, and 
joblessness do not have to be the basis of their experiences. We can 
change their trajectory, together, with congressional support.
    Caring, dedicated, and extensively trained CASA/GAL advocates bring 
about positive changes in the lives of child victims. Full funding is 
needed to continue expanding the advocate pipeline, enhance the 
training, resources, and services provided to and through CASA/GAL 
programs, and strengthen outcomes for future members of our Nation's 
workforce.
    We urge the subcommittee to fund the Court Appointed Special 
Advocates Program at our authorized level of $12 million in fiscal year 
2020 to address the overwhelming need for dedicated advocacy on behalf 
of child victims of abuse and neglect. Thank you for your 
consideration.

    [This statement was submitted by Tara L. Perry, Chief Executive 
Officer.]
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and Members of the subcommittee, my name is Lisa 
Auermuller and I am the Assistant Manager of the Jacques Cousteau 
National Estuarine Research Reserve in New Jersey, administered by 
Rutgers, The State University of NJ. I submit this testimony in my 
capacity as President of the National Estuarine Research Reserve 
Association (NERRA). NERRA is a not-for-profit scientific and 
educational organization dedicated to the protection, understanding, 
and science-based management of our Nation's estuaries and coasts.
    Thank you, on behalf of these special places and all of the 
communities they support. We appreciate the investment Congress has 
made in the National Estuarine Research Reserve System (NERRS) over the 
past 46 years. Because of your support, coastal States and communities 
have worked to expand the NERRS into a network 29 protected places 
spanning over 1.3 million acres of coastal land. Reserves are locally 
managed programs that communities depend on to address critical 
challenges like balancing economic growth and natural resource 
conservation. Reserves help local communities plan for extreme storms 
and rising sea levels, protect nursery habitats that support commercial 
and recreational fisheries, and prepare the next generation to be wise 
stewards of these precious resources in the future. This unique State-
Federal partnership brings the scientific expertise and financial 
resources of NOAA into coastal communities across the country. 
Investments in the research reserves support locally implemented 
science-based coastal resource management, research, and education 
programs.
          reserves are valued, valuable, and highly leveraged
    Reserves support healthy estuaries and healthy estuaries support 
communities nationwide. From Alaska's Kachemak Bay to Rookery Bay in 
Florida, estuaries protect thousands of communities from flooding, keep 
water clean, sustain and create jobs, support fish and wildlife, and 
offer endless opportunities for outdoor recreation and water-based 
small businesses. Reserve programs help sustain more than 10,000 jobs, 
provide training to more than 13,400 people. Our national system 
contributes billions of dollars to the shellfish and seafood industry 
and tens of billions of dollars in ocean-dependent industries along our 
coasts. Each year, coastal wetlands, like those protected by the NERRS, 
provide $26.25 billion in value by protecting U.S. communities against 
storms.
    Every reserve leverages additional funding for their surrounding 
communities. In some States, this can be as much as $1.5 million. NERRS 
funding also leverages State matching funds raising $6 million annually 
to supplement the Federal funding; and, over the last 3 years, matching 
funds invested in the NERRS leveraged an average of $22 million 
annually.
    In addition to their ability to leverage funding, reserves engage 
and empower people in their own communities. Over a half of million 
people visit reserves each year and all reserves attract volunteers 
that offset costs by donating approximately 82,000 hours of work every 
year equating to a value of $1.9 million in services. It is well 
documented that people place an enormous value in living near a healthy 
estuary. Locally, Reserves become trusted sources of science-based 
information and recreation for community members to recreate with, 
learn from and rely on when information is needed to inform 
decisionmaking.
                         nerra recommendations
    For fiscal year 2020, NERRA strongly recommends the following 
funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):

                NERRS Operations: $30 million
                NERRS Procurement, Acquisition, and Construction (PAC): 
                $4 million

    While NERRA is disappointed with the administration's continued 
elimination of funding for the NERRS and for other programs that 
support coastal and ocean science and management, we are heartened by 
the support from Senate and Congress. We agree that everyone benefits 
from the return on investment the NERRS provide. Specifically, economic 
opportunities and quality of life that coastal communities and natural 
resources provide. To preserve the safety, economic vitality, and 
cultural and environmental values of the coast, we need to invest in 
proven programs that are delivering direct benefits. NERRA's 
recommended budget will allow reserves to maintain and increase:

  --Science programs that deliver guidance and solutions to issues 
        facing local, state and national interests.
  --Environmental monitoring programs that serve as a foundational 
        element of national water and weather coastal observations.
  --Science, technology, engineering and mathematics focused education 
        programs that serve approximately 81,000 students and more than 
        3,000 teachers each year.
  --Public access for hunting, fishing, and passive recreation on over 
        a million acres of land and water.
  --Scientific technical assistance and information to professionals in 
        over 2500 cities and towns and 570 businesses nationwide.
  --Support for students and researchers at over 100 university 
        partners.

    NERRA's fiscal year 2020 request is a $3 million increase over 
current program baseline. We are requesting an additional $3 million 
for the NERRS budget so we can build on our efforts to help coastal 
communities be more prepared and resilient as they experience 
disruptions like super-sized storms, record floods and droughts, 
hazardous spills, and fisheries collapse.
    That $30 million will translate into an additional $100,000 in 
operations funds for each Reserve and their communities. Each Reserve 
will focus their increased funds in one or two of the following areas:

  --Targeted science and monitoring to help communities prepare for, 
        and move forward from, disruptive events.
  --Protection of natural infrastructure that sustains businesses, 
        including commercial fisheries.
  --Programs that train professionals, educate the public, and prepare 
        the next generation workforce to manage our changing coasts.

      protecting special places for science, recreation, education
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and is critical 
to maintaining the places that host NERR research, education and 
outreach. The current estimated need by Reserves for these funds is 
documented at more than $9 million. Reserves are destinations for 
tourists, natural playgrounds for children, and havens for quiet 
reflection for people around the country. Additionally, hunters and 
fishermen use these public lands for commercial and recreational uses: 
27 reserves allow for recreational fishing; and, approximately 85 
percent allow for recreational hunting.
    Funding the acquisition of coastal land protects research, 
education and recreational opportunities; water quality and quantity; 
flood storage areas; and critical fish and wildlife habitat. Coastal 
and estuarine habitats are consistently ranked as having the highest 
need for protection by national non-profits and State assessments. 
These places are also under the most intense development pressure as 
people continue to move to the coast in search of jobs and a high 
quality of life. This land is expensive, and is becoming scarce. PAC's 
Federal investment are often the critical seed monies necessary to 
attract other pots of private, State, local, and nonprofit funds.
    PAC funding allows reserves to be a catalyst in their communities 
for conservation. Of the 1.3 million acres that are currently a part of 
the reserve system, over 500,000 of those acres are wetlands. Wetlands 
provide essential services to all Americans; they are fish and bird 
sanctuaries, trap pollutants, store carbon, and act as sponges to 
reduce flooding. This ability to store flood waters enables wetlands 
like salt marshes to reduce a community's storm damages. These marshes 
reduce the risk of flood exposure by 50 percent for people within 2/3 
of a mile of these areas, while also reducing property losses in 
upstream communities. Reserves are critical coastal areas for 
protecting communities against storms and floods, especially along the 
eastern seaboard and the Gulf of Mexico. For example, $625 million in 
property damages were avoided during Hurricane Sandy due to coastal 
wetlands protecting property and over 1,300 miles of roads. Ten NERRs 
were hit by that storm, contributing to the protection provided by 
these habitats. While studies of the impact of 2017 storms are not 
completed, they did include the second (Harvey), third (Maria), and 
fifth (Irma) most costly storms to hit the U.S.
    In addition to the preservation of critical coastal lands, NERRS 
PAC funds also in the increase of local construction jobs.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based communities, businesses and 
industries.
    With NERRA's fiscal year 2020 request of $30 million for the NERRS 
Operations and $4 million for NERRS PAC, the program will be able to 
enhance delivery of credible scientific research and translation to 
local coastal communities around the country.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.

    [This statement was submitted by Lisa Auermuller, President.]
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
            national oceanic and atmospheric administration
    Chairman Moran, Ranking Member Shaheen and Members of the 
subcommittee:

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2020 funding for the National Fish and Wildlife Foundation (NFWF). 
We respectfully request your approval of robust funding throughout the 
National Oceanic and Atmospheric Administration's (NOAA) budget, 
particularly for the National Ocean Service and National Marine 
Fisheries Service to allow for continued and expanding partnerships 
that deliver high quality ocean and coastal conservation.
    NFWF was established by Congress in 1984 to foster public-private 
partnerships to conserve fish, wildlife and their habitats. NFWF 
matches Federal dollars with non-Federal dollars, averaging at least 
three private dollars for each Federal dollar. NFWF leverages the 
Federal investment while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes. fiscal year 2020 funds will allow NFWF to uphold our mission 
and expand our successful and expanding partnerships with NOAA.
    NFWF has partnered with NOAA since 1996. We have many programs that 
are robust, and we continue to grow the NOAA partnership as new 
priorities emerge.
                   examples of nfwf/noaa partnerships
Coral Reef Conservation
    Since 2000, NFWF has partnered with NOAA and U.S. Fish and Wildlife 
Service (FWS) to respond to the alarming decline in both the quantity 
and productivity of the world's coral reef ecosystems through multiple 
coral conservation initiatives that aim to improve management, increase 
public awareness, and reduce threats to coral reefs. NFWF works with 
local, State, Federal and regional partners to achieve its goals in 
coral conservation and bolsters multi-agency initiatives like the U.S. 
Coral Reef Task Force Watershed Partnership Initiative. The program 
works to support reef resiliency by reducing negative impacts from 
unsustainable fishing and land-based pollution.
    To date, NFWF has supported projects for coral reef conservation 
totaling over $43 million for imperiled coral species. Funds have 
assisted broad-scale coral reef management by establishing new 
techniques for assessing and monitoring reef health and new fishery 
management models. Site-specific initiatives have developed and 
implemented watershed management plans, reduced sediment erosion 
through stream bank stabilization, provided incentives or best 
management practices on agricultural lands, and supported capacity-
building of management and conservation organizations to sustain 
conservation outcomes.
Fishing for Energy
    Fishing for Energy is a partnership between NFWF, NOAA's Marine 
Debris Program, Covanta energy company, and Schnitzer Steel Industries. 
The Fishing for Energy partnership works to address the problem of 
derelict and retired fishing gear in two ways: by providing commercial 
fishermen with no-cost opportunities to dispose of gear, and by 
offering grant support for gear innovations to prevent loss and reduce 
impact. By assisting in prevention and removal of derelict fishing 
gear, Fishing for Energy restores the quality of marine and coastal 
habitats and supports the communities and industries that rely on these 
resources.
    Through June 2018, the Fishing for Energy partnership has provided 
removal services at 55 ports in 12 States, collecting nearly 4 million 
pounds of fishing gear. Gear collected at the ports is first sorted at 
Schnitzer Steel Industries for metals recycling, and the remaining non-
recyclable material is converted into energy at Covanta locations.
Sea Turtle Conservation
    NFWF's Sea Turtle Program is a 10-year partnership with NOAA and 
FWS that guides conservation investments that measurably improve the 
current recovery trajectory of seven endangered sea turtle populations 
in the Western Hemisphere: leatherbacks, Kemp's ridleys, loggerheads, 
and hawksbills in the Northwest Atlantic and leatherbacks, loggerheads 
and hawksbills in the Eastern Pacific.
    By reducing harmful coastal lights, preventing poaching, and 
controlling predation, NFWF projects have increased the productivity of 
over 100 miles of priority nesting beaches, allowing hundreds of 
thousands of new hatchlings to make it to the sea. NFWF's in-water 
efforts to implement safer fishing gear practices reduced sea turtle 
bycatch by 50 to 100 percent, not only in the United States, but in 
Canada, Mexico, and Peru, saving thousands of turtles annually. NFWF 
has also supported global priority setting, methods standardization and 
bycatch assessments to increase the efficiency of investments in sea 
turtle conservation world-wide.
Fisheries Innovation Fund and Electronic Monitoring and Reporting
    NFWF and NOAA launched the Fisheries Innovation Fund in 2010 to 
foster innovation in fisheries and seafood production in order to 
protect livelihoods and provide sustainable access to fisheries while 
also rebuilding fish stocks. The fund supports the participation of 
fishermen and their communities in securing sustainable fisheries in 
the United States.
    Fisheries Innovation Fund funding priorities include bycatch 
reduction, recreational fisheries and offshore aquaculture including 
voluntary activities to build community capacity and encourage 
sustainable use practices. Most projects have originated locally to 
address needs, challenges and opportunities at the community level.
    The Electronic Monitoring and Reporting (EMR) grant program funds 
projects to modernize fishery data collection. Innovation and 
technology have the potential to bring down the cost of fishery 
monitoring; increase the speed, reliability and transparency of 
fisheries data; and enable managers and fishermen to address management 
challenges more collaboratively.
    High quality, timely and accurate fisheries information is critical 
to maintaining sustainable U.S. fisheries. Fishermen and seafood 
marketers are increasingly using information about their fishing 
activity to improve the efficiency and effectiveness of their 
operations and to satisfy their customer demands for legally and 
sustainably caught seafood.
National Coastal Resiliency
    NFWF's partnership with NOAA on the National Coastal Resiliency 
Fund is restoring, increasing and strengthening natural 
infrastructure--the natural resources and landscapes that help absorb 
the impacts of storms and floods--to protect citizens and coastal 
communities while also enhancing habitats for fish and wildlife. 
Resilient communities are better prepared to adapt to changing natural 
resource conditions, infrastructure threats and impacts to local 
economies.
    Thanks to bipartisan efforts and support from Congress, NFWF and 
NOAA are investing approximately $30 million in Federal funds in 2018--
matched by $38 million in private funding and grantee match for a total 
conservation investment of $67 million--toward the restoration or 
expansion of natural features such as coastal marshes and wetlands, 
dune and beach systems, oyster and coral reefs, forests, coastal 
rivers, and barrier islands that minimize the impacts of storms and 
other naturally occurring events on nearby communities. Additionally, 
NFWF and NOAA just announced the request for proposals for the $30 
million 2019 resiliency fund, which is likely to attract similar levels 
of matching funds.
    Restoration projects that help reduce regional threats are a key 
component of this program. Examples include storm surge along the East 
and Gulf Coasts, subsidence in the Gulf and Mid-Atlantic Coasts, 
stormwater management in the Great Lakes, inland flooding that directly 
impacts the West coasts, and the combination of inland flooding and 
ocean surge for islands such as Hawaii. NFWF and NOAA also promote 
innovation in addressing resiliency through the program.
    NFWF is investing in resiliency planning and feasibility projects 
to build a pipeline of shovel-ready projects in the future. NFWF also 
leads significant monitoring and evaluation efforts that measure the 
enhanced resilience of the restored coastal systems to improve 
understanding of which activities are associated with the greatest and 
most cost-effective reductions in storm risk and storm damage.
National Marine Monuments--National Marine Sanctuary Research and 
        Innovation Grants
    One of the challenges for NOAA and its partners in working in 
marine sanctuaries is gaining access to remote locations. Past agency 
funding only allows for a single voyage to address multiple needs and 
locations per year, making it difficult to do the in-depth studies that 
managers need. NFWF and NOAA initiated a new model for investments to 
go deeper, learn more and further expand the existing program and 
research dollars that are currently invested to maximize the 
conservation impact.
    The partnership supports collaborative research and conservation 
actions to galvanize each year's investments around a theme. For 
example, prioritized research could focus on a key species or 
geographic area of the monument, or target actions to address a key 
threat that has been prioritized. This maximizes research/management 
collaboration and outreach opportunities.
                            nfwf background
    NFWF was established by Congress in 1984 to catalyze private 
investments to conserve fish, wildlife and their habitats. NFWF raises 
private funds not only to leverage Federal dollars, but also to support 
the associated management costs of implementing the Federal funds. Over 
the past 35 years, NFWF has invested $5.3 billion in to more than 
17,500 projects while partnering with more than 4,500 organizations.
    NFWF remains fully transparent and is required by law to notify 
Congress 30 days in advance of every grant that exceeds $10,000 in 
Federal funds. Details of all projects awarded during fiscal year 2018 
can be found in NFWF's annual investment guide and all of NFWF's grants 
can be found on our website: https://www.nfwf.org/whatwedo/grants/
search/Pages/Grant-Search.aspx
    In fiscal year 2018, NFWF was audited by an independent accounting 
firm and they issued an unqualified report with no material weaknesses 
identified and no deficiencies identified. This is the TENTH 
consecutive year of unqualified audits. In addition, NFWF has 
continually qualified as a low risk auditee under OMB guidelines.
    In fiscal year 2018, through voluntary discretionary cooperative 
agreements, NFWF partnered with 16 Federal agencies or departments and 
more than 30 corporations to support implementation of Federal 
conservation priorities. These efforts focused on working landscapes, 
private lands, natural resource conservation, coastal resiliency and 
community-based restoration.
                               conclusion
    For more than three decades, NFWF has been at the forefront of 
national conservation activity. With our partners, NFWF has contributed 
to some of the Nation's most important conservation programs, invested 
millions in worthy and successful projects, and spearheaded programs to 
conserve our Nation's most treasured natural resources. We have a 
successful model of coordinating and leveraging Federal funds to 
attract support from the private sector to address the most significant 
threats to fish and wildlife populations and their habitats.
    Chairman Moran, Ranking Member Shaheen and Members of the 
subcommittee, we greatly appreciate your continued support and stand 
ready to answer any questions you or your staff might have.

    [This statement was submitted by Greg E. Knadle, Vice President, 
Government Affairs.]
                                 ______
                                 
  Prepared Statement of the National Legal Aid & Defender Association
    This testimony is submitted on behalf of the National Legal Aid & 
Defender Association (NLADA), which is America's oldest and largest 
national nonprofit organization whose resources are exclusively 
dedicated to promoting excellence in the delivery of legal services in 
order to advance access to justice for all. We are grateful for the 
opportunity to provide comments to the committee regarding the Legal 
Services Corporation, for which we request at least $683 million, the 
Tribal Civil and Criminal Legal Assistance, Training and Technical 
Assistance grant program, for which we recommend $2 million, the John 
R. Justice Student Loan Repayment Assistance program, for which we 
recommend $25 million, and civil legal assistance for victims of 
domestic and sexual violence, for which we recommend $57 million.
                       legal services corporation
    LSC is America's investment in its promise of equal justice. LSC 
distributes 94 percent of its appropriation directly to 133 
organizations providing civil legal aid to people in every U.S. State 
and territory who have legal problems with life-altering potential 
consequences. Family and housing cases are the most common. Without 
access to legal help in these matters, victims of domestic violence can 
be denied safety from an abusive parent or spouse, and families can 
lose their homes through unnecessary eviction or foreclosure. LSC also 
enables legal aid programs to respond quickly and effectively to 
emerging challenges facing low-income and middle-class Americans. The 
new LSC task forces on the opioid crisis and disaster recovery are 
helping guide legal aid programs in confronting these complex large-
scale issues that have created immeasurable damage to so many 
communities across our country.
    There is a wealth of data that demonstrates how access to civil 
legal aid creates positive long-term outcomes for clients, such as 
increased housing stability and income levels, lower incidence of 
mental health problems in veterans,\1\ and improved ``safety, 
psychological well-being, and economic self-sufficiency'' for victims 
of intimate partner violence.\2\ Despite this evidence, and despite the 
current strength of our economy, the need for legal assistance 
continues to dramatically outweigh the amount we choose to spend on it, 
which is the reason for our request that this committee significantly 
expand the appropriation for LSC.
---------------------------------------------------------------------------
    \1\ Tsai, J., Middleton, M., Villegas, J., Johnson, C., Retkin, R., 
Seidman, A., Sherman, S., and Rosenheck, R. (2017) ``Medical-Legal 
Partnerships At Veterans Affairs Medical Centers Improved Housing And 
Psychosocial Outcomes For Vets'', Health Affairs 36 (12).
    \2\ Hartley, C., and Renner, L. (2016) ``The Longer-Term Influence 
of Civil Legal Services on Battered Women'', U.S. Department of 
Justice.
---------------------------------------------------------------------------
    Data published by LSC in 2017 revealed that the $385 million 
appropriated for LSC the previous year only enabled grantees to fully 
address roughly one third of legal problems brought to them, and that 
41 percent received no service at all.\3\ Most of those who did not 
receive services were turned away because the program from which they 
sought help did not have sufficient resources to assist. Based on this 
data, we developed an approximate average cost of service per case, and 
using this number, estimated the amount that would have been needed to 
fully address every eligible legal problem: $683 million, adjusted for 
inflation. In estimating the cost of addressing every problem, we 
needed to make a number of generalizations and assumptions about the 
cost of service per case. In recognition of the budgetary constraints 
under which the Appropriations Committee operates, we intentionally 
took a highly conservative approach to those calculations.\4\ Our 
request is therefore likely to understate, to a significant extent, the 
amount grantee organizations would actually need. For this reason we 
request ``at least'' $683 million.
---------------------------------------------------------------------------
    \3\ Legal Services Corporation (2017) The Justice Gap: Measuring 
the Unmet Civil Legal Needs of Low-income Americans.
    \4\ The report delineates civil legal problems that were fully 
addressed and problems that were not addressed ``to the extent 
necessary to fully address the clients' legal needs.'' Our calculation 
includes an assumption that fully addressing an ``average'' legal 
problem costs 1.5 times the amount it costs to provide inadequate 
service. Particularly because the latter includes even the most minimal 
level of assistance, it is highly unlikely that this assumption is 
accurate and the average difference in cost between full and partial 
service is likely to be far higher in reality. The effect of this 
conservative assumption is to understate the actual resources required 
to fully address those problems that are currently addressed 
inadequately.
---------------------------------------------------------------------------
    Additionally, we emphasize that the appropriation level we request 
would not meet the total need for civil legal aid. Across the country, 
only an estimated 20 percent of low-income Americans even seek 
assistance with their civil legal problems, often because they are 
unaware that resources exist to help them.\5\ In fact, the level we 
recommend in this testimony is 27 percent lower than funding would have 
been had the LSC appropriation simply kept pace with inflation since 
1980,\6\ and the fiscal year 2019 appropriation is less than half of 
the 1980 level in inflation-adjusted dollars.
---------------------------------------------------------------------------
    \5\ Legal Services Corporation (2017) The Justice Gap: Measuring 
the Unmet Civil Legal Needs of Low-income Americans.
    \6\ Houseman, A. & Perle, L. E. (2018) Securing Equal Justice for 
All: A Brief History of Civil Legal Assistance in the United States.
---------------------------------------------------------------------------
    This diminished level of funding for LSC is not only harmful to 
communities that rely on civil legal assistance, but it is economically 
short-sighted. There is a direct, measurable, and significant return on 
investment from civil legal aid. In Alabama, for example, analysis 
demonstrates that for every dollar spent on civil legal aid, 
communities in the State received $8.84 in direct and long-term 
financial benefits.\7\ This return includes a reduction in taxpayer 
spending on community services that results from provision of legal 
help, such as on housing and other support costs for a family that 
would have been forced out of their home were it not for access to an 
attorney.
---------------------------------------------------------------------------
    \7\ Community Services Analysis, LLC (2015) Alabama Legal Aid 
Social Return on Investment Analysis.
---------------------------------------------------------------------------
    While there are sources of funding for civil legal aid outside of 
LSC, these resources are distributed in a highly uneven manner. Rural 
areas are routinely underserved, but through LSC the Federal 
appropriation can be targeted to meet the areas of most extreme need. 
At the same time, the civil legal aid infrastructure that is built 
around LSC facilitates the investment of private resources into 
expanding access to civil legal assistance, multiplying the impact of 
the Federal appropriation. Private attorneys contribute more than a 
week of legal services pro bono on average each year,\8\ but they are 
only able to volunteer in such volume because the existence of LSC 
grantees that provide needed training, supervision, and access to 
clients. LSC also invests directly in expanding private attorney 
involvement through its Pro Bono Innovation Fund.
---------------------------------------------------------------------------
    \8\ American Bar Association (2018) Supporting Justice: A Report on 
the Pro Bono Work of America's Lawyers.
---------------------------------------------------------------------------
    By continuing to underfund civil legal aid, we not only fail to 
preserve the foundation of American democracy but also cause 
significant and severe harm to the people and communities for whom 
access to a lawyer can be the difference between poverty and 
opportunity, sickness and health, and even life and death. We ask that 
you take the first step toward fully meeting our country's most 
fundamental promise by providing $683 million for LSC in fiscal year 
2020.
  tribal civil and criminal legal assistance, training and technical 
                               assistance
    We urge this subcommittee to support the work done on behalf of 
Native Americans by Indian Legal Services by maintaining funding within 
the Department of Justice, Office of Justice Programs, State and Local 
Law Enforcement Assistance account at a level similar to that provided 
in recent years, which is approximately $1 to 2 million for the Tribal 
Civil and Criminal Legal Assistance, Training and Technical Assistance 
grant program (TCCLA). This could be either within a specified line 
item for ``assistance to Indian Tribes,'' as Congress provided $37.5 
million for in the fiscal year 2019 Consolidated Appropriations Act, or 
within a Tribal set-aside percentage of Office of Justice Programs 
accounts, as the administration has proposed in the fiscal year 2020 
budget request in section 210.
    For the past 8 years, through fiscal year 2018, a consortium of 24 
Indian Legal Services programs connected with the Legal Services 
Corporation and operating in 23 States has been awarded funding under 
the TCCLA grants program. In addition to using TCCLA funds to provide 
legal representation to thousands of American Indian and Alaska Native 
individuals in Tribal and State courts, Indian Legal Services programs 
are currently assisting more than 160 Tribal governments and/or Tribal 
judicial systems to enhance or develop their justice systems.
    Examples of the Indian Legal Services programs' Tribal civil 
justice assistance work done under TCCLA awards include initial 
drafting of Tribal laws as well as revisions to civil codes, policies 
and procedures; developing alternative resolution systems, based on 
Tribal customs and traditions; and developing and conducting Tribal 
court advocate training programs. Civil and criminal representation of 
individuals in Tribal and State courts has included family law, 
probate, employment, disability benefits claims, public housing, 
property disputes, debt collection, child welfare and juvenile 
delinquency matters; guardian ad litem work in high conflict custody, 
guardianship, and parental termination cases; representation of 
families in Indian Child Welfare Act cases in State court; and 
addressing the impact on individuals and families from substance abuse 
and correlated incidents of criminal activity by reforming Tribal 
sentencing guidelines.
    The Indian Legal Services programs' Tribal criminal work under 
TCCLA has included assisting Tribes with revisions to their criminal 
codes for compliance with these statutes, as well as drafting and 
updating codes, policies and procedures, and drafting of civil and 
criminal codes, including children's codes, and rules of procedure; 
Tribal court development, restructuring and improvement; training of 
judicial, law enforcement and justice systems personnel and Tribal 
court lay advocates and guardians ad litem; and negotiation or 
litigation to address jurisdictional issues with State court systems. 
Lay advocate and peacemaker trainings have been done with Tribal 
colleges and university law schools. Several Indian Legal Services 
programs have worked with the Tribes and their Tribal courts to 
establish ``Wellness Courts'' in conjunction with the local State 
courts. In these instances, a defendant appears before a Tribal court 
judge and county district court judge simultaneously. The programs are 
engaged in helping 18 of the 160 Tribes they serve to implement the 
Tribal Law and Order Act of 2010 (TLOA) and the Violence Against Women 
Reauthorization Act of 2013 (VAWA). The programs provide the only 
public defender service available in at least 46 Tribal courts.
    In fiscal year 2020, whether Congress provides funding to the DOJ 
for Indian Country Tribal justice and law enforcement programs as a 
Tribal set-aside of a percentage of overall DOJ funding, or in an 
overall sum as the $37.5 million appropriated in the fiscal year 2019 
Consolidated Appropriations Act for ``assistance to Indian Tribes,'' we 
request that funding, bill and report language be included directing 
that some funds be allocated for the purpose of the provision of both 
Tribal civil and criminal legal assistance to individual Tribal 
citizens and to Tribal judicial systems pursuant to the Indian Tribal 
Justice Technical and Legal Assistance Act.
       john r. justice student loan repayment assistance program
    Public defenders fulfill the constitutional right to counsel; they 
are essential to due process and our concept of liberty. They protect 
the rights of defendants in criminal cases and work to ensure that case 
outcomes are fair and just. A law degree is a requirement of all public 
defenders, but obtaining such a degree routinely leaves graduates with 
a six-figure student loan debt. This debt can make it financially 
impossible to enter low-paying jobs at public defender organizations, 
or to remain in those jobs for long enough to gain the experience 
needed to become a highly effective advocate for their clients. The 
John R. Justice program can provide relief from this debt, and as such 
support the recruitment and retention needs of public defender and 
prosecutor offices, by contributing to an individual's monthly student 
loan payments. However, the fiscal year 2019 appropriation for John R. 
Justice was just $2 million and this level of funding severely limits 
the scope and effectiveness of the program. We therefore request that 
this subcommittee fully fund the John R. Justice program at the 
authorized amount of $25 million for fiscal year 2020.
               violence against women act (vawa) programs
    More than ``1 in 3 women (35.6 percent) and more than 1 in 4 men 
(28.5 percent) in the United States have experienced rape, physical 
violence, and/or stalking by an intimate partner in their lifetime.'' 
\9\ VAWA programs provide vital services that protect victims and 
support interventions that improve short and long-term outcomes for 
individuals and families who have experienced domestic or sexual abuse. 
The incidence of intimate partner violence has declined sharply since 
the passage of VAWA.\10\ We therefore request a significant increase in 
the appropriation for all VAWA programs. None of this appropriation 
should be funded by the Crime Victims Fund administered by the 
Department of Justice Office for Victims of Crime. Doing so self-
evidently reduces the total amount available to serve victims of crime 
and jeopardizes the sustainability of Crime Victims Fund over the long-
term.
---------------------------------------------------------------------------
    \9\ National Intimate Partner and Sexual Violence Survey: 2010 
Summary Report, U.S. Department of Health and Human Services, 
Washington, DC (2010).
    \10\ Modi, M. N., Palmer, S., & Armstrong, A. (2014). The Role of 
Violence Against Women Act in Addressing Intimate Partner Violence: A 
Public Health Issue. Journal of Women's Health (2002), 23(3), 253-259.
---------------------------------------------------------------------------
    In particular, we request that the Civil Legal Assistance for 
Victims Grant Program be fully funded. Civil legal aid is a critical 
component of a continuum of support for victims of domestic violence 
and sexual assault. Common legal needs experienced by individuals and 
families who have experienced or are experiencing domestic violence 
include obtaining protective or restraining orders that protect their 
immediate physical safety, representation through the divorce process 
as well as help in custody, visitation, and child support matters. As 
noted above, legal assistance not only provides physical protection but 
also creates improved psychological and economic outcomes for survivors 
over the long term. Considering the seriousness of the consequences for 
victims who lack access to legal help, we request that Congress fully 
fund the VAWA Civil Legal Assistance for Victims Grant Program at the 
authorized level of $57 million.

    [This statement was submitted by Don Saunders, Vice President, 
Civil Legal Services.]
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
             coral reef conservation program appropriations
    Mr. Chairman and Members of the Subcommittee on Commerce, Justice, 
Science and Related Agencies, thank you for the opportunity to submit 
written testimony regarding appropriations for National Oceanic and 
Atmospheric Administration (NOAA) Coral Reef Conservation Program in 
fiscal year 2020. We respectfully request that you prioritize requests 
for $30.6 million for Coral Reef Conservation within NOAA's Operations, 
Research and Facilities (ORF) account.
    Coral reefs are among the most biologically diverse ecosystems in 
the world. They provide economic benefits and vital ecosystem services 
such as food, recreation, marine habitat, coastal protection, and 
climate regulation. We are requesting $3 million in order to support 
coral monitoring, research and restoration in the Florida Keys National 
Marine Sanctuary and connected ecosystems. Florida's coral reefs are 
experiencing a multi-year outbreak of stony coral tissue loss disease. 
This event is unique due to its large geographic range, extended 
duration, rapid progression, high rates of mortality and the number of 
species affected. The disease is thought to be caused by bacteria and 
can be transmitted to other corals through direct contact and water 
circulation. Researchers are working to identify potential pathogens 
and relationships with environmental factors, strategies to treat 
diseased colonies, and identify genotypes of corals that are resistant 
to the disease in order to aid in restoration. With less than 6 percent 
of the total Florida Keys reef tract remaining, protecting and 
restoring corals is vital to conserving our only U.S. living coral reef 
and a sustaining an ecosystem critical to the Florida and U.S. tourism 
economy. We also believe that with this investment the Florida Keys can 
become a living laboratory for coral restoration. We must enable the 
best and the brightest of our coral scientists and researchers to work 
together to restore and protect America's underwater national 
treasures.
    Thank you for this opportunity to provide written testimony to the 
Senate Appropriations Subcommittee on Commerce, Justice, Science and 
Related Agencies.

    [This statement was submitted by Ms. Kristen J. Sarri, President 
and CEO.]
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
          office of national marine sanctuaries appropriations
    Mr. Chairman and Members of the Subcommittee on Commerce, Justice, 
Science and Related Agencies, thank you for the opportunity to submit 
written testimony regarding appropriations for the Office of National 
Marine Sanctuaries in fiscal year 2020. As supporters, stakeholders, 
and partners of America's National Marine Sanctuary System, we strongly 
urge Congress to support the Office of National Marine Sanctuaries at 
no less than $65.5 million in fiscal year 2020. The same level 
requested by 101 Members of Congress in their bipartisan House dear 
colleague letter. We respectfully request that you prioritize requests 
for:
  --$57 million for Sanctuaries and Marine Protected Areas, within the 
        National Oceanic and Atmospheric Administration's (NOAA) 
        Operations, Research, and Facilities (ORF) account; and,
  --$8.5 million for Marine Sanctuaries Construction, within NOAA's 
        Procurement, Acquisition, and Construction (PAC) account.
    The National Marine Sanctuary Foundation, California Marine 
Sanctuary Foundation (CA), Cordell Marine Sanctuary Foundation (CA), 
Greater Farallones Association (CA), Monterey Bay National Marine 
Sanctuary Foundation (CA), Friends of Mallows Potomac (MD), Friends of 
Thunder Bay National Marine Sanctuary (MI), Gray's Reef National Marine 
Sanctuary Foundation (GA), Olympic Coast National Marine Sanctuary 
Foundation (WA), and Florida Keys National Marine Sanctuary Foundation 
(FL) strongly support funding the National Marine Sanctuary System at 
these levels. Our organizations work together to conserve treasured 
places in our oceans and Great Lakes for current and future generations 
of Americans to enjoy. We promote citizen science, research, 
conservation, education, and community engagement to protect coral 
reefs and marine habitats, conserve places of cultural significance, 
and preserve our maritime history and heritage. Partnerships are 
critical to the National Marine Sanctuary System. Through collaboration 
with local communities, government, corporations, and individual 
donors, our organizations increase our impact.
    Today, the National Marine Sanctuary Systems consists of 13 
national marine sanctuaries, and NOAA ONMS co-manages two marine 
national monuments, totaling over 620,000 square miles. These sites 
conserve some of the Nation's most critical natural, historic, and 
cultural resources in the ocean and Great Lakes such as the USS 
Monitor, Midway Island, sacred heritage sites for Native Americans, and 
some of the largest and oldest corals in the world. They are home to 
millions of species, preserve more than 300 shipwrecks and our Nation's 
maritime heritage, and promote public access for exploration and world-
class outdoor recreation and enjoyment for future generations. 
Sanctuary visitor centers, vessels, and facilities are key assets for 
communities; stimulate public-private partnerships on emerging 
technologies, cutting edge science, and hands-on education; and attract 
millions of visitors to the coasts each year.
    Across all national marine sanctuaries, about $8 billion annually 
is generated in local, coastal economies from diverse activities like 
commercial fishing, research, education and recreation-tourist 
activities. Over 42 million people visit sanctuaries each year. From 
restaurants and hotels, to aquariums and kayak operators, the success 
of many businesses, millions of dollars in sales and thousands of jobs, 
directly depend on thriving national marine sanctuaries. As a travel 
destination, few places on the planet can compete with the diversity of 
the National Marine Sanctuary System. The majority of national marine 
sanctuaries' waters are open to recreational activities, which also 
allows for considerable benefits to local economies. Public-private 
partnerships bring innovative approaches to conserving our natural and 
cultural resources. Collaborations among universities, institutions, 
non-profits, businesses, and enforcement entities at local, State, and 
national levels leverage resources and build relationships to have a 
greater impact for communities and the economy. Below are a few 
examples of the value of sanctuaries to local economies:
  --In Washington State, $101.6 million was spent on recreation in the 
        Olympic Coast National Marine Sanctuary. This spending 
        generated, with multiplier impacts, $128.2 million in output, 
        $78 million in value-added (gross regional product), and $46.1 
        million in income, which supported 1,192 jobs.
  --Along the California coast, $155.6 million on average is spent 
        annually on recreational fishing in the State's four national 
        marine sanctuaries. This spending supports an average of 1,400 
        jobs, and generates $213.1 million in sales and output and 
        $74.6 million in income in local communities.
  --In the Florida Keys, more than 33,000 jobs are supported by ocean 
        recreation and tourism, accounting for 58 percent of the local 
        economy and $2.3 billion in annual sales.
  --In Michigan, the Thunder Bay National Marine Sanctuary is the focus 
        of its tourism attractions and local development strategy from 
        the Sanctuary Inn to the Great Lakes Maritime Heritage Center, 
        to the STEM education opportunities through the Alpena 
        Community College and local high school ROV competitions, to 
        its glass bottom boat tours to experience the shipwrecks 
        without getting wet. Over half (58 percent) of visitors to 
        Alpena came to visit Thunder Bay National Marine Sanctuary, 
        which is the region's most popular attraction, boasting nearly 
        100,000 visitors per year.
  --In Massachusetts, over $126 million in whale watching revenue and 
        600 jobs at 31 businesses resulting from less than $2 million 
        invested in the Stellwagen Bank National Marine Sanctuary off 
        of Massachusetts. Virtually all of Massachusetts whale watching 
        occurs in Stellwagen Bank National Marine Sanctuary, recently 
        named one of the premiere whale watching locations in the 
        world.
    Balancing multiple uses on the water and engaging many 
constituencies in the community, sanctuaries provide a comprehensive, 
highly participatory approach to managing and conserving marine and 
Great Lakes resources. National marine sanctuaries are the blue 
backyards for tens of thousands of citizens and volunteers who live 
along the coast or in the watersheds of these treasured sites. Public 
participation is a hallmark of sanctuaries and underscores their 
dedication to civic engagement and leadership.
    Every year, thousands of volunteers devote their time and effort to 
protect sanctuaries for future generations. They represent the best of 
America and what starts as one passionate citizen becomes an empowered 
community. Sanctuary volunteer programs are nationally recognized and 
awarded for their work increasing awareness, engaging the community, 
promoting stewardship, and providing critical information and support 
for science, research, education, and management. In 2018, sanctuary 
volunteers contributed over 130,000 hours across the system, 
contributing more than $3.16 million in valuable support.
    In 2022, the Nation will mark the 50th anniversary of the National 
Marine Sanctuaries Act. As the Nation moves towards this anniversary, 
it is a unique opportunity to invest in America's public waters, and 
the communities and businesses that depend upon them. We hope that the 
appropriations request for fiscal year 2020 will serve as the beginning 
of a deliberate and strategic investment in national marine sanctuaries 
building up to the 50th Anniversary. Robust funding will ensure sound 
management of these treasured places and the mission critical tools, 
like small boats; strengthen community engagement and stewardship of 
sanctuaries; and improve our understanding of marine and Great Lakes 
issues.
    For sanctuary Operations, Research and Facilities (ORF) funding, we 
urge Congress to provide $57 million. Because sanctuaries are located 
offshore, public awareness and education about the sites and the 
resources they conserve are critical, as is technology to let Americans 
look ``under the surface.'' Therefore, we are proposing $3 million to 
support growth in community-based sanctuaries, respond to the 
groundswell of communities nationwide seeking to expand sites or 
propose and designate new ones, and increase funds for management at 
existing sanctuaries. To support this effort, the proposed increase 
includes $1 million to for national blue business stewardship efforts 
for marine sanctuaries. Similar to America's national parks, marine 
sanctuaries support tourism and a robust recreational industry. Such 
efforts will also set the stage for the 50th anniversary of the 
National Marine Sanctuary System. We are requesting $2 million to 
conduct cooperative conservation science and research programs within 
sanctuaries that will improve resources management and advance 
innovative public-private partnerships. Finally, the requested increase 
includes $2 million for public education, outreach, and awareness 
efforts at individual sites in the National Marine Sanctuary System to 
show how the sanctuaries can serve as a model for protecting marine 
ecosystems around the world, explore beyond our horizons using new 
technologies, and connect communities to their marine and Great Lakes 
wonders.
    Sanctuary visitor centers, vessels, and facilities are key assets 
for communities; stimulate public-private partnerships on emerging 
technologies, cutting edge science, and hands-on education; and attract 
millions of visitors to the coasts each year. These platforms act as 
the public face of proactive management and protection, promoting 
partnerships for science and education, and are a vital link between 
sanctuaries and the millions of Americans who visit the coast each 
year.
    For sanctuary Procurement, Acquisition, and Construction (PAC) 
funding, we propose $8.5 million. This request includes $4.5 million to 
replace vessels critical to operations, management, and enforcement, 
including the replacement of the R/V Tatoosh in the Olympic Peninsula, 
WA and the R/V Rachael Caron in the Florida Keys, FL. This is the first 
year in a long-term effort to recapitalize the ONMS Small Boat Fleet. 
Last April, ONMS released its Small Boat Fleet Assessment. Every 
national marine sanctuary relies on its NOAA small boats to access its 
protected resources and implement management plans. The small boat 
fleet also supports partnerships to help improve understanding of our 
marine and Great Lakes environments. Increasing demands on an aging 
fleet are leading to higher operating costs as well as near and long-
term challenges to maintaining safe, efficient and effective 
operations. For managers and partners to continue to assess, monitor, 
research, and protect our oceans and Great Lakes, recapitalizing aging 
vessels across the National Marine Sanctuary System in addition to 
upgrades, retrofits, and life cycle extensions is critical. Investment 
is necessary now for new vessels. The request also includes $2 million 
for visitor centers, facilities, and signage improvements and ADA 
compliance; and $2 million in a Sanctuary Challenge Fund. The Sanctuary 
Challenge Fund is an innovative approach, based on the model of the 
highly successful National Park Service Centennial Fund, to finance 
signature projects and programs across the National Marine Sanctuary 
System. The public investment would be matched at least 1:1 by 
nonFederal donations to address the backlog of needs for sanctuary 
facilities that enhance the sanctuary visitor experience as part of the 
ramp up to the 50th anniversary.
    Our national marine sanctuaries are national treasures. The 
National Marine Sanctuary Foundation and our network of community 
leaders strongly urge Congress to invest in community-based national 
marine sanctuaries by prioritizing a budget of no less than $65.5 
million in fiscal year 2020. Investments in these areas support local 
economies and jobs in a diversity of sectors from education to outdoor 
recreation to fishing and underscore the value of communities in 
America's iconic underwater places.
    Thank you for this opportunity to provide written testimony to the 
Senate Appropriations Subcommittee on Commerce, Justice, Science and 
Related Agencies.

    [This statement was submitted by Ms. Kristen J. Sarri, President 
and CEO.]
                                 ______
                                 
   Prepared Statement of the National Mentoring Partnership (MENTOR)
                      youth mentoring grant (doj)
    On behalf of MENTOR: The National Mentoring Partnership (MENTOR), 
our network of Affiliates, and youth mentoring programs throughout the 
country, I thank Chairman Moran and Ranking Member Shaheen for the 
opportunity to provide testimony in support of a critical Federal 
investment in America's young people. My testimony will focus on the 
Part G Youth Mentoring Program housed in the Office of Juvenile Justice 
and Delinquency Prevention (OJJDP) at the U.S. Department of Justice 
(DOJ). MENTOR and our partners are calling on your committee to 
continue your bipartisan support of the Youth Mentoring Program with an 
investment of $120 million in fiscal year 2020. This investment will 
make it possible for quality mentoring organizations using evidence-
based practices to better meet the mentoring needs of many of our 
Nation's most at-risk youth.
    MENTOR is the unifying national champion for expanding quality 
youth mentoring relationships and connecting volunteers to mentoring 
opportunities in their local communities. In a time when 1 in 3 young 
people are growing up without a mentor, MENTOR seeks to close this 
``mentoring gap'' and ensure our Nation's young people have the caring 
adult support they need to succeed at school, in community, and in the 
workforce. We seek to leverage resources and provide the tools and 
expertise that local programs--whether in schools, nonprofits, faith-
based institutions, or the private sector--require to provide high-
quality mentoring for young people who need it most, build greater 
awareness of the value of mentors, and positively inform public policy 
in order to bring support and opportunity to young people in need.
    I write this testimony on behalf of the thousands of mentoring 
programs and millions of volunteer adult mentors that serve our 
communities each day, as well as the millions of young people in the 
United States still waiting to find the supportive caring adults they 
need to thrive. I would also like to thank the Senate Commerce, 
Justice, and Science, and Related Agencies Subcommittee for its history 
of supporting these critical Federal funds for evidence-based mentoring 
and demonstrating leadership in expanding pathways for young people.
The Benefits of Quality Youth Mentoring
    Youth mentoring is a simple, yet powerful concept: a caring adult 
provides guidance, support, and encouragement to help a young person 
achieve success in life. Research confirms that quality evidence-based 
mentoring relationships have powerful positive effects on young people 
in a variety of personal, academic, and professional situations. 
Mentoring is a strategic intervention and prevention-based strategy 
that helps foster positive outcomes for young people from all 
backgrounds and Zip codes. Mentoring is proven to play an important 
role in the following areas of support for young people:

          Reducing Unsafe or Risky Behaviors: Mentors provide young 
        people with consistent support as they encounter the daily 
        challenges of navigating their lives. Mentors serve to help 
        young people make healthy decisions and stay away from high-
        risk behaviors. Young people who meet regularly with their 
        mentors are 46 percent less likely than their peers to start 
        using illegal drugs and 27 percent less likely to start 
        drinking. Mentors also provide guidance to positive behaviors 
        that could support growth and development in a young person. 
        Young adults who face an opportunity gap but have a mentor are 
        81 percent more likely to participate regularly in sports or 
        extracurricular activities than those who do not.
          Workforce Development: Mentoring helps develop the future 
        workplace talent pipeline by preparing young people for careers 
        through exposure and 21st century skill-building. One study 
        estimates that the human potential lost as a result of the 
        educational achievement gap is the economic equivalent of a 
        permanent national recession. There are far too many young 
        people who have not had access to the opportunities that having 
        a mentor opens to professional and career development. 
        Mentoring helps young people set career goals and take the 
        steps to accomplish those goals. Through their mentors, young 
        people are also introduced to resources and organizations they 
        may not be familiar with, providing them with new networks as 
        well as methods to find jobs and internships.
          Educational Achievement: According to the Department of 
        Education, during the 2013-14 school year, over 6.8 million 
        students (14 percent of all students) were chronically absent. 
        Students who are chronically absent are more likely to fall 
        behind academically, particularly in reading, more likely to 
        have increased behavioral issues and more likely to drop out of 
        school. Young people who are chronically absent benefit 
        exponentially from having a mentor to aid regular attendance 
        and provide the young person academic and emotional support. 
        Students who meet regularly with their mentors are 52 percent 
        less likely than their peers to skip a day of school and 37 
        percent less likely to skip a class. Mentoring provides young 
        people with an important support that helps develop positive 
        attitudes towards school and reduce recurring behavior 
        problems. Young adults who face an opportunity gap but have a 
        mentor are 55 percent more likely to be enrolled in college 
        than those who did not have a mentor.
          Social Emotional Development and Mental Health: Mentoring 
        provides young people with improved communications with their 
        families and other caring adult relationships. A recent study 
        showed that the strongest benefit from mentoring, and most 
        consistent across risk groups, was a reduction in depressive 
        symptoms. Mentoring promotes positive social attitudes and 
        relationships. Mentored youth trust their parents and guardians 
        more and communicate better. These benefits serve as building 
        blocks for engagement in positive activities, increased school 
        participation and improved attitudes.

    Youth Mentoring ultimately provides much-needed social support, 
increased positive relationships with and perceptions of adults, life 
skills training, and access to social capital to young people who are 
in need of support leading them to positive and productive futures.
Closing the Mentoring Gap
    While mentoring is an effective evidence-based intervention and 
prevention strategy for at-risk and high-risk young people, mentoring 
organizations across the Nation still face barriers in providing high-
quality mentoring services. Thousands of young people remain on 
waitlists at organizations because of limited resources and funding for 
programs. Many programs also lack the training and technical assistance 
that could bolster their mentoring programs to better support young 
people and specifically high-risk young people. These two issues 
combined have provided many obstacles for mentoring programs, but with 
the critical support of both private and public funds mentoring 
organizations have been able to serve more young people.
    One of the ways that mentoring programs have succeeded in 
decreasing waitlists is through support from the Youth Mentoring 
Program. The program focuses on prevention and interventions for at-
risk youth and helps mentoring programs as they work to close the 
mentoring gap. These funds go directly to providing support for some of 
our highest risk young people, who without these kinds of interventions 
could likely become involved in negative behaviors and activities 
causing harm to themselves, their communities, and which take an 
economic toll. In a 2016 study conducted by MENTOR it was found that 75 
percent of programs have a budget of under $100,000. Mentoring programs 
work far beyond their financial capacity to serve young people, but 
with additional resources their reach expands exponentially and the 
quality of their services can strengthen through improved training and 
technical assistance. The individual cost per mentored youth has 
remained relatively steady over the past 20 years, however costs for 
high-risk groups of young people including those with mental health 
needs, teen parents, or victims of commercial sexual exploitation, for 
example, require more resources and expertise, increasing the cost per 
youth in order to fully address their unique needs. Mentoring programs 
utilize Federal support in part to better serve the large number of 
young people who could benefit most from evidence-based mentoring.
    Mentoring programs are able to safely serve young people when they 
are fully trained on the most up to date mentoring evidence and 
training. In 2015, through funds from the Youth Mentoring Program, The 
National Mentoring Resource Center (NMRC) was created to improve the 
quality and effectiveness of mentoring by supporting youth mentoring 
practitioners. MENTOR runs the National Mentoring Resource Center and 
provides free mentoring tools, program and training materials and no-
cost, evidence-based technical assistance to mentoring programs, school 
districts, nonprofits and faith-based institutions across the Nation. 
This important resource has bolstered the ability of mentoring programs 
to serve young people from vulnerable populations including young 
people at-risk of entering the juvenile justice system, youth in foster 
care, and victims of commercial sex trafficking.
    Research on youth mentoring demonstrates that, at a minimum, for 
every dollar invested in quality mentoring programs there is a return 
of at least three dollars. This positive return on investment reflects 
projected increases in lifetime earnings gained by leading at-risk 
youth down the path towards becoming productive adults. It also derives 
from dollars saved through reduced risky behaviors in young people, 
decreased school absence, high school graduation rates, and lowered 
risk of youth involvement in unsafe and costly behaviors.
    Unfortunately, the Youth Mentoring Program is now the only 
remaining Federal grant exclusively dedicated to providing funds for 
evidence-based mentoring. Youth Mentoring Program funds have been 
awarded to national, multi-state and collaborative mentoring projects 
and programs who serve suburban, rural and urban populations. The 
flexibility of the grant has allowed organizations to use these funds 
to specifically tailor programs to their community's unique needs. This 
provides local control and specialized concentration on results that 
work best for each young person and their communities. As previously 
outlined, these funds also invest in research to learn what is most 
effective, bridging this research to practice, and driving quality and 
impact through hands-on community-based capacity building. These funds 
are simply invaluable in the ways that they affect youth development, 
educational achievement, and safe communities.
    Without adequate resources and funding mentoring programs and 
ultimately America's young people do not have access to the caring 
adults they need to develop healthy, safe, and productive lives. It 
better weaves together our communities, drives greater understanding, 
enriches the lives of both parties, and efficiently leverages 
volunteers to drive impact backed by quality programs.
    This request in support of $120 million for the Youth Mentoring 
Program will allow more young people to have access to the important 
social, professional, and academic opportunities we hope to provide for 
all America's youth. The Youth Mentoring Program demonstrates a sound 
and an effective investment in evidence-based programs that works and 
will have definitive and measureable impact on closing the mentoring 
gap in America.
    Thank you again for this opportunity to provide testimony on this 
critical Federal resource supporting young people.

    [This statement was submitted by David Shapiro, Chief Executive 
Officer.]
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
                      national science foundation
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2020 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide the NSF with at least $9 billion in fiscal year 
2020.

The Natural Science Collections Alliance is a non-profit association 
that supports natural science collections, their human resources, the 
institutions that house them, and their research activities for the 
benefit of science and society. Our membership consists of institutions 
that are part of an international network of museums, botanical 
gardens, herbaria, universities, and other institutions that contain 
natural science collections and use them in research, exhibitions, 
academic and informal science education, and outreach activities.

    Scientific collections, and the collections professionals and 
scientists who make, care for, make accessible, and study these 
resources, are a vital component of our Nation's research 
infrastructure. Whether held at a museum, government laboratory or 
archive, or in a university science department, these scientific 
resources consist of data (for example, genetic, tissue, organism, and 
environmental) that are a unique and irreplaceable foundation from 
which scientists are studying and explaining past and present life on 
earth.
    Natural science collections advance scientific research and 
education, and that informs actions to improve public health, 
agricultural productivity, natural resource management, biodiversity 
conservation, and American economic innovation. Current research 
involving natural science collections also contributes to the 
development of new cyberinfrastructure, data visualization tools, and 
improved data management practices. A few examples of how scientific 
collections have saved lives, enhanced food production, and advanced 
scientific discovery include:

  --Scientists used museum specimens in U.S. collections to gather data 
        on the distribution of the mosquito Culex quadrofaciatus, which 
        is known to carry West Nile Virus and other pathogens. These 
        data were used to construct models for the distribution of this 
        mosquito under different climate scenarios to predict regions 
        where the species may expand in the future. These predictions 
        can help public health officials plan for potential disease 
        outbreaks.
  --Citrus bacterial canker disease wreaks havoc on fruit crops in 
        Florida. Using plant specimens collected a century ago, 
        scientists have analyzed the bacterium and traced its source. 
        Knowledge of how the bacteria spreads allows scientists to 
        develop effective control methods and to protect the U.S. 
        citrus industry.
  --In 2018, researchers from Boston University documented Tau proteins 
        in the brains of fluid preserved museum specimens of Downy 
        Woodpecker (Dendrocopus pubescens). These proteins are also 
        found in humans with traumatic brain injury. Because of the 
        life history traits (behaviors) of woodpeckers, the researchers 
        argue these birds may have evolved a level of resistance to 
        traumatic head injuries that might offer insights about 
        potential treatments for humans with traumatic brain injury.
  --In 1993, a deadly disease appeared in the southwestern United 
        States. Using NSF-supported biological collections at Texas 
        Tech University and University of New Mexico, the agent was 
        determined to be Hantavirus carried by a few species of 
        rodents. When rodent populations increased following an El Nino 
        weather event, the animals spread into human environments and 
        increased the transmission of Hantavirus. With the vector 
        known, it was possible to lessen the risk to humans by reducing 
        opportunities for disease transmission. Using other specimens, 
        scientists have now identified more than 40 other strains of 
        Hantavirus worldwide that are carried by bats, moles, and 
        shrews. Similar work is underway to identify the carrier of 
        Ebola in Africa.

    Scientific collections enable us to tell the story of life on 
Earth. There are more than 1,600 biological collections in the United 
States. These resources are the result of more than 200 years of 
scientific investigation, discovery, and inventory of living and fossil 
species. Scientists have collected, studied, and curated more than one 
billion specimens within those collections. This work is on-going as 
new questions continue to be asked. The institutions that care for 
scientific collections are important research infrastructure for the 
United States that also provide students with hands-on training 
opportunities.
    The NSF plays a unique role in protecting and expanding access to 
our Nation's scientific collections. NSF supports research that uses 
existing collections as well as studies that gather new natural history 
specimens. The Directorates for Biological Sciences (BIO), Geosciences 
(GEO), and Social and Behavioral and Economic sciences support research 
and student training opportunities in natural history collections. The 
NSF is also an important supporter of national biological research 
infrastructure that houses natural history collections, such as living 
stock collections and field stations.
    NSF funds state-of-the-art work to digitize high priority specimen 
collections. The result of this effort is that irreplaceable biological 
specimens and their associated data are now accessible through the 
Internet to researchers, educators, and the public. More than 95 
million specimens are now online, with millions more awaiting 
digitization. This effort involves biologists, computer scientists, and 
engineers in multi-disciplinary teams who develop innovative imaging, 
robotics, and data storage and retrieval methods, and projects using 
crowd-sourcing are engaging the broader public. These new tools 
expedite the digitization process and contribute to the development of 
new products and services of value to other industries. Museum 
specimens and associated data represent an extraordinary resource for 
teaching core concepts in science.
    In addition to supporting research, NSF's science, technology, 
engineering, and mathematics (STEM) education programs enhance the 
ability of museums, botanic gardens, zoos, and other research 
institutions to provide science learning opportunities for students. 
NSF's Advancing Informal STEM Learning program furthers our 
understanding of informal science education outside of traditional 
classrooms. The program makes important contributions to efforts to 
make STEM more inclusive of historically underrepresented groups.
                               conclusion
    Investments in the National Science Foundation and its efforts to 
support scientific and educational advances in natural science 
collections have always been in the national interest. Scientific 
collections contribute to improved public well-being and national 
economic security. It is not possible to replace this important 
documentation of our Nation's heritage. Specimens collected decades or 
centuries ago are increasingly used to develop and validate models that 
explain how species, including viruses, parasites, and pathogens have 
dispersed around the world, as well as how and when they might infect 
humans now and in the future.
    The NSF is the primary funding source that provides support to 
institutions that preserve at-risk scientific collections. These small 
grants help ensure these collections are not destroyed and their data 
lost.
    Investments in NSF programs that support natural science 
collections research and education are essential if we are to maintain 
our global leadership in innovation. Please support funding of at least 
$9 billion for NSF for fiscal year 2020.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation.

    [This statement was submitted by John Bates, President.]
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
   programs under the national oceanic and atmospheric administration
    Thank you for the opportunity to comment on the fiscal year 2020 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy is a non-profit conservation 
organization working in all 50 States and 72 countries to conserve the 
lands and waters on which all life depends. As the Nation enters the 
fiscal year 2020 budget cycle, the Conservancy acknowledges the need 
for fiscal restraint. However, the Conservancy also recognizes the 
critical role that oceans and coasts play in the lives of millions of 
Americans and in our Nation's economy. Each year the U.S. ocean and 
coastal economy contributes $359 billion to the Nation's GDP and 
supports 3 million jobs. NOAA's funding keeps this ocean and coastal 
economic engine running. It not only helps NOAA catalyze local and 
regional action, but also reduces risk and saves money based on the 
tangible economic and societal benefits that coastal natural resources 
provide.
    While the President's fiscal year 2020 Budget once again called for 
unwarranted cuts to the National Marine Fisheries Service and the 
National Ocean Service including the proposed elimination of ``grants 
and programs supporting coastal and marine management, research, and 
education including Sea Grant,'' the Conservancy was encouraged by 
Congress' fiscal year 2019 omnibus funding levels to maintain and, in 
some cases, provide modest increases to these and other critical NOAA 
programs. Over the years and across many sites, NOAA has been an 
invaluable partner to the Conservancy. NOAA programs provide practical, 
community-oriented approaches to restoration, resource management, and 
conservation that align naturally with the Conservancy's mission. NOAA 
has made important strides in addressing key challenges, but much more 
remains to be done. We believe that the NOAA budget levels proposed by 
the Conservancy represent a prudent investment in our country's future 
and ask your support for the requests detailed below.
                   national marine fisheries service
    Fisheries and Ecosystem Science Programs and Services.--The 
Conservancy supports at least $155.807 million. The Conservancy 
requests an increase of $8.2 million from fiscal year 2019 to support 
two important grant programs--National Fish and Wildlife Foundation's 
Electronic Monitoring and Reporting grants (+$3.5 million) and NOAA's 
Fisheries Information System program (+$5.2 million)--that are helping 
fishermen, fishing councils and NOAA modernize outdated data systems. 
Good information about the status of fish stocks is essential for 
effective management. Systems for collecting fishery data tend to be 
paper-based, slow, expensive, and prone to errors; they are long 
overdue for modernization. By supporting a modest increase in funding 
for these programs, Congress can expand the use of electronic 
monitoring and reporting into more commercial and recreational 
fisheries across the Nation. Also key is improving our understanding of 
the ecological and economic connections between fisheries and nearshore 
habitats. Funding for ecosystem-based solutions for fisheries 
management will provide tools and information to better target 
fisheries habitat restoration efforts.
    Habitat Conservation and Restoration.--The Conservancy supports at 
least $56.384 million, consistent with fiscal year 2019 funding. 
Coastal wetlands and nearshore waters produce the fish and shellfish 
that feed America. The health of these places is essential to the 
economic and social well-being of those who live, work, and recreate in 
coastal communities. NOAA and the Conservancy have partnered on over 
150 habitat restoration projects across the U.S. Through the Community-
based Restoration Program, that the administration proposes to 
eliminate, and the Habitat Blueprint Initiative, the Conservancy works 
closely with NOAA to restore the health of degraded habitats in places 
and ways that benefit not just local marine life, but communities and 
coastal economies. NOAA funding for coastal habitat restoration 
supports on average 15 jobs per million dollars spent and up to 30 jobs 
per million dollars spent on labor intensive restoration projects.\1\ 
The several grants managed by this program are awarded on a competitive 
basis and typically leverage the resources and capacity of multiple 
partners. This work enhances our understanding of the connections 
between fisheries productivity and habitat, measures the effectiveness 
of conservation and restoration activities, and applies those lessons 
to improve future efforts. This funding provides for NOAA's 
consultations on and implementation of Essential Fish Habitat at the 
enhanced level Congress provided in fiscal year 2019 and not the 
reduction proposed by the administration. The Regional Fishery 
Management Councils address fishing impacts on these areas, and NOAA 
must have sufficient capacity to provide technical assistance to the 
Councils and to work with Federal agencies to avoid, minimize, and 
mitigate the impacts on these important fishery habitats.
---------------------------------------------------------------------------
    \1\ Samonte et al. 2017. Socioeconomic Benefits of Habitat 
Restoration. NOAA Tech. Memo. NMFS-OHC-1. http://www.habitat.noaa.gov/
pdf/TM-OHC-1.pdf.
---------------------------------------------------------------------------
    Fisheries Management Programs and Services.--The Conservancy 
supports the appropriation of at least $121.116 million, consistent 
with fiscal year 2019 funding. With a $214 billion dollar fisheries and 
seafood sector, fishermen rely on management services and information 
from NOAA to make the most informed decisions on where, how, and when 
to fish. NOAA Fisheries has made important strides in addressing these 
challenges and strengthening fisheries management, and support for 
these efforts is necessary to recover fish stocks so that they provide 
food and jobs now and in the future. It is critical that funding be 
provided to reduce destructive fishing practices, restore coastal 
habitats, and support the efforts of fishermen and fishing communities 
and do so in a collaborative way. Funding for work already begun to 
improve the management of electronic monitoring and reporting must be 
maintained. Recent legislation and administrative action to combat 
illegal, unreported, and unregulated (IUU) fisheries show great promise 
in leveling the playing field for legal fishermen. Funding provided 
will enable NOAA to take the next steps on traceability of seafood.
    Fisheries Data Collections, Surveys and Assessments.--The 
Conservancy supports at least $168.086 million, consistent with fiscal 
year 2019 funding. Limited or poor-quality information on the status of 
fishery stocks undermines the effectiveness of fishery management and 
can erode community support for conservation measures. Accurate and 
timely stock assessments are essential for the sound management of 
fisheries and the sustainability of fishing resources. The funding 
proposed will help the agency prioritize assessments, determine what 
level of assessments are needed and where to appropriately incorporate 
ecosystem linkages--such as ocean conditions, habitat, multispecies 
assemblages, and socioeconomic factors. The Conservancy does not 
support the Administration's proposed reduction for cooperative 
research efforts with fishermen to directly engage them in the 
collection of data that drives management.
    Pacific Coastal Salmon Recovery Fund (PCSRF).--The Conservancy 
supports at least $70 million, an increase of $5 million from fiscal 
year 2019 funding and the level provided in the Senate's fiscal year 
2019 reported bill. This funding level is also supported by five 
western Governors who recently sent a letter to Congress justifying 
this request. PCSRF is the most critical Federal program addressing 
major threats to Pacific salmon so that these fish can continue to 
sustain culture, economies, recreation, and ecosystem health. PCSRF 
funding is tailored for each State, competitively awarded based on 
merit, and has funded hundreds of successful, on-the-ground salmon 
conservation efforts. PCSRF invests in cooperative efforts to conserve 
species under NOAA's jurisdiction, and projects are matched at a 3:1 
ratio (Federal: non-Federal). The PCSRF has catalyzed thousands of 
partnerships among Federal, State, local, and Tribal governments, and 
conservation, business, and community organizations.
    Protected Resources Science and Management.--The Conservancy 
supports at least $196.848 million, consistent with fiscal year 2019 
funding. Competitive grants to States and Tribes support conservation 
actions that contribute to recovery or have direct conservation 
benefits for listed species, recently de-listed species, and candidate 
species that reside within the States. Maintaining level funding for 
Species Recovery Grants would allow the agency to strengthen and expand 
partnerships to address the growing number of listed species and allow 
for larger, ecosystem-level scale recovery efforts. The Conservancy 
works with State agency partners to restore endangered species and 
monitor the results of these efforts. Additional listed species and 
emerging challenges to recovery have increased the number and 
complexity of NOAA's consultation and permitting requirements. Funding 
is needed to aid NOAA's ability to complete these requirements in a 
timely and predictable manner. NOAA's cooperative efforts with States, 
Tribes, and other partners such as the Conservancy, help to improve our 
understanding of and ability to protect listed salmon and the habitats 
that sustain them. Maintaining the Pacific and Atlantic salmon base 
funding, instead of implementing the administration's proposed 
reduction, will allow NOAA to enhance recovery efforts including 
monitoring, fish passages, hatchery operations, and stakeholder 
engagement.
                         national ocean service
    Coastal Zone Management and Services.--The Conservancy supports at 
least $48.039 million, consistent with the administration's fiscal year 
2020 request. This is an increase to the amount provided by Congress in 
fiscal year 2019 to fund the regional data portals and an adjustment to 
base. These data portals make accessible a wide array of Federal ocean 
data critical to ocean users and conservation efforts. NOAA's research 
and monitoring of coastal and marine systems provide data and decision-
support tools that inform the safe operations of industry, prioritize 
habitats for restoration, and advance science-based management 
decisions. Improving our ability to incorporate natural infrastructure 
into coastal protection efforts before and after storms can help 
communities achieve multiple benefits such as improving fisheries 
productivity and coastal water quality. Additionally, the Conservancy 
has worked with NOAA through the Digital Coast partnership to develop 
decision support tools and techniques that help communities understand 
and reduce risk and build resilience. Sharing this work across Federal, 
State, and Tribal agencies, industry, and with non-governmental 
organizations can increase our collective ability to understand and 
incorporate complex coastal economic, social, and ecological needs into 
decisionmaking.
    Coastal Management Grants.--The Conservancy supports at least $75.5 
million for Coastal Zone Management Grants, consistent with fiscal year 
2019 funding. Our Nation's coastal areas are vital to our economy and 
our way of life. The narrow area along our coasts is home to 
approximately 163 million people and coastal economies contribute over 
45 percent of our gross domestic product. The Conservancy collaborates 
with State coastal programs around the country to meet multiple goals 
for coastal communities including economic development, enhancement of 
public access and recreation, and conservation of coastal resources. To 
advance these goals, the Conservancy supports at least an additional 
$30 million in Title IX funds for the competitively National Coastal 
Resilience Fund, consistent with the fiscal year 2019 level. The 
National Coastal Resilience Fund has provided the resources and tools 
to build coastal resilience to avoid costly Federal disaster assistance 
and sustain healthy fisheries, maintain robust tourism opportunities, 
provide for increased shipping demands, and support other coastal 
industries. Coastal communities have clearly shown that they are ready 
to match and leverage this funding to take proactive measures to 
protect their way of life.
    Coral Reef Conservation Program.--The Conservancy supports at least 
$27.6 million, consistent with fiscal year 2019 funding. The 
administration's proposed reduction to the program is unwarranted given 
that the decline of coral reefs continues to have significant social, 
economic, and ecological impacts on people and communities in the 
United States and around the world. The Conservancy works with NOAA's 
Coral Reef Conservation Program under a competitively awarded, multi-
year cooperative agreement to address the top threats to coral reef 
ecosystems: changing ocean conditions, overfishing, and land-based 
sources of pollution. Together, we develop place-based strategies, 
measure the effectiveness of management efforts, and build capacity 
among reef managers globally.
    National Estuarine Research Reserve System.--The Conservancy 
supports at least $27 million, consistent with fiscal year 2019 funding 
and opposes the administration's proposed elimination of the program. 
The National Estuarine Research Reserve System (NERRS) partners with 
States and territories to ensure long-term education, stewardship, and 
research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean and 
Great Lakes reserves advance knowledge and stewardship of estuaries and 
serve as a scientific foundation for coastal management decisions. By 
using local management needs to help shape research, the NERRS aim to 
fill critical gaps. Incorporating the results of this research into 
training programs and through public engagement, the NERRS make science 
actionable for communities.
    Sanctuaries and Marine Protected Areas.--The Conservancy supports 
at least $55.5 million, consistent with fiscal year 2019 funding. 
National marine sanctuaries support economic growth and hundreds of 
coastal businesses in sanctuary communities, preserve vibrant 
underwater and maritime treasures for Americans to enjoy, and provide 
critical public access for over 42 million visitors each year. Through 
a transparent, inclusive approach, the marine sanctuaries provide for 
the conservation of our natural and cultural marine resources while 
balancing multiple uses and diverse stakeholder needs.
    Thank you for this opportunity to share The Nature Conservancy's 
priorities. Please contact me if you have questions or would like 
additional information.

    [This statement was submitted by Sarah Murdock, Director of 
Resilience and Water Policy.]
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe (Tribe) appreciates the opportunity to provide 
written testimony to the Committee as it evaluates and prioritizes 
fiscal year 2020 appropriations for the Department of Commerce and the 
Department of Justice. This testimony addresses spending allocations 
for the Pacific Coastal Salmon Recovery Fund and Salmon Management 
Activities within the National Oceanic and Atmospheric Administration 
(NOAA), and funding or set-asides for the grants provided to Tribes 
within the Department of Justice (DOJ).
    As detailed below, for fiscal year 2020, the Tribe recommends both 
preservation of the Pacific Coastal Salmon Recovery Fund--which has 
again been proposed to be eliminated--and funding for the Pacific 
Salmon Recovery Fund at $70 million but no less than $65 million; 
funding for Salmon Management Activities at $122.5 million; full 
funding for programs authorized under the Tribal Law and Order Act; 
continuation of the $37.5 million for assistance to Indian tribes 
enacted in fiscal year 2019 through the Office of Justice Programs 
(OJP), with flexibility in program funding, or in the alternative the 7 
percent tribal set-aside proposed by the Administration in the fiscal 
year 2020 budget request; maintaining the tribal set-aside of 5 percent 
out of Crime Victims Fund distributions; and keeping tribal funding 
under the Community Oriented Policing Services program at $30 million 
or greater.
    The Nez Perce Tribe is a federally-recognized Indian Tribe with 
treaty-reserved fishing, hunting, gathering, and pasturing rights in 
the Snake River Basin and Columbia River Basin. In its 1855 Treaty, the 
Tribe reserved, and the United States secured, ``the right of taking 
fish at all usual and accustomed places in common with the citizens of 
the Territory; and of erecting temporary buildings for curing, together 
with the privilege of hunting, gathering roots and berries, and 
pasturing their horses and cattle upon open and unclaimed land.'' \1\
---------------------------------------------------------------------------
    \1\ Treaty with the Nez Perces, June 11, 1855, 12 Stat. 957. The 
Treaty with the Nez Perces, June 9, 1863, 14 Stat 647, preserved the 
off-reservation rights that the Tribe reserved in its 1855 Treaty.
---------------------------------------------------------------------------
    It is the Tribe's desire that all species and populations of 
anadromous and resident fish and their habitats be healthy and 
harvestable throughout the Tribe's usual and accustomed fishing places. 
The Tribe has long had an interest, and played an active role, in 
restoring anadromous and resident fish runs-including fall and spring 
Chinook, steelhead, sockeye, lamprey, bull trout, and white sturgeon-
throughout all of the areas where the Tribe reserved treaty fishing 
rights. The Tribe is involved in these efforts to protect 
implementation of treaty rights, to restore species and conditions 
consistent with the Treaty, and to protect the long-term productivity 
of their natural resources.
    The Tribe's Department of Fisheries Resources Management (DFRM) is 
one of the largest and most successful tribal fisheries programs in the 
United States,\2\ with offices located at Lapwai, Sweetwater, Orofino, 
McCall, Powell, and Grangeville, Idaho, as well as Joseph, Oregon. The 
DFRM has an annual operating budget of over $22 million and employs 190 
tribal and non-tribal employees, 150 of whom are full-time.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe's DFRM received the 2015 Honoring Nations 
award with High Honors from The Harvard Project on American Indian 
Economic Development.
---------------------------------------------------------------------------
    The DFRM manages its own salmon fish hatchery at Cherrylane, Idaho, 
as well as 10 acclimation sites in Idaho and Oregon. In addition, the 
DFRM manages Kooskia National Fish Hatchery and co-manages Dworshak 
National Fish Hatchery. The DFRM also coordinates with the Idaho 
Department of Fish and Game and the U.S. Fish and Wildlife Service on 
production from other salmon and steelhead hatcheries throughout Idaho. 
The Tribe is committed to this work and requests that the United States 
properly fund the programs that are an instrumental part of the overall 
work on fish recovery.
                  pacific coastal salmon recovery fund
    The Pacific Coastal Salmon Recovery Fund (PCSRF) was established by 
Congress in fiscal year 2000 to protect, restore, and conserve Pacific 
salmonids and their habitats. The congressionally- authorized 
activities that were funded under the PCSRF program maintain 
populations necessary for exercise of tribal treaty fishing rights or 
native subsistence fishing. Over $1.2 billion has been appropriated for 
PCSRF since 2000. With this funding, States and Tribes have leveraged 
additional resources to collectively implement 13,200 projects to 
conserve West Coast salmon.\3\ The Tribe requests PCSRF be funded at 
least at the fiscal year 2019 level of $65 million for fiscal year 2020 
but ideally requests it be funded at $70 million to support on the 
ground restoration actions.
---------------------------------------------------------------------------
    \3\ National Oceanic and Atmospheric Administration Budget 
Estimates fiscal year 2019, page NMFS-65
---------------------------------------------------------------------------
    PCSRF has been used by the Tribe to restore coho (silver) salmon to 
the Tribe's reservation in the Clearwater River, a distance of 500 
miles from the ocean. Coho were extirpated from the Clearwater River 
over 40 years ago and most of these fish returned only as far as the 
lower Columbia River. Through the PCSRF (and Mitchell Act funds) the 
Tribe is able to rear and release almost one million coho into the 
Clearwater River, restoring their presence in the Snake River Basin. 
The Tribe views these returns as a tremendous success with counts of 
coho numbering more than 18,000 in 2014.
    In 2017, the Tribe worked with Oregon Department of Fish and 
Wildlife and the Confederated Tribes of the Umatilla Indian Reservation 
to also have the first release of coho in the Lostine River, a 
tributary of the Grande Ronde River. After decades of extirpation, 
these fish are being restored to some of the best habitat in the 
Columbia River Basin. Continued funding for the operation of these 
hatchery supplementation efforts is needed to maintain the populations 
of most species of salmon and steelhead in this ``breadbasket'' of 
salmon habitat, located upstream of eight Columbia River dams.
                      salmon management activities
    The Mitchell Act provides for the conservation of the fishery 
resources of the Columbia River and is administered by NOAA's National 
Marine Fisheries Service. Funding for the Mitchell Act component of 
NOAA Fisheries supports the operations and maintenance of Columbia 
River hatcheries through grants and contracts to the States of 
Washington, Oregon, and Idaho, and to the U.S. Fish and Wildlife 
Service, to mitigate the loss of salmon on the Columbia and Snake 
Rivers. The level for Salmon Management Activities in the final fiscal 
year 2019 Consolidated Appropriations Act was $37 million, an increase 
over the $35.5 million enacted in both fiscal year 2017 and fiscal year 
2018. Of the total $37 million, up to $1.5 million in fiscal year 2019 
funding is to implement the newly-renewed Pacific Salmon Treaty 
Agreement. The Tribe would respectfully request that $122.5 million be 
appropriated in fiscal year 2020 for Salmon Management Activities. This 
significant increase is directly tied with implementation needs of the 
Pacific Salmon Treaty. Of this amount, it is recommended that $26.6 
million be allocated for Mitchell Act Programs to implement reforms 
called for in the ``Conservation of Columbia Basin Fish'' and the 
Federal Columbia River Power System Biological Opinion, of which $6.7 
million (or 25 percent of enacted) is directed to the Tribes to enhance 
natural stock recovery programs. The remaining $95.9 million would be 
allocated for the Pacific Salmon Treaty-of which $42.3 million is 
annual operations for the implementation the 2019-2028 Agreement, and 
$53.6 million is one-time funding for specific projects to support the 
implementation of the 2019-2028 Agreement.
    The importance of this funding cannot be overstated as the 
comprehensive, geographic nature of its application in the Pacific 
Northwest provides for an integrated infrastructure for fish 
management. In addition, these funds allow for fish to be grown at 
other facilities that are used at Nez Perce Tribal production 
facilities. Other regional agencies also use the funds to grow fish 
that enhance treaty fishing opportunities for Nez Perce Tribal members 
on the Columbia River.
         department of justice tribal assistance grant funding
    Providing law and order is one of the fundamental requirements of 
any functioning government. However, Tribes are limited in the 
resources available to commit to these programs as the United States 
has historically underfunded such programs in Indian Country. Tribes 
rely on the grant programs with the Department of Justice to help grow 
the capacity of tribal law and order systems.
    In order to provide law enforcement, victims services, and tribal 
justice to Indian and non-Indian residents on the reservation, the 
Tribe has relied on programs such as the Coordinated Tribal Assistance 
Solicitation grants program, the Tribal Juvenile Healing to Wellness 
Court program, the Comprehensive Tribal Victim Assistance Program, the 
Tribal Justice Systems Infrastructure Program, Violence Against Women 
Act programs, the Justice Systems and Alcohol and Substance Abuse 
Program, and the Children's Justice Act Partnership program. These 
programs need to continue to be funded.
    As stated above, the Tribe recommends full funding for programs 
authorized under the Tribal Law and Order Act. The Tribe also 
recommends either continuation of the $37.5 million for ``assistance to 
Indian Tribes'' enacted in fiscal year 2019 under the State and Local 
Law Enforcement Assistance account in the Office of Justice Programs 
grants, or the President's requested 7 percent tribal set-aside of OJP 
funds. There needs to be flexibility provided in program funding so 
that the funding is not narrowly allocated to Tribes solely through 
competitive grant programs.
    The Tribe strongly supports the 5 percent from the Crime Victims 
Fund for grants to Indian Tribes to improve services for victims of 
crime as provided in section 510 of the final Consolidated 
Appropriations Act. This tribal set-aside will provide some $168 
million to the Office for Victims of Crime for Tribes.
    Finally, the Tribe urges this subcommittee to fund the Tribal 
Resources Grant Program under Community Oriented Policing Services 
programs at $30 million, an increase of $3 million over fiscal year 
2019, and to maintain a level of $3 million for the Tribal Access 
Program.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
             national oceanic & atmospheric administration
    Chairman Moran, Ranking Member Shaheen, and Honorable Members of 
the subcommittee, my name is Lorraine Loomis and I am the Chair of the 
Northwest Indian Fisheries Commission (NWIFC). The NWIFC is comprised 
of the 20 Tribes that are party to United States v. Washington, which 
upheld the Tribes' treaty-reserved right to harvest and manage various 
natural resources on and off-reservation, including salmon and 
shellfish. On behalf of the NWIFC, we provide testimony for the record 
on the natural resources and fishery management program funding 
requests for the National Oceanic & Atmospheric Administration (NOAA)/
National Marine Fisheries Service (NMFS) fiscal year 2020 
appropriations. These programs support the management of salmon 
fisheries, which contribute to a robust natural resource-based economy 
and the continued exercise of Tribal treaty rights to fish.
          summary of fiscal year 2020 appropriations requests
  --$70.0 million for NOAA Pacific Coastal Salmon Recovery Fund
  --$42.3 million for NOAA Pacific Salmon Treaty operational costs, 
        plus $57.1 million in one-time implementation costs
  --$25.9 million for NOAA Mitchell Act Hatchery Programs
  --$20.0 million for NOAA Fisheries Disaster Assistance Program
  --$5.0 million for NOAA Hatchery Genetic Management Plans

    The member Tribes of the NWIFC ceded much of the land that is now 
western Washington in exchange for reserving the continued right to 
harvest and manage various natural resources including salmon and 
shellfish. Salmon are, and have always been, the foundation of Tribal 
cultures, traditions and economies in western Washington. To ensure 
that Tribal treaty rights and lifeways are protected and not rendered 
meaningless, it is essential that the Federal Government provide 
support to all aspects of salmon management including harvest planning 
and implementation (e.g. Pacific Salmon Treaty), hatchery production, 
(e.g. Mitchell Act Hatchery Programs and Hatchery Genetic Management 
Plans) and habitat protection and restoration (e.g. Pacific Coastal 
Salmon Recovery Fund).
                       justification of requests
  --Provide $70.0 million for NOAA Pacific Coastal Salmon Recovery Fund 
        (PCSRF)

    We respectfully request $70.0 million for PCSRF, an increase of 
$5.0 million over the fiscal year 2019 enacted level. It is worth 
noting that this request is a significant departure from the PCSRF peak 
level of $110.0 million in fiscal year 2002 or subsequent years in 
which budget authority was maintained upwards of $80.0 million through 
fiscal year 2011. We ultimately would like to see PCSRF funding fully 
restored to fiscal year 2002 levels, but we recognize that budget 
conditions may necessitate an incremental increase in the short term. 
Nevertheless, we continue to support the original congressional intent 
of these funds that would enable the Federal Government to fulfill its 
obligations to salmon recovery and the treaty fishing rights of the 
Tribes.
    The PCSRF is a multi-State, multi-Tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover salmon 
throughout the Pacific coast region. Through PCSRF, Tribes work 
collaboratively to help protect and restore salmon habitat in an effort 
to increase natural salmon productivity. To accomplish this, Tribes 
implement scientifically-based salmon recovery plans developed for each 
watershed in concert with Federal, State, and local partners. Tribes 
also participate in sustainable harvest management activities such as 
monitoring of fish abundance, which is then used to forecast adult 
returns and subsequently develop annual harvest rates that achieve 
conservation objectives and provide for Tribal and non-Tribal harvest 
opportunities. Since its inception, PCSRF has been the primary salmon 
recovery response. This has resulted in over 1.1 million acres of 
spawning and rearing habitat restored and protected, and re-
establishing salmon access to 11,980 miles of previously inaccessible 
streams in our region.

  --Provide $42.3 million for operational costs, plus $57.1 million in 
        one-time implementation costs for national commitments in the 
        newly renegotiated Pacific Salmon Treaty agreement (within 
        Salmon Management Activities and Regional Councils and 
        Fisheries Commissions)

    We support the Pacific Salmon Commission (PSC) U.S. Section's 
request of $42.3 million for operational costs, plus $57.1 million in 
one-time implementation costs for the national commitments in the newly 
renegotiated Pacific Salmon Treaty (PST) agreement. The PST is 
renegotiated every decade between the United States and Canada. The new 
international agreement brings additional Federal obligations to ensure 
compliance with the treaty. The cost of the commitments created by the 
treaty are substantially greater than the funding provided in the NMFS 
budget in past years.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fishers from both 
countries. For years, there were no restrictions on the interception of 
returning salmon by fishers of neighboring countries. After many years 
of negotiations, in 1985 the U.S. and Canada agreed to cooperate on the 
management, research and enhancement of Pacific salmon stocks of mutual 
concern by developing and ratifying the PST. The PSC was created to 
implement the PST and is responsible for developing management 
recommendations and assessing each country's compliance with the 
treaty.
    Within our collective request to support the PSC and implement the 
PST, we specifically request the following funding within the Salmon 
Management Activities account. Of the $57.1 million in one-time 
implementation funding, $53.6 million is requested from the Department 
of Commerce. This includes $31.2 million for Puget Sound critical stock 
habitat restoration (identified in the draft biological opinion 
associated with implementation of the PST) to provide critical risk 
reduction measures for several Chinook salmon runs. Also, $8.7 million 
is requested to produce sound science used for Chinook salmon 
management, which includes $2.5 million for the Coded Wire Tag (CWT) 
Program and $3.5 million to improve catch and escapement estimates. 
Finally, $5.39 million is requested for the Puget Sound Critical Stock 
Augmentation Program and $5.6 million is requested to increase prey 
availability for ESA-listed killer whale.
    The Puget Sound Critical Stock Augmentation Program is required for 
effective implementation of the PST. This program provides funding for 
operation and maintenance costs for hatchery augmentation programs. 
These hatchery efforts were initiated in connection with the 2008 
agreements and will be enhanced through the new agreement, because the 
conservation needs of these populations could not be met by harvest 
restrictions alone.
    The funding and implementation of the CWT Program is also a U.S. 
obligation under the PST. The CWT Program produces data that is widely 
used by State, Federal and Tribal fisheries managers to evaluate 
hatchery contributions to catch, smolt to adult survival rates, spawner 
abundance on spawning grounds, differential in-hatchery treatments, and 
other important information that supports fisheries management and 
research. Funding for the coast-wide CWT Program supports 
implementation, maintenance and efficiency improvements.

  --Provide $25.9 million for NOAA Mitchell Act Hatchery Programs 
        (within Salmon Management Activities)

    We respectfully request $25.9 million for the Mitchell Act Hatchery 
Programs. The fiscal year 2018 appropriations provided a total of $20.2 
million. The request for an additional $5.7 million in Mitchell Act 
funds above the fiscal year 2018 funding level is to ensure that 
mitigation hatcheries operate at full production level to meet Federal 
obligations. This program is funded through the Salmon Management 
Activities account.
    Mitchell Act hatchery production is intended to mitigate for fish 
and habitat loss caused by the Federal hydropower dam system on the 
Columbia River. Funding for these programs supports the operation and 
maintenance of hatcheries that release between 50 and 60 million 
juvenile salmon and steelhead in Oregon and Washington. These programs 
provide fish production for Tribal treaty and non-Tribal commercial and 
recreational fisheries in the Columbia River, and also contribute to 
ocean fisheries from Northern California to Southeast Alaska. 
Unfortunately, overall production from these hatcheries has been 
reduced from more than 110 million to fewer than 60 million fish due to 
inadequate funding.
    Adequate funding for Mitchell Act hatcheries is of particular 
importance to us because it supports salmon production for Tribal 
treaty harvest along the Washington coast. Additionally, adequate 
funding to ensure full production from the Mitchell Act hatcheries 
dampens the impact of Canadian and Alaskan ocean fisheries on 
Washington fisheries under the terms of the PST.

  --Provide $20.0 million for NOAA Fisheries Disaster Assistance 
        Program

    We respectfully request $20.0 million for the Fishery Disaster 
Assistance Program, an increase of $5.0 million above the fiscal year 
2019 enacted level. Numerous salmon fisheries disasters have adversely 
impacted Washington Tribes and the financial impact from these 
disasters is severe.
    Unforeseen natural and manmade disasters can have grave and 
unexpected impacts on Tribal treaty fishing and the livelihoods of 
Tribal members who are economically dependent upon these fisheries. 
Because of the seasonal nature of fishing, a single disaster can have 
significant impacts on annual revenues needed to maintain boats and 
gear, forcing fishers to drop out of the sector, and therefore 
sometimes lead to diminished fishing fleets. An ongoing Fisheries 
Disaster Assistance Program is a much-needed stop gap measure to 
prevent the collapse of this important economic sector during difficult 
times. We therefore, respectfully request ongoing appropriations to 
maintain and enhance the Fisheries Disaster Assistance Program, which 
is needed to support a resilient national fishing fleet.

  --Provide $5.0 million for NOAA Hatchery Genetic Management Plans 
        (within Pacific Salmon)

    We respectfully request $5.0 million to provide increased funding 
to expedite NMFS's review and approval of the backlog of western 
Washington Hatchery Genetic Management Plans (HGMPs) and implement 
those plans that are now complete. Review and approval of HGMPs is 
necessary to provide hatcheries with ESA coverage. The fiscal year 2019 
appropriations provided $65.0 million for the Pacific Salmon account, 
which funds HGMP review. However, the fiscal year 2019 report language 
was silent regarding funding for NMFS' expedited review of HGMPs. NMFS' 
fiscal year 2020 proposed budget requests a decrease of $2.0 million 
for HGMP review, despite reported progress with new funding, still 
facing a backlog of plans and rising HGMP implementation needs.
    NMFS uses the information provided by HGMPs to evaluate a 
hatchery's impacts on salmon and steelhead listed under the ESA. With 
the lack of improvement in salmon stocks, hatchery operations have 
become even more important to achieving recovery goals and maintenance 
of salmon fisheries. However, the lack of improvement in natural origin 
salmon has also resulted in scrutinizing hatcheries for their potential 
genetic impacts on natural spawning populations. This has resulted in 
increasingly specific performance standards and management expectations 
included in Tribes' HGMPs. Tribes need help addressing the escalating 
costs of hatchery management associated with the monitoring and 
adaptive management practices called for by HGMPs.
                               conclusion
    The treaties between the Federal Government and Indian Tribes, as 
well as the treaty-reserved rights to harvest, manage and consume fish 
and shellfish, are the ``supreme law of the land'' under the U.S. 
Constitution (Article VI). It is therefore, critically important for 
Congress and the Federal Government to provide continued support in 
upholding the treaty obligations and carrying out its trust 
responsibilities. An important component of these obligations is to 
fully fund the aforementioned sustainable salmon fisheries management 
programs that provide for improved harvest planning, hatchery 
production and habitat management. We respectfully urge you to continue 
to support our efforts to protect and restore our treaty-reserved 
rights and natural resources that in turn will provide for thriving 
economies for both Indian and non-Indian communities alike. Thank you.

    [This statement was submitted by Lorraine Loomis, Chair.]
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
            national oceanic and atmospheric administration
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2020 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address threats to the 
ocean through science-based, practical policies that protect our ocean 
and improve our lives. To learn more about Ocean Conservancy's support 
for a strong ocean budget at NOAA, see www.TheMoreYouNOAA.org.
    We greatly appreciate the subcommittee's efforts to ensure a 
positive outcome for NOAA in the fiscal year 2019 omnibus, which made 
important investments in NOAA ocean programs, including Integrated 
Ocean Acidification, Marine Debris and Regional Ocean Data and 
Partnerships.
    We reject the Trump administration's proposed budget for NOAA in 
fiscal year 2020, which would cut nearly $1 billion in funding and 
wholly eliminate vital ocean and coastal programs. As described in this 
testimony, we support funding for NOAA ocean programs at or above 
fiscal year 2019 funding levels to maintain current effort and provide 
targeted increases as appropriate.
    NOAA's mission to understand, protect, restore, and manage our 
ocean, coasts, and Great Lakes is vitally important to sustain these 
resources and our economy. The U.S. ocean and coastal economy 
contributes $352 billion annually to the Nation's GDP and supports 3 
million jobs. There is a good reason that NOAA is in the Department of 
Commerce, and adequate funding is vital to support a healthy and 
resilient ocean that can maintain and grow our coastal economies and 
communities. For example, our Nation's fisheries and seafood sector 
generates $212 billion in sales impacts to the U.S. economy and 
fishermen rely on information from NOAA to make the most informed 
decisions on where to fish, how to fish and when to fish. Coastal 
wetland buffer zones in the U.S. are estimated to provide economically 
important storm protection benefits, saving New Jersey $625 million in 
direct property damage during Superstorm Sandy. NOAA works to build 
resilient coasts that are more storm-ready and prepared for threats 
like sea level rise and ocean acidification.
    Much of the U.S. ocean is under Federal jurisdiction, and yet many 
of NOAA's most successful programs focus on pushing resources and 
decisionmaking power out to regions, States and frontline communities. 
NOAA is providing leverage for hardworking people on the coast and on 
the water who are fighting for a stronger economy and a healthier 
ocean, through region-by-region fishery management, region-specific 
program, extramural funding that supports State agencies and 
universities, place-based conservation in our estuaries and oceans and 
more.
    As you craft the fiscal year 20 spending bills, we ask that you 
also consider the balance between NOAA's oceanic and atmospheric 
missions, and the nexus between the two. Americans should not have to 
choose between weather forecasts and ocean and coastal resources like 
coral reefs and marine mammals. We need both. NOAA's ocean programs 
support many other Federal agencies and missions that will also suffer 
if NOAA funding is cut. For example, ocean observations and monitoring 
provide critical information for severe storm tracking and weather 
forecasting. Ocean programs also facilitate homeland security and 
national defense functions, including U.S. Navy operations and U.S. 
Coast Guard search and rescue missions.
    We continue to raise the alarm about this administration's 
proposals to wholly eliminate vital NOAA programs like Coastal Zone 
Management Grants, Sea Grant, National Centers for Coastal and Ocean 
Science, and the National Estuarine Research Reserve System, among 
others. We also offer additional testimony and recommend funding 
increases for the following NOAA programs.

------------------------------------------------------------------------
                                   Fiscal Year 2019    Fiscal Year 2020
  Account, Program or Activity          Enacted         Recommendation
------------------------------------------------------------------------
     Operations Research and
           Facilities
National Ocean Service
    Coastal Science, Assessment,  $7.5 m............  $10 m
     Response and Restoration:
     Marine Debris.
    Coastal Zone Management       $75.5 m...........  Fiscal year 19 or
     Grants.                                           above
    Coastal Zone Management and   $1.5 m (IOOS).....  $10 m
     Services--Regional Ocean
     Data Portals.
National Marine Fisheries
 Service
    Marine Mammals, Sea Turtles,  $118.348 m........  Fiscal year 19 or
     & Other Species.                                  above
    Fisheries Data Collections,   $168.086 m........  Fiscal year 19 or
     Surveys and Assessments.                          above
    Regional Councils and         ..................  $250,000
     Fisheries Commissions--PFMC
     Climate and Communities
     Initiatives.
Office of Oceanic and
 Atmospheric Research
    Integrated Ocean              $12 m.............  $21.775 m
     Acidification.
Office of Marine and Aviation
 Operations
    Marine Operations &           $190.670 m........  Fiscal year 19 or
     Maintenance.                                      above
------------------------------------------------------------------------

Marine Debris--$10 million
    Marine debris, particularly plastic waste pollution, is one of the 
most widespread pollution problems threatening the world's oceans and 
waterways. An estimated 150 million metric tons of plastic waste are in 
the ocean today, and every year an estimated 8 million metric tons more 
are being added. With oil prices at an all-time low, coupled with 
growing population levels and economic prosperity, plastic production 
and consumption are predicted to double over the coming decade. Without 
immediate intervention, 250 million metric tons of plastic waste could 
be in the ocean in fewer than 10 years. Marine debris has serious 
effects on the marine environment and the economy. It causes impacts on 
wildlife through entanglement, ingestion and ghost fishing and also 
impacts marine transportation causing navigational hazards and vessel 
damage.
    Last year, Congress reauthorized the program via the Save Our Seas 
Act of 2018. The SOS Act enjoyed broad bipartisan support in both 
chambers, and the President signed it into law in an Oval Office 
ceremony. While reauthorized at the traditional level of $10 million, 
the program received only $7.5 million in fiscal year 2019. Given the 
magnitude of the problem, there is an urgent need for the NOAA Marine 
Debris Program to do more to counter the growing threat to ocean 
health. Fundamental knowledge gaps exist in four critical areas: the 
sources of plastic waste in the ocean, how the waste distributes within 
the marine environment, the fates of those materials, as well as their 
impacts. More scientific research into these key areas will support 
data-driven policy solutions to prevent plastic from entering the 
environment and impacting ocean health. Additional funding will enable 
NOAA MDP to support this additional research.
Coastal Zone Management Grants
    These grants achieve multiple goals for coastal communities 
including economic development, enhancement of public access and 
recreation, and protection of coastal resources. The CZM program 
provides Federal support for these State programs to ensure that as a 
nation, all coastal States and territories can enable their coastal 
communities to achieve both State and national priorities. This State-
Federal partnership also enables States to leverage Federal funds to 
improve permitting processes, provide grants to communities, and ensure 
Federal actions are consistent with State laws. Moreover, the CZMA 
requires a dollar-for-dollar State match for almost all Federal 
funding, with States matching over $59 million fiscal year 2016.
Regional Ocean Data Portals/Regional Ocean Partnerships--$10 Million
    Regional Ocean Partnerships are regional organizations voluntarily 
convened by the governors to address ocean and coastal issues of common 
concern in the region. Regional Ocean Partnerships provide interagency 
engagement with States, Tribes, localities, and Federal agencies to 
collaborate on cross-jurisdictional ocean and coastal matters. These 
partnerships also coordinate and engage ocean and coastal stakeholders, 
including academia, non-governmental organizations, and industry. Some 
regions have advanced State and regionally identified management 
challenges by sharing and integrating Federal and non-Federal data to 
support regional coastal, ocean, and Great Lakes priorities through 
Regional Ocean Data Portals. Regional Ocean Data Portals are publicly 
available online tools created and maintained by Regional Ocean 
Partnerships to disseminate maps, data, and information with the 
purpose to inform decisions and enhance entrepreneurial opportunity. 
Ocean Data Portals are created with engagement from marine industries, 
the ocean science and technology community, State, Tribal, and local 
governments, and other ocean stakeholders. We greatly appreciated the 
appropriation of $1.5M for fiscal year 2019, and we believe increased 
Federal funding support is critical, largely because the funding is 
split among nine regions. Appropriating $10 million would provide 
sufficient funds for all nine regions to support State and regionally 
identified ocean priorities.
Marine Mammals, Sea Turtles and Other Species
    Because of the need to for capacity for Gulf of Mexico restoration 
and the increasing impacts of climate change and other stressors on sea 
turtles, we support continued funding at or above fiscal year 2019 
funding levels, including for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, which funds the first responders for sick or 
dying marine animals.
Fisheries Data Collections, Surveys and Assessments
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA). Since the MSA was 
enacted in 1976, NOAA has made great strides towards ending overfishing 
and continued investments in these programs and our fishing communities 
are needed. This budget line supports a host of activities critical to 
MSA implementation, including resources for fisheries managers to 
conduct stock assessments for priority fish stocks, collect catch data 
from commercial and recreational fisheries, implement the requirement 
for annual catch limits (ACLs), and ensure the successful recovery of 
overfished populations.
    We support funding for electronic monitoring and reporting for 
nationwide efforts. In particular we support funding that goes to the 
Gulf of Mexico region, where managers need electronic monitoring to 
keep track of catch and prevent catch overages in the red snapper 
fishery. Given the unique management challenges that exist in the Gulf 
of Mexico, there is a significant need for additional funding.
Regional Councils and Fisheries Commissions
    We support funding for the operations and initiatives of the 
Regional Fishery Management Councils. The Councils were established by 
the MSA to prepare management plans aimed at preventing and eliminating 
overfishing and rebuilding overfished stocks for the Nation's 
fisheries. As the Councils strive to understand the impacts of climate 
change on our oceans and fisheries, we are seeing growing needs from 
fishery managers, scientists, and industry to address impacts and 
understand their causes. We additionally support $250,000 for the PFMC 
to update and implement their ecosystem management plans and Climate 
and Communities Initiative to support climate-ready fisheries and 
ecosystem-based fisheries management.
Integrated Ocean Acidification--$21.775 million
    The Integrated Ocean Acidification line item funds NOAA's ocean 
acidification program (OAP), which was established and mandated by the 
Federal Ocean Acidification Research and Monitoring (FOARAM) Act of 
2009. Under FOARAM, OAP is directed to ``provide grants for critical 
research projects that explore the effects of ocean acidification on 
ecosystems and the socioeconomic impacts of increased ocean 
acidification,'' establish long-term monitoring, identify adaptation 
strategies, and conduct public outreach.
    Ocean acidification (OA) is the rise in acidity of the earth's 
ocean caused by uptake of CO2 from the atmosphere. This rising acidity 
makes it harder for shell-forming species such as oysters and crabs to 
grow, and fundamentally alters many other processes (e.g., 
reproduction, risk avoidance) necessary for healthy ecosystems and the 
coastal industries that depend on them. Prior Federal investments in 
OAP, such as FOARAM, have greatly expanded our knowledge of OA and its 
risks to coastal communities and industries, but current funding levels 
are not at the scale needed to understand this global problem and its 
impacts. We request $21.775 million for this program.
Marine Operations and Maintenance
    Marine Operations and Maintenance should be funded at or above the 
fiscal year 2019 level. Days at sea funded by this line are 
functionally tied to fishery stock assessments, and the two programs 
must be viewed together.

    [This statement was submitted by Jeff Watters, Director, Government 
Relations.]
                                 ______
                                 
Prepared Statement of Organizations and Institutions in Support of the 
Full Range of Earth Science Research, Observations, Infrastructure, and 
                           Education Programs
                          nsf, nasa, and noaa
    Thank you for the opportunity to present testimony from the 
organizations and institutions listed is support of strong and balanced 
funding for the full range of Earth science research, observations, 
infrastructure, and education programs under the jurisdiction of this 
subcommittee. This includes NSF's geoscience research, infrastructure, 
education and training activities, NASA's Earth science and education 
activities, and NOAA's research, observations, and education programs 
related to the oceans, atmosphere, weather, climate, surveying/
navigation, and marine resources.
    The ability to observe our planet--from the bottom of the ocean, to 
the surface, on land, and from space in a continuous and comprehensive 
fashion--and then to analyze the data and observations collected--is 
vital for the long term health and national, economic, and 
environmental well-being of our citizens and the world. The 
environmental information that comes from this ability is used in 
modeling, digital and on-line maps, daily weather forecasts, land-use 
planning, transportation efficiency, and agricultural productivity, 
making it central to our lives, and providing substantial contributions 
to our economy, national security, and public safety.
    This knowledge and information we rely on for our daily lives are 
the result of a sustained commitment to both exploratory and applied 
Earth science, and to what has become a sophisticated national and 
international infrastructure of observing systems, scientific research, 
and applications. A particular strength of the Earth science and 
applications field is the extent to which curiosity-based science is 
inextricably integrated with mission-driven and applications-oriented 
science and societal benefits. Ongoing commitment to this inspirational 
and practical science has returned benefits to society many times over, 
and will continue to do so with further support.
    Among the most intellectually and important revelations from the 
past 60 years are those documenting the extent to which Earth is 
changing, in multiple ways and for many reasons. Daily changes, such as 
weather, were obvious to even the earliest humans, even if not 
explainable. Longer-term changes, particularly those occurring on 
global scales, are only now becoming understood and gaining public 
recognition. Some of these changes are climate related, such as the El 
Nino-Southern Oscillation (ENSO), but many are not. In addition to 
climate, changes in air quality, water availability, agricultural soil 
nutrients, and other Earth resources are being driven largely by human 
actions. Successfully managing risks and identifying opportunities 
associated with these changes require a clear understanding of both the 
human-driven and the natural processes that underlie them.
    A changing Earth is one we can never understand only from past 
experience. Its evolving and emerging characteristics must be 
continually explored through research, observation, data analysis, and 
modeling. Our scientific curiosity must seek and reveal the new and 
altered processes that will result from change, if we are to continue 
applying our knowledge effectively for society's benefit. Decisions we 
make this decade will be pivotal for predicting the potential for 
future changes and for influencing whether and how those changes occur. 
Embracing this need to understand a changing Earth, and building a 
program to address it, is a major challenge for the coming decade and 
beyond.
    Meeting this and other challenges requires a sustained and 
impactful investment by this subcommittee in our Earth science and 
education enterprise via NSF, NASA, and NOAA.
    The Earth Sciences and National Security.--In response to questions 
for the record from the Senate Armed Services Committee in 2017, former 
Secretary of Defense James Mattis said, ``. . . climate change is a 
challenge that requires a broader, whole-of-government response. If 
confirmed, I will ensure that the Department of Defense plays its 
appropriate role within such a response by addressing national security 
aspects.'' Changes in the climate pose direct threats, such as sea 
level rise and increased storm surges that inundate coastal military 
and civilian infrastructure. Dramatic changes in food, water, and 
energy availability also increase the likelihood of instability and 
state failure across the globe. The 2019 National Intelligence Strategy 
pointed out that climate change should be expected to contribute to 
straining the capacities of governments to deal with growing influxes 
of migrants and refugees, intense economic or other resource scarcity, 
or infectious disease outbreaks.
    The Earth Sciences--Producing a Workforce for U.S. Industry.--The 
geosciences research that NSF, NASA, and NOAA fund helps educate and 
train the next generation of geoscientists. Using data provided by the 
Bureau of Labor Statistics, the American Geosciences Institute (AGI) 
calculated a total of 311,768 geoscience jobs in 2016, and this number 
is expected to increase by 11 percent by 2026 to a total of 344,704 
jobs. Approximately 147,000 geoscientists are expected to retire by 
2026, but over the next decade, only approximately 62,000 students will 
be graduating with their bachelor's, master's, or doctoral degrees in 
the geosciences. According to AGI's Status of the Geoscience Workforce 
2018, given minimal non-retirement attrition from the geoscience 
workforce, there is expected to be a deficit of approximately 118,000 
geoscientists by 2026.
    Industry hiring of geoscience graduates fluctuates between sectors 
over time, with the oil and gas sector and the Federal Government each 
taking on roughly 30 percent of recent master's graduates who gained 
employment in the geosciences in 2017, and the environmental services 
sector hiring the largest share (31 percent) of recent bachelor's 
graduates who stayed in the geosciences, according to the AGI's Status 
of The Geoscience Workforce 2018. Other industries hiring geoscientists 
include mining, construction, agriculture, transportation, and 
information technology services, all of which contribute to our 
national infrastructure. NSF, NASA, and NOAA support for the 
geosciences contributes significantly to the education and training of 
these individuals via programs in research, graduate and undergraduate 
student support.
    The Earth Sciences--Yielding Economic Benefits.--According to the 
administration's interagency Subcommittee on Ocean Science and 
Technology, optimizing sustainable use of our exclusive economic zone 
and the high seas is vital to America's global economic leadership. In 
2015, the U.S. ocean economy, which includes six economic sectors 
dependent on the ocean, contributed more than $320 billion to the U.S. 
Gross Domestic Product (GDP) and supported 3.2 million jobs directly 
dependent on these resources. These economic sectors include: living 
resources, marine construction, offshore mineral extraction, tourism 
and recreation, ship and boat building, and marine transportation. A 
total of 42 percent of the U.S. labor force is employed in coastal 
watersheds. In 2014, counties adjacent to the shore contributed 43 
percent percent of the U.S. GDP; the offshore mineral industry 
contributed over 170,000 jobs in 2013 and $122 billion, the majority of 
which was from the oil and gas sector; approximately 88,000 square 
miles of the Nation's coastal wetlands provide nursery areas for 
commercially harvested fishery species and places of refuge for 
migrating birds; in 2015, the commercial and recreational fishing 
industry supported 1.6 million jobs and contributed $208 billion in 
sales to the U.S. economy; and ocean measurements, observations and 
forecasting generate about $7 billion in revenues annually. The U.S. 
currently imports more than 90 percent of its seafood, leading to a $14 
billion seafood trade deficit. The World Bank projects a nearly 50 
percent increase in worldwide fish consumption between 2006 and 2030. 
The Nation has an opportunity to meet this demand, ensure food 
security, create new industries, and provide jobs by maximizing 
sustainable wild and aquaculture harvest.
    Much of the ocean is underexplored and offers great potential for 
advancing science, technology, and our growing economy. Our resources 
are central to the national economy and American quality of life, and 
thus the challenge is to find the right balance between our present use 
of ocean resources and a productive and healthy ocean for future 
generations. Characterizing the primary uses of the marine environment 
(including fisheries, aquaculture, transportation and shipping, energy, 
national security, land values, mineral extraction, recreation, and 
protected species habitats) and the goods and services, beneficiaries, 
and market and non-market values attributable to those uses, is key to 
understanding the ocean's potential. It will be through our continued 
investment in Earth sciences and education that we will continue to 
develop the knowledge, the technology, and the people that will lead to 
informed decisions and actions that will help maximize the economic 
potential of our oceans while doing so in a responsible and sustainable 
manner.
    The Earth Sciences and Public Safety.--The benefit of the 
investment in public weather forecasts and warnings is substantial: the 
estimated annualized benefit is about $31.5 billion, compared with the 
$5.1 billion cost of generating the information. In 2018 natural 
disasters cost the country $91 billion and came from 14 different 
natural disasters ranging from hurricanes to wildfires to winter 
storms. We continue to experience extreme weather events in nearly 
every region of the country: tornadoes in Oklahoma and Alabama, floods 
in Nebraska and Louisiana, and droughts in Texas. According to the 
National Academy of Sciences' report, When Weather Matters, the annual 
impacts of adverse weather on the national highway system and roads are 
staggering: 1.5 million weather-related crashes with 7,400 deaths, more 
than 700,000 injuries, and $42 billion in economic losses, moreover 
$4.2 billion is lost each year because of weather-related air traffic 
delays. The death, destruction, and economic harm communities and 
businesses experience from these and other weather events could be 
further reduced with continued research and training in the 
geosciences.
    Technologies and observing systems developed to examine the 
fundamental Earth structure have also provided data and enabled models 
necessary for forecasting and estimating the impact resulting from 
major earthquakes, tsunamis, volcanic eruptions, and landslides. 
Understanding of disaster events enables business and government to 
engage in informed risk management and mitigation and to develop 
response strategies. When an event does occur, early warnings for 
evacuation based on timely forecasts and characterization of these 
disasters has the potential to save billions of dollars and countless 
lives.
    Concluding Thoughts.--We appreciate the difficult decisions 
Congress must make within the constraints of the budget environment. We 
believe that the future of this Nation is well served by a strong and 
sustained investment in the full scope of our research enterprise--
particularly the Earth sciences and education programs sponsored by 
NSF, NASA, and NOAA. This subcommittee has consistently been a strong 
champion for the Nation's research enterprise and we hope you will be 
able to maintain that high priority as you develop the fiscal year 2020 
appropriations bill in the coming weeks. Thank you for the opportunity 
to submit this statement.
               supporting organizations and institutions
National Association of Marine Laboratories
Lamont-Doherty Earth Observatory, Columbia University
Scripps Institution of Oceanography
Consortium for Ocean Leadership
Incorporated Research Institutions for Seismology
University Corporation for Atmospheric Research
Vaisala, Inc.
The Weather Company, an IBM Business
Quantum Spatial, Inc.
National Estuarine Research Reserve Association
Association of Public and Land-grant Universities
University of Pittsburgh
The Belle W. Baruch Institute for Marine and Coastal Sciences, 
University of South Carolina
Earth2Ocean, Inc.
Florida Atlantic University, Harbor Branch Oceanographic Institute
Woods Hole Oceanographic Institution
Soil Science Society of America
UNAVCO
Department of Ocean, Earth & Atmospheric Sciences, Old Dominion 
University
Sitka Sound Science Center
Metropolitan State University of Denver
University of Oregon
Oregon Institute of Marine Biology
Florida State University
Bigelow Laboratory for Ocean Sciences
The University of Texas at Austin
Research!America
Moss Landing Marine Laboratories
Grice Marine Laboratory, College of Charleston
Institute for Global Environmental Strategies
University of New Hampshire
School of Ocean and Earth Science and Technology, University of Hawaii 
at Manoa
University of California, Los Angeles
Severn Marine Technologies, LLC
Hatfield Marine Science Center, Oregon State University
Hawai'i Institute of Marine Biology
Jacobsen Pilot Service, Inc.
Geodynamics, LLC
Ocean Aero, Inc.
American Metrological Association
University of Washington
Penn State University
University of Massachusetts Dartmouth School for Marine Science and 
Technology
University of California
Annis Water Resources Institute--Grand Valley State University
Michigan State University
University of Iowa
Florida Atlantic University--Geosciences Department
George Mason University
Council on Undergraduate Research
IOOS Association
Bermuda Institute of Ocean Sciences
Boston University
GeoOptics
North Carolina Agricultural and Technical State University
Dauphin Island Sea Lab
University of Wisconsin-Milwaukee, School of Freshwater Sciences
University of Wisconsin-Madison
East Carolina University, Integrated Coastal Programs & Coastal Studies 
Institute
Louisiana State University
Virginia Institute of Marine Science
California State University Council on Ocean Affairs, Science & 
Technology
The University of North Carolina at Wilmington
College of Earth, Ocean & Atmospheric Science
Oregon State University
Southeastern Universities Research Association
Michigan Technological University
Stony Brook University
University of Connecticut
Upton Environmental Inc. DBA Roffer's Ocean Fishing Forecasting Service
The University of Guam Marine Laboratory
Great Lakes Boating Federation
American Geophysical Union
Skidaway Institute of Oceanography, University of Georgia
Ocean Conservancy
Indian Brook Trout Farm Inc
AccuWeather, Inc.
Hubbs-SeaWorld Research Institute
Ocean Motion Technologies, Inc.
American Geosciences Institute
University of Colorado Boulder
University of Wisconsin System
Friday Harbor, University of Washington
Colorado School of Mines
Northern Illinois University
Cleantech San Diego
Riskpulse
Turner Designs, Inc.
Assure Controls, Inc.
UC Davis Coastal and Marine Sciences Institute/Bodega Marine Laboratory
      
                                 ______
                                 
   Prepared Statement of Organizations in Support of the STOP School 
                         Violence Act Programs
     u.s. department of justice--stop school violence act programs
Dear Chairman Moran and Ranking Member Shaheen:

    As you consider fiscal year 2020 appropriations for the U.S. 
Department of Justice (DOJ), we urge you to provide, at a minimum, the 
fully authorized amounts for each of the DOJ school safety grant 
programs under the STOP School Violence Act (Division S, Title V of 
Public Law 115-141).
    While Congress provided a total of $100 million authorized for 
these programs in for fiscal year 19, the School Violence Prevention 
Program (SVPP) administered by the Office of Community Oriented 
Policing Services (COPS) received a $25 million appropriation, short of 
the fully authorized amount. Meanwhile the statute (34 U.S.C. 
Sec. 10555) is clear that within the $100 million authorized for each 
fiscal year from fiscal year 2019-2028, $33 million of this amount is 
to be made available for the COPS program, and $67 million is to be 
made available for the program administered by the Bureau of Justice 
Assistance (BJA).
    Fully funding SVPP is critical to providing the most flexibility to 
school districts to meet their safety and security needs, which can 
vary widely. A district may have greater unmet needs for the type of 
assistance provided under the BJA program (violence prevention and 
mental health training, threat assessment and anonymous reporting 
programs) or SVPP (facility access control measures, emergency 
communications, law enforcement notification systems, and other 
protective measures), depending on the district.
    Both grant initiatives support important elements of a balanced and 
holistic approach to school safety and security, and each program 
covers a different set of needs. For fiscal year 2018, the SVPP program 
was only able to make grant awards supporting less than half of more 
than 200 eligible applications, indicating the need for additional 
resources to address legitimate requirements. Providing additional 
funding for both programs in fiscal year 2020 would support districts 
throughout the country as they seek to assess policies, procedures and 
infrastructure in place and address local needs identified.
    Representing stakeholders across the education and solutions 
provider communities, we strongly urge you to (1) provide a total of 
$125 million for STOP School Violence Act programs, a $25 million 
increase over fiscal year 2019, and (2) ensure each program, including 
SVPP, is provided with at least the full amount authorized and in the 
ratio stipulated in the statute, as you consider fiscal year 2020 
appropriations for DOJ.
    Thank you for your consideration.

                             Organizations

21st Century School Fund (21CSF)
Door Safety and Security Foundation (DSSF)
DHI Door Security + Safety Professionals (DHI)
National Council on School Facilities (NCSF)
National Systems Contractors Association (NSCA)
National School Boards Association (NSBA)
Secure Schools Alliance (SSA)
Security Industry Association (SIA)
Secure Our Schools (SOS) Parkland

    [This statement was submitted by Jake Parker, SIA.]
                                 ______
                                 
 Prepared Statement of the Physical Science Education Policy Coalition
                       physical science education
Dear Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee:

    The Physical Science Education Policy Coalition (PSEPC) is a 
diverse group of scientific non-profit organizations that works to 
promote issues regarding all aspects of physical science education to 
benefit both students and teachers.

  --We urge you to once again to reject the White House's proposal to 
        eliminate NASA's Office of STEM Engagement and fund the office 
        consistent with the fiscal year 2019 enacted level of $110 
        million.
  --We urge you to support the National Science Foundation (NSF) 
        Education & Human Resources (EHR).
  --We also urge you to reject the White House's proposal to eliminate 
        NOAA's Office of Education and fund the office at the fiscal 
        year 2019 enacted level of $29 million.
                    nasa, office of stem engagement
    NASA has an enormous reach in inspiring future scientists and 
engineers that keep the Nation at the forefront of research and 
exploration. NASA plays a pivotal role in inspiring and encouraging 
young people to pursue STEM disciplines of study and careers; engaging 
the broader public in NASA's mission; and strengthening NASA and the 
Nation's workforce. Bolstering American science and innovation is 
central to the administration's strategy for strengthening the economy 
and increasing opportunities for Americans. The NASA Office of STEM 
Engagement supports programs such as the National Space Grant College 
and Fellowship Program (Space Grant) and the Experimental Program to 
Stimulate Competitive Research (EPSCoR).
    The Space Grant program funds nearly 4,000 fellowships and 
scholarships for students in all 50 States and the District of Columbia 
who are pursuing a STEM career, allowing them to participate in NASA 
aeronautics and space projects integrating classroom learning with on-
the-job training much like apprenticeships. The New Hampshire Space 
Grant Consortium is a Designated Consortium funded at a level of 
$760,000 in fiscal year 2017. In New Hampshire, the Space Grant awarded 
88 NASA Internships, Fellowships, and Scholarships (NIFS) to students 
at universities and colleges across the State. This program can have a 
profound impact on awardees, especially those from underrepresented 
groups. A testimonial from a female awardee says, ``'The New Hampshire 
Space Grant funded my participation in the NASA Academy at Marshall 
Space Flight Center. In this program, I was able to prototype a 
satellite, learn Creo CAD modeling, work on a 'flat floor' with air 
bearings, travel to NASA Kennedy for a launch, gain outdoors experience 
with weekend team building, travel to NASA JPL, SpaceX, Aerojet 
Rocketdyne, SkunkWorks, and Virgin Galactic for company tours, and 
build a network of aerospace students and professionals. I would argue 
that this experience was pivotal in securing my job and beginning my 
career after graduation. It was certainly pivotal in compelling me to 
follow my dreams of aerospace engineer . . . I am an aerospace engineer 
at Blue Origin.''
    EPSCoR plays a key role in U.S. economic competitiveness by 
establishing partnerships with government, higher education and 
industry that are designed to effect lasting improvements in a State's 
or region's research infrastructure, R&D capacity and hence, its 
national R&D competitiveness. The goal of EPSCoR is to provide funding 
that will enable jurisdictions to develop an academic research 
enterprise directed toward long-term, self-sustaining, nationally-
competitive capabilities in aerospace and aerospace-related research. 
The EPSCoR program is directed at those jurisdictions that have not in 
the past participated equitably in competitive aerospace and aerospace-
related research activities.
    EPSCoR States are home to 20 percent of the country's population 
and workforce. They contain nearly 30 percent of the Nation's research 
institutions and more than 15 percent of the Nation's scientific and 
technological personnel. They bestow 20 percent of the Nation's 
undergraduate degrees in science and engineering and 16 percent of the 
Nation's doctorate degrees in these fields of study. They are home to 
20 percent of the country's high-tech industries. Fifty-seven of the 
Fortune 500 companies have their corporate headquarters in EPSCoR 
States.\1\
---------------------------------------------------------------------------
    \1\ EPSCoR 2030 Report, http://www.epscorideafoundation.org/media/
docs/EPSCoR_2030_
Report_4-23b.pdf
---------------------------------------------------------------------------
    Continued support for NASA's Office of STEM Engagement is vital to 
ensure the United States continues to train and inspire our next 
generation of scientists, engineers, and technicians in order to remain 
globally competitive.
                 nsf, education & human resources (ehr)
    Progress in STEM depends on educating discoverers--innovators and 
future leaders in the Nation's science and engineering enterprise. 
These discoverers are critical members of the STEM workforce. They fill 
vital roles throughout the public and private sectors, including 
academic, policy, research, and teaching positions. EHR programs 
educate, train, and support discoverers. These programs also engage 
citizen scientists and help foster a well-informed, STEM-literate 
citizenry prepared to handle rapid technological change and pursue STEM 
careers.
    In addition to supporting programs aimed at preparing the next 
generation of STEM professionals, it also funds the discoveries--the 
foundational research and the design and implementation studies--that 
underpin these STEM human capital development initiatives. Just as 
NSF's Research and Related Activities (R&RA) directorates are dedicated 
to funding basic research that accelerates progress in science and 
engineering, EHR supports early-stage, exploratory research that 
enables improvements in STEM education, learning, and assessment. EHR 
programs fund crucial foundational, design and development, and 
implementation research that is made available to inform large 
investments at scale made by other agencies, organizations, and the 
private sector.
    EHR currently funds $5,026 million in active awards, many of which 
typically span multiple years. Kansas receives $25 million in active 
awards to fund research at the State's major universities and colleges. 
For example, Dr. Melanie Derby, assistant professor of mechanical and 
nuclear engineering and the Hal and Mary Siegele professor of 
engineering at Kansas State University, will lead an interdisciplinary 
team that was recently awarded a 5-year, $2.9 million NSF Research 
Traineeship Program (NRT) grant to train graduate students who can 
address complex challenges. The award was one of 17 NRT projects funded 
nationwide and is the first NRT awarded in the State of Kansas. This 
award to Kansas State University will prepare students to become 
science-based leaders and advocates for resilient rural communities by 
combining engineering, economics, and sociological knowledge to meet 
the needs of farmers, industry, and society. Students will engage with 
farmers, government and industry through interactive sessions and will 
develop relevant skills through innovative coursework and teamwork.
    While PSEPC does not advocate for Directorate level funding levels 
at NSF, the goals of NSF EHR are in line with many of the core values 
of the organizations within PSEPC to promote an active, inclusive and 
diverse physical sciences community.
                       noaa, office of education
    The NOAA Office of Education advances education internally within 
the agency and to the broader public. The Office has several major 
areas of emphasis: the Educational Partnership Program (EPP) with 
Minority-Serving Institutions (MSI); the Ernest F. Hollings 
Undergraduate Scholarships; the Environmental Literacy Program; and the 
Bay Watershed Education and Training (B-WET). The Office of Education 
also coordinates interagency educational activities and those involving 
external partners.
    The EPP/MSI workforce development program supports four NOAA-
University education and collaborative research-based Cooperative 
Science Centers at Florida A&M University, Howard University, CUNY City 
College, and the University of Maryland Eastern Shore. These four 
universities partner with 24 additional universities to increase the 
number of students who graduate within degrees in STEM and natural 
resource management/policy. So far more than 1800 students have 
graduated in NOAA-mission fields. Other key EPP/MSI initiatives are the 
Undergraduate Scholarship Program and NOAA Experiential Research & 
Training Opportunities.
    The Hollings Scholarship Program provides students with 2 years of 
undergraduate academic assistance and a summer internship. There are 
more than 130 active scholars and a network of more than 1400 alumni, 
of which 75 percent have attended graduate school. Among other 
benefits, the program prepares students for careers in public service 
or as oceanic and atmospheric science teachers and educators who can 
improve U.S. science and environmental education.
    The Environmental Literacy Program supports competitive grants and 
long-term external partnerships. The grants programs is most 
comprehensive and enduring national funding opportunity focused on 
improving environmental stewardship and increasing resilience to 
natural hazards.
    B-WET provides competitive funding in support of K-12 Meaningful 
Watershed Educational Experiences, which promote classroom-based and 
outdoor education ecosystem learning and stewardship. B-WET currently 
operates in California, Hawaii, and the Chesapeake Bay, Great Lakes, 
Gulf of Mexico, New England, and Pacific Northwest regions.
    In support of PSEPC goals, these NOAA Office of Education programs 
broaden STEM education and promote workforce development, with focus on 
underserved audiences.
             endorsed by the following member organizations
Acoustical Society of America (ASA)
American Association of Physics Teachers (AAPT)
American Astronomical Society (AAS)
American Institute of Physics (AIP)
American Physical Society (APS)
The Optical Society (OSA)

    [This statement was facilitated by Dr. Bethany R. Johns at the 
American Institute of Physics.]
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program
    Law enforcement officers fight every day to keep our communities 
safe. Their jobs are challenging and dangerous. New threats emerge 
constantly, requiring officers to respond to diverse and complex 
situations. One organization--the Regional Information Sharing Systems 
(RISS) Program--is providing a solution by answering the demand for 
rapid, but secure, sharing of information and intelligence among law 
enforcement and public safety professionals, offering critical 
analytical and investigative support services, and providing lifesaving 
event deconfliction. It is respectfully requested that RISS be funded 
in fiscal year 2020 at $48 million.
    RISS reaches across the country (and to some international 
partners) and serves every level of government; local, State, regional, 
Federal, and Tribal criminal justice agencies benefit from RISS. More 
than 9,200 criminal justice agencies and other partners, as well as 
hundreds of thousands of law enforcement officers and criminal justice 
professionals, trust RISS and rely on it to:

  --Share critical law enforcement and intelligence data across 
        jurisdictions.
  --Access case and analytical services that help solve crimes and 
        prosecute offenders.
  --Prevent friendly fire and safeguard the men and women protecting 
        our streets.
  --Preserve the integrity of operations and protect citizens and 
        communities.
  --Equip officers and criminal justice professionals with training, 
        assistance, and research.

    RISS is composed of six regional centers and the RISS Technology 
Support Center (RTSC). The RISS Centers work regionally to respond to 
the unique crime problems of their regions, while working together on 
nationwide issues. The RTSC maintains the RISS Secure Cloud (RISSNET) 
and develops and implements RISSNET resources. The RTSC coordinates 
technical matters among the RISS Centers--including security and 
hardware and software upgrades--and communicates the direction of RISS 
information technology and database applications development.
                             what riss does
RISS integrates advanced technology and field-based solutions that 
        connect systems and officers across jurisdictions.
    RISSNET connects disparate systems, provides bidirectional sharing, 
offers a single simultaneous search of connected systems, houses 
hundreds of resources, and provides access to millions of records. 
Without RISSNET resources and information, multijurisdictional 
information sharing would become difficult, leads may be lost, and some 
cases may not be solved timely or at all.
RISS develops, maintains, and provides access to intelligence and 
        investigative databases, including:
  --The RISS Criminal Intelligence Database (RISSIntel)--provides for a 
        real-time, online federated search of more than 50 RISS and 
        partner intelligence databases.
  --The RISS National Gang Program (RISSGang)--provides an intelligence 
        database, a website, and information resources.
  --The RISS Automated Trusted Information Exchange (ATIX)--a secure 
        platform for law enforcement, public safety, first responders, 
        and the private sector to share information.
  --The RISSLeads Investigative Website--enables law enforcement 
        officers to post information regarding cases or other law 
        enforcement issues.
  --The RISS Officer Safety Website--provides users with timely officer 
        safety information and a secure infrastructure to exchange and 
        share officer safety-related information.
  --The RISS Property and Recovery Tracking System (RISSProp)--houses 
        millions of pawn, secondhand, and other shop transactions to 
        enable officers to identify and return stolen property and 
        identify other related criminal activities.
  --The RISS Master Telephone Index (MTI)--an analytical database 
        designed to compare and match common telephone numbers in law 
        enforcement investigations from across the Nation.
  --The RISS Money Counter Project (MCP)--stores currency serial 
        numbers for comparison to currency submitted by officers in 
        previous cases.
  --The RISS Drug Pricing Reference Guide--an online tool that enables 
        officers to search for comparable prices on narcotics; serve as 
        a price guide when assessing the value of seizures and 
        contraband; and identify supply, demand, and popularity trends 
        within the drug market.
RISS provides essential officer safety event deconfliction and related 
        resources.
    The RISS Officer Safety Event Deconfliction System (RISSafe) 
supports law enforcement personnel who are conducting an event near one 
another at the same time. Events include law enforcement actions, such 
as undercover operations, surveillance, or executing search warrants. 
When certain elements are matched between two or more events, a 
conflict results. Immediate notification is then made to the affected 
agencies or personnel regarding the identified conflict.
    Since RISSafe's inception, 1,913,653 operations have been entered 
into RISSafe, resulting in 459,799 identified conflicts. Without the 
identification of these conflicts, officers may have interfered with 
another agency's or officer's investigation, links between cases may 
have been lost, or officers or citizens may have been unintentionally 
hurt or killed. RISSafe is accessible and monitored on a 24/7/365 basis 
and available at no cost to all law enforcement agencies. Currently, 29 
RISSafe Watch Centers are operational, 23 of which are operated by 
organizations other than RISS. In May 2015, the three nationally 
recognized event deconfliction systems--Case Explorer, SAFETNet, and 
RISSafe--were integrated. The partners worked in collaboration to 
accomplish this goal with the help of many vested partners. This 
partnership and system integration have further strengthened officer 
and citizen safety across the country.
RISS provides investigative and analytical services, training and 
        publications development, and comprehensive investigative 
        research, including

  --Equipment loans
  --Audio/video enhancements
  --Digital forensics
  --Case support
  --Field services
  --Examples of training
    --Building Resilience Against Violent Extremism
    --Prescription Drug Crimes
  --Examples of publications
    --Domestic Terrorism and Extremism
    --Orlando Pulse Nightclub
    --The Heroin Resurgence: A Painkiller Epidemic
RISS supports Federal and nationwide initiatives that enhance and 
        expand efficient and effective information sharing among the 
        criminal justice community.
    More than 1,000 Federal entities utilize RISS. RISS helps Federal 
programs meet information sharing mandates and serves as a bridge 
between local, State, regional, Federal, and Tribal law enforcement 
partners. Example partnerships include:

  --Federal Bureau of Investigation's (FBI) Law Enforcement Enterprise 
        Portal
  --FBI's Law Enforcement National Data Exchange (N-DEx)
  --High Intensity Drug Trafficking Areas
  --National Fusion Center Association
  --National Motor Vehicle Title Information System
  --Nationwide Deconfliction Council/National Virtual Pointer System
  --Nlets--The International Justice and Public Safety Network
  --Office of the Director of National Intelligence, Federal, State, 
        Local, Tribal--Information Sharing
  --U.S. Attorneys' Offices
  --U.S. Department of Homeland Security and the Homeland Security 
        Information Network (HSIN)
  --U.S. Department of Justice
RISS serves as an expert in intelligence and technology solutions, 
        including federation and single sign-on (SSO).
    RISS has streamlined processes, increased information sharing and 
officer access to critical data, enhanced the safety of officers and 
communities, and advanced important technology solutions. Examples of 
nationwide projects include:

  --Expanded access to N-DEx
  --Connected 19 fusion center intelligence systems to RISSIntel
  --Deployed HSIN/RISS federated search
  --Expanded law enforcement identity vetting and SSO capabilities
  --Integrated a one-time passcode, online registration, and new user 
        services
                             riss's impact
    RISS has been aggressively setting and achieving evidence-based 
goals since its inception. Below are some highlights of RISS's fiscal 
year 2018 results and productivity.

  --Developed 188,310 analytical products.
  --Loaned 2,527 pieces of specialized equipment.
  --Responded to and provided research and information for 74,898 
        requests for assistance.
  --Trained 43,145 law enforcement officers and personnel.
  --Provided access to more than 49.7 million records to authorized 
        personnel, including access to investigative databases, such as 
        RISSProp, the MCP, and the MTI.
  --Enabled users to conduct more than 5.1 million inquiries to RISS 
        resources.

    In addition, RISS services helped locate 1,175 individuals, resolve 
1,325 cases, and prosecute 310 cases in fiscal year 2018. Law 
enforcement agencies reported that by using RISS services, their 
officers were able to arrest more than 36,780 offenders and seize more 
than $629.6 million in narcotics, property, and currency over the last 
10 years. RISS is an excellent return on investment for our nation. 
Hundreds of shared successes are submitted to RISS each year from 
agencies utilizing RISS services. Examples can be viewed at 
www.riss.net/Impact.
                           investing in riss
    RISS's proposed efforts for fiscal year 2020 will increase the 
number of RISS users and the number of database records available to 
users, as well as the number of inquiries to RISSNET resources. Funding 
for technology initiatives will improve speed, security, access, and 
authentication and enhance the entire user experience.
The fiscal year 2020 request for $48 million will support the 
        following:
  --Operation of the six RISS Centers and all of their current support 
        services and resources
  --Operation of the RTSC (nationwide RISS data center)
  --Support for the 24/7/365 nationwide RISSafe Watch Center
  --Critical equipment and infrastructure
  --RISSGang enhancements
  --Trustmarks/federation expansion
  --RISS ATIX enhancements
  --Expansion of RISS's school safety response plans
  --Combating opioids, heroin, and narcotics
  --Expansion of RISSProp nationwide
  --Officer safety/deconfliction enhancements
  --Continued and additional support for fusion center partnerships

    RISS is a resource that saves agencies money and time and produces 
results. With increased funding, RISS can continue to operate while 
building on its successes. It would be counterproductive to require 
local and State RISS members to self-fund match requirements or to 
reduce the amount of Bureau of Justice Assistance discretionary 
funding. Agencies require more funding to fight the Nation's crime 
problem. RISS is unable to make up the decrease in funding that a match 
would cause, for it has no revenue source of its own. RISS is grateful 
to provide this testimony at your request and appreciates the support 
that this committee continuously provides to the RISS Program. For 
additional information, visit www.riss.net.

    [This statement was submitted by Donald F. Kennedy, Jr., Chair, 
RISS National Policy Group.]
                                 ______
                                 
                 Prepared Statement of Research!America
    Research!America appreciates the opportunity to submit testimony 
for the record. The Research!America alliance advocates for science, 
discovery, and innovation to achieve better health for all. We are 
grateful for the subcommittee's dedicated stewardship over funding for 
such crucial priorities as the National Science Foundation (NSF). As 
you consider fiscal year 2020 allocations, we request that the National 
Science Foundation (NSF) receive at least $9 billion to grow jobs, 
empower sustained economic growth, and advance the wellbeing of 
Americans and populations across the globe.
    NSF's portfolio, which is intentionally diverse to maximize the 
returns on science investment, spans biology, economics, engineering, 
mathematics, computer science, the social and behavioral sciences, and 
other high impact scientific disciplines. We firmly believe that robust 
funding for NSF is a sound strategy for advancing our Nation's 
strategic interests in an increasingly complex global landscape and 
meeting the goals and aspirations of the American people.
What the NSF Provides
    NSF funds diverse basic and applied research in local universities 
and other research institutions located in all 50 States, the District 
of Columbia and three U.S. territories. An estimated 386,000 students, 
teachers, researchers and postdoctoral fellows were empowered by the 
NSF in fiscal year 2018. Approximately 90 percent of NSF funding is 
allocated to grants or cooperative agreements to researchers through a 
competitive merit review process. Since 1950, NSF has supported more 
than 236 Nobel Prize winners, including five Nobel Laureates in 2018. 
The studies supported by NSF bear on virtually every sector of our 
economy, support cyber and other crucial areas of national security, 
and factor importantly into the productive use of big data and other 
highly promising avenues of research.
NSF Leverages American Ingenuity to Break New Ground in Science and 
        Technology
    NSF supports the type of high-risk research that drives progress 
and has resulted in recent, groundbreaking discoveries. Researchers are 
using the NSF-funded Stampede super computer at the Texas Advanced 
Computing Center to design next generation batteries by modeling 
interactions between atoms. This research is critical for storing 
energy from new smart grid technologies and wind turbines. The 
development of more advanced super computers also directly impacts the 
health and well-being of all Americans by helping researchers more 
accurately predict natural disasters and aid in the discovery of new 
therapeutic drugs. This progress would not have been possible without 
NSF investment in computer science, math and statistics.
    NSF-funded research continues to propel progress, often through 
collaboration across multiple fields. ``Lab on a chip'' devices can 
simulate human lungs to find treatments for diseases like COPD, asthma, 
and lung cancer in a more cost and time efficient manner. A team of 
chemists, engineers, and physicians have developed new way to evaluate 
the results of these studies in real time using light, further speeding 
up the treatment discovery process. Through NSF's continued support, 
fields work together to produce cutting-edge research that pushes the 
fields of medicine, engineering, and biomedical science forward.
Americans Understand the Value NSF Delivers
    Since 1992, Research!America has commissioned national and State-
level surveys to gauge public sentiment on issues related to research 
and innovation. One of the most consistent finding over time has been 
Americans' support for basic research. In our most recent survey, 
fielded in January of 2019, 80 percent of respondents agreed that 
``even if it brings no immediate benefits, basic scientific research 
that advances the frontiers of knowledge is necessary and should be 
supported by the Federal Government.'' Our surveys have also explored 
Americans' perspectives on the role of NSF funded tools in advancing 
key national priorities. For example, a large majority of Americans--
83%--assign importance to putting science, technology and engineering 
to work to strengthen U.S. infrastructure.
NSF is Crucial to Training the Next Generation of American Scientists 
        and Innovators
    Our Nation's continued global leadership is inexorably linked to 
our strength in the fields of Science, Technology, Engineering, and 
Mathematics (STEM). NSF fosters future American leaders in these 
strategically important disciplines. Since 1952, NSF has supported more 
than 57,700 students through Graduate Research Fellowships and has 
provided grant support to thousands of postdoctoral fellows and young 
investigators. The agency also engages in innovative educational 
initiatives such as NSF INCLUDES (Inclusion across the Nation of 
Communities of Learners of Underrepresented Discoveries in Engineering 
and Science), a national initiative to make STEM education more 
inclusive of underrepresented and underserved populations. Efforts like 
this set the stage for future success as our Nation seeks to accelerate 
the pace of medical and scientific progress.
    Research!America appreciates the difficult and complex task facing 
the subcommittee as it seeks to prioritize funding in a manner that 
best serves the American people. In that context, we urge to provide at 
least $9 billion for NSF. We hope you will call on our organization if 
additional information would prove useful. Thank you for your continued 
leadership and consideration.

    [This statement was submitted by Mary Woolley, President and CEO.]
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    The National Sea Grant College Program (Sea Grant) is a joint 
Federal-State investment that supports the health and resilience of the 
Nation's coastal communities (including the Great Lakes, Gulf of 
Mexico, and communities on the Atlantic and Pacific coasts), yielding 
quantifiable economic, social, and environmental benefits at the 
national, regional, State, and local levels. It is a program of the 
National Oceanic and Atmospheric Administration, Department of 
Commerce.
    The administration, for the third year in a row, is recommending 
elimating funding for the Sea Grant program, including the Knauss 
Fellowship Program and research on sustainable aquaculture. The Sea 
Grant Association (SGA), a non-profit organization dedicated to 
furthering the Sea Grant Program concept whose members are the academic 
institutions that participate in the National Sea Grant College 
Program, strongly opposes the administration's fiscal year 2020 
proposal. The SGA is deeply appreciative of the support this 
subcommittee has consistently provided the Sea Grant program, rejecting 
past administration proposals to elinate funding for the program. We 
urge the subcommittee to continue to support the Sea Grant program when 
it develops its fiscal year 2020 appropriations bill.
    The Sea Grant Association recommends that the National Sea Grant 
College Program, including the Knauss Fellowship Program, Sea Grant 
STEM education activities, and research on aquaculture, be funded at a 
total of $93.5 million for fiscal year 2020, an amount consistent with 
the total amount proposed in S. 129 (that passed the Senate unanimously 
in September 2017). These funds are necessary so that each of the 33 
university based programs can best serve the needs of its local and 
regional stakeholders and partners. These needs have been identified 
via each program's collaborative strategic planning process with its 
stakeholders.
    In 1966, Congress passed the National Sea Grant College and Program 
Act that charged the Federal Government to develop a network of Sea 
Grant Colleges modeled after the Land Grant College system. This model 
combines research and engagement through its extension services and 
education programs. Sea Grant extension can be defined as the delivery 
of scientific research and knowledge to fishermen, community leaders, 
and other Sea Grant stakeholders. From the beginning, it was 
anticipated that the three pillars of research, extension, and 
education, and the network of cooperating universities would be 
mutually supporting. Sea Grant economic impact numbers including 2,500 
business created or sustainedand 12,500 jobs created or sustained 
confirm that Sea Grant has benefited the vitality of coastal 
communities, habitats and ecosystems together with the marine resources 
upon which they depend far more profoundly than even Sea Grant's 
founders could have imagined.
    Central to the power of the Sea Grant model is the synergistic 
interplay of goal-directed research conducted by many of our Nation's 
finest scholars with the rapid and sustained delivery of that knowledge 
toward solving societally-relevant problems and making more informed 
choices. Sea Grant's research agenda is informed through stakeholder 
input and is directed toward solving local, regional and national 
coastal issues. The education of the next generation in diverse fields 
is intimately integrated into both Sea Grant's research and extension 
activities. These activities taken together support the economic and 
environmental vitality of our Nation's ocean, coast, and Great Lakes 
and the communities that depend on them. For over 50 years, Sea Grant 
research, extension, and education have substantively engaged coastal 
and Great Lakes communities. Sea Grant's mission is to enhance the 
practical use and conservation of coastal, marine, and Great Lakes 
resources in order to create a robust and sustainable economy and 
environment.
    Increasing aquaculture production and reducing extreme weather 
impacts are both key priorities of the Department of Commerce and NOAA. 
The United States imports about 90 percent of its seafood, creating an 
annual seafood trade deficit exceeding $14 billion. With worldwide fish 
consumption projected to increase by 21 percent in the next decade, our 
seafood deficit will continue to grow if sustained action is not taken. 
Sea Grant is a leader in supporting aquaculture research and 
development that lead to jobs and increased domestic production of safe 
and sustainable seafood. Through its locally based research, extension, 
and education programs, its national perspective, and its longstanding 
role in aquaculture, Sea Grant is ideally positioned to play an 
expanded role in the Commerce Department's focus on reducing the 
Nation's seafood trade deficit.
    Sea Grant can also assist NOAA efforts to better prepare for and 
recover from extreme weather and water events by informing observations 
and developing research-based coastal community resiliency practices. 
Population density in coastal communities is increasing as people are 
attracted to the beauty, economic opportunities, and recreational 
activities offered by these localities. According to the most recent 
completed census (2010), 39 percent of all Americans live in coastal 
and Great Lakes counties, and projections suggest that this will 
increase by another 8 percent by 2020. Sea Grant is helping coastal 
communities cope with the strain that population expansion places on 
local resources and the increased need for hazard preparedness 
planning. In recent years, coastal communities have experienced an 
increased risk to lives and property from storms and natural disasters. 
Weather events like hurricanes, tornadoes, and snowstorms have 
increased in number and intensity, posing threats to people, animals, 
livelihoods, and ecosystems. In cost-effective ways, Sea Grant is 
assisting States, regions, and local communities to improve both their 
preparedness, resilience, and recovery to, challenges due to increased 
extremes and variability in weather and other natural disasters. Sea 
Grant is helping coastal communities in Texas, Puerto Rico, North 
Carolina, South Carolina, Florida and other States recover from 
Hurricanes Harvey, Irma, Maria, Florence, and Michael and prepare for 
future severe storms and other catastrophic events.
    The $93.5 million requested for Sea Grant in fiscal year 2020 will 
continue progress in research, extension, education, and outreach at 
the local, State, regional and national levels.
    In 2017, the Sea Grant program helped generate an estimated $579 
million in economic impacts, created or supported over 12,500 jobs, 
provided 33 state-level programs with funding that assisted 462 
communities improve their resilience, helped nearly 17,700 fishers 
adopt safe and sustainable fishing practices, helped restore an 
estimated 700,000 acres of coastal ecosystems, worked with about 1,300 
industry and private sector, local, state and regional partners, and 
supported the education and training of over 1,800 undergraduate and 
graduate students. The Sea Grant program achieved this with a 
congressional appropriation in fiscal year 2017 of $72.5 million, that 
were leveraged with matching funds.
    Sea Grant is a unique program within NOAA that sends 95 percent of 
its appropriated funds to coastal States through a competitive process 
to address issues that are identified as critical by public and private 
sector constituents and coastal communities throughout the United 
States. Sea Grant fosters cost-effective partnerships among State 
universities, State and local governments, NOAA, and coastal 
communities and businesses.
    Funding for Sea Grant results in support for sustainable fisheries 
and aquaculture, resilient communities and economies, healthy coastal 
ecosystems, environmental literacy, the Sea Grant Knauss Fellows and 
other fellowship programs, and workforce development. In its 50 plus-
year history, National Sea Grant College Program successes can be 
attributed to its ability to respond to the changing needs of our 
coastal communities. Sea Grant's programs are integrated into both the 
National Sea Grant and NOAA's national strategic plans. Each tailored 
and therefore maximally effective program executes the following 
objectives:

  --Sea Grant has capacity, breadth, and depth. Sea Grant brings the 
        expertise of its vast network of universities, research 
        institutions, faculty, students, staff, and facilities, with 
        on-the-ground and in-the-field knowledge. This knowledge, 
        bolstered by established ties and credibility with communities 
        and community leaders, results in the conversion of science and 
        technology into practical use and informed decisionmaking.
  --Sea Grant facilitates opportunities. Sea Grant engages partners, 
        stakeholders, and constituents through its nimbleness, capacity 
        for rapid response, and multifaceted ability to address 
        critical issues and needs facing the Nation.
  --Sea Grant is proactive. Sea Grant has engaged in planning, 
        resilience, hazard preparedness and recovery, and participated 
        in the overall ``Blue Economy'' before the terms were 
        popularized in national programs. Sea Grant has been engaged in 
        an ongoing visioning exercise. For example, in 2016, the Sea 
        Grant network developed a 10-year aquaculture vision that 
        outlines the most pressing needs and opportunities to foster 
        sustainable aquaculture development across the country.
  --Sea Grant is there for its stakeholders. The needs and desires of 
        the nation's taxpayers who live, work, and play in coastal 
        America for products and services that Sea Grant provides are 
        rapidly increasing. This is because Sea Grant is recognized and 
        trusted for its ability to work with local constituents to 
        better understand their needs and deliver relevant information 
        and services.

    Local, State, regional, and national partnerships are critical to 
addressing these and other issues central to the survival of our 
coastal communities, economies, and ecosystems. Coastal and Great Lakes 
communities need to be informed, engaged, and prepared to respond to 
these threats and to turn these adversities into opportunities. This is 
precisely what Sea Grant does.
    For over 50 years, Sea Grant has been at the forefront of creating 
economic opportunities, enhancing food and water security, and reducing 
risks from natural hazards and extreme events facing coastal 
communities through research and outreach efforts. Sea Grant is user-
driven and university-based, and fully engaged with regional, State, 
and local organizations.
    With $93.5 million in Federal funding, Sea Grant will leverage 
significant State and local support, continue to increase the economic 
development and resiliency of coastal communities, and help sustain the 
health and productivity of the ecosystems on which they depend.
    Thank you for the opportunity to present this testimony.

    [This statement was submitted by Dr. Fredrika Moser, President, and 
Director, Maryland Sea Grant.]
                                 ______
                                 
   Prepared Statement of SEARCH, the National Consortium for Justice 
                       Information and Statistics
                              introduction
    Thank you, Mr. Chairman and Members of the subcommittee, for the 
opportunity to submit testimony on the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2020 Commerce, Justice, 
Science, and Related Agencies appropriations bill. SEARCH recommends an 
appropriation of at least $75 million for the National Criminal History 
Improvement Program (NCHIP) and the National Instant Criminal 
Background Check System (NICS) Act Record Improvement Program (NARIP), 
which is the amount that was included in the 2019 Consolidated 
Appropriations Act.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying Members 
from the States and territories have the responsibility, among other 
things, to oversee both NCHIP and NARIP within their States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs. Robust 
funding for these programs in prior years, as reflected in the fiscal 
year 2018 and fiscal year 2019 Commerce, Justice, Science and Related 
Agencies appropriations was welcomed by the States who use the funding 
to modernize and enhance operations and technology, and to more 
effectively share data for critical criminal justice and public safety 
decisions. NCHIP funding has helped States vastly improve the quality 
and completeness of criminal history records, and to make this 
information immediately available and broadly accessible nationwide. 
NARIP funding has significantly improved information for firearms 
eligibility determinations via the NICS system, including increasing 
mental health records availability to NICS by nearly 1600 percent.\1\
---------------------------------------------------------------------------
    \1\ https://www.ncjrs.gov/pdffiles1/bjs/grants/249793.pdf
---------------------------------------------------------------------------
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
not only informs a variety of justice and public safety decisions, but 
also and increasingly critical noncriminal justice decisions, such as 
those regarding applicants for employment and licensing; volunteers who 
work with children, elderly and other vulnerable populations; and 
individuals purchasing firearms. It is important to recognize that 
information stored in State criminal history record repositories 
throughout the Nation and used for criminal justice decisionmaking 
(such as at arrest, prosecution, sentencing, and community 
supervision), is precisely the same information that is required for 
other public safety and noncriminal justice decisions (such as 
employment and licensing decisions and for firearms eligibility 
determinations).
    The States are leveraging prior Congressional funding to engage in 
broad-scale initiatives and partnerships with other State agencies to 
improve and enhance criminal history record information collection and 
sharing. These partnerships between the criminal history repositories 
and State courts, corrections, prosecution and mental health agencies--
among others--have been stimulated through these substantive grant 
funding streams, which enable the development of enterprise solutions 
to address universal interagency information sharing challenges. 
Continued progress and substantive advances rely in no small measure on 
new funding in fiscal year 2020.
    SEARCH appreciates the subcommittee's recognition that while both 
NCHIP and NARIP focus on improvements to the efficiency, effectiveness, 
timeliness, and accuracy of criminal history record and associated data 
for decisionmaking purposes, each program emphasizes specific and 
distinct goals.
    NCHIP allows States to focus on a broad range of criminal history 
improvement activities that are unique and specific to each State. 
States have identified and prioritized the improvements needed in their 
systems to support critical decisionmaking at the State and national 
level for both criminal and civil decisions. Some of those priorities 
include improving arrest records, increasing disposition reporting, 
expanding conviction record availability in the Federal systems, and 
enhancing positive identification capabilities.
    Maine, for example, has used NCHIP funding to locate missing 
criminal history record dispositions or fingerprint-supported records, 
specifically focusing on improving felony, sex offender and domestic 
violence records. Connecticut has used NCHIP funding to migrate paper 
criminal history record dispositions into a searchable electronic 
format to improve the overall efficiency in searching disposition 
records and reducing the disposition backlog. South Carolina has used 
NCHIP funding to hire individuals to conduct training to ensure that 
records conform to FBI standards, add thousands of dispositions to the 
State's criminal history records repository, and process thousands of 
expungements.
    The flexibility of NCHIP funding allows States to enhance 
enterprise information sharing and data used to support a myriad of key 
decisions in the justice arena each and every day. For example, the 
lack of positive, biometric identification associated with criminal 
history records is often a major challenge. Kentucky used NCHIP funding 
to develop a Court Fingerprint Notification application within its E-
Warrants system. When an offender appears before a judge, the judge 
will be automatically notified if the offender's fingerprints are not 
on file, enabling the judge to order that fingerprints be taken, 
thereby supporting efforts to establish and verify identity with 
biometric precision. Michigan used NCHIP funding to create an 
instructional training video to provide local agencies with easily 
accessible information regarding the proper submission of fingerprints 
and criminal history record data.
    In contrast to NCHIP grant funding, NARIP funding focuses 
specifically on improving information sharing with NICS for firearms 
purchases. There are 10 categories established in Federal law that 
disqualify an individual from purchasing firearms. They include 
disqualifiers such as felony conviction information, fugitive from 
justice, domestic violence protection order, involuntary commitment to 
mental health institution, etc.
    Nearly 90 percent of the records used to make these disqualifying 
decisions are based on the information that States provide to NICS.\2\ 
That information comes from three key sources: the Interstate 
Identification Index (III--the national system for exchanging criminal 
record information), the National Crime Information Center (NCIC--an 
automated, nationally accessible database of crime data, criminal 
justice and justice-related records, including wanted persons and 
protection orders) and the NICS Indices (created for presale background 
checks of firearms purchase). Any efforts States undertake to improve 
the information contribution to any of these databases enhance the 
effectiveness of firearms eligibility decisionmaking.
---------------------------------------------------------------------------
    \2\ FBI Criminal Justice Information Services III Statistics, 
February 1, 2013
---------------------------------------------------------------------------
    NARIP grants allow States to improve information made available to 
NICS, such as increasing the number of disqualifying mental health 
records into the NICS Indices and domestic violence orders of 
protection into the NCIC. Such targeted funding assists States in 
meeting the challenges specifically associated with getting information 
to the system. As valuable as the program is, however, NARIP funds are 
only available to 31 States at this point, since not all States qualify 
for the funding.\3\
---------------------------------------------------------------------------
    \3\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 31 States have met requirement #1.
---------------------------------------------------------------------------
    States that do qualify for NARIP funding can target information 
sharing efforts to improve their contributions to NICS. For example, 
NARIP grant funds have significantly improved the records that New York 
State makes available to the NICS Indices. New York State can now 
efficiently transmit records of mental health involuntary admissions 
and civil guardianships to NICS. New York State also collects and 
reports Misdemeanor Crimes of Domestic Violence (MCDV) convictions to 
NICS so that vulnerable spouses, children and intimate partners are 
further protected. Nebraska has utilized NARIP funding to develop a 
Protection Order Portal that enables local law enforcement to 
efficiently enter protection orders into NCIC, making them available 
for NICS checks.

SEARCH makes three key recommendations regarding NCHIP and NARIP 
        funding:

1.  Support NCHIP funding for improvements to State criminal history 
record information to robustly support criminal and civil 
decisionmaking nationwide.

    The NCHIP program has been successful in helping States improve the 
accuracy, reliability and completeness of their automated criminal 
history record systems. Meaningful NCHIP funding will more broadly 
improve the Nation's criminal justice information sharing backbone. 
Moreover, the Federal investment can be leveraged many times over by 
contributing to the ability of State and local criminal justice 
agencies to provide timely, accurate and compatible information to 
Federal programs, such as the III. And, importantly, all States qualify 
for funding under NCHIP.
    NCHIP funding since fiscal year 2014 has reinvigorated an important 
and timely program. Because State criminal history records are the 
principal source for the FBI's III database, any constraints on the 
States weakens the ability of many State and Federal programs to 
identify threats and keep our Nation safe.

2.  Continue to invest in improving background screening for firearms 
purchases.

    We urge Congress to continue the investment in the Federal-State 
criminal background screening partnership that comprises NICS. NICS is 
a critical tool in the fight against gun violence, and the States and 
FBI rely on NICS every day for informed decisionmaking on firearms 
transactions.
    There are still many opportunities for improving the timeliness and 
availability of information to NICS. Millions of records related to 
felony convictions, cases under indictment or information, fugitives 
from justice and drug abusers-all NICS disqualifying categories-remain 
open and unavailable to NICS. While States have made significant 
strides in making mental health records available to NICS, many States 
need continued support to target information sharing in the other 
prohibitor categories to further improve their information sharing to 
NICS.

3.  Provide an appropriation of $75 million for NCHIP and NARIP.

    Providing at least level funding for NCHIP and NARIP in fiscal year 
2020 will allow States to utilize these programs to improve their 
criminal history records in support of general criminal justice and 
civil decisionmaking, as well as improvements to background screening 
for firearms purchases.
                               conclusion
    SEARCH thanks the Chairman and Members of the subcommittee for 
their steadfast support of these programs in the face of daunting 
budget challenges. Given the critical importance of criminal history 
record information for a broad spectrum of decisions that keep our 
citizens safe from predators, terrorists and other criminals, it is a 
worthwhile and needed investment. The accuracy, completeness and 
reliability of the Nation's criminal history record system is more 
important than ever before, for criminal investigations, officer 
safety, sentencing and other criminal justice purposes; for expungement 
and other reentry strategies; for homeland security and anti-terrorism 
purposes; for public noncriminal justice purposes, such as licensing 
and employment suitability and firearms purchases; and for research 
that provides critical guidance in shaping law and policy.
    SEARCH encourages Congress to allow States to tailor their use of 
NARIP and NCHIP funding to address the specific challenges each State 
faces, as the examples discussed earlier clearly illustrate, in making 
more records available to the national system.
    On behalf of SEARCH's Governor-appointees, and the thousands of 
criminal justice officials who benefit from SEARCH's efforts, I thank 
you for your consideration.

    [This statement was submitted by David J. Roberts, Executive 
Director.]
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
                      national science foundation
    Summary: This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2020 by providing NSF with $9 billion to advance both core 
research areas and NSF's Big Ideas for Future Investment. These Big 
Ideas dramatically propel interdisciplinary research forward while 
revolutionizing quantum communications, medicine, and other areas. In 
particular, we urge you to provide strong support for the Research and 
Related Activities Account (RRA) that supports key applied mathematics 
and computational science programs in the Division of Mathematical 
Sciences and the Office of Advanced Cyberinfrastructure. SIAM also 
requests your support for the Education and Human Resources (EHR) 
directorate that addresses fundamental challenges in mathematics and 
STEM education.
    Full Statement: On behalf of SIAM, we submit this written testimony 
for the record to the Subcommittee on Commerce, Justice, Science, and 
Related Agencies of the Committee on Appropriations of the U.S. Senate.
    SIAM has over 14,000 members, including applied and computational 
mathematicians, computer scientists, numerical analysts, engineers, 
statisticians, and mathematics educators. They work in industrial and 
service organizations, universities, colleges, and government agencies 
and laboratories all over the world. In addition, SIAM has almost 500 
institutional members, including colleges, universities, corporations, 
and research organizations. SIAM members come from many different 
disciplines but have a common interest in applying mathematics in 
partnership with computational science to solve real-world problems, 
which affect national security and industrial competitiveness.
    First, we would like to emphasize how much SIAM appreciates your 
Committee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2020 and beyond. In particular, we join with the 
research and higher education community and request that you provide 
NSF with at least $9 billion in funding for fiscal year 2020. After 
years of stagnant funding before fiscal year 2018, NSF needs bold 
growth to protect U.S. competitiveness as countries such as China are 
rapidly increasing their science and engineering investments. According 
to the National Science Board, in fiscal year 2017, NSF rejected close 
to four billion dollars of proposals rated ``very good or higher'' due 
to budget constraints. Funding of $9 billion would help the agency 
address critical unmet national research needs and historical 
underinvestment.
    As we are reminded every day, the Nation's economic strength, 
national security, and welfare are being challenged in profound and 
unprecedented ways. Many of these challenges are fueled by gaps in our 
understanding of complex systems such as cyberspace, terrorist 
networks, the human brain, or the energy grid. Mathematics and 
computational science play a foundational and cross-cutting role in 
understanding these systems through advanced modeling and simulation, 
developing techniques essential to designing new breakthrough 
technologies like Artificial Intelligence, and providing new tools for 
managing resources and logistics. Progress in computational sciences 
and applied mathematics also underpins advances across an array of 
fields and challenges in computing, materials, biology, engineering, 
and other areas.
                      national science foundation
    NSF serves a unique and critical function supporting all areas of 
science and engineering to further innovation and seed the knowledge 
and technologies for a strong future America. NSF provides essential 
Federal support for applied mathematics and computational science, 
including 64 percent of all Federal support for basic academic research 
in the mathematical sciences. Of particular importance to SIAM, NSF 
funding supports the development of new mathematical models and 
computational algorithms, which are critical to making substantial 
advances in such fields as neuroscience, energy technologies, genomics, 
and nanotechnology. In addition, new techniques developed in 
mathematics and computing research often have direct application in 
industry. Modern life as we know it--from search engines like Google to 
the design of modern aircraft, from financial markets to medical 
imaging--would not be possible without the techniques developed by 
mathematicians and computational scientists using NSF funding. NSF also 
supports mathematics education at all levels, ensuring that the next 
generation of the U.S. workforce is appropriately trained to 
participate in cutting-edge technological sectors and that students are 
attracted to careers in mathematics and computing.
    SIAM supports NSF's investments in the 10 Big Ideas for Future 
Investment, which represent major scientific challenges where sustained 
investment can make a transformative difference. In particular, SIAM 
urges support for the Harnessing the Data Revolution, Understanding the 
Rules of Life, and Quantum Leap Big Ideas, which each have 
revolutionary potential. SIAM applauds NSF's programs in these areas, 
such as the Institutes for Data-Intensive Research in Science and 
Engineering, Quantum Leap Challenge Institutes, TRIPODS \1\ Institutes, 
and the NSF-Simons Research Centers for Mathematics of Complex 
Biological Systems. While Big Ideas investments are important, SIAM 
urges Congress to provide sufficient NSF support for core programs, 
which have stagnated in recent years and whose foundational investments 
underpin advances across many science and engineering challenges.
---------------------------------------------------------------------------
    \1\ Transdisciplinary Research on Principles of Data Science

SIAM urges strong investment in the Research and Related Activities 
account (RRA) to enable robust funding for the Division of Mathematical 
Sciences (DMS), the Office of Advanced Cyberinfrastructure (OAC), and 
other core programs for essential mathematical and computational 
science research, workforce development programs, and early career 
---------------------------------------------------------------------------
researcher support.

                 nsf division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides core support for 
all mathematical sciences. DMS also funds national mathematical science 
research institutes; infrastructure, including workshops, conferences, 
and equipment; and postdoctoral, graduate, and undergraduate training.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, underpin 
advancements across science and engineering and provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, and the human body.
    Investment in DMS is critical because of the foundational and 
cross-cutting role that mathematics and computational science play in 
sustaining the Nation's economic competitiveness and national security, 
and in making substantial advances on societal challenges such as 
energy and public health. NSF, with its support of a broad range of 
scientific areas, plays an important role in bringing U.S. expertise 
together in interdisciplinary initiatives that bear on these 
challenges. Agencies such as the Department of Defense and National 
Institutes of Health depend on the NSF-supported applied math and 
computational sciences ecosystem to fulfill their missions as they 
build on NSF-funded modeling, algorithm, and simulation breakthroughs 
and leverage the workforce trained using NSF support. Both agencies and 
foundations partner with NSF thereby leveraging Federal funding for 
maximum impact, such as with the Joint NSF/National Institutes of 
Health Initiative Quantitative Approaches to Biomedical Big Data 
(QuBBD).
               nsf office of advanced cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Advanced Cyberinfrastructure (OAC) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM strongly endorses OAC's efforts as a steward for computational 
science, building bridges across NSF to accelerate transformational 
science and engineering, and driving universities to improve their 
research and education programs in this multidisciplinary area.
    SIAM strongly endorses NSF's role advancing high performance 
computing to meet critical national security needs, fully leverage 
computing technology for economic competitiveness and scientific 
discovery, and position the U.S. for sustained technical leadership.
        supporting the pipeline of mathematicians and scientists
    Funding for NSF's Education and Human Resources (EHR) directorate 
has stagnated for many years leaving critical gaps in addressing 
fundamental challenges for mathematics and STEM education across 
educational levels. SIAM supports EHR and its programs like Improving 
Undergraduate STEM Education (IUSE), which is key to both advancing 
STEM professional development and developing a STEM literate citizenry. 
SIAM notes that mathematical education is foundational to STEM learning 
across disciplines, and NSF should continue to fund development of 
mathematical and computational skills, including at the undergraduate 
level when young scientists and engineers gain critical interests and 
competencies.
    SIAM is deeply concerned by proposals in the budget request to cut 
the Graduate Research Fellowships and CAREER awards that are crucial to 
the training and professional development of the next generation of 
leadership in mathematical sciences research and education.
                               conclusion
    We would like to thank you again for your ongoing support of NSF 
that enables the research and education communities it supports, 
including thousands of SIAM members, to undertake activities that 
contribute to U.S. health, security, and economic strength. NSF needs 
sustained growth to maintain our competitive edge in science and 
technology, and therefore we respectfully ask that you continue robust 
support of these critical programs in fiscal year 2020.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM. SIAM looks forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2020 
appropriations process.

    [This statement was submitted by Lisa Fauci, President, and Anne 
Gelb, Vice President for Science Policy.]
                                 ______
                                 
  Prepared Statement of the Society for Industrial and Organizational 
                               Psychology
        national science foundation appropriations and language
    On behalf of the Society for Industrial and Organizational 
Psychology (SIOP), we are pleased to provide this written testimony to 
the Senate Appropriations Subcommittee on Commerce, Justice, and 
Science, and Related Agencies for the official record. In this 
testimony, SIOP urges the subcommittee to consider two requests: 
provide $9 billion for the National Science Foundation (NSF), including 
strong support for the Directorate for Social, Behavioral, and Economic 
Sciences (SBE), in the fiscal year 2020 appropriations process; and 
include report language to encourage NSF to more rigorously implement 
the science of team science in the agency's funding strategies for 
large-scale and multi-disciplinary research projects.
                         appropriations support
    SIOP is a community of nearly 10,000 members worldwide with a 
common interest in promoting the research, practice, and teaching of 
industrial and organizational (I-O) psychology to enhance human well-
being and performance in organizational and work settings. SIOP 
provides a platform for scientists, academics, consultants, and 
practitioners to collaborate, implement, and evaluate cutting-edge 
approaches to workplace challenges across sectors.
    SIOP and its members recognize and appreciate the challenging 
fiscal environment in which we, as a nation, currently find ourselves; 
however, we also have evidence that Federal investment in social and 
behavioral science research directly and positively impacts the U.S. 
economy, national security, and the health and well-being of Americans.
    Through SBE, NSF supports basic research to develop a scientific 
evidence base for improving the performance, effectiveness, management, 
and development of organizations and the workforce. The methods, 
measurements, and theories developed through this Federal investment 
enhance business practices, policy-making, and interprofessional 
collaboration. The evidence base derived from basic research in the 
science of organizations is applied throughout the public and private 
sectors. For example, Federal research agencies across the government, 
including the Department of Defense (DoD), National Aeronautics and 
Space Administration (NASA), the Department of Justice (DOJ), NSF, etc. 
invest in I-O research that enhances organizational effectiveness and 
human performance. Findings from this work also improve the 
effectiveness of the private sector and Federal workforces.
    Additionally, new pressures to address privacy, performance, and 
safety in the workplace have further expanded the need for Federal 
investment in social and behavioral science research, especially in I-O 
psychology, emphasizing the importance of the entire work system in 
addition to the individual. Cybersecurity threats, subtle and formal 
discrimination, talent shortages in technical jobs, displacement, and a 
host of other recent events and conditions have catalyzed the 
development and application of new methodologies for studying how 
people think and behave in the workplace.
    SIOP also supports NSF's dedication to its ``10 Big Ideas,'' \1\ 
including Work at the Human-Technology Frontier, which seeks to address 
and improve human-technology interactions as workplaces integrate and 
adapt to artificial intelligence, automation, machine learning, and 
beyond. In addition to developing these technologies, successful 
implementation relies on understanding human learning at various stages 
of life, and improving education and training to appropriately use 
these technologies.
---------------------------------------------------------------------------
    \1\ National Science Foundation-proposed ``10 Big Ideas'' (https://
www.nsf.gov/about/congress/reports/
nsf_big_ideas.pdf?dm_i=1ZJN,4FGWL,E29O0Q,GB891,1)
---------------------------------------------------------------------------
    With funding assistance from NSF and other Federal agencies, the 
field of I-O psychology has developed data-driven methods to predict 
successful teams, address workplace dysfunction, improve the work 
experience of individuals, and enhance job performance and employee 
engagement. Use of this rich knowledge and understanding has informed 
and benefitted both private companies and the public workforce. 
Continued Federal support for I-O psychology keeps its knowledge and 
expertise in the public domain and enhances shared workplace efficiency 
and understanding of worker well-being at all levels. Other 
applications of I-O psychology include: improving airline safety 
through Crew Resource Management, transitioning veterans and service 
members to civilian jobs, managing age diversity in the workplace, 
accounting for the technology-enabled workforce, and mitigating the 
impact of furloughs on the Federal workforce, among many others.
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, SIOP supports an 
overall fiscal year 2020 NSF budget of $9 billion. SIOP requests robust 
support for the NSF SBE Directorate, which funds important research 
studies, enabling an evidence base, methodology, and measurements for 
improving organizational function, performance, and design across 
sectors and disciplines.
                        science of team science
    Recently, I-O psychologists with expertise in SciTS have been 
engaging with NSF program officers and leadership to ensure their 
findings are fully ingrained in the agency's new models and approaches 
for funding cross-disciplinary science and/or large-scale research 
projects (e.g. Engineering Research Centers; Science and Technology 
Centers; Convergence Accelerators). SIOP feels this is important 
because as NSF increasingly encourages and promotes team science, 
taking additional steps to ensure evidence-based team science is 
considered in multi-partner initiatives would improve communication 
between researchers, productivity, efficiency and cost-effectiveness.
    NSF has funded several team science studies through the Directorate 
for Social, Behavioral, and Economic Sciences (SBE), and program 
officers across directorates have expressed interest in leveraging team 
science to improve multi-disciplinary awards, including participating 
in one-on-one conversations with SIOP experts and inviting them to 
present on NSF panels. SIOP appreciates NSF's interest in learning more 
about leveraging SciTS to improve programs and collaborations at the 
agency. Appropriations report language to further encourage this 
interest would build on existing momentum and catalyze meaningful 
action.
    For further reference, SIOP members served on the National 
Academies' Committee on the Science of Team Science, which produced the 
2015 report on this topic: https://www.nap.edu/catalog/19007/enhancing-
the-effectiveness-of-team-science. Also, slides and recordings from 
NSF's 2018 Accelerating Engineering Research Center Preparedness 
Workshop can be found at: https://ercbiennial.asee.org/2018-pgw/
program/. SIOP members Drs. Steve Kozlowski and Kara Hall present on 
team science.
                       requested report language
    Team Science.--The Committee encourages NSF to continue to seek 
ways to implement the science of team science as the agency develops 
new models and approaches for funding large-scale and cross-
disciplinary science. In particular, the Committee encourages NSF to 
ensure that it is implementing the recommendations from the 2015 
National Academies of Sciences, Engineering, and Medicine report, 
Enhancing the Effectiveness of Team Science.\2\
---------------------------------------------------------------------------
    \2\ https://www.nap.edu/catalog/19007/enhancing-the-effectiveness-
of-team-science
---------------------------------------------------------------------------
    Thank you for the opportunity to offer SIOP's support for NSF. 
Please do not hesitate to contact SIOP should you have any questions. 
Additional information is also available at www.siop.org.

    [This statement was submitted by Dr. Talya Bauer, President, and 
Jeff Hughes, Executive Director.]
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
              support for the national science foundation
    Mr. Chair and Members of the subcommittee, I am Diane Lipscombe, 
President of the Society for Neuroscience (SfN), and it is my honor to 
present this testimony on behalf of SfN in support of increased funding 
for the National Science Foundation (NSF), to $9 billion, for fiscal 
year 2020. I am offering this testimony in my capacity as President of 
SfN, now entering its 50th year, an association of nearly 37,000 
neuroscientists from all 50 States and around the world. Our members 
stand with the broader scientific community in requesting increased 
funding for NSF in fiscal year 2020, which will advance understanding 
of basic brain functions, enable the development of new technologies to 
study brain function, and catalyze yet unimagined discoveries in 
neuroscience research. Moreover, SfN urges Congress to provide relief 
from the draconian cuts set to take effect as a result of the Budget 
Control Act (BCA). By raising the caps directed by the BCA, Congress 
can ensure that we do not backslide on previous support for scientific 
research and discoveries. We also urge the Committee to complete their 
appropriations work in advance of the September 30 deadline to provide 
predictability and stability to scientists relying on Federal funding 
to support their work.
    As a neuroscience researcher and Director of The Carney Institute 
for Brain Science at Brown University, I see the impact of Federal 
funding for neuroscience research daily. For example, at Brown 
University, we are developing new approaches to the brain machine 
interface, which could dramatically improve the quality of life of 
individuals who depend on prosthetic devices or who may have restricted 
mobility, such as paralysis resulting from a stroke or traumatic brain 
injury. The success of this technically-demanding research, depends on 
the combined skills of neuroscientists, computer scientists, engineers, 
neurologists, neurosurgeons and mathematicians, and other disciplines 
to help those impacted regain movement and independence using brain-
controlled technology. Collaboration across scientific disciplines 
continues to advance new research involving computational 
neuroscientists, cognitive neuroscientists, and data scientists in the 
Carney Institute for Brain Science at Brown. This collaboration 
develops new mathematical approaches for extracting content rich 
information from large data sets of human brain activity. Computational 
tools are now essential to neuroscience research as we study massive 
datasets resulting from the Brain Research through Advancing Innovative 
Neurotechnologies (BRAIN) Initiative, including those that map the 
millions of connections between neurons and enable us to understand 
high level brain function.
    NSF funded research has contributed significantly to transformative 
scientific discoveries. Notably, since 1952, 217 Nobel Prize recipients 
were recipients of NSF funding. NSF provides the investments needed in 
basic science to bring about the next breakthroughs in technology, 
health, and education toward improved well-being for all Americans. 
Increasing the NSF budget is thus critical to the continued ability of 
researchers to make impactful scientific advancements, speed innovative 
research, and allow for the development of powerful tools to advance 
our understanding of brain function. As we age, the incidence of brain 
disease grows at a frightening rate and we must double down on our 
collective efforts to diagnose and treat them.
    Successful, impactful neuroscience research requires collaboration 
across disciplines and an unbroken series of funding streams, and NSF-
funded research allows for some of our most significant scientific 
achievements. As we take on more and more challenging research 
problems, for example: ``why do neurons die too soon in one in three of 
people over the age of 65?'', we are increasingly dependent on new 
tools to help us examine aging human brains without causing damage. 
These endeavors depend on support from the Federal Government--in fact, 
27 percent of the Federal budget for basic science is funded by NSF. 
NSF funding is critical for stimulating new ideas and tools to study 
the human brain, the most ``complex biological structure on Earth",\1\ 
in both normal and diseased patients.
---------------------------------------------------------------------------
    \1\ https://www.nsf.gov/discoveries/disc_summ.jsp?cntn_id=128239
---------------------------------------------------------------------------
    As the subcommittee continues its work for fiscal year 2020, we ask 
that Congress ensure that final fiscal year 2020 funding is approved 
before the end of fiscal year 2019. Reliance on Continuing Resolutions 
(CR) in place of regular appropriations has immediate and critical 
implications for scientists working in the neuroscience field. We are 
currently experiencing severe restrictions in the ability of NSF to 
fund the work of many basic young scientists of extraordinary 
potential. Even worse are government shutdowns, which pause all science 
being performed at affected agencies. The 35-day shutdown that occurred 
earlier this year caused a great deal of damage to NSF-funded projects, 
halting scientific discovery. There is no substitute for robust, 
sustained, and predictable funding for NSF-supported research.
    The Committee's support for NSF's ``Understanding the Brain'' (UtB) 
initiative, which is part of the cross-agency BRAIN Initiative, is a 
critical piece of our Nation's neuroscience effort. Through the UtB 
initiative, NSF empowers researchers to study principles and processes 
underlying memories, thoughts, and complex behaviors. Federal 
investment into the BRAIN Initiative, including NSF funding, will 
enable the development of new tools and technologies needed to more 
deeply map brain functions for a plethora of therapeutic applications.
    Advances in basic science will ultimately speed discoveries in 
clinical and translational research. Our discoveries, sometimes 
unexpected, advance basic knowledge of brain function and reveal new 
therapeutic targets to treat brain disorders affecting millions of 
people around the world. Support for basic neuroscience research, 
including at NSF, is a critical function of the Federal Government in 
advancing the foundation for advancements in public and individual 
health, education, and workforce development. We are extremely 
encouraged by the pace of discovery in neuroscience and the promise it 
offers for future treatments of neurological disorders. Some recent, 
exciting advancements include the following:
                  the impacts of neuroscience research
Regulation of neuronal communication
    My research seeks to understand how neurons communicate with each 
other. Brain function is defined by neurons communicating information 
from cell to cell, and from one brain region to another. Communication 
between neurons is carried across spaces called synapses by 
neurotransmitters. The number of neurotransmitters available to 
transmit these signals is controlled by ``gatekeepers,'' which ensure 
appropriate size responses. Many therapeutic drugs used in the clinic 
act on these molecular gatekeepers to dial up or down the flow of 
communication in the brain. I describe the basic properties of 
gatekeepers and show how they are generated in specific neurons of the 
brain and nervous system. My work is basic in nature, but these 
findings inform the development of new therapeutics for treating major 
neurological diseases, including chronic pain, migraine, epilepsy, and 
neuropsychiatric disorders.
Research infrastructure to improve understanding of the brain
    Improving our understanding of the brain requires a national 
research infrastructure, where partnerships can be leveraged towards 
advances in neuroscience. NSF's Next Generation Networks for 
Neuroscience (NeuroNex) program facilitates partnerships and develops 
innovative capabilities, including resources, theoretical frameworks, 
and computational modeling to advance neuroscience research. NSF 
support for NeuroNex aids in developing new conceptual tools for 
understanding how neuronal activity gives rise to behavior. In one of 
the NeuroNex awarded projects, a team of scientists, including myself 
and three others, are developing new light-emitting molecules--think of 
a fire fly--for use in studying and correcting abnormal brain activity. 
The neurotechnologies arising from NeuroNex National Hubs will provide 
approaches to record, visualize, and manipulate neuronal activity, 
facilitating diagnosis and treatment of abnormal brain function. An 
essential aspect of all NeuroNex awards are activities that support 
workforce training to ensure that we prepare the next generation of 
neuroscience researchers to use and improve on technologies for 
improving our understanding of the brain. NSF, therefore, makes a 
unique contribution to not only developing new technologies in 
neuroscience but also combining this with training neuroscientists--
both are critical to ensure that scientific ideas are translated into 
technologies and advanced treatments for neuroscience.
Interdisciplinary approaches to neuroscience
    Understanding how the human brain functions requires integrative 
research teams of the best scientists from a range of disciplines, 
including mathematics, engineering, and biology. NSF recognizes the 
power of this level of collaboration to advance research and has funded 
several interdisciplinary projects in neuroscience and cognitive 
science. One NSF funded project investigates how networks of neurons 
work together to perceive the world around us and produce coordinated 
muscle movements. This requires simultaneous, parallel recording of a 
massive number of brain regions for prolonged periods of time, followed 
by utilizing machine learning methods to extract meaningful 
information. This work, only possible through collaborations of 
neuroscientists with data scientists and computer scientists, has the 
potential to benefit individuals who have lost the ability to control 
their limb movement due to brain injury or disease. The ability to 
record from many individual regions of the brain is revolutionizing our 
ability to understand complex brain function, and the use of neural 
stimulation to correct abnormal brain activity is being refined. NSF is 
funding collaborations with mathematicians, engineers, and 
neuroscientists to incorporate smart, closed-loop feedback systems to 
improve therapeutic brain stimulation only when necessary for patients 
with limited ability to move their limbs, including Parkinson's disease 
patients and those suffering from chronic pain. In these exciting times 
for science, NSF is a critical front-line funder of these and many 
other cross disciplinary research collaborations.
                         summary and conclusion
    NSF funding is critical for the future of biomedical research and 
for training the next generation of researchers, but it is also a major 
driver of the United States' economy. While our Nation is the global 
leader, other countries are also investing increasing amounts into 
biomedical research. Congress must continue to support basic research 
in order to fuel scientific discoveries, maintain our preeminence as a 
leader in the field, and continue to drive the United States economy 
into the future. Nearly one in five U.S. adults live with mental 
illness, early childhood stress has lasting impacts through adulthood, 
and the growth of age-related neurological disorders is still 
increasing. The only way to change the trajectory of neurological and 
psychiatric disorders is to increase Federal Government investment in 
biomedical research.
    For these reasons, the SfN urges the subcommittee to appropriate no 
less than $9 billion to NSF. Just as significantly as providing Federal 
funds, we also implore you to complete your action on the fiscal year 
2020 appropriations bill on time, thus avoiding any need for a 
Continuing Resolution or any chance of a government shutdown, as we saw 
earlier this year.
    On behalf of the Society for Neuroscience, we thank Congress for 
its support and look forward to working with you as you undertake your 
work on the fiscal year 2020 appropriations process. SfN is here to be 
a resource for you, now and into the future, in order to ensure that 
basic research remains central to our economy and is supported by our 
Nation's leaders.

    [This statement was submitted by Diane Lipscombe, President.]
                                 <greek-l>
                                 ______
                                 
              Prepared Statement of Timothy McCarthy deg.
Prepared Statement of the Hon. Timothy McCarthy, District Court Judge, 
                         Johnson County, Kansas
                            on behalf of the
            National Association of Drug Court Professionals
    Chairman Moran, Ranking Member Shaheen and distinguished Members of 
the subcommittee, I am honored to have the opportunity to submit my 
testimony on behalf of this Nation's over 3,000 treatment courts, 
including drug courts and veterans treatment courts, and the 150,000 
people they will connect to life-saving addiction and mental health 
treatment this year. Given the unprecedented success of these programs, 
and the urgent and growing need for solutions to the addiction epidemic 
that promote both public health and public safety, I am requesting the 
Congress maintain the enacted fiscal year 2019 numbers of $77 million 
for the authorized Drug Court Discretionary Grant Program (Public Law 
115-271) and $22 million for the authorized Veterans Treatment Court 
Program at the Department of Justice (Public Law 114-198).
    As a judge, I see firsthand the devastation addiction causes 
individuals, their families and the community. Before treatment courts, 
there were few sentencing options to break the cycle of addiction and 
related crime. I now have the honor of presiding over the Johnson 
County Veterans Treatment Court, the first such court in the State of 
Kansas. Federal funding from the Department of Justice helped us 
launch, sustain and grow our program. Simply put, it has saved lives.
    Our veterans treatment court opened in early 2016 after we 
recognized that too many veterans were coming before the courts to face 
charges for crimes stemming from substance use and mental health 
disorders. Often, these are men and women who served their country 
honorably--many in combat--and have simply lost their way.
    Johnson County resident, Evan Zimmerman served 4 years in the 
United States Marine Corps, traveling the world at the ready to defend 
our freedom. When he completed his service, he struggled to adjust to 
life a home. Alcohol helped him cope, opioids kept him numb. His drug 
use spiraled and eventually he was using heroin and methamphetamine. As 
Evan's life fell apart, he drifted further and further away from the 
honorable soldier he once was. Like many, he turned to stealing to 
support his habit. When I met him, he was charged with felony theft and 
facing several years in prison.
    In veterans treatment court, Evan was surrounded by other veterans 
making it easier to admit he had a problem and accept the help that was 
being offered. With the support of the veterans treatment court team, 
Evan received mental health treatment and, as he began to embrace 
recovery, he was connected to additional local, State and Federal 
resources to put his life back together. Along the way, Evan met 
regularly with a volunteer veteran mentor who helped keep him on the 
right path.
    I watched as Evan slowly turned back into the courageous young man 
who signed on the dotted line to serve his country. I saw him become a 
dedicated father, find passion in his work and be at service to his 
community.
    Today, Evan is a proud graduate of the Johnson County Veterans 
Treatment Court. He has full custody of his 2-year-old daughter and is 
a manager for a screen-printing company where he supervises 10 people. 
I often think of how much better off we are with Evan in the community 
as opposed to behind bars.
    I led the effort to establish a veterans treatment court in Johnson 
County. In 2014, we received DOJ-funded training on starting a veterans 
treatment court. This training was instrumental to our successful 
planning and, ultimately, to Evan's success. Two years ago, we were 
awarded a DOJ grant so that we could expand our capacity. I know 
firsthand the impact and importance of this Federal funding. Had it not 
been for the DOJ funding, we would not be able to serve more veterans 
in crisis.
    The training we received ensured our veterans treatment court 
follows best practices. Our program includes a track for both diversion 
and probation cases. We determine eligibility by using an evidence-
based risk/needs assessment and, by partnering with our county mental 
health association, we are able to accept some veterans who are not 
eligible for services through the Department of Veterans Affairs. For 
those who are eligible, a veterans justice outreach representative from 
our local VA medical center is in court to ensure they are connected to 
evidence-based treatment--including addiction medication when 
appropriate.
    I work with treatment providers, law enforcement, probation, 
defense and prosecution to provide ongoing supervision, support and 
accountability. Our team responds to non-compliance swiftly and 
appropriately, and rewards our participants when they achieve an 
important milestone. Over the course of 12 or 18 months, we address the 
myriad of issues that may be preventing long-term recovery.
    Research continues to confirm that this comprehensive approach 
works. The Government Accountability Office finds drug courts reduce 
crime by up to 58 percent. Widely regarded as the most comprehensive 
study on drug court to date, the Department of Justice National 
Institute of Justice Multi-Site Drug Court Evaluation (MADCE) confirmed 
drug court significantly reduces both drug use and crime, and found 
cost savings averaging $6,000 for every individual served.
    This community-based approach identifies and meets individual needs 
beyond clinical treatment. The MADCE found drug courts improve 
education, employment, housing and financial stability for nearly all 
participants. They are proven to promote family reunification, reduce 
foster care placements and increase the rate of addicted mothers 
delivering babies who are fully drug-free.
    In 2016, Community Mental Health Journal released the first 
published study on veterans treatment courts and concluded that 
participating veterans experienced significant improvement with 
depression, PTSD and substance use, as well as with critical social 
issues including housing, emotional well-being, relationships and 
overall functioning. The study further concluded that veterans who 
receive trauma-specific treatment and mentoring not only experienced 
better clinical outcomes, they reported feeling more socially 
connected.
    Behind the statistics, however, are real people who come before me 
mired in the deepest depths of addiction; individuals with little hope 
for a future without drugs; who've been given up on by their friends 
and families. People like Don Miller, who spent 4 years in Iraq with 
the United States Army. For years after coming home he was haunted by 
the combat he had experienced, his anxiety exacerbated by untreated 
post-traumatic stress disorder (PTSD). He turned to substances to cope 
and his life spiraled out of control. When he first appeared before me 
in veterans treatment court, he was facing a plethora of legal, 
financial, family, medical and even dental issues. Don could have been 
lost to the system, but instead we went to work helping him rebuild his 
life.
    In January, Don graduated from veterans treatment court. No one in 
attendance will forget what he said that day. During the ceremony he 
held up a crisp $20 bill and crumpled it into a ball. He then unfolded 
it and observed that the value of the bill was unchanged. He said: ``No 
matter how life sullies our minds, souls and beliefs, human beings 
still have value. I thought there was no way to ever get back to being 
a hero, whether it be in the eyes of society or in the eyes of my own 
wife and children... veterans court really stepped in and restored my 
faith in humanity. They've really shown me sincere, true empathy and 
really took some of those sorrows that I was carrying around, some of 
those burdens, off my back.''
    Veterans treatment court gave Don the opportunity for redemption. 
Not only that, it gave his wife back her husband, his children their 
father, and our community an inspiring civic asset.
    Today, there are 15,000 veterans like Evan and Don participating in 
over 400 veterans treatment courts across the country. This is a 
fraction of the 150,000 individuals who are currently receiving 
treatment in a drug court or veterans treatment court nationwide.
    What started as an experiment three decades ago, drug courts and 
veterans treatment courts are today the most successful strategy for 
addressing addiction and mental health in the justice system. Like so 
many communities, Johnson County has been devastated by the opioid 
epidemic and the greater addiction epidemic gripping this Nation. Drug 
courts and veterans treatment courts ensure there is an effective, 
evidence-based response that saves lives, reunites families and makes 
the community safer.
    I encourage this committee to focus on proven programs which 
guarantee financial returns and measurable success. There is no better 
example than drug courts and veterans treatment court.
                                 ______
                                 
       Prepared Statement of the Tribal Law and Policy Institute
    On behalf of the Tribal Law and Policy Institute (TLPI), this 
testimony addresses important programs in the Department of Justice and 
Department of Commerce. TLPI is a 100 percent Native American operated 
non-profit corporation organized to design and deliver education, 
research, training, and technical assistance programs which promote the 
enhancement of justice in Indian country and the health, well-being, 
and culture of Native peoples. Specifically, TLPI joins the National 
Congress of American Indians (NCAI) in requesting:

------------------------------------------------------------------------
                                                NCAI Fiscal Year 2020
            Agency and Program                         Request
------------------------------------------------------------------------
DOJ: Tribal Grants.--Eliminate competitive  Use DOJ appropriations as
 grant funding process and utilize DOJ       base funding with Tribes
 appropriations as base funding where        setting own priorities
 Tribes determine priorities.
 
DOJ: Tribal Set-Aside from Office of        Create a 10 percent Tribal
 Justice Programs.                           set-aside for all
                                             discretionary Office of
                                             Justice Programs (OJP)
                                             programs
 
DOJ: Tribal Youth Program under the         $25,000,000
 Juvenile Accountability Block Grants
 Program.
 
DOJ: Crime Victims Fund...................  Maintain the 5 percent set-
                                             aside for Tribal
                                             governments
 
DOJ: Community Oriented Policing Services   $52,000,000
 (COPS) Tribal Law Enforcement.
 
DOJ: Tribal programs under the Violence     Provide full authorized
 Against Women Act.                          amount
 
Commerce: 2020 Census.....................  Provide the Census Bureau
                                             with at least $8.45 billion
                                             in fiscal year 2020
------------------------------------------------------------------------

                         department of justice
    The public safety problems that continue to plague Tribal 
communities are the result of decades of gross underfunding for Tribal 
criminal justice systems; a uniquely complex jurisdictional scheme; and 
the historic, abject failure by the Federal Government to fulfill its 
public safety obligations on American Indian and Alaska Native lands. 
Crime rates in Tribal communities are among the highest in the Nation 
and American Indians and Alaska Natives experience rates of violent 
crime that are 2.5 times the national average. Residents and visitors 
on Tribal lands deserve the safety and security that is taken for 
granted outside of Indian Country. Increased and streamlined funding in 
the following program areas will have a huge impact on safety in Tribal 
communities for Tribal citizens, residents, and visitors to Tribal 
lands.
    Reform the CTAS Process.--DOJ must rethink how it administers 
Tribal funding. The current Coordinated Tribal Assistance Solicitation 
(CTAS) process needs to be improved in regard to transparency of 
originating funding streams, how Tribes are required to apply for 
funding, and how grant awards are made and managed. The current 
solicitation is incredibly burdensome for Tribes and requires Tribes to 
shoehorn their needs to meet DOJ's funding priorities. It requires 
Tribes to coordinate and prove strategic coordination across purpose 
areas and agencies, a requirement not imposed on their State 
counterparts. Yet despite a single solicitation, the purpose areas are 
not meaningfully coordinated such that multiple grant awards results in 
multiple administering agencies all with varying requirements, placing 
a tremendous unnecessary administrative burden on Tribal governments.
    Continue to include Tribal governments in disbursements from the 
Crime Victims Fund (a mandatory account).--The Crime Victims Fund (CVF) 
is the Federal Government's primary funding source for providing 
services to victims of crime. TLPI expresses our sincere gratitude to 
appropriators for providing a direct, non-competitive funding stream 
for Tribal governments from the CVF for the first time in fiscal year 
2018 and again in fiscal year 2019. This was an immense victory! For 
this funding to achieve its purpose, however, it needs to be recurring 
funds that Tribal governments can plan on in order to ensure program 
stability for victims for the long term. We urge appropriators to keep 
disbursements from the CVF at the increased level and to direct an 
amount equal to 5 percent of overall CVF disbursements to Tribal 
governments.
    Importantly, these funds must be meaningfully distributed such that 
Tribes have actual access to these funds. fiscal year 2018 funds were 
distributed via the burdensome CTAS process as detailed above. Worse, 
however, CTAS did not announce the sudden funding change in this 
purpose area, or its intention to disburse the new set-aside funds 
through this competitive process that uses DOJ priorities. This is an 
inadequate attempt to distribute these necessary funds to Indian 
country, which through this set-aside, Congress has mandated. CTAS was 
never the appropriate mechanism for disbursement. The funds should be 
disbursed via formula base funding to all Tribes. But especially 
because CTAS did not indicate that the OVC purpose area was now funded 
by the set-aside, any analysis of the number or quality of CTAS 
applications simply cannot be used as a metric for Tribal interest or 
need.
    Additionally, we encourage DOJ to take a broad view of the types of 
victim services programming that can be supported through DOJ funding. 
The needs in tribal communities differ in significant ways from State 
and local communities. Victims in Tribal communities are in need of 
traditional victim services. They also need, however, to know that 
there is 9-1-1 service in their communities and a law enforcement 
officer who can respond when criminal victimization is occurring. We 
encourage DOJ to ask Congress for additional flexibility in the use of 
CVF funds in Tribal communities.
    Create a streamlined Tribal allocation across Office of Justice 
Programs (OJP) programs.--For several years the administration has 
proposed bill language that would streamline and consolidate OJP Tribal 
programs by allocating 7 percent from all discretionary OJP programs to 
address Indian country public safety and Tribal justice needs. In past 
years, both the House and Senate CJS Subcommittees have supported this 
request, but it has never been enacted. One of the biggest shortcomings 
of DOJ Tribal funding is that it is administered as competitive 
funding. In order to obtain this funding, Tribal nations must compete 
against each other under priorities and guidelines established by DOJ. 
As a result, Tribal nations must develop projects that align with 
changing DOJ priorities and cannot count on funding continuing beyond 
the current grant period. A streamlined OJP Tribal allocation would 
significantly improve the Federal funding process. Further, the Tribal 
allocation would give Tribal nations the flexibility to develop a 
detailed strategic plan on how best to spend those resources.
    If Congress declines to adopt the flexible allocation across OJP 
programs, restore fiscal year 2010 levels of $25 million in funding for 
the Tribal Youth Program under the Juvenile Accountability Block Grants 
program.--Although Native children compromise only 2.2 percent of the 
overall youth population, they are arrested at a rate of more than two-
to-three times that of other ethnic groups. According to a recent DOJ 
report, ``[s]ubstance abuse, depression, and gang involvement fuel a 
vast majority of the offenses for which American Indian juveniles are 
disproportionately confined.'' Funding for the Tribal Youth Program has 
decreased significantly in recent years (fiscal year 2018 disbursed 
only $3 million to TYP grantees, up from $1.9 million in fiscal year 
2017) and should be restored to its fiscal year 2010 level of $25 
million.
    Increase funding of Tribal law enforcement programs under DOJ's 
Community Oriented Policing Services (COPS) Grants to $52 million.--
Since the creation of the COPS Office, more than 2,000 grants totaling 
more than $400 million have been awarded to Tribal nations to hire more 
than 1,700 new or redeployed law enforcement officers. It has also 
helped Tribal nations to obtain necessary law enforcement training, 
equipment, vehicles, and technology. Yet, there is still a tremendous 
unmet need within Tribal justice systems for more COPS funding. The 
COPS Office has acknowledged that due to limited resources, it has not 
been able to adequately fund Tribal justice systems, particularly in 
the area of hiring/retaining Tribal law enforcement officers. Indian 
Country urges Congress to significantly increase funding for Tribal law 
enforcement programs under the COPS program.
    Fully fund the programs authorized in the Violence Against Women 
Act (VAWA), including the funds authorized for Tribal implementation of 
VAWA special domestic violence criminal jurisdiction.--It is estimated 
that over 85 percent of American Indian and Alaska Native women will 
experience violent victimization in their lifetimes. OVW provides 
funding to Tribal governments to address violence against women in 
their communities. OVW's largest source of funding for Tribal 
governments is the Grants to Tribal Governments Program, which is 
funded via statutory allocations from other OVW programs. Fully-funding 
these OVW programs results in full funding for the Grants to Tribal 
Governments Program.
    The Violence Against Women Reauthorization Act of 2013 (VAWA 2013) 
recognized and affirmed the inherent sovereign authority of Indian 
Tribes to exercise Special Domestic Violence Criminal Jurisdiction 
(SDVCJ) over all persons--Indian and non-Indian--who commit crimes of 
dating violence, domestic violence, and violations of protection orders 
within Indian country. The bill authorized $5 million per year for 5 
years for Indian Tribes to implement the VAWA 2013 provisions and 
otherwise strengthen Tribal justice systems. In fiscal year 2019, $4 
million was appropriated for this program. We urge Congress to 
appropriate the full amount authorized for VAWA implementation purposes 
so that more communities are able to take advantage of this lifesaving 
law.
                         department of commerce
    TLPI agrees with the NCAI Commerce Department funding 
recommendations, but we wanted to highlight the following.--Provide the 
Census Bureau with at least $8.45 billion in fiscal year 2020. An 
accurate census count is necessary to ensure the fair distribution of 
billions of dollars to Tribal nations and American Indian/Alaska Native 
people across the United States. Native people, especially on 
reservations and in Alaska Native villages, have been historically 
underrepresented in the census. In the 2010 Census, the Census Bureau 
estimates that American Indians and Alaska Natives living on 
reservations or in Native villages were undercounted by approximately 
4.9 percent, more than double the undercount rate of the next closest 
population group. The President's Budget request was significantly 
lower than Secretary Ross's estimates of overall costs, and we urge 
Congress to ensure sufficient funding for a successful 2020 Census, 
including funding for Questionnaire Assistance Centers, which currently 
are not included in the Census Bureau's operational plan. With only 
half the number of Regional Census Centers and local census offices 
across the country, it will be important to expand the field footprint, 
to provide 'safe space' for people who do not have reliable Internet 
access, are wary of using the telephone to respond, or need assistance 
filling out a paper form, to meet with sworn Census Bureau employees 
near where they live.
                               conclusion
    The underfunding of Tribal justice systems is a dereliction of the 
Federal trust responsibility that results in lost lives, high rates of 
criminal victimization, and unaddressed trauma for generations of 
victims. Most recently, the BIA submitted a report to Congress 
estimating that to provide a reasonable base level of funding to all 
federally-recognized Tribes: $1 billion is needed for Tribal law 
enforcement, $1 billion is needed for Tribal courts, and $222.8 million 
is needed for detention (we are not aware of a similar estimate of need 
for traditional victim services programs). Based on recent 
appropriation levels, BIA is generally funding Tribal law enforcement 
at about 20 percent of estimated need, Tribal detention at about 40 
percent of estimated need, and Tribal courts at a dismal 3 percent of 
estimated need. We join NCAI in encouraging the DOJ to consider asking 
Congress for additional flexibility in the use of CVF funds in Tribal 
communities. In addition to direct appropriation of Tribal specific 
funding, we encourage the DOJ to take a broad view of the types of 
victim services programming that can be supported through DOJ funding. 
Thank you for your consideration of this testimony. For more 
information, please contact TLPI Executive Director, Jerry Gardner at: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee848b9c9c97ae9a829e87c0819c89c0">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
                   national marine fisheries service
    Mr. Chairman, and Honorable Members of the Committee, I am W. Ron 
Allen, the Alternate Tribal Commissioner and Chair for the U.S. Section 
Budget Committee of the Pacific Salmon Commission (PSC). I am also the 
Tribal Chairman/CEO of the Jamestown S'Klallam Tribe located on the 
northern Olympic Peninsula of Washington State. The U.S. Section 
prepares annual budgets for the implementation of the Pacific Salmon 
Treaty.
    Department of Commerce funding in support of implementing the 
Pacific Salmon Treaty is part of the Salmon Management Activities 
account in the National Marine Fisheries Service (NMFS) budget. Funding 
in the Department of Commerce budget intended for the programs to 
fulfill national commitments created by the Treaty was $13,113,113 in 
the 2017 budget. The U.S. and Canada completed negotiations of revised 
Annex Chapters to the Treaty in 2018. The U.S. Section estimates that 
annual operational costs of $42,260,604 plus $53,561,341 in one-time 
implementation costs is needed for fiscal year 2020 to implement 
national commitments created by the Treaty.
    The implementation of the Treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The cost of programs 
conducted by the States to fulfill national commitments created by the 
Treaty are substantially greater than the funding provided in the NMFS 
budget in past years. Consequently the States have supplemented the 
Federal Treaty appropriations from other sources, including State 
general funds. Many of those funding sources are limited or no longer 
available.
    The US Section recommends that the Pacific Salmon Treaty line item 
in the Salmon Management Activities section of the National Marine 
Fisheries Service budget be funded at $42,260,604 for fiscal year 2020. 
This line item includes $20,698,063 to provide base support for the 
States of Alaska, Washington, Oregon, and Idaho. The National Marine 
Fisheries Service is funded at $5,803,190 to conduct salmon stock 
assessments and fishery management programs required to implement the 
Treaty's conservation and allocation provisions for Coho, Sockeye, 
Chinook, Chum, and Pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern Coho and Northern 
Boundary and Transboundary River salmon fisheries. The US Section 
recommends annual operational costs of $2,800,000 for improving the 
Coded Wire Tag Program, $3,920,000 to improve catch and escapement 
estimates, $5,387,200 for Puget Sound critical stocks, and $5,600,000 
to increase prey availability for southern resident killer whales.
    The Chinook Salmon Agreement line item in the Salmon Management 
Activities was funded at $1,440,947 in fiscal year 2017 representing a 
reduction from previous years. The US Section recommends to fund 
$2,016,000 to support research and stock assessments necessary to 
acquire and analyze the technical information needed to fully implement 
the abundance-based Chinook Salmon management program provided for by 
the Treaty. The States of Alaska, Washington, Oregon, and Idaho, and 
the 25 Treaty Tribes conduct projects selected in a rigorous 
competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget was funded at 
$367,000 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems, which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the Treaty 
and had been previously funded at $400,000 annually.
    The core Treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities, as well as the International Fisheries 
Commission line under Regional Councils and Fisheries Commissions 
consist of a wide range of stock assessment, fishery monitoring, and 
technical support activities for all five species of Pacific salmon in 
the fisheries and rivers between Cape Suckling in Alaska to Cape Falcon 
in Oregon. The States of Alaska, Washington, Oregon, Idaho, and the 
National Marine Fisheries Service conduct a wide range of programs for 
salmon stock abundance assessment, escapement enumeration, stock 
distribution, and fishery catch and effort information. The information 
is used to establish fishing seasons, harvest levels, and 
accountability to the provisions of Treaty fishing regimes.
    Like many other programs, funding to implement the Pacific Salmon 
Treaty decreased in recent years. Prior to that, the base annual Treaty 
implementation funding remained essentially flat since the inception of 
the Treaty in 1985. In order to continue to fulfill the Federal 
commitments created by the Treaty, as costs and complexity increased 
over time, the States had to augment Federal funding with other Federal 
and State resources. However, alternative sources of funding have seen 
reductions or, in some cases, have been eliminated.
    Negotiations to revise the provisions of five annex chapters to the 
Treaty were successfully completed in 2018. The revised provisions will 
last for 10 years. These chapters contain the specifics for 
implementing the Treaty for each salmon species in each geographic 
area. An agreement in principle has been reached for the Transboundary, 
Coho, and Chum chapters. Agreements for the Northern Boundary and 
Chinook chapters should be reached in the near future. The revised 
chapters represent the combined efforts of the participants to ensure 
healthy salmon populations for the next 10 years. They also require 
commitments to increase efforts to improve upon current management 
strategies for numerous salmon populations. The provisions for a 
revised Fraser River chapter will be completed in 2019.
    Finally, you should consider the fact that the value of the 
commercial harvest of salmon subject to the Treaty and managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the commercial and 
recreational fisheries, and the economic diversity they provide for 
local communities throughout the Pacific Northwest and Alaska, is 
immense. The Pacific Salmon Commission recently funded an economic 
study of these fisheries and determined that this resource creates 
thousands of jobs and is a multi-billion dollar industry. The value of 
these fish to the 25 Treaty Tribes in Washington, Oregon, Idaho and 
Alaska goes far beyond their monetary value, to the cultural and 
religious lives of Indian people. A significant monetary investment is 
focused on salmon due to the listings of Pacific Northwest salmon 
populations under the Endangered Species Act.
    Given these resources, we can continue to utilize the Pacific 
Salmon Commission to develop recommendations that help with the 
development and implementation of solutions to minimizing impacts on 
listed stocks. We continue to work towards the true intent of the 
Treaty, and with your support, we will manage this shared resource for 
mutual enhancements and benefits.
    This concludes the statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your Committee. We 
wish to thank the Committee for the support given to us in the past. 
Please let us know if we can supply additional information or respond 
to any questions the Committee Members may have.
    Thank you

    [This statement was submitted by W. Ron Allen, Chair.]
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Chairman Moran, Ranking Member Shaheen, and Members of the 
subcommittee, the Western Governors' Association (WGA) appreciates the 
opportunity to comment on two items within the jurisdiction of the 
Subcommittee on Commerce, Justice, Science, and Related Agencies, both 
of which relate to the U.S. Department of Commerce. WGA is an 
independent organization representing the Governors of 19 western 
States and 3 U.S territories in the Pacific. The Association is an 
instrument of the Governors for bipartisan policy development, 
information-sharing and collective action on issues of critical 
importance to the western United States.
    Western Governors support adequate funding of the National 
Integrated Drought Information System (NIDIS) program under the 
National Oceanic and Atmospheric Administration (NOAA). We are well-
acquainted with the significant environmental, economic, and social 
effects of drought on the West and its communities. The cyclical nature 
of drought conditions, as well as increased populations and their 
dependence on limited water resources, keep drought at the forefront of 
western water issues. Drought contributes to the incidence of forest 
and rangeland wildfire, impairs ecosystems and wildlife habitat, 
degrades agricultural productivity, and poses threats to municipal and 
industrial water supplies. A growing population creates challenges for 
water management across the West--from the Great Plains to the 
Intermountain West to the coastal, estuarine and marine environments of 
the Pacific States and islands. Planning for an adequate, reliable and 
clean water supply requires accurate and complete water and weather 
information.
    NIDIS promotes a coordinated and integrated approach to managing 
future drought. This approach involves improved forecasting and 
monitoring which provides the kind of authoritative, objective and 
timely drought information that farmers, water managers, decision-
makers, and local governments require for effective drought preparation 
and response. Through NIDIS, NOAA is building a network of early 
warning systems for drought while working with local resource managers 
to identify and address unique regional drought information needs.
    Western Governors value the approach used to build and improve 
NIDIS. Rather than creating a new NIDIS bureaucracy, the system draws 
from existing capacity in States, universities and multiple Federal 
agencies, as called for in the original authorizing legislation. Given 
our shared fiscal challenges, we regard this as a model for Federal-
State collaboration in shared information services.
    Water users throughout the West--including farmers, ranchers, 
Tribes, land managers, business owners, recreationalists, wildlife 
managers, and decision-makers at all levels of government--must be able 
to assess the risks of drought before its onset in order to make 
informed decisions and implement effective mitigation measures. For 
these reasons, Western Governors request continued support and adequate 
funding of the National Weather Service Climate Prediction Center 
precipitation forecasts and the NIDIS program, as they perform a 
valuable role in western water management and drought response.
    Western Governors also support adequate funding for the National 
Telecommunications and Information Administration (NTIA) to improve the 
accuracy and granularity of measuring broadband data coverage. Many 
western communities lack access to broadband Internet due to the high 
cost of infrastructure and the low number of customers in potential 
service areas. This has left many rural businesses at a competitive 
disadvantage and citizens without access to telework, telemedicine and 
distance learning opportunities. Deployment of broadband infrastructure 
to these underserved and unserved communities requires an accurate 
picture of broadband availability nationwide. Unfortunately, broadband 
coverage is often overstated in rural western communities due to 
reporting measures based on census blocks. NTIA can provide a valuable 
service by improving our understanding of broadband infrastructure in 
rural communities. We also encourage coordination of data collection 
strategies among the Federal Communications Commission, U.S. Department 
of Agriculture and other agencies involved in broadband mapping and 
deployment.
    Western Governors recognize the enormous challenge you have in 
balancing competing funding priorities, and we appreciate the 
difficulty of the decisions the subcommittee must make. These 
recommendations are offered in a spirit of cooperation and respect, and 
WGA is prepared to assist you in discharging these critical and 
challenging responsibilities.

    [This statement was submitted by James D. Ogsbury, Executive 
Director.]
                                 ______
                                 
               Prepared Statement of the YMCA of the USA
                  support of the youth mentoring grant
    Thank you, Chairman Moran and Ranking Member Shaheen, for the 
opportunity to provide testimony on behalf of our Nation's 2,700 YMCAs 
and the 9 million youth we serve annually. Every day, Ys work to 
address critical social issues that affect our Nation's youth and limit 
their opportunities for success, and providing youth with positive role 
models and caring adults is essential to this work. That is why the Y 
is committed to mentoring. As President and CEO of YMCA of the USA (Y-
USA), I believe that youth mentoring is an effective strategy to 
improve the long-term outcomes for our Nation's youth, and I submit 
this testimony in support of the Youth Mentoring Program (Part G), 
administered by the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) at the U.S. Department of Justice (DOJ).
    The OJJDP Youth Mentoring Program is the only remaining Federal 
grant exclusively dedicated to mentoring. This important funding stream 
provides grants to youth-serving organizations to fund quality 
mentoring programs, grounded in evidence-based research, to improve 
outcomes for at-risk and high-risk youth. Federal investments in 
mentoring programs have decreased significantly over time, and funding 
for the Youth Mentoring Program has been inconsistent and has not fully 
met the needs of at-risk youth. These fluctuations have had a direct 
impact on youth-serving organizations that use these funds to provide 
much-needed mentoring services in the communities they serve. I 
encourage the Committee to support increased funding for this program 
by providing $120 million for fiscal year 2020.
               mentoring programs improve youth outcomes
    There are significant returns on investment associated with quality 
mentoring relationships, not just for the youth served, but also their 
mentors and society at large. With a mentor, at-risk youth are 52 
percent less likely than their peers to skip a day of school, 55 
percent more likely to be enrolled in college and 78 percent more 
likely to volunteer regularly in their communities. Community-based 
mentoring programs are also an effective strategy to prevent youth 
involvement in the juvenile justice system and to redirect a young 
person away from harmful activities and behaviors. Given these 
outcomes, it's disheartening to know that an estimated 1 in 3 young 
people will grow up without a mentor.
    At the Y, we believe that all kids deserve the opportunity to 
discover who they are and what they can achieve. Mentoring is, and 
always has been, a component of our youth development programming. 
Through mentoring, Ys provide youth with positive adult role models who 
support young people through their challenges and accomplishments; show 
them that they matter; and improve their self-esteem, decisionmaking 
skills, academic performance and interpersonal relationships. Quality 
mentoring programs help youth develop life and social skills, improve 
their academic achievement, develop leadership skills, explore career 
paths and realize their full potential.
                  evidence-based mentoring at the ymca
    With support from OJJDP's Youth Mentoring Program, the Y has been 
able to increase our impact in the lives of at-risk youth. Since 2013, 
Y-USA has received $12 million from the Youth Mentoring Program, which 
we have sub-granted to YMCAs to support REACH & RISE, the Y's 
evidence-based mentoring program. These funds have enabled the Y to 
scale REACH & RISE nationally, serving thousands of young people who 
are at-risk of entering the juvenile justice system by helping them 
achieve positive academic and personal outcomes. Today, 36 Ys in 32 
States offer this program. REACH & RISE serves youth ages 6-17 who 
lack role models and live in communities challenged by poverty, crime, 
substance misuse, gangs, single-parent households and other social 
issues. Developed in 1992 by the YMCA of San Francisco, REACH & RISE 
is a therapeutic mentoring program that combines evidence-based 
practices, mental health approaches, rigorous mentor training and a 
mentee matching system to deliver positive life experiences for youth. 
Providing young people with positive, consistent and nurturing 
relationships with adults leads to personal growth and development, and 
social and economic opportunity.
    The original REACH & RISE model is a one-to-one mentoring program 
where Y staff with a mental health background match each youth with an 
adult for 12 to 18 months of mentoring. This experience improves 
youth's self-esteem, decisionmaking skills, school performance and 
interpersonal relationships. In 2016, the Y expanded our REACH & RISE 
one-to-one model to also include small-group mentoring. Using a ratio 
of two mentors for every six youth, this approach provides youth with 
the opportunity to receive support from peers as well as dedicated 
mentors trained through the traditional REACH & RISE curriculum. The 
group-mentoring program includes activities to help youth build trust 
with each other and skills such as problem-solving, communication and 
anger management.
                      the impact of reach & rise
    Maverick Bishop is among the thousands of youth whose lives have 
been transformed by the OJJDP Youth Mentoring Program through REACH & 
RISE. Maverick grew up in poverty, experiencing domestic violence and 
homelessness, and had a hard time fitting in at school. Eventually, he 
and his mother found the YMCA of San Francisco's REACH & RISE program, 
where he was matched with a local businessman. He recalls that ``having 
a good mentor helped me block out what I was going through on a day-to 
day-basis and just enjoy the little things that keep us going.''
    In 2016, Maverick testified before the House Democratic Steering 
and Policy Committee and shared his story. He concluded his testimony 
by stating: ``Every child deserves an opportunity to better themselves 
and earn their place as a contributing member in our society. Through 
my journey I made lifelong friendships and learned no matter what 
situation you're in, regardless of your past or what class you fall 
under, it doesn't define who you are as a person. Anyone can change, 
beat the odds and manifest your own miracles! I hope the Committee will 
open doors for more young people like myself through continued funding 
for important mentoring programs like the YMCA REACH & RISE Mentoring 
Program.''
    Today, Maverick is a journeyman carpenter, employed by his mentor 
and friend. Maverick's story demonstrates the power of quality 
mentoring and the importance of Federal funding in support of these 
programs.
    With this testimony, I add the Y's voice in support of this 
important funding stream, which has changed the trajectory of the lives 
of so many youth we serve. The Youth Mentoring Grant Program is 
essential, and I urge Congress to increase funding for it. Thank you 
for this opportunity. I welcome any questions you may have.

    [This statement was submitted by Kevin Washington, President and 
CEO.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
